<html>
<title> - CONTAMINATED DRYWALL: EXAMINING THE CURRENT HEALTH, HOUSING AND PRODUCT SAFETY ISSUES FACING HOMEOWNERS</title>
<body><pre>[Senate Hearing 112-348]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-348
 
                  CONTAMINATED DRYWALL: EXAMINING THE
                  CURRENT HEALTH, HOUSING AND PRODUCT
                    SAFETY ISSUES FACING HOMEOWNERS

=======================================================================


                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
73-876                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       PATRICK J. TOOMEY, Pennsylvania, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
TOM UDALL, New Mexico                DEAN HELLER, Nevada


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 6, 2011.................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Wicker......................................     2
Statement of Senator Warner......................................     3
    Prepared statement...........................................     4
Statement of Senator Rubio.......................................    43

                               Witnesses

Neal S. Cohen, Office of Education, Global Outreach, and Small 
  Business Ombudsman, U.S. Consumer Product Safety Commission....     7
    Prepared statement...........................................     8
    Letter dated January 23, 2012 to Hon. Mark Pryor from 
      Christopher Day, Director, Office of Legislative Affairs, 
      U.S. Consumer Product Safety Commission....................    39
Christopher J. Portier, Ph.D., Director, National Center for 
  Environmental Health, Centers for Disease Control and 
  Prevention and Agency for Toxic Substances and Disease 
  Registry, U.S. Department of Health and Human Services.........    15
    Prepared statement...........................................    17
William C. Shelton, Director, Virginia Department of Housing and 
  Community Development..........................................    19
    Prepared statement...........................................    20
Brenda Brincku--Alva, Florida....................................    26
    Prepared statement...........................................    28

                                Appendix

Letters from the General Public..................................    53


                  CONTAMINATED DRYWALL: EXAMINING THE



                 CURRENT HEALTH, HOUSING AND PRODUCT



                    SAFETY ISSUES FACING HOMEOWNERS

                              ----------                              


                       TUESDAY, DECEMBER 6, 2011

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I'll go ahead and open this, call this 
meeting to order. And I want to thank all of you all for being 
here, I want to thank our witnesses and thank our fellow 
senators, to talk about this very important issue.
    I want to give a special thanks to Senator Warner, because 
he has been the primary driver in getting this hearing 
scheduled today. So, Senator Warner, thank you for your 
leadership on this and many other things.
    The purpose of the hearing today is to provide an update on 
the health and product safety issues associated with problem 
drywall installed in thousands of homes over the last decade. 
It's a story that we all know well. Drywall was imported from 
China in large volumes during the height of the housing market 
when domestic supplies were low. It was used extensively in 
Florida and Louisiana following the devastating hurricanes of 
2005.
    In early 2008, homeowners in Florida and Louisiana began 
complaining of a peculiar odor that was permeating their homes. 
They also reported health concerns and serious corrosion of 
metal in the homes. Investigators were able to trace these 
problems back to drywall laced with sulphur and sulphide gases.
    We last examined this issue in May of 2009. At that time, 
we heard from the CPSC and the CDC and the EPA about the scope, 
and the problem of their efforts to address it. Progress has 
been made, but unfortunately, too many consumers, too many 
Americans, are left with costly repairs, uninhabitable homes, 
or health problems thought to be caused by the problem drywall.
    In addition to Florida and Louisiana, numerous cases of 
problem drywall have been reported in Virginia and Mississippi, 
as well as Alabama. All told, the CPSC has logged claims of 
health problems or metal corrosion as a result of contaminated 
drywall in 42 states and territories.
    We hope to establish for the record how multiple Federal, 
state, local, and even international, governments are working 
together; make clear the pathways available to provide relief 
to affected homeowners; and identify steps we must take to 
ensure this problem does not repeat itself.
    Today we'll hear from Mr. Neal Cohen, Small Business 
Ombudsman at the Consumer Product Safety Commission; Dr. 
Christopher Portier, Director of the National Center for 
Environmental Health at the Centers for Disease Control and 
Prevention; Mr. Bill Shelton, Director of the Virginia 
Department of Housing and Community Development; and Mrs. 
Brenda Brincku, a Florida homeowner.
    I want to thank all the witnesses for being here today and 
thank you for your testimony.
    I'm surrounded here by senators from afflicted states.
    So, Senator Wicker, would you like to have an opening 
statement, please?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. And, indeed, I 
appreciate the scheduling of this hearing today, and I 
appreciate your interest, and that of Senator Warner.
    Tainted drywall has affected thousands of homes throughout 
the United States. It is most prevalent, as the Chair says, in 
coastal states. Florida, Louisiana, Alabama, Virginia, and my 
home state of Mississippi have been hardest hit.
    To handle the increased demand during post-Hurricane 
Katrina rebuilding along the Gulf Coast, as well as during the 
Nation's housing boom, domestic producers expanded their 
facilities to increase capacity. However, despite this 
increased production, unusually high demand required importing 
drywall from sources outside North America, including China.
    Dealing with this problem drywall has been a disaster for 
homeowners. It causes corrosion to many of their electrical 
components, and can potentially cause adverse health effects, 
including difficulty in breathing.
    There have been multiple agencies working together: CPSC, 
CDC, EPA and HUD have been collaborating for the past 2 years 
to determine the flaws of the drywall--particularly how it is 
affecting homes and the families that live in them.
    Interestingly, no causal connection has been found by the 
Government between the health effects experienced and the 
drywall. This perplexes me, and it concerns me, and I hope to 
learn more about the reasoning for this.
    I also look forward to hearing about the CPSC's 
communication with Chinese officials, and whether there has 
been any progress on finding remediation options for 
homeowners.
    Again, thank you, Mr. Chairman, for holding this hearing. I 
look forward to listening to today's witnesses, and getting a 
full update on their respective progress and current views on 
this important issue. Thank you.
    Senator Pryor. Senator Wicker, thank you. And thank you for 
your interest in this, because I know we've talked about this 
before, and it's very important to your state and your people 
back home to make sure we get this right.
    Senator Warner.

               STATEMENT OF HON. MARK R. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Well, thank you, Mr. Chairman, and let me 
thank you for holding this hearing.
    I've been involved in politics, government for 20 years. I 
can't think of a more frustrating issue that I've been involved 
with than this issue of drywall, and, an issue where the 
affected families--and I know the CPSC's logjam, about 4,000 at 
this point, that have gone through some level of certification 
and toward a remediation process--but the numbers are much, 
much larger.
    But, these families' lives have been basically devastated 
for multiple years, calling in our state, going down and 
visiting an affected home with Chairman Tenenbaum a couple 
years back. And it took less than 45 minutes for me to be in 
the home to come out with a burning nose, headache for the rest 
of the day. And yet, the families had to go through a year, 
two-year-plus multiple CDC studies, and then trying to get the 
Consumer Product Safety Commission to come up with appropriate 
remediation standards. And many of these families have no place 
else to turn. And then, if they do move, if they at some point 
say, you know--to see children with family--with small children 
living outside, having to then move out of their home, move 
into rental facilities. And then, on top of that, they have the 
enormous financial crush that comes from banks that are still 
expecting those mortgage payments.
    We've worked with the banks to get remediation, and we've 
worked with the IRS to try to get some safe harbor. We're going 
to hear from Bill Shelton, who is, has been as concerned as any 
official at the state level that I have been, from Virginia and 
some of the activities we're trying to do in Virginia.
    But, these families continue to get ping-ponged from one 
entity to another. I've talked to a couple of my constituents 
here, one who just lost their home this week, and another who 
has been one of the leaders in this effort. She told me she'll 
be losing her home on Friday.
    One of the things that I think--echoing what Senator Wicker 
said--you know, the Chinese government, which owns some of 
these companies, wants to proceed in international commerce; 
yet they seem to be unwilling to step up and be financially 
responsible for faulty product that was sold into our country.
    There's a German company that sold some faulty product as 
well, but there was a major settlement. There were, I think 
we're going to hear from Ms. Brincku on even some American 
product. But, there has to be a path here for these affected 
families--and I'm anxious to hear from the testimony--and also, 
even for families that if, at the end of the day, lose their 
homes, find a way to get their, at least, their credit 
restored, because they got into these circumstances through no 
malfeasance on their own.
    We did work to make sure that, I found in our area in 
Hampton Roads, a number of folks work for the military. They 
were potentially going to have not only the health care loss, 
the housing loss; but if they worked for the military, because 
they then might have, in effect, a financial blot on their 
record, they could lose their security clearance and then lose 
their jobs. So, we finally work with Defense security services 
to make sure that there would be, again, recognition of this so 
that when folks were doing their background checks, this wasn't 
held against them.
    So, I again want to thank the Chairman and thank Senator 
Wicker for his interest, as well. But, this is about as 
frustrating an issue, again, in, when I started 20 years plus 
of politics, that I've ever seen. And we need to try to find 
some way to get these folks some answers.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Toxic drywall has dramatically affected over 4,000 homeowners 
nationwide including many Virginians. In order to capture a portion of 
the hardships and difficulties encountered by Virginians, I would like 
to include some their stories in the record for today's hearing.
Ms. Albania Tyler--Hampton, VA
    In August 2010, it was discovered that 75 percent of my new home, 
built 2006, was contaminated with toxic Chinese drywall. The drywall 
has caused several major appliances to fail. We've have over ten 
services and repairs to our central air and heating units since 2007, 
electrical wiring problems throughout our home, and corrosion of our 
bathroom fixtures. Currently, I have no air conditioning or heat 
because units are not properly working. We've also have had two minor 
electrical fires in our refrigerator and doorbell transmitter as a 
result of corroded wiring. Because the odor has become so unbearable, I 
have been forced to move my family to rental property. I have attempted 
to short sale my home to a cash investor but my mortgage lender has 
denied the sale due to low offer. I am currently facing foreclosure.
Mrs. Karen Tompkins--Williamsburg, VA
    In January 2010, our family discovered our home in Braemar Creek, 
Williamsburg, VA, was constructed with toxic Chinese Drywall. We had 
three children five years and younger, and because of unknown health 
risks, immediately abandoned the home. We lived with relatives for 
several months, while awaiting resolution from our builder and worked 
with our mortgage company to avoid foreclosure. In order to afford a 
rental home, we stopped making payments in March 2010. By September our 
home was bank-owned due to a Deed in Lieu of Foreclosure. Our credit 
scores suffered greatly. We are still awaiting results of ongoing court 
hearings and have not given up hope for compensation from the drywall 
manufacturers, suppliers, and Chinese Government. Thank you for 
continuing to work on behalf of thousands or residents like us who have 
lost their homes due to Chinese Drywall.
Mr. Robert Orlando--Williamsburg, VA
    I took a new job and relocated my family to Virginia in 2009. The 
home we bought was built with toxic drywall manufactured in China. We 
were forced to move out and lived in a rental home for two years on the 
brink of bankruptcy. Our mortgage servicer and investor worked with us 
on a short payoff of our mortgage and our local bank lent us enough 
money to rebuild. However, this would not have been possible without 
financial help from our family. We have lost over $200 thousand due to 
this ``drywall disaster'' and we need someone to help us recover our 
losses.
Ms. Michelle Germano--Norfolk, VA
    My life was destroyed by contaminated drywall imported from China. 
The toxins from the drywall destroyed my health, home, personal 
belongings, and finances. I am living in a rental home with porch 
furniture. I was forced to leave everything behind because I was so 
sick. That was nearly three years ago. At 61, I am forced to re-start 
my life, broke and sick.
Mr. and Mrs. Jerry Baldwin--Williamsburg, VA
    After three years of living in our home we are on our third set of 
air conditioner coils, our third home computer, and have had to replace 
a failed air handler motor, a failed microwave, a failed refrigerator 
and a failed thermostat. We continue to live in the house and pay our 
mortgage despite the fact that our home is worthless in the open 
market. We are throwing money away with no hope of intervention or 
remediation.
Mrs. Zenaida Perez--Newport News, VA
    I am a school teacher and a single mother, who built a house at 
Hollymeade, Village in 2007. Due to the Chinese Drywall situation that 
we are experiencing, I had to move out of my home and my finances have 
been terribly affected to the point of declaring Bankruptcy. I don't 
know how long this situation is going to last, but I feel it's not 
taking us anywhere and I am facing a terrible situation with the 
Mortgage Company as well. They don't want to approve a loan 
modification due to the loss of value of my property that went down 
from $257,000 to less than $100,000.The worst part is that I invested 
everything I had on that home, and now it is lost.
Mr. Richard Ilich--Suffolk, VA
    Chinese Drywall has ruined me and my family's life. My 6 year old 
son developed Asthma and suffered violent attacks when in the house. We 
don't know if there are other long term affects at this point. I've 
lost my credit, my home which was part of my retirement investment, 
spent thousands of dollars on appliances, HVAC, and furniture which 
needed replacement, and to date there is no tangible method/way/or 
outlook to get out from under this sheetrock. Just about everyone is 
empathetic to our situation, but empathy does not pay for two homes, it 
does not pay two heating bills, it does not pay homeowners fees, it 
does not extend or protect your credit to buy a new car when you need 
it, it does not prevent the games and hassles the mortgage companies 
put us through, it does not stop the depression, and it does not pay 
the medical bills. While I understand the need to let the legal system 
play out, we are 2-4 years away from that type of resolution. It 
appears insurance will play no part in the resolution and if the courts 
come through for the Victims of CDW it would take several years for the 
remediation to be completed, and that is if we can even collect any 
money that would be awarded. If we must wait for the courts, only 
government can create tangible short term solutions to help the victims 
who are left isolated and devastated from this situation. We need to 
have our credit protected so we can live in the meantime, we need help 
preventing the games and pressure that the mortgage companies are 
playing, as well as some short term relief.
Elizabeth Berry--Yorktown, VA
    The CPSC states that there are close to 4,000 reports of homes with 
toxic Chinese Drywall but the number of people actually affected by 
toxic drywall is so much greater. Yes, we are spread out over 37 
different states, and no, Chinese Drywall is not a natural disaster. 
But how many lives have to be damaged in order for victims to receive 
recognition and assistance? This is a disaster and we are in need of 
assistance.
    Our homes are corroding, our financial future is in ruins as the 
biggest investment of our lives is worth nothing, our credit scores are 
damaged, security clearances necessary to maintain careers are in 
jeopardy, and we can't afford to move out and pay for two homes. Many 
of us are living in these houses with sulfuric gases--when mixed with 
moisture--basically acid rain! When I kiss my kids goodnight and watch 
them the toxic air in our home I become enraged. For the rest of my 
life I will worry about what toxic Chinese drywall has done to the 
health of my two sons.
    We must create laws that will require Chinese products to meet the 
highest safety standards in order to protect our citizens from harm! 
Men, women and children are suffering. Tax paying, hardworking citizens 
are being told, ``We are working on it, but it is a difficult issue!'' 
How long are we going to continue to suffer in this disaster with no 
relief? My husband and I have scraped together and borrowed $100,000 
into gutting and rebuilding our home. We will never recover financially 
or emotionally.
Christopher Levy--Virginia Beach, VA
    I love serving my country and am writing to you from Kandahar, 
Afghanistan. I am a military officer, and as such am vulnerable to be 
moved at a moment's notice. My house is worth $100 as per the City of 
Virginia Beach because of the toxic drywall. Thus, if I get orders, I 
won't be able to sell or rent my house. I will have to leave the 
service and stay in Virginia Beach, default on my loan, or soak-up the 
cost of maintaining two households (the latter two options would result 
in our financial ruin). Please work to return my home to a livable 
condition. Thank you!
Joseph Anello--Virginia Beach, VA
    My wife, mother and I built home together in 2006. Within 6 months 
our AC unit failed and we replaced the coils twice. My wife and I went 
to the Philippines in early 2008 to work for Verizon. My mother 
remained in the home and her Chronic Obstructive Pulmonary Disease got 
progressively worse. When our A/C unit failed again we first learned of 
toxic drywall. When my mother's condition rapidly declined we returned 
to the U.S. and moved her out of the contaminated home. Although she 
initially improved, she passed away on July 4, 2011 due to respiratory 
issues. I could not sell the home and needed to move due to employment 
in West Virginia. We attempted the short sale process but Wells Fargo 
foreclosed on our home. The City of Virginia Beach had assessed my home 
at one dollar. Thus we have since lost our mother and our credit is in 
shambles. We are just awaiting results of the various legal 
proceedings. Thank you for your support in this manner it is much 
appreciated.
Mr. Mike Shen--Virginia Beach, VA
    In 2011 we spent $250,000 on repairs to our house that was built in 
2006. Toxic Chinese drywall destroyed everything in our house that has 
metal component made from copper including AC copper coils, gas copper 
pipes, electrical wires, TVs, computers, refrigerator, Wii player, 
piano strings, etc. The drywall has also deeply affected our family's 
health. We have suffered from nose bleeding, headaches, foot pain, arm 
pain, kidney pain, and muscle pain.
Liz, Steve, and Allison Heischober--Virginia Beach, VA
    We were so happy to move into our new home on November 10, 2006. 
This was to be the home where we would spend our retirement years. We 
are now living a nightmare. We discovered in July 2009 that the home we 
purchased was built with Chinese drywall. The Chinese drywall was 
causing physical damage to the home and health problems for our family. 
All three of us have had physical ailments as a result of the Chinese 
drywall. Seven months after living in the home, our golden retriever, 
Kramer, died of kidney failure. Our second dog, Bailey, died in 
December 2008 of respiratory issues. As of August 2009, we have 
replaced six to seven coils in two AC units. We have had problems with 
our flat screen TV, computer hard drives and monitors that crashed, 
small appliances that failed, a dryer that stopped working due to 
circuit board failure, and electrical outlets that had to be replaced. 
Physically, we have experienced unexplained rashes, respiratory 
problems, headaches, fatigue, insomnia, chronic coughs, and muscle 
pain. The smell in the house is in our clothes, furniture, mattresses 
and linens. Our silver jewelry and flatware have turned black and are 
unable to be cleaned. When we opened our windows, our neighbor 
complained of the smell that came from our home. We have documentation 
to prove all of these issues.
    Upon learning of the problem, the stress has become unbearable. We 
moved out of our home immediately in August 2009, leaving our 
belongings behind, and filed a lawsuit because we had no other recourse 
since the builder and insurance companies were of no help. We are 
currently living in a rental. Our home was sold in a short sale in 
November 2010. We lost $400,000 in equity. This was a major investment 
for us and through no fault of our own, we've lost everything. Selling 
the home was in our best interest and that of the mortgage company. 
Hanging on to a home you can't live in with forbearance on your 
mortgage, only keeps increasing your debt to the mortgage company. The 
increasing debt has caused many families to file bankruptcy. We are 
glad that we were able to sell. Had we foreclosed, the mortgage company 
would have been stuck with a home in poor, uninhabitable condition. The 
short sale has caused our credit to be hit and it will be affected for 
many years. New rules for the underwriting of mortgages and loans need 
to be updated to make provisions for homeowners that were victims of 
Chinese drywall.

    Senator Pryor. Thank you, Senator Warner.
    In the interest of time, I'll dispense with the longer 
introductions. And I mentioned our four witnesses already. So, 
why don't we just dive into this?
    Mr. Cohen.

    STATEMENT OF NEAL S. COHEN, OFFICE OF EDUCATION, GLOBAL 
 OUTREACH, AND SMALL BUSINESS OMBUDSMAN, U.S. CONSUMER PRODUCT 
                       SAFETY COMMISSION

    Mr. Cohen. Thank you. Good morning, Chairman Pryor, Senator 
Wicker, Senator Warner, and members of the Subcommittee on 
Consumer Protection, Product Safety, and Insurance.
    My name is Neal Cohen, and I currently serve as the Small 
Business Ombudsman at the United States Consumer Product Safety 
Commission in our new Office of Education, and Global Outreach, 
and Small Business Ombudsman. Prior to that, I served in the 
Office of General Consul as the lead trial attorney on matters 
of problem drywall, and I continue to advise the drywall team 
on those matters.
    I'm pleased to be here today to discuss the CPSC's 
investigation into problem drywall, as well as to lay out the 
steps that the Commission has taken to try to assist these 
homeowners that have been impacted by problem drywall.
    Before I begin, I have two important notes: First, the 
testimony that I give today is my own. It has not been reviewed 
or approved by the Commission; it may not reflect their views. 
Second, on a more personal note and in line with the opening 
statements, the members of the staff and the Commission want to 
recognize Ms. Brincku and Ms. Stevens and Mr. Bailey, and other 
homeowners who are here and have been affected by this. We 
share the sense of frustration, and we recognize the incredible 
hardship this has taken on your families.
    As a government regulatory enforcement agency, however, we 
must be, and we have been throughout this investigation, guided 
by the science and by our statute in trying to determine 
whether the problem drywall represents a health or safety 
hazard. That's exactly how we conducted our investigation.
    In January 2009, we began to look into these reports of 
noxious odors, corrosion of metal items, and complaints of 
upper airway irritation in these homeowners.
    The principles in our plan, which have been in place from 
the earliest parts of this investigation--I'd like to set out 
the paradigm of how we've conducted this.
    First what we did was, we analyzed the suspected source of 
the emissions, the drywall, in a controlled chamber setting so 
that we could see exactly what chemicals were being emitted 
from that drywall in a controlled setting.
    Second, we conducted indoor air testing on homes that were 
built or remediated with problem drywall to see what emissions 
were happening on the actual level of a homeowner's home that 
they were experiencing in their personal lives.
    Third, we took corroded household components that had been 
exposed to the same conditions over those years of 
installation, and analyzed to see whether or not there were 
potential safety hazards that had developed over that time.
    And fourth, we looked toward the future and we took new 
household components, and we placed them in an accelerated 
aging corrosive environment in order to simulate long-term 
corrosion, and to also analyze whether there would be potential 
health or safety hazards over a longer term of up to 40 years.
    To do so, we engaged our Nation's top laboratories and 
scientists, and we relied upon a rigorous process that was 
methodical; it was scientifically and legally defensible, and 
informed each of the subsequent studies.
    Where necessary, we did additional studies, such as the one 
on domestic drywall, as well.
    Unfortunately, the results of our studies have not 
permitted us to make a health or safety finding that would 
enable us to compel a manufacturer to recall this product.
    In terms of the safety, we observed no significant declines 
in performance, and certainly, no safety hazards were observed 
in any of the experiments that we conducted.
    In terms of health, we used advanced techniques to measure 
the concentrations of chemicals that were found in these 
homeowners' homes. These concentrations were below the levels 
where health effects have been reported in the peer-reviewed 
scientific literature.
    Now, although those concentration levels did not permit us 
to make a health finding, it is possible that the health 
effects may occur when consumers are exposed to multiple 
chemicals in this complex setting. The study of that is 
incredibly complex, and we look forward to the CDC's review of 
their health consultation to help inform us on those effects.
    Throughout the case, we have continually examined our legal 
options under the Consumer Product Safety Act. Unfortunately, 
based on the evidence, we have not been able to undertake a 
case. We have monitored and observed the private litigants in 
State and Federal court, and note that primarily economic 
case--those cases of economic losses--are proceeding, and will 
likely provide a substantial amount of relief for a set of the 
homeowners, though certainly not for all the homeowners.
    We've worked with the Gypsum Association and the ASTM 
International to make sure that voluntary standards are in 
place so that this would never repeat itself, and that if such 
an occurrence were, we would be able to track and monitor the 
situation better this time.
    And throughout all of this, we have applied continual 
pressure on the Chinese manufacturers to come to the 
negotiation table to stand behind their product, and to make 
American consumers whole. Unfortunately, those efforts at all 
levels of government have not yielded results yet.
    That concludes my oral statement, and I would be pleased to 
take any questions the subcommittee may have. Thank you.
    [The prepared statement of Mr. Cohen follows:]

   Prepared Statement of Neal S. Cohen, Office of Education, Global 
 Outreach, and Small Business Ombudsman, U.S. Consumer Product Safety 
                               Commission
    Good morning, Chairman Pryor, Senator Wicker, and members of the 
Committee. My name is Neal Cohen, and I currently serve as the Small 
Business Ombudsman in the Office of Education, Global Outreach, and 
Small Business Ombudsman at the U.S. Consumer Product Safety Commission 
(CPSC). Prior to assuming the Small Business Ombudsman position, I 
worked in the Office of General Counsel where I served as the lead 
attorney on the CPSC's Drywall Team. In my current position, I continue 
to work with the Drywall Team on legal issues.
    I am pleased to be here today to discuss the CPSC's investigation 
into problem drywall. Before I begin, I would note that the testimony 
that I will give this morning is mine, has not been reviewed or 
approved by the Commission, and may not necessarily represent the views 
of the Commission.
I. Background
    CPSC began looking into reports of noxious odors, and corrosion of 
metal items inside of homes, especially air conditioner coils, and 
complaints of short term upper respiratory irritation in late January 
2009. To date, the CPSC has received approximately 3,921 reports from 
residents of 43 states, the District of Columbia, American Samoa, and 
Puerto Rico who believe corrosion of certain metal components in their 
homes or health effects are related to problem drywall. After analysis 
of these reports and other data regarding imports of potentially 
problematic drywall from the People's Republic of China, CPSC staff 
believe there may be as many as 8,200 U.S. homes containing at least 
some problem drywall.
    In our first report to Congress, in July 2009, we outlined what we 
then described as ``a multi-pronged, concurrent approach . . . to 
include import investigations, field measurements in the affected 
homes, chamber studies to assess the possible health risks and 
corrosion to electrical, gas, and fire safety systems.'' In this 
testimony, I hope to outline the science-based investigation undertaken 
by CPSC and our agency partners, as well as our efforts to provide 
assistance to homeowners impacted by problem drywall.
II. CPSC's Scientific Investigation of Problem Drywall
    The principles in our strategic investigation plan, in place by 
June 2009, have been followed by CPSC staff throughout this 
investigation. Where scientific findings and the compliance 
investigation indicated a need for additional information, staff added 
multiple distinct, standalone studies to address those needs.
    For more than two years, CPSC has worked with our interagency 
partners, including the U.S. Department of Housing and Urban 
Development (HUD), the Centers for Disease Control and Prevention 
(CDC), and the U.S. Environmental Protection Agency (EPA) (collectively 
the ``Federal Interagency Task Force on Problem Drywall'' or ``Task 
Force'') and has spent more than $6 million dollars from its general 
operating fund to conduct this investigation.
    Briefly, I would like explain the paradigm we employed; it is one 
that is reliably used in scientific investigations:

        1. Analyze the suspected source of the emissions, the drywall, 
        in isolation to see what chemicals the source is emitting in a 
        controlled environment;

        2. Conduct indoor air testing in homes built or renovated with 
        the suspected source of the emissions;

        3. Test corroded household components that have been exposed to 
        the emissions; and

        4. Expose new metal household components in an accelerated 
        aging corrosive environment to simulate long-term corrosion and 
        analyze for potential safety hazards.

    CPSC and our partners also engaged our Nation's top laboratories--
Lawrence Berkeley National Laboratories (LBNL), Sandia National 
Laboratories (Sandia), the National Institute of Standards and 
Technology (NIST), and the U.S. Geological Survey (USGS)--in addition 
to a well-regarded private company, Environmental Health & Engineering 
(EH&E).
    This scientific paradigm--executed by these top laboratories and 
scientists--was methodical and iterative, with each step informing the 
next in the investigation. This rigorous process ensured that the 
Commission's investigation was based upon the best, quality-controlled 
and quality-assured results, each result informing the design and 
conduct of subsequent studies.
    CPSC also shared the urgency felt by the homeowners, and we had to 
balance that sense of urgency with the exercise of caution to make 
certain that all scientific studies concerning the effects of the 
problem drywall were credible and defensible. To that end, in a 
somewhat unprecedented move in a CPSC-compliance investigation, we were 
transparent and posted all scientific investigations publicly on 
www.drywallresponse.gov, including the underlying raw data. We did so 
because we recognized the homeowners' need to understand what was going 
on in their home environments, because we were confident that our 
science was of the highest caliber and should be held up to public 
scrutiny, and because we felt that the public was entitled to make use 
of the information. Wherever feasible, and without jeopardizing the 
scientific process, investigations were conducted in parallel to 
increase our ability to deliver sound scientific results to the public 
in the timeliest manner.
A. Efforts to Diagnose and Pinpoint Critical Characteristics of Problem 
        Drywall
    In July 2009, CPSC staff contracted with EH&E to study gases 
present and corrosion effects within homes where problem drywall was 
installed. This was consistent with our investigatory paradigm to 
conduct indoor air testing in homes with the suspected source of the 
emissions. The 51-home indoor-air study conducted by EH&E was released 
in November 2009, and allowed the development of certain corroborating 
factors forming the core of the Identification Guidance, building upon 
earlier work conducted by the EPA at the CPSC's request to identify 
chemicals present in certain drywall samples. The 51-home study also 
informed CPSC staff about low levels of certain sulfur gases and other 
compounds present in the homes.
    While the 51-home study was being conducted, CPSC also worked 
closely with LBNL, part of the U.S. Department of Energy, to conduct 
advanced chamber emission studies to determine the types and amounts of 
gases emitted by certain drywall in controlled laboratory conditions. 
The chamber emission studies represented another important cornerstone 
of our investigatory paradigm. Those studies analyzed the drywall 
samples in question in isolation in order to capture which chemicals 
the samples were emitting in a controlled environment, apart from 
possible confounding sources in the home.
    We released LBNL's initial results in November 2009 and March 2010, 
with the final report on the first round of testing issued in January 
2011. Importantly, the findings from the chamber studies enabled CPSC 
to definitively identify those chemicals being emitted directly from 
the drywall, apart from the other confounding factors in the home. This 
work demonstrated the conclusive link between certain drywall and the 
corrosive emissions of hydrogen sulfide and other reactive sulfur 
gases. It also demonstrated that some, but not all, Chinese drywall 
emits hydrogen sulfide and other reactive sulfur gases at much more 
elevated rates compared to other Chinese and North American drywall.
    CPSC staff knew that hydrogen sulfide corrodes copper and silver to 
produce the type of corrosion seen on those metals in affected homes. 
However, it was not until this work was completed that we could 
positively identify the problem drywall itself as the source of that 
hydrogen sulfide. The levels of reactive sulfur gases, specifically 
hydrogen sulfide, emitted from the drywall also informed our 
investigation into potential fire or electrical safety risks. This 
determination that certain drywall does in fact emit elevated levels of 
hydrogen sulfide and other reactive gasses also enabled CPSC and HUD to 
develop Identification Guidance and Remediation Guidance based on the 
common sense approach of removing the source of these emissions.
    In January 2010, the CPSC and HUD issued Identification Guidance 
for homes affected by problem drywall. This Identification Guidance, 
which was updated in August 2010, was very important for potentially 
affected homeowners as it provided some common, scientific 
characteristics for homeowners to use in determining whether a specific 
dwelling contained problem drywall.
    Remediation Guidance was first issued in April 2010 by the CPSC and 
HUD. In its first iteration, the Remediation Guidance was extra 
cautious in its approach to consumer's health and safety until the 
results of our scientific investigatory plan became available, 
including precautionary removal of certain building materials. As the 
results of the scientific investigation became available, we updated 
the Remediation Guidance in March 2011 and again in September 2011 to 
provide consumers with a safe and more cost-effective approach to 
remediation.
    In February 2010, we held a closed meeting with our staff, staff 
from our Federal Task Force Partner agencies, including the CDC, our 
private contractor, and scientists from the leading national 
laboratories that conducted many of our studies. CPSC staff reviewed 
the strategic plan that we had set in motion and the preliminary 
results received to date. There was broad agreement amongst the 
attendees that CPSC staff had set forth a clearly defined, 
scientifically defensible plan and one which could also provide the 
basis for a solid legal case in the event one was warranted.
    In the spring and summer of 2010, the CPSC worked with Sandia to 
design and execute experiments, detailed further below, that would 
accelerate the aging processes on electrical and fire safety components 
to simulate the effects of decades of exposure to the types of 
corrosion exhibited in problem drywall houses.
    While we worked with Sandia, we also conducted additional studies 
to refine how we characterized the problem drywall and to address other 
concerns that had arisen including the concern regarding the 
possibility that sulfur reducing microbiological elements may have been 
a potential root cause of the emissions. In March 2010, the CPSC, in 
conjunction with EH&E, released a report on a microbiological 
assessment of a limited number of drywall samples. No difference was 
found in the presence or absence of sulfur-reducing bacteria between 
imported Chinese drywall and U.S. domestic drywall tested, including 
those Chinese samples found by LBNL to have some of the highest 
reactive sulfur gas emissions in the chamber tests.
    In May 2011, the CPSC, in conjunction with EH&E, released a 
longitudinal study of the temporal effects of seasonality and elapsed 
time on the gaseous emissions and rate of corrosion formation in 
problem drywall and control homes. This limited study of six homes 
found that emissions increased during periods of elevated heat and 
humidity and were markedly reduced in cooler and drier periods.
    In June 2010, the CPSC, contracting with EH&E, released a study 
titled Identification of Problem Drywall: Source Markers and Detection 
Methods. This study confirmed the association between elemental sulfur 
and the characteristic corrosion associated with problem drywall, and 
it also provided new information indicating that strontium (when used 
alone as a marker) possibly could lead to misidentification of problem 
drywall.
    In September 2011, LBNL completed a second round of emissions 
studies focusing on the effects of heat, humidity, and surface 
treatments like paint, upon the emissions rates of the problem drywall. 
The additional testing found that emissions increase with elevated 
temperature and humidity. Importantly, however, the testing also found 
that the emissions actually decreased significantly over time for the 
samples, compared to when they had been tested during the first round 
of testing in 2009-2010. Importantly, all of our modeling and 
accelerated aging had been based on a worst-case assumption that these 
levels do not decrease over time.
    Also, in September 2011, the CPSC, through an interagency agreement 
with USGS, conducted additional microbiological assessments of drywall 
samples and gypsum rocks from relevant mines. Throughout the 
investigation, there had been many claims of sulfur reducing bacteria 
actively converting the gypsum in drywall into corrosive sulfur gases. 
Like the prior EH&E study, the USGS study found no evidence indicating 
the presence of active bacteria of these types.
    In sum, the analysis of chemical content and chemical emissions 
from problem drywall determined that certain brands of drywall produced 
around the year 2005-2006 contain elevated levels of elemental sulfur 
(octahedral sulfur, S<INF>8</INF>) and have elevated emission factors 
for hydrogen sulfide (H<INF>2</INF>S) and other reactive sulfur gases 
known to corrode copper and silver. It also was found that over time, 
the emission rates for these reactive sulfur gases decreased and that 
increases and decreases in emission rates corresponded to increases and 
decreases in temperature and humidity.
B. Potential Health Impacts of Problem Drywall
    The report on the 51-home study included discussion of health 
impacts for the compounds found in the home environment. In analyzing 
the results in that study, CPSC staff relied on the actual measurements 
of reactive gases taken in the 51-home study as the best approximation 
of the levels of gases to which homeowners may have been exposed. 
However, the concentrations of individual chemicals found in the homes 
were below levels where health effects have been reported in the 
toxicology literature and did not provide the CPSC with enough evidence 
to determine that a substantial or imminent product hazard or 
significant injury or illness occurs due to problem drywall.
    Although those concentration levels did not permit the CPSC to make 
a health or safety finding, it is possible that health effects might 
occur when consumers are exposed to combinations of chemicals, as found 
in all indoor environments. The study of health effects related to 
exposures to chemical mixtures is scientifically complex due to the 
interactions between and amongst chemicals, as well as the fact that 
responses to chemical exposures can vary tremendously from person to 
person. Much more study and analysis--beyond the current staff and 
monetary resources of the CPSC--would be necessary to develop the 
evidence necessary to conclusively establish the health case.
    CPSC staff also used mathematical modeling to predict possible 
exposures that might result from the reactive sulfur compound emissions 
measured in the LBNL chamber testing. As with most modeling exercises, 
this undertaking was complicated by the many assumptions that had to be 
made about some of the environmental conditions and interactions 
between chemicals that were occurring in the homes.
    In light of staff and resource constraints, the CPSC formally 
requested that the CDC consider conducting a long-term health study on 
the effects of problem drywall. In making the request, CPSC staff felt 
that such a study or series of studies by the CDC could seek to address 
some of the deficiencies in the data outlined above. In January 2011, 
the CDC indicated that it had ``carefully considered'' a long-term 
health effects study and concluded that ``the best scientific evidence 
available to [CDC] today does not support'' such a study. While CPSC 
staff hoped the available scientific evidence would allow the CDC to 
conduct a long-term health effects study, CPSC staff was encouraged to 
learn that CDC staff took the time to carefully consider the merits of 
such a study before deciding not to proceed.
    In February 2011, CDC staff requested that the CPSC staff provide 
all information on the addresses and reported health effects associated 
with problem drywall homes so that the CDC could map the scope and 
consider the potential health effects. In response to that request, 
CPSC staff provided the requested information to the CDC to assist in 
their evaluation of the potential health effects of problem drywall. It 
is the understanding of CPSC staff that CDC work continues on this 
health consultation project, and CPSC staff looks forward to reviewing 
the results when that project is complete.
C. Examination of Any Potential Fire or Electrical Safety Implications 
        of Problem Drywall
    In an effort to determine whether problem drywall presented any 
fire or electrical safety risks that could be quantified as presenting 
a serious safety hazard, the CPSC also hired Sandia and NIST to conduct 
engineering studies of the effects of corrosion on electrical and fire 
safety systems.
    Sandia subjected samples to accelerated aging processes to simulate 
the effects of decades of exposure to the types of corrosion exhibited 
in problem drywall houses on components, including electrical wiring, 
receptacles, switches, plus smoke alarms, fire suppression sprinkler 
systems, and gas service piping. Sandia also conducted engineering 
analyses of the electrical systems that were aged in these conditions, 
as well as other electrical components harvested from affected homes. 
Sandia provided the exposed fire safety system samples to NIST to 
complete similar engineering analyses of those systems.
    The CPSC's study, conducted with Sandia, on the impact of 
accelerated corrosion on electrical components, which simulated 40 
years of corrosion, was completed in March 2011. The results of the 
Sandia study led the Task Force to modify the Remediation Guidance and 
to remove the earlier recommendation that all electrical wiring be 
removed. This study found visual evidence of corrosion but found that 
the corrosion did not significantly reduce the overall cross section of 
copper nor did it decrease the wire's ability to carry its rated 
current. No acute or long-term safety events such as smoking or fire 
were observed during the course of the experiment.
    In September 2011, the CPSC, working with NIST, released a series 
of staff reports on the effects of problem drywall and related 
corrosion on fire safety systems and natural gas service piping.
    The first report was a study on the effects of simulated 10 years 
of corrosion of the type exhibited in problem drywall homes on a 
variety of smoke alarms. NIST also studied smoke alarms collected from 
homes where they had been exposed to the emissions from problem 
drywall. There were small but significant changes to performance in 
some cases, although each set of the smoke alarms continued to meet 
applicable safety standards. In any case, the CPSC recommends 
replacement of smoke alarms every 10 years and carbon monoxide alarms 
after their limited lifespan, typically every five to seven years. 
Therefore, as part of remediation, it is recommended that all smoke 
alarms and carbon monoxide alarms be replaced because they have a 
limited life span and cost little to replace.
    The second report was a study on the effects of simulated 20 years 
of corrosion of the type exhibited in problem drywall homes on a 
variety of fire sprinkler heads. In addition, NIST studied fire 
sprinkler heads collected from homes where they had been exposed to the 
emissions from problem drywall. Fire sprinkler heads showed small 
effects due to accelerated corrosion, but were generally within 
accepted industry standards.\1\ Fire suppression sprinkler systems are 
present only in a very small fraction of problem-drywall homes.
---------------------------------------------------------------------------
    \1\ A single fusible-type fire sprinkler head that had been exposed 
to accelerated corrosion did not activate when tested. Out of an 
abundance of caution, CPSC staff recommend the replacement of fusible-
type fire sprinkler heads as part of remediation. However, we note that 
this type of sprinkler head is generally found in commercial, rather 
than residential, applications and that the sole failure could not be 
causally linked to the problem drywall at this time.
---------------------------------------------------------------------------
    The third report was a study on the effects of problem drywall 
emissions on gas service piping. The CPSC collected gas service pipes 
from homes where they had been exposed to the emissions from problem 
drywall. NIST also studied copper alloys commonly employed in the 
manufacturing of gas service piping after exposure to the simulated 
corrosion chamber to achieve 40 years of simulated exposure. The 
results showed that corrosion of gas service piping was uniform and 
minimal compared to the thickness of pipes. No acute or long-term 
safety events were observed during the course of the experiment. Gas 
service pipes are present only in a very small fraction of problem-
drywall homes.
D. Additional Targeted Scientific Studies
    Additional studies were conducted for targeted investigations on an 
as-needed basis as new issues emerged during the overall investigation, 
including (A) investigating the limited claims of problems due to 
domestic drywall in homes, (B) investigating the indoor environments in 
two homes at Fort Bragg where multiple infant deaths had been reported 
and (C) investigating deaths reportedly related to problem drywall.
1. Domestic Drywall Study
    While the majority of the complaints to the CPSC have been for 
imported drywall, approximately one to two percent of the total 
reported incidents came from homeowners who have alleged that corrosion 
and other problems have resulted from the installation of domestic, 
problem drywall. In response, CPSC staff conducted in-depth 
investigations (IDIs) on a number of these homes and found that some 
appeared to have Chinese drywall and others did not appear to have the 
characteristic problems associated with problem drywall.
    In addition, the CPSC undertook a limited study on 11 homes 
believed to best represent the types of reports we had received. In 
April 2011, the CPSC released a study on these 11 homes for which the 
presence of problem domestic drywall could not be ruled out, and the 
results were inconclusive. Some of the homes in the study were found to 
have characteristics of problem drywall, but the actual country of 
origin could not be determined conclusively for all of the drywall in 
those homes. Other homes in the study exhibited corrosive 
characteristics that were different than those that the CPSC had 
observed in homes with imported, problem drywall. However, none of the 
findings resulted in the need to change the Task Force's 
recommendations in the identification or remediation guidance 
documents.
2. Investigation Into Deaths at Ft. Bragg, North Carolina
    The CPSC provided substantial support to the U.S. Army in the 
Army's investigation into deaths at Ft. Bragg. CPSC conducted a 
comprehensive and independent investigation into the indoor 
environments in two homes at Fort Bragg where multiple infant deaths 
had been reported. The results of our study, released on February 10, 
2011, concluded that problem drywall was not present in the homes. For 
the benefit of the Army, our contractor conducted additional 
environmental testing while in the homes and did not find an 
environmental cause of these tragedies. Somewhat elevated levels of two 
pesticides, permethrin and cypermethrin, were found in one of the 
homes, and the Army is continuing to investigate these pesticide issues 
on its own. Both of these pesticides are approved by the EPA under the 
Federal Insecticide, Fungicide, and Rodenticide Act (FIFRA) for use 
inside of homes. The Army paid to have EH&E continue to investigate the 
slightly elevated pesticide levels.
3. Investigation of Deaths Reportedly Related to Problem Drywall
    On January 31, 2011, the CPSC released the CDC's review of state 
medical examiners' investigations into reports of deaths in homes 
alleged to contain problem drywall. The report found no connection 
between the 11 deaths and the drywall; instead it found several other 
contributing factors that specifically included pre-existing health 
conditions. CPSC staff also found no connection between the subject 
homes and problem drywall in our investigation.
III. CPSC and Private Efforts to Assist Impacted Homeowners
A. Problem Drywall Identification and Remediation Guidance
    As discussed earlier, Identification Guidance for homes affected by 
problem drywall was first issued in January 2010, and updated in August 
2010. Remediation Guidance was issued in April 2010 and updated in 
March 2011 and again in September 2011.
    The updated documents clarify that the Remediation Guidance 
represents an effective protocol on which a homeowner may rely to make 
appropriate decisions about remediating their home comprehensively. The 
current guidance documents are comprehensive and integrate the results 
of all scientific studies completed as part of this investigation.
B. Development of Standards for Drywall Labeling and Content
    During the course of the investigation, one substantial impediment 
encountered by CPSC staff was the lack of uniform labeling on both 
domestic and foreign drywall. The bulk of problem drywall examined by 
staff contained no marking detailing manufacturer, brand, or country of 
origin. This substantially hindered CPSC staff efforts to determine the 
exact source of problem drywall, as well as the scope of the problem.
    In an effort to prevent similar problems in the future, CPSC staff 
worked with ASTM International on a new gypsum board voluntary labeling 
standard that would require manufacturer name and country of original 
on the product. We are pleased to note that, as a result of these 
efforts, ASTM recently approved a revision to the C1264 gypsum board 
standard.
    The revised C1264 standard, which was effective as of last month, 
requires that manufacturers place either names or unique codes 
identifying the name of the manufacturing company, facility and 
production line, date and time of manufacture, and country of origin on 
each sheet of finished gypsum products. The revised standard also 
specifies that this identifying information be reproduced at regular 
intervals on each sheet of finished gypsum products. CPSC staff believe 
that this voluntary labeling standard should help builders and 
consumers better understand the origin and source of gypsum products in 
the future.
    CPSC staff also continue to work with ASTM and other industry 
associations on standards regarding gypsum board content. That work is 
currently ongoing, and we hope for further progress on that voluntary 
standard in the near future.
C. The Multi-District Drywall Litigation
    Some private parties impacted by problem drywall are engaged in 
extensive Federal and state litigation, which has largely been 
consolidated in the Federal Chinese-Manufactured Drywall Products 
Liability Multi-District Litigation (MDL) in the Eastern District of 
Louisiana.\2\ The CPSC has never been a party to this litigation, 
although Commission staff has tracked the progress of the case through 
discussions with parties and stakeholders. Despite the lack of CPSC's 
formal involvement in the case, the agency's scientific findings have 
been relied upon universally by the various parties as representing a 
credible and serious effort to understand and explain the issues 
associated with problem drywall.
---------------------------------------------------------------------------
    \2\ MDL 2047, Chinese Manufactured Drywall Products Liability 
Litigation, http://www.laed
.uscourts.gov/drywall/drywall.htm.
---------------------------------------------------------------------------
    Unlike a potential CPSC recall, which would require the CPSC to 
demonstrate health or safety hazards satisfying the high burdens set 
forth in CPSC's controlling statutes (e.g., that the drywall presents 
an imminent hazard or substantial risk of serious injury or death), the 
private civil cases are primarily economic in nature and need only 
prove, for example, that the drywall was not fit for its originally 
intended purpose. As part of this process, one of the potentially 
responsible producers of problem Chinese drywall, Knauf Plasterboard 
(Tianjin), announced a pilot settlement on October 14, 2010. In that 
pilot settlement, Knauf and certain American companies in the 
distribution chain of commerce, agreed to voluntarily remediate 300 
homes in Alabama, Florida, Louisiana, and Mississippi containing its 
drywall. Knauf's remediation protocols for this pilot program conform 
to the CPSC's interim remediation guidance.
    During the week of February 14, 2011, Knauf's contractor broke 
ground on the first such remediation project. The Court and all parties 
have also sought to broaden the number of homes covered in this pilot 
settlement beyond the original 300 homes. Some private estimates 
indicate that Knauf manufactured drywall may be present in 40 to 45 
percent of all homes impacted by problem drywall. In addition, almost 
all impacted homes in Alabama, Louisiana and Mississippi contain 
drywall manufactured by Knauf.
    The MDL Court has also directed the parties in the case to proceed 
with discovery and depositions, which are presently underway, 
concerning certain other Chinese manufacturers and certain American 
companies in the supply chain. The MDL Court represents a credible 
process addressing claims of economic loss from the plaintiffs, and it 
will proceed and likely provide a substantial level of relief to a 
number of homeowners with problem drywall manufactured by Knauf (and 
possibly a few other companies). It is, however, unlikely to cover all 
homeowners impacted by problem drywall.
D. CPSC Efforts to Seek Compensation from Potentially Responsible 
        Chinese 
        Manufacturers Outside of the MDL Case
    Throughout the problem drywall investigation, the CPSC has 
continually engaged with our counterpart agency in China, the General 
Administration for Quality Supervision, Inspection, and Quarantine 
(AQSIQ), to share information and arrange a meeting between the CPSC 
and Chinese manufacturers. Specifically, CPSC personnel have engaged in 
the following face-to-face meetings (in addition to numerous 
videoconferences and conference calls) with high-level AQSIQ personnel 
to seek resolution to the problem drywall issue:

  <bullet> August 2009. CPSC staff traveled to China to investigate the 
        possible origin of problem drywall and to meet with AQSIQ staff 
        regarding the issue.

  <bullet> Second Trilateral U.S.-EU-China Consumer Product Safety 
        Summit, October 25-26, 2010, Shanghai, China. CPSC Chairman 
        Inez M. Tenenbaum personally discussed the issue with AQSIQ 
        Minister Zhi Shuping and urged the Chinese Government to 
        facilitate a ``fair and just'' resolution to the issue.

  <bullet> The Third Bilateral United States--China Consumer Product 
        Safety Summit, held in Washington, DC on October 13-14, 2011. 
        At this meeting, the Chairman again publically called on the 
        Chinese Government to come to the table, resolve this issue and 
        provide relief to impacted homeowners.

    To date, the CPSC has used all of the resources available to it, 
including high-level international contacts by the Chairman and other 
international diplomatic efforts with the U.S. Departments of State and 
Commerce to push this item to the front of the agenda with the Chinese 
government. Throughout many months of diplomatic efforts, the Chinese 
manufacturers have continued to signal their reluctance to meet with 
us. The principal Chinese trade associations have stated that their 
members are being singled out, and refuse to accept CPSC assurances 
that all responsible parties would be included in a possible 
settlement.
                             *  *  *  *  *
    Mr. Chairman, thank you again for the opportunity to testify 
regarding the CPSC's scientific investigation of problem drywall, as 
well as efforts to assist impacted homeowners. I would be happy to 
answer any questions at this time.

    Senator Pryor. Thank you. And thank you for staying in the 
allotted time.
    Dr. Portier.

     STATEMENT OF CHRISTOPHER J. PORTIER, Ph.D., DIRECTOR,

       NATIONAL CENTER FOR ENVIRONMENTAL HEALTH, CENTERS

         FOR DISEASE CONTROL AND PREVENTION AND AGENCY

           FOR TOXIC SUBSTANCES AND DISEASE REGISTRY,

          U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Portier. Thank you, and good morning, Senator Pryor, 
Senator Wicker and Senator Warner. Thank you for the 
opportunity to be here today.
    I am Chris Portier, the Director of the National Center for 
Environmental Health at the Centers for Disease Control and 
Prevention, and the Director of the Agency for Toxic Substances 
and Disease Registry.
    The CDC and ATSDR are concerned for the health and safety 
of people who have been living with, or exposed to, sulphur 
compounds emitted from contaminated drywall.
    My testimony today will focus on three aspects of CDC/ATSDR 
support of the CPSC response on this issue: Number one, CDC/
ATSDR's current knowledge and recommendation on human health 
effects from exposure to sulphur compounds emitted from 
contaminated drywall; number two, our role and the efforts to 
date in the coordinated Federal response on contaminated 
drywall; number three, our public health consultation underway 
to learn more about potential health effects from exposure to 
sulphur compounds emitted from contaminated drywall.
    Indoor air tests of homes with contaminated drywall 
conducted on behalf of the CPSC, the lead Federal agency in the 
investigation of contaminated drywall, found low levels of 
reactive sulphur gasses, including hydrogen sulphide and 
carbonyl sulphate. This is a concern, because at some 
concentrations, exposure to sulphur gasses may result in eye, 
nose and throat irritation, and exacerbation of respiratory 
problems such as asthma or chronic obstructive pulmonary 
disease. These same symptoms are consistent with what has been 
reported. However, the levels measured inside of homes with 
contaminated drywall were below levels linked to human health 
effects as demonstrated in the scientific literature. Still, it 
is possible some people are more sensitive than others to 
sulphur gasses.
    CDC/ATSDR believes that preventing continued exposure is 
the best method to address contaminated drywall. We support the 
CPSC and the U.S. Department of Housing and Urban Development's 
recommendations for remediation.
    In support of CPSC's leadership of the Federal response to 
concerns on the contaminated drywall, CDC/ATSDR has put 
significant effort into helping residents understand the 
potential health implications through the following activities: 
We worked with poison control centers and state health 
departments to develop and share guidance to the public and 
healthcare providers. We supported Federal response efforts 
with our extensive network of state health and environmental 
agencies. This has helped us to understand the types of health 
complaints being reported, to ensure that up to date and 
accurate information was rapidly shared, and to ensure that 
coordination among the involved Federal and state agencies and 
other partners is effective.
    We assisted the EPA and the Florida Department of Health in 
developing a sampling plan for homes with and without 
contaminated drywall, and in interpreting results. We engaged 
our partners to develop precautionary health guidance documents 
for families and their physicians. And we coordinated with 
states to review 11 deaths reported to the CPSC.
    We are currently modeling indoor air levels of sulphur gas 
compounds to estimate potential exposure. These estimates will 
then be used to calculate the risks of human health effects in 
homes with contaminated drywall. Results should be available in 
spring of 2012.
    This consultation activity involves three main phases: 
First, we've engaged experts at Georgia Institute of Technology 
to model indoor air concentrations. They will be using data 
that measured sulphur gasses emitted by contaminated drywall in 
a controlled laboratory setting. These data were collected by 
Lawrence Berkeley National Laboratory on behalf of CPSC.
    In the second phase, NCEH/ATSDR scientists will use these 
estimates to simulate a range of plausible human exposures to 
several drywall-related sulphur compounds. Finally, our 
scientists will determine if the levels of exposure could 
result in possible short term and long term health effects, and 
what these outcomes might be. This will be based upon health 
information summarized in existing ATSDR toxicological 
profiles, EPA guidance values, and then evaluations of 
scientific literature. This is one of the tox profiles. This is 
for hydrogen sulfide gas.
    In conclusion, CDC/ATSDR recognizes the serious concerns of 
people living in homes and exposed to contaminated drywall. We 
are committed to providing appropriate and necessary 
information to help answer questions related to health effects 
from contaminated drywall.
    Thank you for the opportunity to present this testimony to 
you today, and I would be happy to answer any of your 
questions.
    [The prepared statement of Mr. Cohen follows:]

Prepared Statement of Christopher J. Portier, Ph.D., Director, National 
   Center for Environmental Health, Centers for Disease Control and 
   Prevention and Agency for Toxic Substances and Disease Registry, 
              U.S. Department of Health and Human Services
         ``Health Issues Associated with Contaminated Drywall''
    Good morning Chairman Pryor, Ranking Member Toomey, and other 
distinguished members of the Subcommittee. Thank you for the 
opportunity to be here today. I am Dr. Christopher Portier, Director of 
the National Center for Environmental Health (NCEH) at the Centers for 
Disease Control and Prevention (CDC) and Director of the Agency for 
Toxic Substances and Disease Registry (ATSDR).
    The CDC and ATSDR are concerned for the health and safety of people 
who have been living with or exposed to sulfur compounds emitted from 
contaminated drywall used in the construction or renovation of their 
homes. My testimony today will focus on three aspects of CDC/ATSDR's 
support of the Consumer Product Safety Commission (CPSC) response to 
this issue:

  <bullet> CDC/ATSDR's current knowledge and recommendation on human 
        health effects from exposure to sulfur compounds emitted from 
        contaminated drywall;

  <bullet> CDC/ATSDR's role and efforts to date in the coordinated 
        Federal response to contaminated drywall; and

  <bullet> CDC/ATSDR's public health consultation underway to learn 
        more about potential health effects from exposure to sulfur 
        compounds emitted from contaminated drywall.
CDC/ATSDR's Current Knowledge and Recommendation on Human Health 
        Effects from Exposure to Sulfur Compounds Emitted from 
        Contaminated Drywall
    Indoor air tests of homes with contaminated drywall conducted by 
Environmental Health & Engineering Inc. (EH&E) on behalf of the CPSC, 
the lead Federal agency in the investigation of contaminated drywall, 
found low levels of reactive sulfur gases, including hydrogen sulfide 
and carbonyl sulfide.
    This is a concern because at some concentrations, exposure to 
sulfur gases may result in eye, nose, and throat irritation and 
exacerbation of respiratory problems such as asthma or chronic 
obstructive pulmonary disease (COPD). These same symptoms are 
consistent with what has been reported. However, the levels measured 
inside of homes with contaminated drywall were below levels linked to 
human health effects as demonstrated in the scientific literature. Some 
people are more sensitive than others to chemical exposures; an 
exposure that causes no problems for one person can make a different 
person uncomfortable or sick. There are currently no tests available 
that would identify people in the general public who are more 
susceptible to exposure to the sulfur compounds emitted from 
contaminated drywall.
    With respect to public health, CDC/ATSDR believes that preventing 
continued exposure to reactive sulfur gases is the best method to 
address problem drywall. We support the CPSC and U.S. Department of 
Housing and Urban Development (HUD) recommendations for remediation 
that ``consumers replace all problem drywall; smoke and carbon monoxide 
(CO) alarms; electrical distribution components, including receptacles, 
switches and circuit breakers, but not necessarily wiring; and fusible-
type fire sprinkler heads.''
    Recommendations from the Pediatric Environmental Health Specialty 
Units (PEHSU), a CDC/ATSDR partner, include eliminating, if possible, 
or reducing exposure through remediation and ventilation; minimizing 
aggravating environmental factors such as secondhand tobacco smoke and 
harsh cleaners; monitoring mental health; seeking medical specialty 
care; and seeking guidance on medical monitoring from a health care 
provider.
CDC/ATSDR's Role and Efforts to Date in the Coordinated Federal 
        Response to Contaminated Drywall
    Since 2009, CDC/ATSDR has provided public health expertise in 
support of the CPSC's leadership of the Federal response to concerns 
with contaminated drywall. As part of this response, CDC/ATSDR 
collaborated with the CPSC, the U.S. Environmental Protection Agency 
(EPA), HUD, the Florida Department of Health (FLDOH), the Louisiana 
Department of Health and Hospitals, the Virginia Department of Health, 
the Association of Occupational and Environmental Health Clinics 
(AOEC), and other state and local health and environmental agencies to 
assess possible health implications from living in a home with 
contaminated drywall.
    CDC/ATSDR has put significant effort into helping residents 
understand the potential health implications associated with exposure 
to sulfur compounds emitted from contaminated drywall.
    To date, we have conducted the following activities:

  <bullet> CDC/ATSDR worked with poison control centers and state 
        health departments to develop and share health guidance. This 
        guidance came in the form of easy-to-read fact sheets to help 
        the public understand health and safety issues and 
        recommendations on how to protect themselves. We provided 
        guidance to health care providers who may be evaluating 
        patients living in homes with contaminated drywall;

  <bullet> CDC/ATSDR supported Federal response efforts with our 
        extensive network of state health and environmental agencies to 
        understand the types of health complaints being reported, to 
        ensure that up-to-date and accurate information and approaches 
        were rapidly shared, and to ensure that coordination among the 
        involved Federal and state agencies and other partners is 
        effective;

  <bullet> CDC/ATSDR assisted the EPA and the FLDOH in developing the 
        sampling plan for homes with and without contaminated drywall 
        and in interpreting the results;

  <bullet> CDC/ATSDR engaged our partners AOEC and PEHSUs with 
        specialties in pediatrics, medical toxicology, industrial 
        hygiene, and occupational environmental medicine. This resulted 
        in precautionary health guidance document for families and 
        their physicians;

  <bullet> CDC/ATSDR coordinated with states to review 11 deaths 
        reported to the CPSC. In the judgments of the state medical 
        authorities who reviewed these cases, exposure to contaminated 
        drywall was not believed to be a contributing factor to these 
        deaths.
CDC/ATSDR's Public Health Consultation Underway to Learn More about 
        Potential Human Health Effects from Exposure to Contaminated 
        Drywall
    CDC/ATSDR's current public health effort is modeling indoor air 
levels of sulfur gas compounds to estimate potential exposures. These 
estimates will then be used to calculate risks of health effects in 
homes with contaminated drywall. Results should be available in spring 
2012, and we expect that this work will provide important and 
appropriate information to help answer questions related to potential 
health effects from contaminated drywall.
    The consultation involves three main phases. First, we have engaged 
experts at Georgia Institute of Technology to model indoor air 
concentrations. They will be using data that measure sulfur gases 
coming off of contaminated drywall in a controlled laboratory setting. 
These data were collected by Lawrence Berkeley National Laboratory on 
behalf of CPSC. In the second phase, CDC/ATSDR scientists will use 
these estimates to simulate a range of plausible human exposures to 
several drywall-related sulfur compounds. This will include a range of 
home types and patterns of air movement in and out of the homes. 
Finally, CDC/ATSDR scientists will determine if the levels of exposure 
could result in possible adverse health outcomes and, what those 
outcomes might be. This will be based upon health information 
summarized in existing ATSDR Toxicological Profiles, EPA guidance 
values, and in evaluations of recent scientific literature.
Conclusion
    In conclusion, CDC/ATSDR recognizes the serious concerns of people 
living in homes and exposed to contaminants from problem drywall. We 
are committed to providing appropriate and necessary information to 
better understand residents' concerns related to health effects.
    Thank you for the opportunity to present this testimony to you 
today. I would be happy to answer any questions.

    Senator Pryor. Thank you.
    Mr. Shelton.

STATEMENT OF WILLIAM C. SHELTON, DIRECTOR, VIRGINIA DEPARTMENT 
              OF HOUSING AND COMMUNITY DEVELOPMENT

    Mr. Shelton. Senator Pryor, Senator Warner, it's a pleasure 
to be with you today. Shelton. I'm the Director of the Virginia 
Department of Housing and Community Development. We handle a 
number of community development and housing issues, but today 
my expertise is more in the area of building codes.
    What I would like to focus on today is how Virginia has 
responded; the things we think we can do at the state level; 
and then, perhaps, some of the things that remain undone.
    There was a perfect storm--you've already heard the 
stories--but the one nuance of difference in Virginia, as 
Senator Warner mentioned, all the product that, we believe, 
that came into Virginia came through one supplier in 
southeastern Virginia in the Hampton Roads area through one 
manufacturer in China. Unfortunately, that manufacturer, we 
believe, is owned by a Chinese concern, as opposed to the 
German company. And this has ramifications longer-term that 
become clear when you get to litigation.
    The story was unfolding, you know, we were hearing reports, 
and we certainly were monitoring this issue. Our first response 
in Virginia came in early 2009 as we began to hear more and 
more anecdotal evidence of problems. And basically, the first 
item was to notify local building officials to be aware of 
this, especially in the Hampton Roads region. We believe the 
building officials are the front line defense related to 
responding to this problem, and notified them to notify all 
builders and others that this could be an emerging problem. 
Even if we didn't have authority to ban the product, we were 
certainly raising awareness.
    Governor McDonnell assumed office, and then in early 2010 
established a drywall task force made up of homeowners, of, 
state agencies, and other affected parties to look at this 
issue. And we looked at a number of different items, trying to 
outline priorities of how Virginia could response.
    There was some state legislation--both proposed and 
unsuccessful. Perhaps the most substantive piece that passed 
was an issue looking at the issue of disclosure, making sure 
that property owners who were owners of these properties and 
were transferring them, that there was actual disclosure so 
that the problem was not passed on to other property owners 
down the road; and there were penalties imposed if that 
disclosure did not happen. And that was both for ownership, as 
well as rental. And we think that was the best practice.
    Perhaps the most important aspect of what we focused on, 
though, was this issue of, how would you remediate this 
problem? How would you begin to do the building part of it? And 
I know that CPSC and others were doing quality research, and we 
were very anxious to get the answer, because everyone was stuck 
in neutral, if you will, and could not move either direction 
without that remediation standard.
    We are fortunate in Virginia to have a uniform statewide 
building code, and so we used that mechanism working through 
the issues with our Board of Housing and Community Development, 
and other affected parties, and using the recommendations, the 
interim guidance from CPSC, the National Homebuilders 
Association, and others who have come forward with a potential 
remediation. And then, effective this summer, effective in 
August, we did adopt a remediation standard for Virginia that's 
built into our building code. So, we have established the 
standards by which all properties need to be remediated; we 
have required that a building permit be pulled on the property; 
that inspections be done; that a testing be done after the 
initial demolition to ensure that you got all the product out; 
and then, post- construction, that you test again to make sure 
that there's no evidence of the gases that are causing the 
problem in the homes.
    We feel this is the appropriate and responsible way to move 
forward. And once concluded, a letter can be given, then, to 
the property owner that basically says the property has been 
remediated, so that you remove the stigma on the property. This 
does not address how to pay for it, but at least gives a 
pathway to move forward.
    One of the issues is the cost of remediation. If you look 
at the various standards, the court case in Louisiana 
established a fairly rigorous amount of work, deconstruction 
and reconstruction, that have to take place. That worked out to 
almost $90 a square foot. The remediation standard that we have 
adopted in Virginia, we believe, will be closer to about 
somewhere in the $35 to $45, maybe $50 a square foot, depending 
on the type of construction, which makes it more affordable, 
but yet, would, in fact, then, remediate the property. So, the 
difference in pricing, that $86 level would be roughly a 
$200,000 expense, as opposed to maybe a $60,000 or $70,000 
expense with that $35 to $40 a square foot, which we think is 
more realistic.
    We have looked at funding mechanisms. The bottom line is 
that we have looked at all kinds of debt-oriented kinds of 
activities. We don't believe the properties support debt. The 
homeowners are upside-down; we've got a housing crisis; those 
properties are under water anyway; and the market--and with the 
remediation, it's certainly not feasible.
    And so, we think that it has to be more of a response 
similar to a disaster response. And we would love to work with 
the Federal Government on trying to figure out some way to get 
the responsible parties to come to the table and help provide 
that financing.
    [The prepared statement of Mr. Shelton follows:]

          Prepared Statement of William C. Shelton, Director, 
        Virginia Department of Housing and Community Development
    Good morning, my name is Bill Shelton. I am the Director of the 
Virginia Department of Housing and Community Development (DHCD). The 
agency administers a comprehensive set of housing and community 
development programs that help create safe, affordable, and prosperous 
communities where Virginians can live, work and do business. The agency 
is also responsible for the administration of the state's major 
building safety regulations, most notably the Uniform Statewide 
Building Code (USBC). This latter role led to our involvement in 
understanding and responding to some of the serious problems that 
resulted from the use of defective drywall in residential construction 
during the last decade. I am here today at the invitation of Chairman 
Rockefeller to speak about Virginia's experience with defective drywall 
products.
Background
    Drywall, sometimes referred to as plasterboard or gypsum board, is 
one of the most common building materials. Builders use it for walls 
and ceilings in home and commercial construction. It consists of a 
sandwich panel made of gypsum (hydrated calcium sulfate 
[CaSO<INF>4</INF><SUP>.</SUP>2H<INF>2</INF>O]) pressed between two 
thick sheets of paper. For decades, builders have used drywall as a 
safe and economical alternative to traditional lath and plaster. 
However, during the latter half of the last decade, owners and 
occupants of single-family and condominium units constructed at mid-
decade in Virginia and elsewhere began to report problems with 
significant and unexpected levels of corrosion in HVAC, electrical and 
plumbing systems, and appliances. Over time, the apparent cause of 
these and other problems such as the presence of strong odors 
(``burning matches'' or ``rotten eggs'') were traced to excessive 
levels of gaseous sulfur compounds such as hydrogen sulfide 
(H<INF>2</INF>S) emitted by specific brands of drywall. While the 
offending products were ultimately identified with reasonable 
certainty, numerous questions remained. These included:

  <bullet> Determining where and how many residential units were 
        affected,

  <bullet> Preventing the continued use of defective drywall products,

  <bullet> Developing and applying appropriate remediation standards to 
        eliminate current and future problems,

  <bullet> Providing assurance that homes can be remediated and 
        reoccupied safely,

  <bullet> Estimating the total and unit costs for remediation 
        activities, and

  <bullet> Determining who would pay for property remediation and other 
        losses incurred by homeowners, contractors, developers and 
        others.

    That the problems of defective drywall appeared when and where they 
did was the result of a kind of perfect storm of circumstances, if you 
will. These included the need for massive rebuilding in the Gulf Coast 
following two very real storms-Katrina and Rita-and the red-hot (some 
would say in retrospect ``overheated'') housing market found in many 
parts of the country (including Virginia) during the middle of the last 
decade. Demand for drywall simply outpaced domestic sources of supply. 
American distributers of building materials seeking new sources found 
them in half a dozen or more manufacturers based in China. Their 
products appeared to be functional equivalents of the familiar domestic 
materials. In southeast Virginia, one building materials supplier 
received 150,000 sheets from a single Chinese source. Builders used 
them to complete projects throughout the region and elsewhere in the 
state. This set the stage for the problems that have brought us here 
today.
The Problem Emerges
    By late 2008, the federal Consumer Products Safety Commission 
(CPSC), as well as state and local officials in Virginia and other 
southeastern and Gulf States, began receiving complaints about drywall-
related problems. By January 2009, CPSC had received some 1,500 
incident reports from 24 states, with the largest numbers attributable 
to, in descending order, Florida, Louisiana and Virginia. By the summer 
of 2010, data received by Virginia's Department of Health, the Office 
of the Attorney General, and DHCD confirmed that at least 250 Virginia 
homes were affected; it appeared very likely that the total might 
exceed 400.
    While the number of affected homes was small relative to the 
state's 2010 inventory of more than three million occupied housing 
units, the consequences for homeowners were anything but small. For 
some households, the presence of defective drywall has rendered the 
homes uninhabitable. The threat of fire hazards associated with damaged 
electrical system components, damaged plumbing and gas piping, 
dysfunctional or damaged HVAC systems, damaged appliances and consumer 
electronics, nonworking smoke and carbon monoxide detectors, actual or 
perceived threats to the health of individual family members, 
persistent and overwhelming foul odors and other factors all 
contributed to individual decisions to vacate properties.
    Relocation might relieve the family of the immediate threats to 
health and safety, but it could not relieve them of the financial 
obligations associated with a house that could no longer be called 
home. Although lien holders could offer temporary moratoria, in most 
cases to avoid foreclosure and long-term damage to the family's credit, 
mortgages still needed to be paid--even as the stigma associated with 
defective drywall erased the owner's equity and the property's 
marketability. Many of the Virginia homes were large, with values above 
regional averages. In some cases, they represented the owner's primary 
asset, often the product of years of saving toward the goal of securing 
the home of their dreams. In still other cases, owners may have had no 
recourse except bankruptcy to stave off even worse financial 
consequences for the family.
    Owners soon encountered other problems. The underwriting for most 
homeowner policies requires that the insured occupy the home. While 
limited absences might be permitted and waivers secured in some cases 
to deal with unforeseen circumstances, in the end homeowners may face 
the loss of insurance coverage. Because mortgages are predicated on the 
homeowner maintaining insurance coverage to indemnify the mortgagee in 
case of destruction or damage to the property, the loss of insurance 
may ultimately lead to termination of the loan even if payments are 
being made.
    Bad as these circumstances were, the affected homeowners were also 
caught up in the overall housing market collapse that occurred almost 
simultaneously with the discovery of widespread drywall problems. Even 
without defective drywall, homeowners in areas experiencing double-
digit declines in property values might have faced the prospect of 
going ``underwater'' on their mortgages. With defective drywall present 
in the home, that prospect became a virtual certainty. This, of course, 
would preclude seeking conventional refinancing or the leveraging of 
homeowner equity.
    Thus, homeowners generally had limited recourse to the financial 
resources needed to remedy the problem even if there was an agreed-upon 
remediation protocol. Some homeowners sought relief from the insurer 
covering their properties. Except where a specific policy provision 
covered the risk for faulty materials, insurers generally denied such 
claims, asserting that the damage to the homeowner was the result of 
the use of faulty materials by builders and thus specifically excluded 
from coverage. Litigation to overcome this assertion has generally 
failed in Virginia state courts and in the Federal court system, once 
again leaving the homeowner without the resources needed to address the 
problem.
    Homeowners also brought suit in the Federal courts against the 
manufacturers and distributors of the defective materials. This 
approach met with limited success. In a noteworthy case brought against 
a Chinese manufacturer (Tai-Shan Gypsum Co., Ltd.) in the U.S. District 
Court for the Eastern District of Louisiana, seven Virginia homeowners 
prevailed. In a default judgment, the trial court awarded damages 
ranging from $90,000 to more than $441,000. The average award was 
almost $373,000. However, the plaintiff families are yet to receive the 
proceeds of this case. Litigation, including appeals from this decision 
and additional class actions, continues. Within the past week, a 
Virginia couple also secured a default judgment against Tai-shan; 
however, as in the Louisiana trial, actually collecting the award will 
likely be a prolonged and uncertain process.
    Litigation in other states has been somewhat more successful. In 
Muscogee County (Columbus), Georgia, Lowe's Home Centers, without 
admitting wrongdoing, liability or fault, agreed to a settlement of a 
state class action suit that resulted in a total of $5.5 million being 
available to qualified claimants. In addition, the same Federal court 
in Louisiana that heard the seven Virginia plaintiffs has agreed to 
settlements with one of the multinational corporations (Knauf 
Plasterboard Tianjin Co.) producing drywall in China. It provides 
funding for the repair of hundreds of homes in four states (Florida, 
Louisiana, Mississippi and Texas). This case does not affect Virginia 
claimants directly. It involved products made by a different 
manufacturer and one that is not a solely Chinese enterprise as was the 
apparent case in Virginia.
The State Response in Virginia
    The legal and factual circumstances surrounding defective drywall 
claims differ from state to state. Once the nature and the potential 
scope of the problem in Virginia became apparent, the legislature and 
Executive Branch agencies became actively involved in responding to 
defective drywall issues.
Notice to Local Building Officials
    As early as 2009, the Division of Building and Fire Regulation at 
DHCD, responding to initial reports from the CPSC and other sources, 
sent an advisory memorandum to all local building officials, the 
parties charged with enforcement of the USBC. This alerted the 
officials to the emerging problems associated with certain Chinese-
manufactured drywall products. The memorandum noted the potential for 
the corrosion of metals by sulfur compounds and the hazards that such 
corrosion presented to occupants from a host of causes including 
malfunctioning smoke and carbon monoxide detectors. The advisory noted 
that while the CPSC and other agencies were just beginning their 
research into the problem, the use of the suspect materials should be 
discontinued and that segments of the construction industry be so 
advised.
Defective Drywall Task Force
    In early 2010, as the scope of the problem continued to grow, 
Governor Bob McDonnell assembled a drywall task force to learn more 
about the problem, hear from homeowners and other affected parties, 
determine the numbers of affected properties and consider possible 
areas for action at the state level. Task Force meetings and subsequent 
town hall events brought together local officials, homeowners, other 
affected parties and state agencies with potential roles to play in 
responding to the issue. These sessions revealed more fully and 
poignantly the extent to which defective drywall had disrupted the 
lives of hundreds of Virginians. They also began to outline priority 
areas for state action. These included the urgent need to provide 
homeowners and contractors with authoritative guidance on appropriate 
remediation steps as soon as possible. Participants registered their 
concerns about whether potential homebuyers and renters were receiving 
proper notice from sellers or landlords when properties contained 
defective drywall products were offered for sale or lease. Finally, 
homeowners--frustrated by the response of insurers, manufacturers and 
the courts-looked to the state to identify funding to support 
remediation activities once guidance was in place. This proved to be 
the thorniest issue in a time of overall financial stringency.
State Legislation
    During its most recent two legislative sessions, Virginia enacted 
measures that responded directly to aspects of the defective drywall 
problem. Earlier this year, the Governor signed HB 1610 and SB 942 into 
law. These bills, which the Virginia Housing Commission recommended, 
responded to concerns about the possible lack of disclosure of the 
presence of defective drywall in properties offered for sale or lease. 
Real estate professionals engaged by sellers and buyers, individual 
sellers and landlords with actual knowledge of defective drywall in a 
dwelling unit must disclose that fact to prospective buyers or tenants. 
Failure to disclose can have real financial and regulatory 
consequences. These identical bills went further to establish a 
reassessment process and other provisions that localities could use to 
grant property tax relief to homes with defective drywall.
    Also in 2011, SB 1294 brought defective drywall under the aegis of 
the Virginia Consumer Protection Act. The law prohibits suppliers, 
after March 25, 2011, from selling, offering for sale, or using 
defective drywall in the construction, remodeling, or repair of any 
residential dwelling in Virginia. This prohibition does not apply to 
the sale or offering for sale of buildings or structures in which the 
drywall was already in place.
    The first legislative attempt to address funding for remediation 
took place during the 2010 session. HB 46 created the Virginia 
Defective Drywall Correction and Restoration Assistance Fund for 
residential property. Loans and grants from the Fund could be used to 
pay reasonable and necessary costs for: (i) the remediation of a 
contaminated property to remove hazardous substances, hazardous wastes, 
or solid wastes, (ii) the stabilization or restoration of such 
structures or (iii) the demolition and removal of the existing 
structures or other work necessary to remediate or reuse the property. 
However, without an actual source of money, and with few prospects for 
a direct infusion of state funds given the current fiscal environment, 
the Fund remains empty. A key provision of the bill established a 
statutory definition of ``defective drywall'' that drew upon the extant 
research and findings published by the CPSC.
    Other initiatives that the legislature chose, for a variety of 
reasons, not to enact during the past two years would have:

  <bullet> Compelled insurers to provide coverage for the damaged 
        property,

  <bullet> Barred the cancellation of insurance coverage for property 
        that became vacant due to the presence of defective drywall,

  <bullet> Barred the nonrenewal of insurance coverage or changes in 
        rate structures based on the presence of defective drywall, and

  <bullet> Required the State Corporation Commission to levy an 
        assessment against state-regulated property and casualty 
        insurers to provide financial support for the Defective Drywall 
        Correction and Restoration Assistance Fund.
Regulatory Initiatives
    During much of 2010, affected parties continued to await 
authoritative guidance on the remediation of defective drywall 
properties from a variety of sources, including the CPSC. Based on 
information developed at CPSC and elsewhere, DHCD, following 
consultation with the state's Office of the Attorney General, concluded 
that it--or, more accurately, its Board--could act under existing 
statutory authority to bar the use of defective drywall products and 
provide remediation standards through an amendment to the Uniform 
Statewide Building Code.
    Following statutory procedures specifically intended to address 
defective or deficient building materials, DHCD and its Board conducted 
a process to define defective drywall, bar its use within the 
Commonwealth, and provide remediation standards that would allow the 
safe removal of the offending product and the restoration of property 
to a safe condition. With the participation of representatives of the 
building industry, the building materials industry, affected homeowners 
and other interested parties, the Department developed a proposal that 
was ultimately considered and approved for final publication in the 
Virginia Register of Regulations on August 29, 2011. The new 
regulation:

  <bullet> Prohibits the use of defective drywall in new construction,

  <bullet> Establishes a remediation standard for the removal of 
        defective drywall and the rebuilding of buildings affected by 
        the installation of defective drywall,

  <bullet> Defines defective drywall for the purposes of applying the 
        interim performance and remediation standards,

  <bullet> Requires a building permit for the remediation of defective 
        drywall,

  <bullet> Requires use of the remediation standards when defective 
        drywall is replaced and clarifies that the local building 
        official has authority to consider modifications to the 
        standards,

  <bullet> Requires the removal of defective drywall when remediation 
        is undertaken while permitting non-defective drywall to remain 
        in place under certain conditions,

  <bullet> Addresses the conditions for the removal and replacement of 
        insulation and flooring materials,

  <bullet> Addresses the conditions for the removal and replacement of 
        electrical wiring and plumbing and mechanical system components 
        and equipment,

  <bullet> Establishes cleaning, airing out, and clearance testing 
        criteria post remediation and prior to re-occupancy,

  <bullet> Establishes standards for agencies conducting pre-rebuilding 
        or post-rebuilding clearance testing,

  <bullet> Establishes standards for post-rebuilding clearance testing,

  <bullet> Addresses final approval by the local building official, and

  <bullet> Addresses the approval of remediation work undertaken prior 
        to the approval of remediation standards.

    As far as we are aware, these were the first general remediation 
standards for defective drywall to use the medium of uniform building 
regulations to give effective guidance for contractors and homeowners 
restoring residential properties to a safe condition. They are 
comprehensive in scope. Perhaps most importantly, they provide 
standards for post-remediation testing. Current and subsequent 
occupants of remediated residential property must have assurance that 
the problems associated with defective drywall have been eliminated so 
that these houses can once again become homes.
Other Sources of Remediation Guidance
    While DHCD was considering the provisions for a remediation 
standard, the CPSC continued to work on its recommended guidance. The 
National Association of Homebuilders (NAHB) and the Knauf Company (a 
global supplier of building products) also proposed varying responses. 
The U.S. District Court for the Eastern District of Louisiana included 
its own scope of remediation in conjunction with the Taishan Gypsum 
Co., Ltd. case. While there was considerable overlap among these 
proposals, there were also some significant differences. The most 
notable of these concerned the appropriate handling of electrical 
wiring in affected properties. The District Court generally required 
the most extensive remediation steps, going beyond not only the NAHB 
but also the most recent CPSC recommendations. The Court included the 
removal and replacement of all electrical wiring as well as removal and 
replacement of various hard-surfaced components of homes, such as 
cabinetry and tile floors.
    The most significant difference between the standard incorporated 
in the Virginia building code and those of the Louisiana court probably 
occurs in connection with electrical wiring and hard-surfaced 
components. Virginia does not require the complete removal of 
electrical wiring components or of woodwork, cabinets, tile or wood 
floors. Instead, wiring may be left in place so long as exposed ends 
are removed or cleaned to reveal clean or uncorroded surfaces. Hard-
surfaced-materials may be left in place or reused. On the other hand, 
the CPSC guidance does not go as far as the Virginia regulations in 
addressing the removal and replacement of items such as HVAC components 
and water service plumbing. These variations in applicable guidance do 
have implications for the cost of remediation.
Costs of Remediation
    It is perhaps no surprise that the Louisiana Court's remediation 
protocol, which required the most sweeping actions, appears to carry 
the highest cost--pegged at $86 per square foot. That would amount to 
more than $200,000 for a 2,400 square foot home--exclusive of temporary 
relocation costs and other ancillary charges. The National Association 
of Homebuilders suggested guidelines would fall well below that range 
(perhaps closer to $35-$50 per square foot) as would Virginia's new 
regulations.
    Several factors influence any estimate of the aggregate cost of 
remediating defective drywall in Virginia. These include the actual 
number of affected properties, the size of the housing unit, the extent 
to which the offending material is actually present, the number of 
sheets of new material needed to replace the defective product and the 
remediation standard. Homes where relatively little of the material was 
actually present or where it was limited to a specific area may not 
require as extensive a response. However, where the material is mixed 
with other drywall or scattered throughout the dwelling unit, the 
safest and most expeditious response is to remove and replace all 
drywall.
    Assuming that there are at least 400 affected housing units in 
Virginia, the estimated cost of remediation could reach or exceed $32 
million depending on whether only limited amounts of material were 
present in affected homes or if all drywall and other affected 
materials and systems had to be removed and replaced. Given what we 
know about the extent of the problem, it is likely that the costs would 
reach the estimate. Following the Louisiana Court's protocol would 
likely double this sum. Note that this only addresses the work done to 
the property itself and not costs associated with reimbursing residents 
for the time they would be relocated during the remediation process and 
other potential costs.
Funding Remediation
    Regardless of the specific dollar amount associated with varying 
remediation standards, the most salient fact is that, for a variety of 
reasons, most of the parties affected by defective drywall lack the 
resources to pursue remediation without assistance. Further, at least 
in the case of Virginia, few viable sources of funding appear to be 
available. Unless the manufacturer associated with the materials 
implicated in the affected Virginia homes agrees to a broad settlement, 
litigation is likely to be long and frustrating with no certainty that 
claimants will be ever be made whole. While the state and its local 
governments have offered tax relief to affected owners, such relief 
cannot provide the front end funding needed to begin the remediation 
process.
    The straitened financial circumstances of state and local 
governments make them less able to offer financial assistance to 
homeowners than might have been the case in earlier times. Annual 
funding available to states and affected entitlement jurisdictions from 
formula-driven Federal program sources, such as those administered by 
HUD, fall well short of the scope of the problem in Virginia and 
include features that may limit their direct use in the response to the 
drywall issue.
    Virginia has explored other options, including the possibility of 
setting up a low/no-interest loan fund to give affected homeowners 
access to the front-end money needed to pursue remediation. 
Unfortunately, the wider decline in housing market values as well as 
the even more catastrophic losses associated with property identified 
as containing defective drywall, means that there is almost no equity 
in these homes to provide security for loans under current 
circumstances.
    Virginia has used low/no-interest loan programs successfully for 
many years to finance low-income home purchases, the remediation of 
indoor plumbing deficiencies and more general home rehabilitation 
initiatives. In each of these cases, however, the expectation built 
into the projects was that at some point in the future--whether by a 
subsequent sale of the property, a market rate refinancing, or even in 
the case of delinquency and ultimate foreclosure--some equity would be 
available to return to the underlying program. That assurance does not 
appear to present in the case of defective drywall homes. As a result, 
any financial aid might effectively amount to a grant in aid at a time 
when the state, like other governmental entities is working hard to 
meet its existing obligations for a wide array of vital public 
services.
    As an alternative, Virginia is also exploring the possible use of 
HUD Section 108 Loan Guarantees authorized under the Community 
Development Block Grant Program to provide loans to affected 
homeowners. It is unclear whether such a mechanism is feasible. Program 
requirements may limit the availability of this option to some affected 
parties or communities. The ability of homeowners to repay even loans 
at this relatively favorable rate is a practical constraint. Despite 
their nominal incomes, many households could find it difficult to repay 
loans while continuing to remain current with mortgages--especially 
when those homes have little or no remaining equity in their current 
state. Success might depend on the willingness or ability of the 
original mortgagee to agree to a modification based upon the potential 
benefits of a successful remediation effort, including more stable home 
values, the restoration of equity, and an increased likelihood of 
future mortgage payments. Nonetheless, even this approach faces long 
odds and is unlikely to offer a broad remedy for the bulk of affected 
homeowners.
Closing Thoughts
    The circumstances surrounding defective drywall are nearly 
unprecedented. Previous instances of the failure of construction 
materials have generally involved domestic manufacturers and suppliers 
of new products. Defective drywall involves international trade in what 
was seemingly one of the most mundane commodities used in construction. 
The fact that some of the manufacturers have virtually no legal or 
business presence within the United States severely constrains the 
ability of individuals, or their home states for that matter, to attain 
redress. The scale of the aggregate costs of the product and the fact 
that its effects and substantial costs extend across several states 
strongly suggests that there is a need for the Federal Government to 
become even more active in responding to this issue. The CPSC and other 
agencies have provided valuable information that helped identify the 
source and nature of the problem and lay out a technical path for the 
safe remediation of affected homes. Now the Federal government needs to 
consider putting its shoulder to the wheel in addressing the next step 
of the process-marshalling the financial resources that enable 
homeowners to undertake remediation.
    Virginia, like its sister states, will continue to pursue workable 
methods for getting the product out of homes and people back into them. 
In the end, of course, the best solution would be for those who 
produced a product that has disrupted the lives of our citizens to take 
financial responsibility for those consequences.

    Senator Pryor. Thank you. Mr. Shelton: That concludes my 
remarks. Senator Pryor: Thank you. Ms. Brincku.

           STATEMENT OF BRENDA BRINCKU--ALVA, FLORIDA

    Ms. Brincku. Thank you for the opportunity to appear, 
Chairman Pryor.
    I especially want to thank Senator Nelson for personally 
inviting me here, and for meeting with us in the office in 
November 2009.
    My name is Brenda Brincku, and my test--my drywall home is 
in Alva, Florida, where I lived for four and a half years with 
my husband George, my son Harrison, and my two daughters, 
Christine and Ashley.
    Three years ago, a few days before Christmas, we found out 
that our home was what was making us sick and corroding our 
electric wires and our A/C unit.
    We were both owner-builder of our home in Alva, which was 
built in 2004 using American-made drywall. I bring this to your 
attention because so much of the problem has been focused on 
defective Chinese drywall.
    Despite the manufacturer, if your drywall is defective, 
your nightmare becomes your reality. We suffered the very same 
consequences as the Chinese drywall homeowners. We got sick; 
our homes smell; our electrical wiring corroded; and we had 
seven air conditioning units fail. Our financial well-being has 
been decimated. My dream home is now valued at zero. My taxes 
used to be $4,000 a year, are now just $254.
    The expense of this disaster has destroyed our credit, and 
we no longer have credit cards. The simply act of getting a 
hotel to testify today was now impossible.
    Our small family-owned landscape was diminished, and when 
our clients realized that they had Chinese drywall, and then 
they, and their neighbors, due to the loss of the value of the 
whole neighborhood, canceled their contracts. We had to leave 
behind bedding due to the fact that our coils inside our beds 
were corroded.
    As grown adults, we are now forced to turn to our parents 
for financial support, when, in turn, hurt them financially. 
Never did we, or my parents, imagine that this would be allowed 
to go on for so long.
    I appear before you today representing the tens and 
thousands of homeowners across the United States that have any 
type of defective drywall in their homes. Please read the 
homeowners' testimonies that have been submitted to the 
Committee so that you can understand what a devastating impact 
this has been on American families.
    Despite what you may have heard in the news, homeowners 
with defective drywall are still suffering tremendously 
financially, emotionally, physically. Senior citizens who 
purchased their home outright are now forced to pay rent to 
live in a safe environment or are forced to stay in a toxic 
home. Three of the homeowners sitting here today in the hearing 
room have lost or are losing their homes.
    A Florida homeowner moved into a tent on her property this 
past weekend. A Virginia homeowner was forced into bankruptcy 
from toxic drywall, but a mortgage company is holding up the 
bankruptcy hoping for money from the legal settlement, which 
could take years. Military families, if they are forced into 
bankruptcy or foreclosure and or not being able to sell their 
homes when they get--change orders to their new duty area. This 
is upsetting for the children, because they have to leave their 
friends, their neighbors, their schools, and in many instances, 
their toys, personal items, because odor from their 
contamination is horrendous.
    Families have been told to leave their homes by their 
pediatricians and physicians due to extreme illnesses, 
autoimmune, kidney disease, kidney cancer, extreme breathing 
problems, unimaginary fatigue, death of pets and cats and dogs, 
death of family members.
    Where are families and their physicians to turn to? Where 
are the families and physicians to turn to for assistance? Many 
of these families had to seek out professional help, another 
expense, to help them deal with this surreal experience. The 
CPSC is too small of a Federal agency to deal with such a large 
issue. The financial remediation guidance says corroded 
electrical wiring can remain in a contaminated home; leave the 
wiring is a miniscule expense in the whole remediation process, 
and never should be left considering the hazard. Requires 
electrical wiring check every 40 years. The CPSC says there is 
no health hazards and no safety issues but yet the drywall must 
be removed.
    What are we to do with this type of information? When would 
this findings be peer reviewed? What can the Committee and the 
Congress do to help? The House of Representatives has a caucus 
dedicated to contaminated drywall. The Congressional caucus and 
the Committees can. Most important is our health. Require the 
CDC to start gathering health information, and appoint a 
specialist to be available to answer ongoing health concerns 
from toxic drywall homeowners and their physicians. Hold 
another hearing, and call in the manufacturers to let them know 
that they will be held liable by our Government for the 
destruction of these homes, just like it was done with Toyota, 
Haliburton, BP and Transocean. Help homeowners restore their 
credit, via extenuating circumstances ruling to pre-toxic 
drywall status. Help prevent foreclosures for the few 
homeowners that wish to try to save their homes in hopes of 
legal settlement. Meet regularly to craft legislations and 
produce minutes to be made available to the public.
    Call in the insurance industry to the next hearing to 
discuss lack of coverage. To date, all the insurance from 
homeowners, installers, suppliers, builders deny coverage, 
citing the pollution exclusion. Provide legislation that 
authorizes no-interest loans to help homeowners remediate. 
Establish drywall standards to help prevent this from happening 
in the future.
    We request the Attorney General look into the fact that 
some American businesses knew about the problem caused by this 
toxic problem and chose to cover it up, not inform homeowners 
or the Consumer Product Safety Commission. If this is not 
illegal, then laws need to be changed.
    The toxic drywall homes that are now owned by the banks 
need full disclosure upon sale, so that the second generation 
families will not become victims of this toxic product.
    Federal regulators have dropped the ball, and we hope this 
committee can help turn that around and send Federal assistance 
to these devastated American families. The victims of toxic 
drywall have sat and watched our Government rush off to help 
citizens in other countries for the last 3 years, while we have 
been completely ignored. We watched as our Government sends $20 
million to Pakistan to create Sesame Street. In these dire 
times in our own country, our money should not be going 
overseas--taxpayer money should not be going overseas, but 
staying here and helping to put our country back together.
    Once again, I thank you for the opportunity to testify 
before you on behalf of the homeowners suffering with defective 
drywall, be it Chinese or American made. If time permits, I 
will be attempting to answer any questions the Committee may 
have for me.
    [The prepared statement of Ms. Brincku follows:]

          Prepared Statement of Brenda Brincku--Alva, Florida
    Thank you, Chairman Pryor and members of the Committee for this 
opportunity to provide testimony to the Senate Subcommittee on Consumer 
Protection, Product Safety and Insurance. I would also like to express 
my personal appreciation to Senator Bill Nelson for his commitment to 
helping affected homeowners whose houses are contaminated by sulphur 
compounds emitted from defective drywall. I am convinced that these 
compounds are causing health and safety problems for my family and 
countless Americans.
    My husband George and I are just one of tens of thousands of 
homeowners who, through no fault of our own, have been devastated by 
having defective drywall in our home. Unlike the common complaint about 
Chinese Drywall, we had National Gypsum American made drywall in our 
home. We had no Chinese drywall in our home yet our American drywall 
was causing the same effects as those experienced with Chinese drywall.
    American drywall has destroyed our home. Both American and Chinese 
drywall have destroyed our landscape business. Many of George's 
landscape clients had Chinese toxic drywall in their million dollar 
homes. Some of our clients that lived in the neighborhoods with Chinese 
Drywall homes but did not have the defective drywall in their homes 
felt the toxic drywall homes where bringing down the value of their 
homes. Both sets of clients decided to stop investing money in their 
homes and landscaping due to the contaminated Chinese drywall homes. A 
lot of my husband's clients have walked away from their million dollar 
homes since their builder wouldn't step up to the plate and the legal 
cases are being dragged out in the court system.
    We had to move out of our defective American drywall home on March 
14, 2009 and we moved into a rental home about 25 minutes away. We have 
been trying to run our landscape business traveling back and forth 
between our toxic and our rental home. Our landscaping business was run 
from our acre and a quarter property where the toxic home sat. Now that 
we are no longer able to live there we cannot keep our inventory on 
hand for fear of it being stolen from the property of the abandoned 
toxic home. Our rental home is in a community which won't allow us to 
run a landscape business out of our home. George has had to obtain a 
new position at a nursery and we continue to service our last few 
clients from the landscaping business.
    In 2003, George and I invested our savings and our hearts into the 
purchase of a property in Alva, Florida. We acted as owner/contractor 
in building our home. We made a full effort to employ local 
subcontractors to help with construction. I remember the many days and 
nights both George and I fell exhausted from the days work only to 
strive for the next days tasks to build our dream together.
    Shortly after completion of the home in October 2004, we 
experienced failures of 3 coils in one AC unit and 4 coils in our other 
air conditioning unit, blackening of electrical wiring and failure of 
household appliances. After we found out we had the defective drywall 
our homeowners insurer asked us to turn the electric off to our home 
when we were not there because they feared there would be a fire. I 
realize that much of the attention has been paid to those with 
defective Chinese drywall, yet there is a universe of homeowners like 
us, with American made drywall, who have yet to be acknowledged as 
having a problem.
    The impact that this has had on my family is unimaginable. My three 
children lived in this toxic environment and then had their lives 
turned upside down when we were forced to abandon our home and leave 
many of our personal items behind for fear of contamination of our new 
residence. My son lived in this house for half of his life and now, for 
the rest of our lives, we have to wonder what impact this will have on 
his future health, the health of all of our family members. If this 
toxic product has corroded the silver and copper items in our home what 
has it done to our lungs, our health, our bodies. We know we were 
horrendously sick living in that toxic home and we must ponder the long 
term effects forever.
    For today, however, I represent everyone across the United States 
and abroad who continue to suffer the ill effects--physical, emotional 
and financial--resulting from having defective drywall in their homes.
    George and I are among a few outspoken homeowners who have been 
advocates for these victims. We have been involved from the very start 
of this problem, yet little help has been provided to us to date.
    I would like to summarize what has occurred at the Federal level. 
However, I preface my comments by stating that, short of some 
homeowners receiving local property tax relief, the federal agencies 
working on this problem for over four years have failed us.
The U.S. Consumer Product Safety Commission Failed Us
    The CPSC is the lead Federal agency responsible for addressing the 
safety issues surrounding the defective drywall problem in the United 
States and its Territories. This Agency is ill equipped to deal with 
such a large scale defective product issue. The CPSC has invested 
millions of dollars in testing homes with the defective drywall and has 
made a valiant effort to find a solution. We have been provided with 
study after study, many which are not peer reviewed. The findings of 
the studies have often been published late on a Friday afternoon to 
avoid media attention.
    The Final report released by the CPSC provided its recommended 
remediation protocol which told homeowners that it is acceptable to 
leave the electrical wiring in a home. To me this protocol is useless 
and I would never put my family in a situation where we may be killed 
in a fire cause by an electrical malfunction from defective drywall. I 
invite the CPSC to talk to some of the contractors who have remediated 
these homes. In every case they have found that the corrosion caused by 
the defective drywall has spread far beneath the casing of the 
electrical wires. CPSC did offer some advice to homeowners. They 
suggested that we have the wiring checked every forty (40) years. 
Imagine that, how would one do that when the average home is sold once 
every 7-10 years.
    I realize that the CPSC has just over 400 employees nationwide and 
that they spent a major portion of their budget on the drywall problem. 
Much of the cost could have been avoided if they had in-house 
expertise. Early on there was a Multi-Agency Task Force Formed to 
address this, but I found that coordination and communication among the 
agencies involved was inconsistent at best and should be considered a 
failure.
The U.S. Internal Revenue Service Failed Us
    I would like to personally thank Senator Nelson for his involvement 
in directing the IRS to provide homeowners with defective drywall the 
ability to claim a casualty loss on their income taxes if they had 
remediated their drywall homes themselves. This provision only helped 
homeowners who were wealthy enough to have remediated their homes and 
did nothing for the tens of thousands of other homeowners. While in 
principal, this tax relief is welcomed, under the provisions issued by 
the IRS, homeowners who may receive compensation in the courts would 
then be required to declare that compensation as income making the 
casualty loss useless once/if court cases were settled and compensation 
was distributed.
The Federal Emergency Management Administration Failed Us
    As homeowners searched for every opportunity for resources, we 
quickly turned to FEMA to declare the defective drywall problem as a 
national emergency, thus releasing emergency funding for temporary 
housing, and for low or no interest loans. The damages from the 
defective drywall are likened to damages suffered in a hurricane or 
other disaster. In fact, both Senators Warner (Va.) and Nelson (Fl.) 
referred to the defective drywall problem as a ``Silent Hurricane.'' We 
were told by FEMA that they could only act if the Governor of our State 
requested a Federal declaration.
    Homeowners in Florida began petitioning then Governor Charlie Crist 
to request the necessary declaration; however, the Governor had his 
Director of Emergency Management request FEMA assistance, which was 
quickly declined because the request was not from the Governor. Further 
attempts to have the Governor directly request FEMA help failed.
The U.S. Department of Housing and Urban Development Failed Us
    Once again Senator Bill Nelson petitioned another Federal agency 
for assistance for homeowners. Senator Nelson thought there may be an 
opportunity to utilize Community Development Block Grant Funding for 
remediating homes with defective drywall, the premise being that these 
funds could be used if the homes with defective drywall were considered 
blight. This idea gave us hope, yet in practice, we found that the 
funds were administered by the local government and were already 
allocated; and we quickly found that we would be competing for the 
funding with Victims of Domestic Violence, the homeless, and Victims 
with AIDS. In reality, the CDBG funding was so small it would only help 
1-2 homeowners if the entire budget was used solely for the defective 
drywall home.
The Center for Disease Control Failed Us
    There are many health symptoms that homeowners and especially 
children have, as a result of being exposed to defective drywall. 
Nosebleeds, skin rashes, respiratory issues, sore throats, dizziness, 
and burning eyes and autoimmune disease are just some of the health 
problems homeowners are experiencing. Others have reported greater 
problems including central nervous system effects, restless leg 
syndrome, hair falling out and some even claim that deaths have 
occurred from the off-gassing. With all of these complaints, the State 
Health Department in Florida did not have the resources for individual 
testing of homeowners and once again Senator Bill Nelson asked CDC to 
look into the health aspects.
    The CDC reviewed available data and drew a conclusion that the 
symptoms that homeowners were experiencing were similar to common 
ailments like having a cold or allergies. The CDC response in their 
online drywall document was that homeowners should ``Go outside to get 
fresh air'' if they could not breath in their own home!
    The CDC recently issued a final decision that there will not be a 
long term health study associated with the effects of having defective 
drywall in a home.
The U.S. House of Representatives Drywall Caucus on Defective Drywall 
        has Failed Us
    We appreciate those Members of the House of Representatives who 
have come to our assistance by becoming members of this Caucus. Having 
said that, it should be noted that until recently, the group rarely met 
and attendance was dismal.
    Statistics reveal that millions of board-feet of defective drywall 
enter the United States and its Territories--enough to build 100,000 
homes nationwide. Defective drywall has been discovered in at least 41 
of the 50 United States. There are 435 Members of the U.S. House of 
Representatives.
    These statistics are telling because the problem of defective 
drywall is so widespread yet there are only a handful of Members of the 
House of Representatives who actively participate on the Drywall 
Caucus. How can that be? I realize that each Member has a lot to do but 
there seems to be a lack of attention to the defective drywall problem 
on a national scale.
    I ask that the Committee consider the following ideas:

  <bullet> Require the Consumer Product Safety Commission to arrange 
        for a peer review of its final remediation guidance, 
        particularly because leaving electric wiring in a contaminated 
        home is clearly an unsafe condition. Peer reviews are a normal 
        part of any technical decision that affects the public and in 
        this case the CPSC issued its final guidance without a formal 
        peer review process or public hearing and/or public input as 
        required by the Federal Code of Regulations.

  <bullet> Direct the CPSC to declare this product a hazard

  <bullet> Direct the CPSC to create standards for drywall content

  <bullet> Direct the Center for Disease Control, in conjunction with 
        State Health Departments across the United States, to conduct a 
        long term health assessment of the effects of defective drywall 
        on humans.

  <bullet> This Committee should be the catalyst for Members of 
        Congress to be made aware of and actively participate in the 
        Congressional Drywall Caucus.

  <bullet> This committee should undertake the responsibility to pursue 
        the availability of low or no interest loans to homeowners who 
        wish to remediate their homes. Perhaps the Small Business 
        Administration would be one avenue to pursue.

  <bullet> This committee should work to restore the credit of families 
        who, through no fault of their own, have lost their homes due 
        to this toxic product be it via short sale, bankruptcy or 
        foreclosure.

  <bullet> Lastly, the Committee should consider the possibility of 
        homeowners receiving Federal grants under a declaration similar 
        to that of a hurricane or flood, and administered by FEMA. At a 
        minimum the grants should be available to those wishing to 
        relocate to temporary housing.

    In conclusion, I would like to again express my appreciation to the 
Committee and to Senator Nelson for this opportunity to provide 
testimony on this important issue. I stand ready to answer any 
questions the Committee may have. Thank you.

    Senator Pryor. Thank you.
    Ms. Brincku, let me start with you. And again, I'm sorry 
that you've had to go through all this. It's just been a 
terrible hardship. But, let me ask just a few questions. And I 
think you touched on all these, but I want to make sure I 
understand the answers.
    I want to go back to legal recourse under the circumstances 
you, in your case, maybe rarer than the other ones, you have an 
American company who manufactured this. What, do you have any 
legal recourse against that company?
    Ms. Brincku. We are going to trial in May, the first 2 
weeks in May, at Fort Myers. And, you know, for us, it's the, 
this issue, the same things that happened to us, just like any 
other homeowner with Chinese. And we've lost our business; 
we've lost, you know, our home is, we're going through 
moratoriums. Every 3 months we get reviewed. And then, you 
know, fighting for the victims, and watching what has happened 
to them, it's the same things as what is happening to 
American----
    Senator Pryor. And your homeowners insurance doesn't cover 
this?
    Ms. Brincku. No. Our homeowners, or builders insurance. And 
our homeowners----
    Senator Pryor. But, there's some sort of exclusion in the 
policy?
    Ms. Brincku. Yes. Pollution exclusion. And also, our 
homeowners insurance told us to flip off the electricity. They 
were worried and concerned about a fire.
    Senator Pryor. OK. So, you've also tried to work through 
your contractor, but no----
    Ms. Brincku. We are the owner-builder.
    Senator Pryor. OK.
    Ms. Brincku. We are the contractor.
    Senator Pryor. OK. And, you've told us what you think the 
Congress should do and what the agency should do. So, I 
appreciate you coming in today, and I appreciate your testimony 
today. And, we will continue to try to do this. The two 
senators here, as well as some others who aren't here today 
have been working on this for a while. But, we've run into some 
brick walls ourselves.
    Mr. Shelton, let me ask you a question about Virginia. You 
mentioned that you, the state has a drywall task force, and 
that you've done some requirements now about disclosure upon 
the sale of the homes, I guess is how that works. And, you have 
this new remediation standard. And you mentioned that it's hard 
to figure out how to pay for the remediation. That's a 
difficult thing. Is it your experience that generally 
homeowners policies don't cover this?
    Mr. Shelton. That's correct. I think the experience in 
Virginia was very similar as Ms. Brincku described. There's 
usually a hazard or a pollution exclusion in those that has 
been tested through the courts. In fact, there was proposed 
legislation to try to unwind that in Virginia that was 
unsuccessful. Generally, the conclusion has been that was a 
preexisting contract that was defined in the terms, and that's 
been upheld on the insurance companies. And so, homeowners have 
not been able to get any relief.
    Senator Pryor. OK. And, you mentioned the costs of 
remediation in your state, and I wasn't quite sure I followed 
that exactly, but there may be a national figure, and you guys 
think you can do remediation cheaper in your state?
    Mr. Shelton. Well, this is an evolving field, so the first 
standard, I believe, that anyone put forward was in the courts. 
And there was professional testimony in Louisiana, and that 
involved removing all of the drywall, all the electrical, all 
of the soft surfaces, as well as many of the hard surfaces. So, 
trim; cabinetry; and lots of tile floors all would have to be 
removed. That's almost----
    Senator Pryor. What about the plumbing? You----
    Mr. Shelton. Not so much the plumbing, unless it was 
copper. If it's copper line pipes, yes, because--but the 
plastic pipe didn't seem to be affected. But, it was more the 
copper elements, or, that would corrode.
    That was estimated at about $86 a square foot, which gets 
up pretty high in many of these homes, which are not, you know, 
there are different experiences. But in Virginia, they're 
larger homes.
    What we believe is that if you don't require the removal of 
those hard surfaces, which, we think the testing from CPSC and 
others shows that you really don't have to do; and then, the 
big issue was removal of electrical wiring. Initially we were 
looking at having to remove all wiring. The decision came down 
after CPSC issued its updated guidance, was that you would not 
have to remove all wiring. All devices, yes. And you would have 
to strip the wiring back to show that there was no corrosion. 
But, if you did that, we believe that you can leave wiring in 
place, and that's a major cost factor in this remediation.
    So, by doing those things and not removing the hard 
surfaces, it gets you down, the estimate is somewhere between 
35 and 50, depending on the kinds of materials used in the 
home; but it makes it more affordable.
    Senator Pryor. OK. But that's still a lot of money for 
people.
    Mr. Shelton. It would definitely be a lot of money, and 
could not be done within the means of most of these homeowners. 
That's correct.
    Senator Pryor. And the inconvenience of having to probably 
move out of the home while that's being done, and----
    Mr. Shelton. Absolutely. But, I think the experience is 
that most homeowners are not in their homes right now.
    Senator Pryor. All right.
    Senator Wicker.
    Senator Wicker. Well, it is just heartbreaking.
    Let me follow up on that line. Mr. Shelton, at $35 a square 
foot, which would be the lower end of your estimate, a 2,000-
square-foot home, am I right that that's $70,000?
    Mr. Shelton. That's correct, Senator.
    Senator Wicker. And some homes are smaller than that, and 
some homes are larger than that. But, try to do with math with 
8,000 homes nationwide, that's over half a billion dollars.
    Mr. Shelton. It's a big number. In Virginia alone, our 
estimate was on the low side in the 30 million range; and it 
might be upwards of the 50 million range. That was an estimate 
of some 300 to 400 homes.
    Senator Wicker. Well, you know, the home is the castle. 
And, Ms. Brincku, I just, I hope there's something that the 
brightest minds in Washington, D.C. can come up with to give 
you some sort of solution. And, at least, you have a redress 
through the courts.
    Have any other homeowners from this particular American 
manufacturer company had complaints?
    Ms. Brincku. Yes. Yes. There is, there are homeowners. And 
some have lost their homes in waiting for the process. Their, 
the banks have taken their homes. The banks refuse to work with 
homeowners.
    Senator Wicker. Approximately how many?
    Ms. Brincku. Excuse me?
    Senator Wicker. Approximately how many homes are----
    Ms. Brincku. We have about 100 cases of----
    Senator Wicker. Of that particular----
    Ms. Brincku. For National Gypsum that are waiting. There's 
others that have also had, other American drywall companies 
have also had problems.
    Senator Wicker. Do you think that National Gypsum adopted 
different standards in the years shortly before you purchased 
the drywall? What is it that happened all of a sudden with 
their product?
    Ms. Brincku. We are not exactly sure. We've done a lot of 
research. There was a lot of different things going on at that 
time. And there is shortages. They were running their factories 
24/7. So, there's a lot of different things, theories that we 
have, that then could have gone wrong at that time.
    Senator Wicker. Mr. Cohen, Ms. Brincku suggests that your 
studies were not peer reviewed. Would you respond to that? You 
know, I have been someone who for a decade and a half in the 
House and Senate has always called for sound science: Let's 
listen to the scientists, and don't jump to conclusions. But, 
she suggests that a peer review of these various studies might 
have revealed something more helpful to the cause of these 
8,000 families.
    Mr. Cohen. Yes, Senator Wicker. The studies that we 
conducted were conducted with our top national laboratories and 
using some of the top scientists. And we've conducted those in 
consultation with our partner agencies and with private 
scientists as well, to make sure that there was nothing but the 
highest level of science going on. And we stand behind those 
results completely. And we feel so confident that the science 
was of the highest caliber that we posted all of those 
materials publicly on our website as soon as they were reviewed 
for quality control and quality assurance.
    We've also put all of the raw data underlying those studies 
publicly available so that anyone in the country can take issue 
and study, and review our studies if they feel that they're not 
done adequately.
    To date, though, we have received no scientific 
contradiction to our studies from others who have really 
questioned the adequacy of our studies. We, our goal was to get 
that information done right the first time, and to get it out 
to the homeowners and to the public so that they could use it 
as quickly as possible, and that's what we did.
    Senator Wicker. You're not suggesting that the health 
symptoms are not there, are you?
    Mr. Cohen. I'm not suggesting that at all, Senator. I've 
been in a home myself. I have experienced them, as have other 
members of the staff. We've experienced them differently, and 
different homeowners experience them differently. Approximately 
half of homeowners report no health effects, and approximately 
half do. And the half that do report differing levels of 
sensitivity, from slight sensitivity to a great sensitivity.
    We're not suggesting that they don't exist. We're 
suggesting that we don't--we have not been able to explain them 
with the low levels of emissions that we're able to measure in 
the home.
    Senator Wicker. OK. Well, so, you haven't ruled it out, 
then. You simply have not been able yet to establish a causal 
connection. Would that be a fair statement?
    Mr. Cohen. I think that's a fair statement. And we'll be 
looking to our colleagues at CDC. If they're able to provide us 
with additional information in their health consultation. We 
would, of course, consider that in our investigation.
    Senator Wicker. Do any of you--maybe Dr. Portier, or maybe 
Mr. Shelton--can the drywall be tested before delivery at this 
point? Do we have the scientific capacity now to test drywall 
for this sulphuric and adulterated presence before it is 
brought to a home? Can anyone answer that question? Mr. Cohen, 
it seems----
    Mr. Cohen. I'll take the question. Yes.
    Senator Wicker. OK.
    Mr. Cohen. We are working, as I mentioned in my opening 
statement, with the Gypsum Association and ASTM International, 
which is a voluntary standard-setting organization, to do two 
voluntary standards. One of which, we're pleased to announce, 
went into effect last month. That standard focused on the 
labeling of the drywall, because one of the major problems we 
encountered in our investigation was--it's very hard to track 
when you go inside a home that's been painted and to get behind 
the board. Oftentimes the drywall is not marked by point of 
origin. That will now be changing. It'll be marked by a code. 
It'll be marked on a regular basis, so that we'll be able to 
trace the drywall.
    The second standard that we're working on, and we continue 
to work with the Gypsum Association and with ASTM 
International, is on a performance emission based standard, 
which is what you're alluding to, which is to be able to 
measure the levels of gasses, and what acceptable level would 
be permitted, if any, coming off the----
    Senator Wicker. When it is still at the warehouse.
    Mr. Cohen. I'm sorry?
    Senator Wicker. When it's still at the warehouse, or, the 
manufacturing plant.
    Mr. Cohen. Absolutely. And trying to--there are, there is 
the technology available to test that. I think that was your 
first question. And what the industry, and what we're trying to 
work with industry to figure out is, what are the acceptable 
levels, if any, of--you know, because some of these materials 
are naturally occurring, and so you can't completely get them 
out. But, at a very low level, I think, we're going to agree on 
a number that will assure, provide some assurance.
    Senator Wicker. You know, if Senator Warner will withhold 
for one final question, maybe I won't take a second round, 
then.
    Tell me, are we aware of any problems that have occurred in 
other countries that have received this Chinese drywall? It, is 
it strictly an American phenomenon? Or, should we perhaps have 
known from other instances before we started actually importing 
it?
    Mr. Cohen. It appears to be a strictly American phenomenon 
located in your region--the Gulf Coast region, and Hampton 
Roads area.
    Senator Wicker. I just suggest there's a lot we still don't 
know about the science.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Pryor. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    And, a lot of questions. One, following up on why, in an 
inquiry, you asked about, with the insurance companies. As a 
matter of fact, what even happens, it's so absurd, is if, when 
you have, we had in Hampton Roads a responsible homeowner, or 
home builder go into a series of homes and start to remediate 
off her own nickel, and she got sued by her own insurance 
company. A major homeowner-developer.
    And again, I, Mr. Cohen and Dr. Portier, we've gone around 
and around on this a number of times. But, you know, this 
health causation, it just seems strange to me that we've not 
been able to determine this health causation issue; yet, we all 
acknowledge that for many people there are health effects. 
Anybody that's been in one of the homes can see the corroded 
wire. There's no doubt about the corroded wire. And even the 
potential, then, is, as Ms. Brincku said, the potential health 
hazard from a fire potential on the--and you go ahead and 
acknowledge that people should go through remediation. It, 
there seems to be just a disconnect there.
    And, I know, Dr. Portier, you said in spring of 2012 now, 3 
years after the fact, we're going to get the final CDC back 
about causation?
    Dr. Portier. Causation is an interesting term you're using 
here, so I'm going to take a minute and back away from it a 
little bit. These particular gasses are toxic to human beings. 
There is no doubt about that. It's a question about the level 
of exposure, and whether you would manifest that toxicity for 
those levels of exposure that you are seeing in these homes.
    Senator Warner. Would you allow your family to live in one 
of these homes?
    Dr. Portier. Probably----
    Senator Warner. As a doctor.
    Dr. Portier. Probably not. That's part of the reason why we 
are looking at it the way we are looking at it now.
    The amount of time it would take to do a formal health 
study would not do anyone any good in this particular case. 
What a health consultation will allow us to do in this case is 
to calculate what we think the peak exposures were in the homes 
early on, or during warm days, or during days with high 
moisture in the air--things that would affect what those 
concentrations were. And, using that, we can look to see if we 
missed the boat in measuring in the homes--the 51 home study. 
Because the way you measure is over a longer period of time, 
and so, it's an average exposure.
    So we want to look very carefully at what those exposures 
might have been in those homes, and think in terms of whether 
it has crossed a threshold of human health effect.
    Senator Warner. I think the most telling part of your 
comments was that you wouldn't let your own family live in one 
of these homes.
    You know, one of the things that's also important, Senator 
Wicker, with, that, we talk about causation, and the lack of a 
full standard. Yet there are companies out there settling suits 
on, legal suits on this issue. So, companies don't settle 
unless they feel like at the end of the day they're going to be 
found guilty.
    And, one of the questions I have, Mr. Cohen, is that, you 
know, I know that Chairman Tenenbaum has had now, I think, 
three bilaterals with China on this, trying to force the 
Chinese companies, and particularly some of the ones that, 
Taishan, who came into Virginia, to bear some responsibility.
    I want you to, I'd like to know what the status of those 
conversations are; and, as well, again, to Senator Wicker's 
point about--do, are we aware of how much additional Chinese 
drywall may be sitting in warehouses around the country? And, 
God forbid, let's make sure that there's some warning put on 
that. And is there any possibility that there could be some of 
that stored drywall still being sold into the marketplace?
    So, if you can address both the question of the status of 
the negotiation with the Chinese, and then, if we have any 
record of where this drywall, that may not have been sold, is 
in any storehouses around the United States, and making sure 
that that's not sold into the marketplace.
    Mr. Cohen. Yes. As you correctly noted, we have had some 
very high level discussions--that Chairman Tenenbaum has had 
very high level discussions with our Chinese counterpart, 
AQSIQ, the regulator there.
    When this investigation began in June of 2009, we 
coordinated with that group, and we had two of their officials 
visit homes in Florida and visit CPSC headquarters. We then 
secured an invitation to go to China and send an investigatory 
team there to look at some of the factories and to try to get 
into some of the mines. Since that time, the item has remained 
on our monthly agenda with them.
    But on a much higher level, we've really pushed to raise 
it, as you noted, to the bilateral China summits, and even the 
recent trilateral summit involving the EU. We pushed it on very 
high levels of the Department of State, the Department of 
Commerce. We've provided briefing papers to former Ambassador 
Huntsman on this.
    As a small agency, we have pushed and pushed. And we know 
that members of the subcommittee have also done so, and we 
appreciate that.
    To date, there have been no response from the Chinese 
manufacturers. They are basically telling us, ``return to 
sender,'' and they don't see a problem with their drywall. And 
their response has been pretty similar in the private 
litigation as well. Unlike the one German conglomerate that's 
made an appearance, these other Chinese companies have not come 
to make an appearance, and to get involved in the settlement 
discussions that you alluded to.
    In terms of your second question regarding the other 
Chinese drywall, I'll note that the import of Chinese drywall, 
which was basically, the vast majority was in 2006, was in a 
response to the overheated housing market and the post-Katrina 
and Rita situation. It was a very unique historical and 
economic moment. So, we don't see the economics supporting any 
new drywall coming in. And, in fact, we have verified every----
    Senator Warner. What about any of the drywall that may have 
been imported in 2006----
    Mr. Cohen. Right.
    Senator Warner.--sitting in warehouses in the----
    Mr. Cohen. We are aware, we have tracked some of that 
drywall--it is a limited quantity--to a couple of warehouses. 
And we have, and we do maintain contact with those, the owners 
of that, and we've advised them that they should not be 
distributing that in the marketplace, and if they intend to, 
that they should notify us before doing it, because we may want 
to take some action.
    Senator Warner. But, is there any basis that they may be 
still ignoring those recommendations and still selling that old 
Chinese drywall into the marketplace?
    Mr. Cohen. I don't have any information that would suggest 
there's a basis that they're doing that based on the high----
    Senator Warner. Can you get me some--I'd like to get some 
documentation on that.
    Mr. Cohen. I'd be happy to follow up after.
    [The CPSC submitted the following letter and exhibits in 
response.]

                    U.S. Consumer Product Safety Commission
                                     Bethesda, MD, January 13, 2012

Via Hand Delivery

Contains Confidential Information
Protected By Section 6, CPSA (15 U.S.C. 2055);
Provided Pursuant To Section 6(a)(7), CPSA
(15 U.S.C. 2055(a)(7))

Hon. Mark Pryor,
Chairman,
Subcommittee on Consumer Protection, Product Safety, and Insurance,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Pryor:

    Thank you again for inviting Mr. Neal Cohen, Small Business 
Ombudsman, U.S. Consumer Product Safety Commission (CPSC), to provide 
testimony at the Subcommittee's December 6, 2011, hearing titled, 
``Contaminated Drywall: Examining the Current Health, Housing and 
Product Safety Issues facing Homeowners.''
    At the hearing, Senator Mark Warner requested that Mr. Cohen 
provide additional information regarding any remaining ''stockpiles'' 
of problem drywall that the CPSC has identified in the United States, 
as well as information on the current status of those stockpiles. 
Through this letter, we respectfully respond to his request.
    In late January 2009, the CPSC began to look into reports of 
noxious odors, corrosion of metal items in homes, and reports of short-
term upper respiratory irritation in new and recently renovated homes. 
After identifying problem drywall imported from the People's Republic 
of China as a potential catalyst for these problems, the Commission set 
forth a multi-pronged, science-based plan to examine the issue. Key 
elements of the plan included establishing the amount of potentially 
problematic drywall that was imported, where that drywall was 
installed, and whether any problem drywall remained in the distribution 
chain.
    By October 2009, the Commission had mapped out many of the contours 
of the distribution chain. As part of this investigation, the 
Commission also identified a limited number of stockpiles of remaining 
inventory potentially linked to the drywall used in houses where metal 
corrosion and other problems were reported. The ownership, locations, 
and amounts of the principal stockpiles known to Commission staff are 
as follows:

        (1) Davis Construction Supply, LLC, Newberry, Florida 
        (hereinafter ``Davis Construction''). Approximately 394,000 
        pieces of ``Dragon brand'' drywall produced by Beijing New 
        Building Materials.

        (2) Knauf Plasterboard (Tianjin) Co., LTD (hereinafter ``KPT') 
        and Banner Supply Company (hereinafter ``Banner''), Fort 
        Lauderdale, Florida. Approximately 50,000 pieces of drywall 
        manufactured by KPT.

        (3) Palmetto Manatee Forestry Terminal (hereinafter ``PMFT'), 
        Palmetto, Florida. Approximately 39,000 sheets of ``C&K'' brand 
        drywall.

        (4) Habitat for Humanity, New Orleans, Louisiana. Approximately 
        35,000 sheets of KPT drywall.

    In late October 2009, CPSC staff sent each of the entities managing 
or controlling these stockpiles a letter, by certified mail, requesting 
that they ``notify us immediately regarding any possible sale, 
disposal, or transfer, of any sort, of any portion of your stock or 
inventory of Chinese drywall.'' A copy of this letter is attached as 
Exhibit 1. To date, Commission staff has not received any responses 
from these parties that the stockpiles have been sold, transferred, or 
otherwise moved out of storage facilities and into commerce.
    However, in an effort to continually monitor any remaining 
potentially problematic drywall inventories, Commission staff recently 
reached out again to the entities managing or controlling known 
stockpiles. Attached as Exhibit 2 are copies of recent letters from 
Davis Construction, KPT, Banner, and Arrow Terminals, Inc. (USA) 
(manager of PMFT) stating that the drywall inventories they manage or 
control have not been released into commerce. It is our understanding 
from speaking with Habitat for Humanity staff in New Orleans that the 
stockpile under its control was destroyed according to local waste 
disposal laws. Commission staff obtained and retained samples of the 
stockpile prior to its destruction. In addition, it is the 
understanding of Commission staff that there are several entities that 
continue to retain possession of small amounts (500 pieces or less) of 
potentially problematic drywall. To date, Commission staff has no 
reason to believe that any inventory has been removed from these small 
stockpiles for use in new residential construction or renovations.
    Finally, we note that this letter and associated attachments may 
contain confidential business information protected by section 6 of the 
Consumer Product Safety Act (CPSA), as amended (15 U.S.C. 2055). The 
Commission could not provide this information to the general public 
until staff followed all of the disclosure steps required by the 
statute. Pursuant to your request, however, we are respectfully 
providing the information pursuant to the Congressional Committee 
exception in section 6(a)(7) of the CPSA (15 U.S.C. 2055(a)(7).
    I hope this information is helpful to you. Should you or your staff 
have any questions or need additional information, please do not 
hesitate to contact me at (301) 504-7660, or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0f6c6b6e764f6c7f7c6c2168607921">[email&#160;protected]</a>
            Sincerely,
                                           Christopher Day,
                                                          Director,
                                         Office of Legislative Affairs.
Exhibits (2)
                                 ______
                                 
                               Exhibit 1
                    U.S. Consumer Product Safety Commission
                                                       Bethesda, MD
Office Of Compliance & Field Operations
Director, Defect Investigations Division
E-mail:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e0a1901010a0f1c0a2e0d1e1d0d40090118">[email&#160;protected]</a>

Dean W. Woodard
Via Certified Mail

      Re: CPSC File No. PI090017--Drywall Imports from the 
                                 People's Republic of China

Dear [Sir/Madam]:

    Per our prior communications, the U.S. Consumer Product Safety 
Commission (``Commission'' or ``CPSC'') is an independent Federal 
regulatory agency charged with the responsibility of protecting the 
public against unreasonable risks of injury and illness associated with 
consumer products. As you know, the Commission is investigating reports 
that drywall imported from the People's Republic of China and installed 
in homes in the United States has caused corrosion of metal components 
in those homes and various health problems to the occupants of the 
homes.
    We understand your firm currently maintains a stock or inventory of 
such Chinese-made drywall. Given our concerns with this product and the 
related reported health and safety issues, pursuant to Section 27 of 
the Consumer Product Safety Act (CPSA), 15 U.S.C. Sec. 2076, we ask 
that you notify us immediately regarding any possible sale, disposal, 
or transfer, of any sort, of any portion of your stock or inventory of 
Chinese drywall.
                          Contact Information
    Please direct any such notice to me directly by phone at 301-504-
7651 or e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="37736058585356455377544744541950584119">[email&#160;protected]</a> If I am not available, you may 
also direct any such notice to Mary Kroh, Compliance Officer, at 301-
504-7886 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="117c7a637e7951726162723f767e673f">[email&#160;protected]</a> Please address your correspondence to Mary 
Kroh's attention at the following address: Office of Compliance and 
Field Operations, U.S. Consumer Product Safety Commission, Room 613-15, 
4330 East West Highway, Bethesda, MD 20814-4408. The Office of 
Compliance and Field Operations telefax number is (301) 504-0359.
    Thank you for your cooperation.
            Sincerely,
                                           Dean W. Woodard,
                          Director, Defect Investigations Division,
                             Office of Compliance and Field Operations.
Enclosures/Links:

Consumer Product Safety Act--http://www.cpsc.gov/about/
cpsiallegislation.html
16 C.F.R. Part 1101, Information Disclosure--http://www.cpsc.gov/ABOUT/
guide.html
Part 1115, Substantial Product Hazard Reports--http://www.cpsc.gov/
BUSINFO/frnotices/fr06/E611758.pdf
                                 ______
                                 
                               Exhibit 2
                             Davis Construction Supply, LLC
                                                    January 5, 2012
U.S. Consumer Product Safety Commission
Office of Education, Global Outreach, &
Small Business Ombudsman
Attn: Dean W. Woodard, Director
Bethesda, Maryland

                           Re: Inventory of Chinese Drywall

Dear Mr. Woodard:

    Thank you for your call earlier this week regarding our inventory 
of Chinese Drywall. We have discovered that our initial figures which 
were provided to your office in June of 2009, were inadvertently 
understated. As a result of litigation, we have re-inventoried our 
warehoused drywall since June 2009 and actually have more drywall 
stored than previously reported. Our revised figures are:

        305,628 boards of 5/8" Type X

        89,148 boards of 1/2" Type X

    We continue to maintain that our Dragon Brand drywall, which has 
successfully been determined to be non-defective and non-corrosive 
through independent testing and testing done by the CPSC, should be 
released for commercial use. Should you have any questions or if we may 
be of assistance in any way, please feel free to call or e-mail. We 
look forward to hearing from you soon and also hearing that the CPSC 
has released our drywall for commercial use.
            Sincerely,
                                           Stefan M. Davis,
                                                         President.
                                 ______
                                 
                                           Kaye Scholer LLP
                                    New York, NY, December 22, 2011
Neal S. Cohen, Esq.,
Trial Attorney, Division of Compliance,
Office of the General Counsel,
U.S. Consumer Product Safety Commission,
Bethesda, MD.

         Re: Knauf Plasterboard (Tianiin) Co., Ltd. Drywall

Dear Neal:

    This letter is submitted on behalf of Knauf Plasterboard (Tianjin) 
Co., Ltd. (``KPT'') in response to your inquiry regarding KPT drywall 
in the United States that is still in KPT's possession and control. As 
we discussed, KPT has stored approximately 50,000 pieces of drywall in 
a warehouse in Ft. Lauderdale, Florida. The drywall is stored for 
evidence preservation purposes pursuant to an order of the Court in the 
In Re Chinese Manufactured Drywall Products Liability Litigation, MDL 
2047, pending in the U.S. District Court for the Eastern District of 
Louisiana. The drywall is not being stored for distribution purposes. 
It is K.PT's intention to dispose of the drywall in conformity with 
applicable waste disposal regulations when permitted to do so by the 
MDL Court. K.PT has no intention of distributing the drywall for 
installation purposes.
    In addition to the warehoused drywall, KPT's contractor, Moss & 
Associates, comes into possession of removed KPT drywall in the course 
of remediating homes pursuant to a settlement program entered into with 
the Plaintiffs Steering Committee in MDL 2047. Moss has represented 
that it disposes of the removed KPT drywall in conformity with 
applicable waste disposal regulations. The removed drywall is not 
distributed for re-installation.
    In addition, some of KPT's litigation experts may have some KPT 
drywall, but these also will not be distributed for installation 
purposes.
    I would point out that Banner has brought an action to rescind the 
agreement whereby K.PT took title to the drywall in the Ft. Lauderdale 
warehouse. Although K.PT disputes Banner's right to rescind, if they 
were successful, Banner would regain title to the drywall, and KPT 
would no longer control its disposition.
    This response is without waiver of KPT's jurisdictional defenses to 
CPSC.
            Sincerely,
                                         Steven Glickstein,
                                                      Kaye Scholer LLP.
SG/js
                                 ______
                                 
               Weinberg, Wheeler, Hudgins, Gunn & Dial, LLC
                                       Atlanta, GA, January 3, 2012
Via Electronic and U.S. Mall

Neal S. Cohen
Small Business Ombudsman
U.S. Consumer Product Safety Commission
Bethesda, MD
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb0bdb1b6bbb09ebdaeadbdf0b9b1a8">[email&#160;protected]</a>

                           Re: Chinese Manufactured Drywall

Dear Mr. Cohen:

    This firm represents Banner Supply Company and a number of its 
affiliates (collectively ``Banner'') in the Chinese drywall litigation. 
As you know, during the relevant time period Knauf Plasterboard Tianjin 
Co. Ltd and its affiliates (collectively ``Knauf) manufactured and sold 
Chinese manufactured drywall (``Chinese Drywall'') to my clients. 
Banner, a small family owned Florida Corporation, has devoted countless 
resources in pursuing Knauf for its conduct that has devastated 
Banner's business and shattered the lives of many Florida homeowners.
    I am responding to your request for written confirmation concerning 
my clients' intentions related to the Chinese Drywall that is currently 
stored in a warehouse located at 5260 N.W. 1Oth Terrace, Fort 
Lauderdale, Florida. This Chinese Drywall has been stored in that 
warehouse for years; it is within Knauf's possession and control. Judge 
Fallon, in charge of the In Re: Chinese Drywall Multi District 
Litigation pending in United States District Court, Eastern District of 
Louisiana, as well as the attorneys for the Plaintiff homeowners that 
have sued Knauf in Judge Fallon's Court, are all aware of the location 
of this warehouse and its contents. Again, Knauf has title and 
possession of the Chinese Drywall in this warehouse; while Knauf and 
Banner disagree about many issues, Banner does not claim any right or 
ownership over this Chinese Drywall.
    Nevertheless, Banner agrees that it will not sell or otherwise 
distribute to the public any Chinese Drywall over which it currently 
holds title or over which it subsequently obtains title and; further 
agrees, that if it disposes of such Chinese Drywall it will do so in 
conformity with all applicable laws.
    My client wishes to continue to cooperate with your office, as it 
has done in the last several years since the Chinese Drywall inquiry 
began. Please let me know if you have any additional questions or 
concerns.
            Yours truly,
                                    Nick P. Panayotopoulos,
                          Weinberg, Wheeler, Hudgins, Gunn & Dial, LLC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Warner. I don't know--Senator Rubio and his state 
has been very effective on this. One last question, if I could 
also get this one in.
    Mr. Shelton, I know we've worked with you on a number of 
ways to try to look at low cost refinancings. Do you have any 
final comments on that? I know we've looked at a host of 
different entities, and we're still, now, engaged with Fannie 
and Freddie. But, if you'd comment on the cost of remediation 
financing?
    Mr. Shelton. Senator Warner, the most likely looking one 
was using a HUD product, which is a loan guarantee product 
which would allow for a fairly low-interest loan to be used to 
finance the program. It currently operates at LIBOR plus two, 
so--I meant, LIBOR, I think, is 2 percent. I'm sorry. I 
misspoke. So, you're going to be above 2 percent.
    The problem is, to pass any kind of reasonable underwriting 
standard, you would have to have some equity in the home, or 
some ability to pay. And so, as we've tried to unwind this, 
we've come to the conclusion that's going to be very 
problematic. There are other issues with that program and the 
ability to use it, not the least of which is, it's a difficult 
delivery system because there are HUD contracts with the larger 
cities, and there are contracts with the state, and trying to 
work across that span has been particularly difficult.
    But, I think, if it's a loan-influenced product, our belief 
is, this is not going to work. Someone mentioned zero percent 
interest loans. If you have to secure with any kind of 
guarantee on the loan and underwrite it, I don't believe it 
would pass right now, because most of these were homes 
purchased in the last six, seven, 8 years, and the equity is 
just not there.
    Senator Pryor. Thank you.
    Senator Rubio, thank you for being here. And welcome today.
    And also, I notice that Florida has 56 percent of all the 
reported cases in all the country, 56 percent.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. That's correct. Thank you for having this 
hearing. And this is an issue that predates my service here. 
I've been here less than a year now. But during my time in the 
State legislature, we saw a lot about it.
    And, Ms. Brincku, thank you for being here and for all your 
activism on behalf of Floridians who have been affected by this 
all over the state. We've been hearing about this for years 
now, particularly after 2004 and 2005, with the building and 
rebuilding boom.
    I wanted to ask you something. I know it's in your 
statement because I read it, and it talks about credit and the 
impact that this has on people's personal credit ratings. And 
you may have discussed this already, and if you have, I 
apologize. I was a little late. But, the changes you've had to 
make, and also other people had to make in their lives. They've 
had to leave their homes behind; they've had to find secondary 
places to live; sometimes have fallen behind on their payments. 
I don't know if that's the case with you. But, talk a little 
bit, if you could, with us about the impact that this has had 
on the credit rating of victims who have suffered from this and 
are now trying to recuperate some of that.
    Ms. Brincku. It's had an enormous impact on the victims. 
For 27 years, my husband and I had never missed a payment in 
our lives. We'd always be on time. We had impeccable credit. 
And our 800, over-800 credit score went down to 500. It, just 
the simple thing of credit cards, having a credit card, we no 
longer have credit cards; we no longer are able to obtain 
credit. By the end of, by the time we get to court we will owe 
$80,000 in back payments and interest and penalties from our, 
Wells Fargo.
    So, it's, for all the victims, it's had an enormous impact. 
People that had their houses paid off, it's devastated them 
because a lot of them live on fixed incomes. People that have, 
like, Colleen, behind me, she, you know, over a million-dollar 
home; had $800,000 credit--I mean, equity in her home, and now 
she's, you know, short- saling this Friday. So, what is this 
still going to do her, you know, for her credit rating? On top 
of, you know, when you go to apply for a job; if you claim 
bankruptcy; all these things having a huge impact on, you know, 
our job, our finances, I mean, everything.
    And we, my, I had a grandfather that always told me, put 
your money in your house, because it's always a safe 
investment. So, I took my entire IRA and put it in my home. So 
not only have I lost my home--I've lost my IRA, I've lost all 
my savings. I'd stuck $150,000 into my home so I, you know, I 
had equity, didn't have--and now, you know, it's gone.
    Senator Rubio. And, I asked that question because you're a 
victim of domestic drywall----
    Ms. Brincku. Yes.
    Senator Rubio.--but, the one we hear a lot about is the 
Chinese drywall, and so we have limits into what we can do to 
reach these manufacturers--the folks overseas.
    One of the things we can do something is about is what 
you're talking about, and that is the credit rating of 
individuals that have been directly----
    Ms. Brincku. Right.
    Senator Rubio.--impacted. Because you can leave the home; 
you can move away from the drywall; but the credit rating issue 
will follow for----
    Ms. Brincku. For the rest of our lives.
    Senator Rubio. Well, at least, for 7 years, or whatever 
the----
    Ms. Brincku. Yes. Seven years.
    Senator Rubio.--timeframe is. But it just takes forever to 
rebuild it. And quite frankly, there's things we can do about 
that. And we, and I know you've been talking about that with 
Senator Nelson before I got to the Senate, and that's something 
we want to work together on with everybody on this panel, 
because I think it's one of the things we can do something 
about immediately.
    You touched upon something else, which is short sales and 
transactions. I'm talking to you now because I see you've 
become an advocate on behalf of other people in the state that 
have suffered this. One of the things I'm concerned about, and 
maybe you can touch upon it, is that some homes are being sold, 
or people are now buying homes without full disclosure as to 
what they're getting. And, have you heard how many of your 
victims actually bought homes from either a contractor, or a 
builder, or another homeowner who basically dumped it on them 
without disclosing? How much of a problem has that been in 
terms of the non-disclosure issue?
    Ms. Brincku. There's just so many victims that have told me 
and share their stories. I've had cases where I've, I had 
somebody go over and watch a house be remediated, and they took 
ketchup and cleaned the wires. I've had, I mean, right here, 
this wire, it's gone all the way through. And if I cannot 
remove the wiring from my home, I will not move back in. You 
can guarantee that. I will not--you cannot have alarms go off 
in the middle of the night, with your children wondering, is 
there a fire? Is there not?
    I mean, all, like, all my things have turned yellow. It's 
affected all the appliances in my home, you know. And so, we're 
worried about the health and safety issue of this. It's a very 
big concern.
    And the thing that, it's not being disclosed. And people 
are remediating, and there's no set guidelines of how the 
remediation is going to take place. You have people that are 
remediating for as little as $6,000, just flipping the drywall, 
or even patching up. I've heard, you know, them patching up the 
drywall. Not even tearing the drywall out. One homeowner in 
California, they did that to her home. They patched it up and 
put it back on the market, and put some new carpet in it. A lot 
of times they're, you know, taking the air conditioning out. 
And so, they're, the banks are taking the air conditioning out; 
it's bad, and then leaving everything else alone, so, when a 
homeowner, the first thing they're going to check is what, the 
A/C coils. When they see the A/C coils is not a problem, then 
they say, ``OK, there's not a problem in the home'' and they 
may not pay for an inspection, or the inspector doesn't, you 
know, catch it or not, more, you know, educated in the area.
    So, these are all things that we see constantly, every day, 
that the homeowners, this has happened to.
    Senator Rubio. That's my last point, and I'm glad you 
brought that up. And one of your complaints--and I think 
rightfully so; I read it in your statement--was that many of 
these studies that are coming out on the safety and 
effectiveness have not been peer reviewed, or, not been looked 
at and compared.
    But the opinion of some is that it's okay to move back into 
some of these homes after certain things are done, but you're 
saying this is not enough; that in fact--and you just 
highlighted--you're not moving back into a home as long as this 
faulty wiring is there, no matter how many reports come out 
that say otherwise.
    How prevalent of a concern is that among folks?
    Ms. Brincku. It's very concerning. I mean, I've heard it 
over and over. If these homes are not properly remediated, they 
will not move back in. And the homes are so upside-down. You 
know, before all this happened, our home wasn't an upside-down. 
We had equity in it. And so, that's an enormous concern.
    And for the amount that--it's, like, 5 percent to fix the 
wiring and take it out--why not--well, why, in 40 years, who is 
going to be here to check this wiring for the next families 
that are coming in? The average homeowner lives in the house 
for seven, you know, 7 years. So, who's going to keep passing 
that information that needs to be changed?
    Senator Rubio. Thank you, again, for the work you're doing 
on this issue, and hopefully, we can be helpful, as well. Thank 
you.
    Senator Pryor. Let me say we'll do a second round here, so 
if anyone has more questions, be glad to entertain those.
    Let me start with a little editorial comment, and it 
follows on something Senator Warner said. And that is, China 
should take responsibility for the products that they allow to 
be sold in this country and other countries. And one of the 
very basic starting points from my standpoint on this is that 
Chinese corporations should have to register in this country, 
just like domestic corporations, just like European 
corporations, for service of process. If there's a problem, 
they should have an agent in this country for service of 
process.
    Senator Whitehouse has a bill on that, and I support that. 
And I think he's going to re-file it soon. I'm not quite sure 
when. But this is a textbook case of why it's critical that we 
be able to reach these Chinese corporations if they do anything 
wrong. They should be held liable, and they should take 
responsibility just like other companies all over the world. It 
gives them a huge economic advantage to be able to put all this 
stuff in all these countries all over the world, and not have 
any recourse to them.
    So, that's my editorial comment for the hearing.
    But, let me ask, if I can, Dr. Portier, you mentioned that 
you, about the health studies, even though your studies are not 
exactly as conclusive as I'd want them to be, you still support 
remediation. Did you say you have another health study coming 
out this spring?
    Dr. Portier. It's called a health consultation. So, the 
difference between a health study and a health consultation--in 
a health study, take a compound like lead in children, you have 
a clear disease that you can follow; you see neurological, 
developmental deficits; you can measure the compound in the 
blood, so you have a good exposure measurement; and that allows 
you to have a definitive study that you can clearly understand.
    Here we have none of those things. So, a health study in 
this case would not give us a good, definitive answer. We think 
we would spend a lot of time and effort, a lot of resources, 
and in the end, we couldn't answer your question.
    In a health consultation, on the other hand, what we do 
there is, we go to well-done studies in the literature, things 
that have been peer reviewed and have been published--
occupational studies, and studies like that where we've seen 
health effects. From that we extrapolate down into a lower 
exposure region until we find a place where we think it's going 
to be safe for exposure. So, you estimate where you think it's 
safe for exposure. Then, based upon the exposure 
reconstruction, the simulation modeling that we're going to do 
of homes, we bring those things together and make a decision as 
to whether we believe there are health outcomes that should--
that would have been seen in this particular case.
    Senator Pryor. OK. Well, that's helpful.
    Mr. Cohen, you heard Ms. Brincku talk about her dire 
financial consequences with this drywall. In the CPSC's 
experience of looking across the country at all the states that 
have been impacted, are you finding those similar stories in 
all the states, and in--not with every single homeowner, but 
generally, do you find that same type of story?
    Mr. Cohen. Absolutely. And on the majorly affected states 
that we've discussed, notably, Florida, Louisiana, Virginia, 
Alabama and Mississippi, we hear these heartbreaking stories, 
much like Ms. Brincku's, every day. And it, you know, we are 
homeowners, too. We feel that and we have put our professional 
lives toward trying to come up with the causation, trying to be 
able to put forth a case. And we share the frustration, I 
think, of everyone in this room that we haven't, that the 
science hasn't provided that yet. And, we, you know, our hearts 
go out. And we're just going to keep on this thing. And 
hopefully we, well, might be able to develop with Dr. Portier's 
expertise, the modeling that he just described might be able to 
inform a future legal case that we can undertake under our 
authorities. But presently, we don't have the evidence to 
support those.
    Senator Pryor. And, you also mentioned that the CPSC is 
working with the Gypsum Association. And do you think that the 
steps that the Association, the voluntary steps they're taking, 
are satisfactory?
    Mr. Cohen. We've been very pleased with the steps that 
they've taken. Most drywall, just because of the nature of it--
it's a heavy commodity product--is generally made and delivered 
in the area in which it's going to be used. So, traditionally, 
this whole occurrence is just so out of the ordinary. So, most 
of, almost all the drywall that's used in this country is 
produced in North America, mostly the United States, a little 
bit from Canada, and a little bit from Mexico.
    All of the members of the Gypsum Association, including 
those major producers in Canada and Mexico, have voluntarily 
agreed to use this new labeling system which just went into 
place next month, which will have a standardized code and a 
standardized way that you can recognize the drywall that's been 
installed in any home across the country. So, we are pleased. 
We think they've been very cooperative in that regard.
    And we have experienced the same cooperation in working 
toward this performance-based emission standard. Just because 
of some of the things that Dr. Portier described, it is a more 
complex standard, and so we'll just continue working. And 
that's something that CPSC does on a lot of products. We work 
and try to improve these voluntary standards over many years.
    Senator Pryor. And I think the Subcommittee, as well as the 
full Committee, would be interested to know what the Chinese 
government and Chinese companies response is when the CPSC 
reaches out to them and asks them to provide information, and 
also, step up on their responsibility to this. What do the 
Chinese say about that?
    Mr. Cohen. As I noted previously, they don't believe that 
the--there's a problem with their product, and they've 
steadfastly said that. They've said that in open court in the 
multi-district litigation, when the German company stated that 
they were going to do remediation. The major Chinese importer, 
that has not made an appearance, stated to the judge: Judge, we 
are not standing behind this company, and we're not getting in 
line to do the same thing. We don't see a product--we don't see 
a problem with our product. And to the Government, to us, and 
to others who've raised the issue, they've said the same thing, 
and they said: Show us the science. Show us where the problem 
is. We don't see it anywhere. And that's been their response.
    Senator Pryor. Senator Wicker?
    Senator Wicker. Well, I won't take a full second round.
    Let me echo what the Chair has said. China benefits 
immensely from trade with the United States. It's time for 
Chinese manufacturers to step forward and make themselves 
available for service of process, much as other international 
trading parties have done.
    So, thank you for that, and thank you for mentioning the 
Whitehouse legislation, which is something that we could use a 
starting point for a small solution to this.
    Mr. Cohen, you said that usually because of the weight of 
drywall, it's usually not shipped internationally.
    Mr. Cohen. Correct.
    Senator Wicker. It's only this type of unusual 
circumstance. You're not suggesting at all that maybe something 
might have happened in the transportation, you know, oversea 
transportation of this product?
    Mr. Cohen. I'll just, sort of, note, on your first 
comment--we, the Chairman has also come out in support of this 
concept of having a registered agent here for these Chinese 
manufacturers, especially in regards to the large number of 
consumer products that are imported from China. This has been a 
real problem for the Consumer Product Safety Commission. So, 
CPSC staff provided testimony in support of a prior proposal to 
that effect. And, as I said, the Chairman herself has come out 
in favor of it.
    In answer to your second question regarding----
    Senator Wicker. Whether the actual physical transportation 
might have----
    Mr. Cohen. Right.
    Senator Wicker.--had something to do with----
    Mr. Cohen. We, in our compliance investigation--which we 
haven't spent a lot of time discussing, but we conducted a 
large compliance investigation as well--we did look toward, to 
see if there were any similarities in the way things were 
shipped, the ships they came on, the sorts of pallets they were 
shipped on, all the different confounding factors that might 
contribute to something you're suggesting. We didn't find any 
evidence of that.
    Senator Wicker. OK. Now, with the exception of American 
Gypsum, we have not had any complaints about domestic drywall, 
complaints made toward domestic drywall manufacturers, is that 
correct?
    Mr. Cohen. There have been reports--obviously, Ms. 
Brincku's among them, and others like her--to the Consumer 
Product Safety Commission of homes reportedly constructed 
exclusively by domestic drywall exhibiting the same sorts of 
characteristics of the problem imported drywall.
    Senator Wicker. And these are from other manufacturers than 
Ms. Brincku mentioned?
    Mr. Cohen. Due to our statute, I'm not permitted to 
actually speak about the specific manufacturers here on the 
record, but I can talk in general terms about the domestic 
claims.
    We did, in June 2010, undertake a study particularly 
focused on domestic drywall. At that time, we had received over 
3,400 complaints of imported drywall problems. At that time, 67 
of those were of domestic drywall. Since that time, we've 
received 10 more.
    Based on that, we still felt it was important, because we 
wanted to be on top to make sure there was not going to be 
another emerging hazard of domestic drywall in addition to the 
imported drywall. So, in order to make sure that was the case, 
we instituted the study. We used the exact same methodologies 
that we had done on the imported problem drywall studies. We 
went into 11 homes of domestic--that were self-reported to be 
exclusively domestic drywall, and our findings were 
inconclusive. We did not find another distinct pattern of 
emerging hazard like the imported problem drywall.
    Of the 11 homes, five seemed to match the imported drywall, 
and very well may be imported drywall, because it's really 
impossible for us to know what's in that home without 
completely ripping out every piece of drywall in that home. And 
that's been the most major challenge of our compliance 
investigation.
    Senator Wicker. But now, at least, with the labeling, that 
one distinct issue will be better handled.
    Let me ask you this----
    Mr. Cohen. Yes.
    Senator Wicker. The ingredients of the drywall, the 
components, how different is that in these Chinese 
manufacturing plants, as opposed to domestic ingredients?
    Mr. Cohen. The ingredients of drywall are fairly simple and 
straightforward, and they don't really change based on the 
place of manufacture. I mean, they're based on gypsum mined, 
usually either gypsum mined rock, or reconstituted ash, fly 
ash. But, all of those are basically reconstituted into gypsum. 
They are put into a sort of mush, and pushed between two pieces 
of paper, and basically baked and cut. It's a very simple 
process.
    Some of the issues that are known in the industry are that 
the rock that you're mining may have contaminants in it, of 
course, and so there needs to be some level of quality control 
or quality assurance on the input side of your factory. We're 
not sure, because we just don't have complete access to know 
what happened on that side of the Chinese manufacturing 
process--how they were able to assure that there were no 
impurities in that gypsum rock that formed the basis of the 
drywall.
    Senator Wicker. Thank you.
    Mr. Cohen. Thank you.
    Senator Pryor. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Again, I'll be, 
try to be brief here.
    But, some of, one of the things that there--there was the 
German company, though, who settled, correct? So, there was----
    Mr. Cohen. They have engaged, and they have done some pilot 
settlements, and they are engaged in major settlement talks. 
That's correct.
    Senator Warner. And, how do we make sure that, you know, 
even if there's not--we went down the road of what might be 
sitting in warehouses and trying to make sure those folks are 
notified. And I want to see that documentation.
    And then we also, you know, God willing, we may have 
another housing boom at some point. And if we start importing 
again, how do we make sure that we never repeat this? Even if 
we're not at the final stage of causation--to make sure that 
going, on a going forward basis, there's some ability to check 
whether imported drywall, whether it's from China or anywhere 
else in the world, isn't being mined in a, with faulty 
materials?
    Mr. Cohen. Again, I would, sort of, harken back to my 
earlier comments about our voluntary standards development. 
That technology does exist to test the rock, the raw rock, and 
also the gypsum itself. You can test the elemental components 
that make up, make it up. And so, I think in the near future 
here--I don't want to give an exact date--but, in the matter of 
months we should have a gypsum standard that we can be able to 
have a baseline measurement, to be able to answer that 
question, Senator Warner.
    Senator Warner. Well, it seems to me we've got a couple of 
different paths we need to continue to pursue. One--and I'm 
going to echo what my colleagues have said in terms of holding 
the Chinese responsible and making sure that if they're going 
to do business in this country, they meet minimum fair business 
practices, and trying to work with your agency and other 
agencies of the Federal Government to force the Chinese to 
accept this responsibility, since some of these companies were, 
in effect, state-owned enterprises in China, so this directly 
bears back on a responsibility of the Chinese government.
    Number two, there's a question of both for this, these 
circumstances on a going forward basis, what do we do in terms 
of these pollution exemptions on insurance contracts? I mean, 
it seems to me, if I was a homeowner and I bought a house that, 
through no mistake of my own, ended up with a faulty product in 
the wall--when I first heard there was an exemption and that 
insurance companies somehow weren't covered on, through that 
basis, why do you buy homeowners insurance in the first place? 
And I'd like to get a comment from someone on the panel on 
this.
    And then, the third is, it appears that many of these 
families are going to be engaged in some form of litigation for 
some time to come. And it appears that, while we have, at the 
state level, working with Mr. Shelton, and these offices, and I 
know Senator Nelson has been working with us as well, we've 
tried to work with the financing organizations on how we can, 
ease the pain a bit, forbearance. The IRS has gone ahead and 
given safe harbor in terms of being able to write off; we've 
made some progress there. We've been able to work with the 
Defense security services to make sure people don't bear that 
blemish that might hurt their secret clearance or clearances 
with the Government.
    But, as one of the Virginia families mentioned to me, you 
know, ``Just tell me how I can get my credit back.'' I know 
this is not either of your particular expertise, Mr. Cohen or 
Mr. Shelton, but, you know, I would be interested in comments 
on that. If someone is forced into a short sale, forced into 
losing their home, how do they not let this disaster be 
something that blots their next 20 years of their financial 
future? Question--comments?
    Mr. Shelton. Senator, that is not my area of expertise. You 
know, in the mortgage crisis that we've just had, there's been 
a lot of work done on that. Clearly, that would take, I 
believe, some intervention, perhaps at the Federal level, since 
most of the, what we've experienced in foreclosure is that no 
action at the state level will address this, because most of 
the servicers are beyond the reach of the individual state. 
They exist outside the state. So, that's, it needs a national 
solution.
    I don't know that solution yet, although I think that some 
standards for making sure that--similar to what, exemptions for 
military families, or some ability to at least get some 
response from the ratings agencies directing, or, as, the 
situation, if this is a one-time occurrence, it's a 
catastrophic loss, but, at the same time, it was beyond the 
control of the individual, so therefore it's not the 
individual's personal credit. It was beyond their control.
    I think the ultimate answer is that either through 
settlement with the manufacturer, or through some other 
intervention, as someone mentioned earlier, that if there is 
not an ability to bring a product in to essentially remediate 
these homes without putting additional burden and debt. I mean, 
you bring the homeowner back current, then I think it gives 
more standing to go back and say that the problem has been 
cured both in terms of physical structure and the financial 
piece of this.
    My worry is that most homeowners will not last through this 
crisis. Many, as we've already heard today, are going under.
    Senator Warner. Mr. Cohen?
    Mr. Cohen. I'd agree with Mr. Shelton. It's certainly not 
my area of expertise; but I would certainly associate myself 
with those comments. I think that it is a tragedy, what's 
happening, that through no fault of their own, these 
homeowners' credit is being eviscerated, in addition to the 
loss of their homes. Some of the issues are state law issues. 
The insurance issues are state law issues.
    But perhaps there is some sort of Federal policy 
distinction that can be made as well, akin to the military 
situation.
    Senator Warner. Well, Mr. Chairman, I want to again thank 
you for holding this hearing.
    I agree with both of you that we need to make sure that if 
Chinese companies are going to do business in our country, they 
play by fair rules, and are subject to our processes.
    The insurance issues maybe have to be dealt with on a state 
level, but I'd look forward to working with both your offices, 
and other members of this committee, to at least also try to--
as Mr. Shelton said, it may require legislation. It may also 
simply require us going at the credit rating agencies a bit, 
that there should be some exemption so that these families 
don't have a blot on their financial records which, candidly, 
is not due to any inappropriate actions on their part.
    I know we've worked with the banks and the IRS, and since 
the IRS has been willing to note this and put safe harbor, 
perhaps we can at least go down that route, as well as some of 
the legislative route.
    But, I want to again thank you Senator Wicker and Senator 
Rubio, for your interest in this.
    I'll close with where I started--in 20 years being in 
government and public service, I can't think of a more 
frustrating example of families through no fault of their own 
being kind of ping-ponged from one governmental entity to 
another, all being sympathetic and empathetic, but not getting 
them the relief that, quite honestly, I think they deserve.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    I would like to say, I want to thank all the witnesses for 
being here, but, Ms. Brincku, you especially. And I'm curious 
about how many other victims are in the audience. Let's see. 
There's three of four back there.
    Well, we want to thank you all for coming. And we know this 
has been a terrible hardship on every level. And so, thank you 
all for being here.
    What I want to do is, we're going to leave the record open 
for 2 weeks. We're also going to encourage any Senator who has 
any more questions to go ahead and get those in in the next 7 
days, so that we can get these to our witnesses for them to 
answer.
    And we think that we may have one Senator on the way, but 
let me check.
    Well, we had one senator on the way, who we think may be 
caught up in the Intelligence Committee, we think. And we 
probably just shouldn't wait any longer, because he's a little 
bit out of communication right now.
    But, anyway, thank you all for being here. Thank all the 
witnesses for being here. And I know the Government witnesses 
are trying to resolve this and sort this out. But, like Senator 
Warner said, this has been a real conundrum, or, a very 
difficult problem to solve, and it's a real problem, and it's 
just been hard.
    So, thank you all.
    Did you have anything?
    Thank you all, and we'll conclude the hearing, but we'll 
leave the record open for 14 days. Thank you.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                            A P P E N D I X

                    Letters from the General Public
    Dear Natasha,

    Please enter my story with all of those received as evidence to the 
hardships, non-restored health and financial welfare most of us face.

    Important Points: My home was remediated, but after some months of 
living there, I left again because symptoms came back; my Homeowner's 
Insurance, St. John's, dropped me, lying on paper that I was an 
``unknown homeowner--1 yr.'' and while in forbearance Bank of America 
made me take out Lender's Insurance at over $900/day while my builder 
was remediating and I was out of my home. Bank of America had me pay a 
small escrow each month, even though I kept asking about paying more, 
especially when they forced me to carry Lender's Insurance. I was told 
repeatedly not to worry. Bank of America understood, would keep my 
forbearance until my home was completed, then would send me a Loan 
Modification, and would lower my interest, maybe stretch out years, and 
do what was needed so I could live in my remediated home again. This 
turned out to be false. As soon as they got the call from me that my 
home was completed, and I requested the loan modification, they stopped 
communicating. Instead I received a letter to tell me that I had 1 
month to pay about $17,000. When Sen. Nelson's office contacted them in 
my behalf, I did receive the BOA Loan Modification packet in 
recognizable fed ex. What was never conveyed was any amount I could be 
paying them, so I sent in my basic principle and interest payment for 2 
months while I was waiting for the loan modification packet. Meanwhile, 
without any communication to me, foreclosure proceedings were begun by 
them on June 6, 2011. After that, I had received a call from someone 
who was from the CEO's office who let me know about Sen. Nelson's 
office sending a complaint. She was the person to assure me that I 
would get the loan packet. However, she told me that it did not mean I 
would get it. This was the first time I was told that this would not be 
automatic because of my contamination loss. When I received the packet, 
I sent it back, and again, never heard from Bank of America. I never 
heard that I was already a defendant in a foreclosure proceeding. Plus, 
I never received any communication for more than 2 months. One day, I 
went looking for a used car to replace mine, and I was told by the 
manager that he could not help me--BOA stated on my report that I was 6 
months in arrears and in foreclosure. I was in shock and shaking when I 
left. Again, I went to Sen. Nelson's office, and received a copy of a 
letter sent back from BOA saying my loan modification packet was not 
complete. No information about what was incomplete was given. After 
leaving messages, I finally reached [redacted]. She told me at first, 
that my modification loan was thrown out now, because it went 90 days 
past, and that my loan application was scanned and sent to another 
dept. Her dept. only worked on forbearances. When I questioned where it 
went, who was then responsible for it, and on what date was it sent, 
she could not answer my questions. She had me on hold for a while. As 
soon as I told her that she was not truthful to me during my 
forbearance as to what the steps would be, and I was angry. Also, I 
complained that it was not fair to have no one communicate a 
foreclosure proceeding, tell me what could be missing from my loan 
application packet, nothing! I told her that all of this seemed so 
wrong, and I would probably go to an attorney. Suddenly, she changed, 
and told me that I could speak to someone right away to begin another 
loan modification application. She just happened to have someone! I was 
in disbelief!
    I told her that I still wanted answers to my questions, and called 
back and left a message that I wanted to know where and to whom my loan 
modification went, and to whom, and the date, and I am requesting this 
in writing. I have requested this again, but to this date, I have not 
received this. [Redacted] did call me back to tell me that she now got 
special permission to handle solely a new loan modification request, 
and wanted to send it to me to complete. She said that she would be the 
only one handling it (which was not reassurance really, given her 
``track record'' with me so far). She told me that this would not stop 
the foreclosure from moving forward, even though I told her this was 
not fair. She said that, if a sale date is set while the loan 
modification was proceeding, BOA would notify the court that they were 
considering the loan modification. For the first time, Isabel said that 
this application was not a guarantee. She had been the one during the 
forbearance who led me to believe it was! I did complete and mail this 
on Nov. 25, 2011. I have heard nothing. However, I did receive a 
``Notice of Action'' telling me Bank of America has filed against me, 
and I am required to serve a copy of written defenses to the 
plaintiff's attorney, Paul M. Messina, Jr. of Kass Shuler, Tampa, FL on 
or before January 9, 2012. It is dated December 1, 2011. Why am I going 
through all this when I have had a disaster destroy my home and most of 
its contents? I have had the FL. Health Dept. Radioactive Testing Div. 
test my home for remnants of strontium because I am trying to figure 
out why the same smell that was in my home has once again, permeated 
through all of my clothing in my closets, and why I started with 
headaches, cramping in my stomach, incredible pressure in my head, 
burning chest, and cough again. When I looked at my certificate of 
testing during and after remediation by the builder's appointed 
investigator, this document just said all the sulfides were no longer 
present. I told my builder, KB, that strontium was also found in my 
home. But the letter did not even mention that testing. Upon moving out 
a second time to see if my symptoms subsided, I contacted the FL Health 
Dept. to investigate. They did and said their meter was not making 
repeated, fast beeps so there was not strontium left in it. What do I 
do now? I am back and forth to my house, but feeling insecure. Do I now 
have to pay more money to have my home tested again? A home that Bank 
of America is foreclosing on anyway? These are my most recent concerns 
and situations. I am a teacher, but have been planning to retire soon. 
My pay checks are losing 3 percent this year, due to a Florida law, and 
we have been told that another 2 percent may begin to be added to this 
come January. I am single and a mother of 2 grown children, but I do 
help one as I can. In fact, last week, she asked if I would be a co-
signer for her on a student loan so she can start school again, and I 
sadly had to tell her what is going on, and that Bank of America has 
totally ruined my credit status. I instead will be able to do nothing 
as far as helping myself or my children for a very long time. In fact, 
I am 64 now. I try so hard to deal with the emotional pain and stress. 
Knowing now that my HOA can also foreclose on me and have a judgment 
against me, even though I am paying my HOA, causes more stress and 
embarrassment. The development I am in, KB Sunset Pointe Townhomes have 
most remediated homeowners not returning, and renting. Also, I saw last 
week that still another home is vacated and is beginning to be gutted 
out.
    More information and how this began:

    *In July, 2007, I purchased my townhome in KB Homes'' Sunset Pointe 
Townhomes, Lot 3, Block 27, as a 30 yr. fixed mortgage with Countrywide 
as being the noted lender. It was a Freddie Mac. Purchase: 135,000.

    *Started with strange health problems: rashes on my face; feeling 
my chest ache; sudden weight loss for no apparent reason; cough; 
terrible jaw and head pain, dry, burny eyes; mouth always feeling like 
it is burned inside. I also had cramps in legs and stomach at times. I 
complained of blacking out twice.

    *Nov. 2009: Service on home A/C reveals multiple holes, leaks and 
copper tubing is black. Kross Inspection confirms contaminated drywall 
in December, 2009.

    *Neighbor told me to call Bank of America for a forbearance, which 
I did and was told to continue paying about $276/mo. escrow.

    *Signed to have KB remediate my home, with agreement giving me per 
diem to move out and back in, pay for rental, and other living 
expenses. Told I would be provided testing and a certification that my 
home would be safe upon completion. I was told that I would also get 3 
reports during the process and would have access to the information 
about the drywall as they pulled it from my home. (I was never given 
this.) I was told that I could still sue KB or any entity for health 
but not for other reasons about the damage.

    During this time, I also gave the Consumer Product & Safety 
Commission my information on this disaster. I also notified the Florida 
Health Dept. In addition, I went to my physician, Dr. Weiss, and told 
her that I had been exposed to 2 toxic gases, and wanted to have her 
check my health. But she told me that she didn't know what to do, and 
did nothing.

    *Upon leaving my home in Nov., 2009, I noticed the terrible pitting 
and corrosion on metal bathroom hooks. Jewelry was ruined. When I make 
calls to inquire what would be safe to remove in my home and what I 
would need to discard, I was told by both the FL Health Dept. and the 
Consumer Product and Safety Commission that they did not know the 
answer to that. What I found was just from my own research on the 
gases.

    *My living elsewhere, transportation, faxing, calls etc. were 
solely paid by me from November, 2009-April 10, 2010. I took little out 
of my home, washed clothing according to Internet directions, aired out 
things I took for days, but most, I was afraid to touch anything, and 
afraid to go to my home to take out. If the metal hooks were so pitted 
and corroded, and holes were made by these gases, what possibly was it 
doing to me?

    **2010--contacted my Homeowner's insurance. Told they were 
protected from claims by a 31-year-old air pollution law. When I 
pointed out this was not air pollution, he said still protected. 
Insisted that I still let them do a second inspection on my home, 
saying it would help me have more information for down the road. This 
was done by Burton Investigation.

    *Finally, April 10, 2010, KB Homes is ready to have me move out so 
they can begin remediation. Upon moving out, there was still no 
information on what could be safely removed and reused. I therefore, 
removed and discarded most of my contents. What I was told by Mr. 
Wallace at the FL Health Dept. was that he would not save any thick 
porous items, like mattresses, metal things, appliances, sofas, chairs, 
etc. I even threw out a year-old TV! Whatever I replaced had to be my 
expense! Everything I kept left me great concern but I aired it out for 
a long while.

    *May, 2010, receive notice from homeowner's insurance, St. John's 
that they are not renewing my contract. Even though I had been calling 
my insurance agent to give an update almost monthly, they say 
``Homeowner unknown 1 yr.'' Actual cancellation July 2010. Previously, 
my building manager and I had sent a letter, giving approximate date 
when remediation would be done, and details, but to no avail.

    *June 2010, BOA continues forbearance, and even with telling me in 
July that they need to force Lender's Insurance on me, (Redacted] kept 
telling me not to worry--all would be worked out upon completion of my 
home, getting the letter of certification my home was safe, and getting 
new homeowner's insurance. A loan modification would then begin to be 
in place. Not to worry.

    *Feb. 2011--My home is completed. right after I was given Lender's 
Insurance, I was notified by Tina Calderon, Bank of America, that 
Isabel would no longer handle my case--Tina would!

    *Although health improved while out of my home for remediation, I 
had been admitted to Lakeland Regional Hospital on Dec. 25, 2009 
because my throat and breathing felt like it was closing off. At this 
time I was told the lung X-rays showed signs of COPD. This has not 
changed thus far.

    *When two members of the Consumer Product and Safety Commission 
came to meet with ``victims'' in Sarasota, FL, even though over a year 
had gone by, or longer, they still lowered their heads toward the floor 
when asked our questions, and kept repeating, ``We don't have any 
answers yet on that'', or ``we didn't see any reason to investigate 
that further''. That is a disgrace! So many sick, and perhaps some have 
died (even 12 infants in Ft. Bragg), and they feel no investigation is 
needed? An injustice and a disgrace!

    *Health questions and concerns have remained unaddressed by 3 of my 
doctors over the past 2 plus years. They have stared at me and said ``I 
don't know what to do for you.'' I even had one leave the room, come 
back 10 minutes later to inform me that she looked up ``hydrogen 
sulfide on her computer but the only thing she found were lawyer 
advertisements.'' Again, a disgrace.

    *I am 64, a teacher for about 30 years intermittently, hold a 
Master's degree, with a small retirement savings. I have raised my 
children, helped them in every way I could, and love them dearly. I 
plan on leaving my teaching career, but now I have my life in great 
jeopardy, with health fears, a closely timed foreclosure, and probably 
an impending bankruptcy. I have to still wonder, because of recent 
health, if my home is safe. Did I purchase this home with any knowledge 
of this disaster? Did I do something to cause all of the following 
hardship and disaster? Will I end up with more losses? This is unjust, 
and I will not stop speaking out for myself and for all the other 
victims until there are answers to our questions and justice is served 
by giving us aid to move forward, with or without our homes.

    Builder: KB Homes Lender: Countrywide/Bank of America/Freddie Mac 
Home: Lot 3, Block 27 Sunset Pointe Townhomes
                                 ______
                                 
    It's difficult to express the devastating impact living in a toxic 
home has had on our lives, home, health and retirement. We all have 
been affected and need our government to step up look past the 
lobbyists and help the families that have been devastated by Toxic 
Drywall; both American and Chinese.
    We purchased our Lennar home new and moved-in Oct. 2004.
    Within weeks of us moving in we smelled rotten eggs and called the 
gas company twice who came out and checked for gas leaks but found 
nothing.
    But we have tests that show toxic drywall directly linking to our 
health problems.
    We had experts test the drywall twice and the test were positive 
for sulfur and strontium both times. The experts pointed out signs of 
copper corrosion on the water heater, AC unit and electrical in the 
walls; noting it is less than the higher humidity climates but that we 
definitely had copper that was blackening. Additionally we've had 
electrical components, appliances and computer equipment, smoke 
detectors, and alarm system repeatedly fail or sound randomly with no 
explanation.
    Our home has no Chinese markings but Blanks and confirmed American 
Gypsum and Georgia Pacific with the following markings:

  <bullet> Georgia Pacific--Tough Rock

  <bullet> American Gypsum--Albuquerque NM ``350 Crew 1 7/13/2004'',

  <bullet> Unidentified markings ``250 7/11/04 H. Smith 12:12''.

  <bullet> Unidentified markings that have Spanish words ``1 Pieza'' 
        ``2 Por Paquett''

  <bullet> Unidentified markings that are stamped ``CAN'' possibly for 
        Canada

    The fact that we found 5 different brands/markings in our home is 
an indication the builder was getting multiple shipments of drywall 
from different sources. It is clear it was not all shipped at once from 
the same place.
    The problem we face is we have no idea what manufacturers Lennar 
Homes used and Lennar Homes is refusing to remediate. Lennar Homes came 
to inspect our home and they did air quality tests and then refused to 
release the results or address our concerns. They have been provided 
our positive test results and they continue to deny us remediation and 
discriminate against us (as they are doing remediation elsewhere) 
because in Nevada they claim there is not a problem.
    Georgia Pacific also came to our home, and they took a sample and 
said they would test it but when we asked for results they ultimately 
told us they were instructed by their attorney's not to speak to us.
    The health of our family has seriously deteriorated while living in 
the Lennar home.
Health Issues
    We were seen by an environmental toxicologist Dr. Robert Harrison 
(UCSF). He confirmed we had Sulfur poisoning at levels of 5000 mg daily 
compared to the average American exposure of just 2 mg daily. We have 
long term exposure to Sulfur Dioxide and Hydrogen Sulfate, which has 
caused long term health problems.
    We also confirmed we both have the blood tests results showing 
Strontium (Jason at 38.2 ng/ml and Olivia's at 26.7 ng/ml) due to long 
term exposure to Strontium.
    Our water heater and PEX plastic water lines were so discolored and 
had absorbed so much of the toxic gases our water turned orange and we 
are not on well water. The city water right up to our drive way tested 
at perfect levels, yet in our home, our water tested Sulfur at 200,000 
ppm and Strontium at 4500 ppm which is 5000x higher than the average 
American.
    Additionally, we've met with the CPSC and have had our test results 
reviewed by both the CPSC and the CDC. The CPSC has a formal report 
from their investigation on our home. The CDC provided us a guideline 
and based on the test results in our home, we exceeded acceptable 
levels of these toxins by 1000 times or more. They referred us to DR. 
Robert Harrison, the toxicologist at UCSF.
    Our bodies were busy fighting unexplained rashes, bloody noses, 
constant sinus infections, migraine headaches, sore throats, vomiting, 
burning eyes, blurred vision, memory loss, fatigue, slurred speak, loss 
of coordination, loss of vision, unexplained nerve damage in Jason's 
face, and ultimately unexplained lesions found on Jason's brain.
    We spent countless hours and thousands of dollars in medical 
expenses for doctor's appointments, emergency room visits, tests and 
prescriptions trying to diagnose and treat unexplained symptoms.
    Health Issues include:

  <bullet> Chronic migraines and light sensitivity

  <bullet> Chronic sinus infections and daily

  <bullet> Bloody noses

  <bullet> Laryngitis (for over 6 months

  <bullet> Lesions throughout brain

  <bullet> Paralysis on his face (nerve damage)

  <bullet> Loss of vision

  <bullet> Slurred speech

  <bullet> Loss of taste

  <bullet> Jumbled of words

  <bullet> Loss of motor function

  <bullet> Red burning eyes

  <bullet> Difficult to keep eyes open

  <bullet> Burning sore throat (Choking)

  <bullet> Shortness of breath/Chest pain

  <bullet> Nausea/Vomiting and choking

  <bullet> Digestive and upper and lower GI health problems (constant 
        antibiotics)

  <bullet> Fatigue

  <bullet> Insomnia

  <bullet> Olfactory sensitivity

  <bullet> Headaches

  <bullet> Constant tearing eye

  <bullet> Growths on Vocal Cords (requiring surgery)

    The neurologist knows of the toxic drywall test and the Strontium 
heavy metal poisoning and he advised we vacate the home immediately. We 
received the same advice from the ER doctor while my wife was treated 
for a migraine.
    Our health issues have devastated our health so severely we've shut 
down our businesses as we cannot function at the same level we used to. 
We have no way of knowing what the long term medical damages are, but 
we are very scared as we see the deterioration and know the damage this 
has done to our bodies. We fear for our future.
    In Nevada new homes were built at a rapid pace of 35,000--45,000 
new home per year during the period from 2001 to 2006 with the pace 
slowing in 2006-2007 but the builders have a lot of clout here as they 
have contributed to the economy greatly over the past decade.
    Additionally we have information and photos on our website http://
toxicdrywalllasvegas.blogspot.com/
    We ask that our government take action to protect us (it's 
citizens) and make us whole again by holding the builders, suppliers, 
and manufacturers liable for the damage they have caused so many 
Americans.
    Thank in advance for your time and consideration.
                                 ______
                                 
    My husband served 20 years in the AF, then had another career after 
that. I retired from DoD in Feb 2007 after 27+ years. We lived in many 
places and were looking forward to settling down in our forever house 
in warm, sunny, Florida living on a canal where we could have a boat. 
Our builder went out of business after 30 years of building homes in 
the SW FL area a few days after we moved into our ``dream'' home. We 
started receiving dunning phone calls from sub-contractors who said 
they hadn't been paid, followed by certified letters. Every time the 
mailperson pulled up and got out of her car, I was about ready to bawl. 
After a year and a half, we had those legal situations taken care of 
and figured we could finally start enjoying life. About a year later, 
our air conditioner wouldn't turn on.
    We had a home maintenance agreement and they came out and replaced 
the coils. They told us they'd fix them once, but we had defective 
drywall and they wouldn't do it again. Our entire house is filled with 
ProWall drywall--all Made in China. We're the lucky ones, if anyone 
with CDW can be called lucky. Our house doesn't smell, and we haven't 
had anywhere near as many things go kaput as a lot of people have. Our 
son's house which is 40+ years old has bright copper wire, our house 
has black copper wire. Both my husband and I have rashes that appeared 
after we moved in and won't go totally away--mine so bad I regularly 
see the dermatologist. She keeps trying different ointments/creams. Not 
sure if the drywall is the culprit or not. The value of our home for 
tax purposes is $0.0. Our home equity loan has been frozen. We can't 
sell without remediating (or we'd have to practically give it away and 
still be stuck with a $200K mortgage). Our lawyer has told us that 
since our builder is out of business and we don't have Knauf drywall, 
we're going to have trouble getting anything from the class action 
lawsuit, and we definitely should not count on getting enough to 
remediate completely. Oh the Golden Years. How they suck!!
                                 ______
                                 
   Prepared Statement of Robert D. Gary of Gary Naegele & Theado, LLC
    I want to thank the Committee for focusing its attention on the 
devastating problem that has been caused by the off-gassing of drywall 
which has forced people to abandon their homes, often with catastrophic 
financial and personal consequences.
    My name is Robert D. Gary and my law firm, Gary Naegele & Theado, 
LLC, together with the undersigned attorneys, represent [redacted] and 
others whose homes are uninhabitable because they contain not Chinese 
drywall but drywall domestically produced by American companies. I have 
represented the [recacted] since early 2009.
    My concern is that innocent homeowners who have domestically 
produced defective drywall in their homes have been poorly served by 
the very Federal agency whose sole purpose is to protect consumers from 
defective products. To some degree, and at the urging of [redacted], 
the Consumer Product Safety Commission undertook a much delayed study 
of ``non-Chinese manufactured drywall''. That study referred to 
domestically produced drywall with the curious ambiguous description of 
``often referred to as domestic drywall by consumers.''
    The critically important issue before the Consumer Products Safety 
Commission should be ``is American-made drywall exhibiting corrosion 
problems?'' It is beyond dispute that the now notorious Chinese drywall 
is destroying homes. Our American homeowners deserve a full study into 
whether domestically manufactured drywall has also experienced 
corrosion caused by the drywall in their homes. Rather than address 
this issue, the CPSC chose instead to side-step the question in its 
report issued on April 15, 2011.
    For purposes of its report, the CPSC tested eleven homes which 
``the homeowners self-reported were constructed with domestically 
produced drywall.'' See Exhibit A, attached hereto, at page 2. The 
results of this study were anxiously awaited by those homeowners who 
clearly had corrosion but no evidence of Chinese drywall in their 
homes. Nine of these eleven homes were confirmed to have ``evidence of 
blackening of copper wiring or cooling coils. Water was eliminated as a 
possible source of the indoor corrosion.
    Prior to the issuance of this report, I, along with my colleagues 
and Pamela Gilbert, a former Executive Director of the Consumer Product 
Safety Commission, met on April 5, 2011 with the Commission. We urged 
at that meeting that the Commission test for sulfur-reducing bacteria 
which could have established that the drywall, and not another source, 
was causing interior corrosion in the tested homes. The Commission 
declined to do this testing or to do the well-established chamber 
testing of the drywall. Presumably the issue was the cost of the 
testing.
    The issue of whether American-manufactured drywall was causing 
interior corrosion was and remains a vitally important question to the 
American homeowner. Yet the CPSC failed to make the most basic 
determination in its testing of the eleven homes. The CPSC made no 
effort to confirm whether the drywall they were testing was in fact 
American-manufactured. Instead the CPSC relied on self-reporting from 
the occupants of the homes that the drywall was constructed solely with 
domestically-manufactured product. It would have been a simple 
procedure to confirm the identity of the manufacturer of the drywall 
the CPSC was testing. All domestic drywall has run codes printed on the 
back which would have identified the time, place and manufacturer. The 
failure to take this simple step rendered an expensive study all but 
useless because it never segregated out the origin of the drywall it 
was testing. As counsel for the Brinckus, I can state categorically 
that their home has no Chinese drywall, yet because of interior 
corrosion, it is uninhabitable.
    Rather than providing protection for the consumer, the net result 
of the CPSC study instead provided cover to the drywall manufacturers 
who cite the studies of the CPSC in its press releases to confirm the 
safety of its drywall products. I have attached two such examples as 
Exhibits B and C. National Gypsum has repeatedly used the flawed study 
of the Consumer Product Commission to discredit any claims about their 
drywall and even specific victims including George and Brenda Brincku. 
For example, note the following from a National Gypsum press release:

        CPSC Report Determines National Gypsum Drywall in Brincku Home 
        is Not Defective: In April 2011, the Consumer Product Safety 
        Commission (CPSC) released a report on testing of domestic 
        drywall as part of a broader investigation into problems 
        associated with defective Chinese drywall. The report 
        determined that the National Gypsum drywall in the [redacted] 
        home was not defective.

    A critically flawed study by an agency whose mandate is to protect 
the consumer is being used to discredit the very consumers the CPSC is 
supposed to protect. The most casual visit to the Brincku home will 
quickly reveal that the home has been destroyed by something that is 
corroding copper in the home. The Brincku's attorneys have confirmed 
the presence of sulfur-reducing bacteria while the manufacturer of the 
drywall suggests the problem arises from the well water.
    The CPSC has eliminated well water as a possible source of 
corrosion. If, in fact, as the domestic drywall manufacturers allege, 
the well water in Florida is so corrosive that it can destroy copper 
through air born transmission the problem for Florida and its real 
estate market extends far beyond the confined problem of defective 
drywall. It would mean not only has there been a catastrophic failure 
by those agencies that regulate Florida water quality but the real 
estate industry with equally devastating consequences would have to 
alert home owners to this menace emanating from the well water. Neither 
of these concerns will be realized because the attack on Florida's well 
water is a red herring.
    In conclusion, a separate study of the potential problems with 
American drywall remains regrettably an open question despite the 
considerable costs of investigating drywall-related problems. The 
CPSC's explanation that it did not want to do extensive removal of 
drywall begs the question and could have been eliminated by testing for 
sulfur-reducing bacteria. This simple test would have established that 
hydrogen sulfide is being produced by drywall as a waste product of 
sulfur-reducing bacteria.
    We, the undersigned, urge that the agencies of the Federal 
Government not close the door on problems created by domestically 
manufactured drywall before even the most basic questions have been 
answered. At the very least, we ask that the Consumer Product Safety 
Commission confirm the origin of the drywall from the eleven homes 
already tested.
    Thank you for your consideration and please submit this testimony 
for inclusion in the Congressional Record.
                                      Robert D. Gary, Esq.,
                                           Gary, Naegele & Theado, LLC.

                                    Gregory S. Weiss, Esq.,
                                                    Leopold Kuvin, P.A.

                                            Seth R. Lesser,
                                          Klafter, Olsen & Lesser, LLP.

                                         Charles J. LaDuca.
                                 ______
                                 
                                                     April 15, 2011
 U.S. Consumer Product Safety Commission Staff Summary of Contractor's 
 Evaluation of Homes Reported to be Constructed with Domestic Drywall 
                                  \1\
---------------------------------------------------------------------------
    \1\ This document was prepared by CPSC staff and has not been 
reviewed or approved by, and may not necessarily reflect the views of, 
the Commission.
---------------------------------------------------------------------------
Background
    The U.S. Consumer Product Safety Commission (CPSC) contracted with 
Environmental Health & Engineering, Inc. (EH&E) to conduct an 
investigation of a few homes where consumers have reported health and 
corrosion problems and where they also reported that the homes were 
built with what they identified as non-Chinese manufactured drywall 
(often referred to as ``domestic drywall'' by consumers). Although 
these reports alleging problems due to non-Chinese drywall represent a 
very small fraction of the total reported incidents, the CPSC 
investigated them as part of its overall investigation to gain a 
comprehensive understanding of the reported problems.
    Earlier investigations conducted by EH&E under contract with the 
CPSC identified a link between problem drywall in a home and increased 
levels of hydrogen sulfide in indoor air and increased rates of copper 
and silver corrosion. They also found that orthorhombic sulfur (S8) \2\ 
was a useful marker for identifying problematic drywall (EH&E, 2010a 
and 2010b). These findings, in part, formed the basis of the Federal 
Interagency Task Force on Drywall's Interim Guidance for Identification 
of Homes with Corrosion from Problem Drywall (CPSC/HUD,2010).\3\
---------------------------------------------------------------------------
    \2\ Also referred to as ``elemental sulfur.''
    \3\ Recent investigations indicate that the years should be 
expanded to include 2009. This has been reflected in an update of the 
Identification Guidance, March 18, 2011.
---------------------------------------------------------------------------
    This guidance includes two steps: (1) a threshold inspection of the 
home to identify blackening of copper electrical wiring and/or air 
conditioning evaporator coils and the installation of drywall in the 
time period of concern; and (2) the verification of corroborating 
evidence. In accordance with the Identification Guidance, either two or 
four pieces of corroborating evidence are required to identify a home 
as one with corrosion from problem drywall. Homes built or renovated 
between 2001 and 2004 require at least four pieces of corroborating 
evidence, and homes built or renovated between 2005 and 2009 require at 
least two pieces of corroborating evidence.
    Corroborating evidence can be: the detection of elevated S8 levels 
in samples of drywall taken from the home; corrosive conditions; the 
formation of copper sulfide on copper coupons placed in the homes for 
14 to 30 days; visual observation of markings, indicating the origin of 
the drywall; elevated levels of specific sulfide compounds from chamber 
testing of drywall samples; or corrosion of copper metal coupons to 
form copper sulfide when exposed in a chamber with drywall samples.
Study Design
    CPSC staff contracted with EH&E to perform this study to assess 
whether the objective criteria reportedly associated with problem 
imported drywall and outlined in the field-based component of the 
Identification Guidance were present in complaint homes allegedly 
constructed of domestic drywall. CPSC staff also wanted to compare the 
data collected from these homes with results obtained in the initial, 
large-scale investigation of homes with problem drywall (referred to as 
the ``51-Home Study''). This comparison is important because the 51-
Home Study was the largest study, to date, conducted on problem drywall 
homes using consistent and rigorous testing parameters. Testing 
performed as a part of the present study was conducted with methods 
identical to the 51-Home Study to ensure comparability. In this way, 
the results of the present study on 11 homes could be placed in context 
with the results of the larger study. CPSC staff asked that EH&E:

  <bullet> characterize the indoor environment in consumer complaint 
        homes that were reported to the CPSC to be constructed with 
        domestic drywall, and

  <bullet> compare the drywall composition, indoor air quality, and 
        corrosion conditions in these homes to corresponding parameters 
        observed and measured in residences in the 51-Home Study.

    This study, like the earlier 51-Home Study (EH&E, 2010a) was 
intentionally designed to identify source characteristics of drywall 
and characterize the indoor environment in the home where the complaint 
was reported. Thus, the study was conducted as a field study at the 
home, and chamber emissions testing and chamber-based corrosion testing 
were not performed as part of the suite of tests.
    CPSC staff selected 11 homes for the study. Homeowners self-
reported that their homes were constructed with domestically produced 
drywall; and before undertaking this study, CPSC staff performed in-
depth investigations to remove homes from the study where Chinese 
markings were clearly present. CPSC staff selected the homes, located 
in Florida (n=9), North Carolina (n=1), and Pennsylvania (n=1), from 
drywall-related consumer incident reports that the CPSC received 
between December 2008 and April 2010. Staff developed a ranking system 
to guide the current study, which like the 51-Home Study, considered 
location, date of construction or restoration, severity and extent of 
reported health effects, and corrosion. Staff also considered consumer-
reported manufacturer of drywall as a factor in the home selection, as 
well as consumer willingness to participate in the study.
    Between September 20, 2010 and September 29, 2010, EH&E field teams 
visited the homes and scanned multiple locations on the walls in each 
home with an x-ray fluorescence (XRF) analyzer as a screening tool to 
aid in detecting possible markers of problem drywall; collected drywall 
samples to analyze for orthorhombic sulfur; inspected ground wires and 
air handling units for corrosion; conducted air exchange, temperature, 
and humidity measurements; deployed passive air samplers for measuring 
indoor air concentrations of hydrogen sulfide and formaldehyde; placed 
strips of copper and silver metal called corrosion classification 
coupons in the homes to measure the rates and types of metal corrosion; 
and analyzed water samples to rule out alternate sources of sulfides in 
the homes. The full report can be found on www.drywallresponse.gov. Key 
results are detailed below and presented in Table 6.2 of the full 
report, which is attached to this summary.
Key Results

  <bullet> Nine of the 11 homes (Homes A-E and H-K) had evidence of 
        blackening of copper wiring or cooling coils and were 
        constructed/renovated in the relevant date range (2001-2009). 
        However, homes investigated to date, impacted by problem 
        drywall, meet a common set of parameters, not all of which were 
        observed in each of the nine homes.

  <bullet> Five of the 11 homes (Homes A-E) met the criteria for 
        identification of homes with problem drywall in accordance with 
        the Identification Guidance, including elevated rates of 
        corrosion and elevated concentrations of S8 in drywall samples. 
        Hydrogen sulfide was detected in the air in only three of the 
        five homes (Homes A, B, and D) at levels that were similar to 
        those levels found in problem drywall homes in the 51-Home 
        Study.

  <bullet> In five homes (Homes A-E), indoor corrosion rates exceeded 
        outdoor corrosion rates by as much as nine times. These results 
        are consistent with the results found in the 51-Home Study.

  <bullet> The presence and percentage of drywall samples with source 
        markers (S8 and strontium/carbonate) in Homes A-E varied by 
        room.

  <bullet> Two of the 11 homes (Homes F and G) do not have the 
        characteristics of homes with problem drywall consistent with 
        the characteristics found in the 51-Home Study or in accordance 
        with the guidance for identifying problem drywall homes.

  <bullet> Four of the homes (Homes H-K) had a corrosive environment 
        based on elevated rates of corrosion, as determined by the 
        visual observation rating system and mixed findings of 
        corrosion on the copper and silver coupons between and within 
        each home. The S8 marker was not found in the drywall samples 
        from any of these four homes.

  <bullet> In four homes (Homes H-K), outdoor corrosion rates were 
        sometimes similar to the indoor rates.

  <bullet> All of the homes in this study had air exchange rates that 
        are typical of North American residences.

  <bullet> Formaldehyde levels in the 11 homes were consistent with 
        levels found in recently constructed homes and results of the 
        51-Home Study and were not associated with the drywall.

  <bullet> Sulfides were not detected in any water samples from any of 
        the 11 homes and, therefore, were not likely a potential 
        contributing factor to measured indoor corrosion rates.

  <bullet> Average humidity and temperature conditions in the 11 homes 
        were typically within the ranges recommended for summer months 
        by the American Society of Heating, Refrigerating, and Air 
        Conditioning Engineers (ASHRAE). The temperature and humidity 
        levels were generally higher in homes in Florida in comparison 
        to the two homes (Homes F and G) located in North Carolina and 
        Pennsylvania.
Other Issues and Study Limitations

  <bullet> Information that these homes were constructed solely with 
        domestically manufactured drywall as opposed to Chinese drywall 
        was obtained by self-report from the occupants. CPSC staff and 
        EH&E were not able to confirm independently that all of the 
        drywall in the homes was produced domestically. This would have 
        required extensive removal of the drywall and destructive 
        testing of the residences.

  <bullet> An elevated rate of corrosion in homes is not sufficient, by 
        itself, to conclude that the corrosion is associated with 
        problem drywall in the home. Outdoor corrosion rates may be the 
        source of indoor corrosion in some of these homes (Homes H-K). 
        Or, the corrosion source might originate from something other 
        than the drywall.

  <bullet> In its report, EH&E suggested that additional chamber 
        emissions and chamber-based corrosion studies may help identify 
        whether the drywall is the source of corrosion versus some 
        other factor or source inside or outside of five of the subject 
        homes (Homes H-K). While CPSC staff understands the reasoning 
        for the recommendation of additional study, the CPSC has 
        determined that due to the relatively limited number of homes 
        affected, the uncertainty concerning the drywall's origins, 
        agency resource constraints, and that any findings of problem 
        drywall would not change the current Task Force 
        recommendations, it cannot authorize further expenditure or 
        study on this issue at this time.

  <bullet> While a sufficient number of drywall samples from each home 
        were analyzed for elemental sulfur (S8), and the selection of 
        samples to analyze was based on the presence of a secondary 
        marker (strontium) to increase the likelihood of selecting a 
        sample with elevated elemental sulfur, it is possible that, 
        even with the robust study design, problem drywall with 
        elemental sulfur exists on a small number of boards in Homes H-
        K; however, it was not detected.

  <bullet> There is a possibility that some problem drywall, including 
        domestic drywall, may have different characteristics from the 
        originally defined problem drywall. For example, there may be 
        differing mechanisms of chemical off-gassing or compositions of 
        source materials; or S8 might be a good marker for a particular 
        type of problem drywall (for example, problematic Chinese 
        drywall) but not all problem drywall. If that is the case, this 
        study would not have been able to identify this drywall as 
        problematic because it had materially different characteristics 
        from the problem drywall studied to date.
Conclusions
    Based on the characterization of the drywall and indoor 
environments of the 11 homes tested, comparison of the results with 
existing data from homes classified as problem drywall homes (51-Home 
Study), evaluation of the test results in relation to the 
Identification Guidance, and EH&E's extensive experience in conducting 
investigations of problem drywall homes, EH&E reported that five of the 
homes in the study (Homes A-E) have drywall that is consistent with 
problem drywall. However, because EH&E was unable to confirm 
independently that all of the drywall in the homes was produced 
domestically, and without detailed documentation of the drywall's 
origin, or without damaging the homes through extensive removal of the 
homes' drywall, it is not possible to conclude that only domestic 
drywall is present throughout the homes.
    Four of the homes (Homes H-K) had a corrosive indoor environment, 
but the test results were not consistent with previous findings related 
to the identification of problem drywall. It appears that the indoor 
corrosive environment might be influenced by outdoor corrosive 
conditions. Based on this study, other indoor sources, or the presence 
of a limited amount of problem drywall, cannot be ruled out as a source 
of the indoor corrosive environment. Conclusions regarding the 
potential of domestic drywall to be problematic cannot be confirmed at 
this time without further extensive investigation and detailed 
documentation of the origin of the drywall in these homes.
References
    EH&E, 2010a. Final Report on an Indoor Environmental Quality 
Assessment of Residences Containing Chinese Drywall.
    EH&E, 2010b. Identification of Problematic Drywall: Source Markers 
and Detection Methods.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    From ``Evaluation of Homes Reported to be Constructed with Domestic 
Drywall,'' April 12, 2011, Environmental Health & Engineering.
                                 ______
                                 
    I am writing to tell you about the nightmare my wife and I have 
been living since discovering in 2009 our home contains contaminated 
Defective Chinese Drywall. We are unable to attend Tuesday's hearing 
but hope that our story can be shared.
    After 23 years of marriage and living in the same home for more 
than 19 years my wife and I felt we were in a secure financial position 
to build the home of our dreams on 11 acres in the County. I am a 
contractor by trade and at the time owned a successful construction 
company. We purchase the land in 2005 and began to design the home. In 
late 2006 we broke ground on what we had planned to be our final home 
which would later be a great financial investment to us in our 
retirement years. In July 2007 we closed on the $402,000.00 mortgage 
and began to enjoy our new County lifestyle. This home was our dream 
over 4,500.00 sq ft appraising at closing for over 550K and we couldn't 
believe we did this and seemed to have done it all right. In early to 
mid 2009, we began to start having issues with first our security 
system panel, which effected our inter-come system and security 
cameras. Then 2 televisions went out. Small appliances such as 2-3 
coffee makers, toasters, and other strange electrical things. The small 
mini central A/C unit that fed our oldest sons room went out. We began 
to see increased electric bills and realized our other 2 central units 
were working very hard and running constantly. There was a strong smell 
in the house when we got home in the evenings, and my wife's jewelry 
began to discolor. Being a contractor I had begun to hear rumor of the 
Chinese drywall. I did some checking with the wires in our home and 
found that they were corroded. I did some further research on the 
Internet and began to realize what was going on. It was probably 2 
months before I got the courage to tell my wife. She was just 19 and I 
was 21 when we married. Like all couples we had dreamed for years of 
building a home like this. Finally in our 40s we felt we were in a 
position to do just that. Our home had been featured in a local 
magazine for it's design, style and features. Now I had to tell her our 
home was basically worthless. I learned in my research that the drywall 
affects metals; our home is built entirely out of metal studs including 
the trusses. All I could envision was that the home would have to be 
demolished! I finally told her. I can actually say it was probably one 
of the lowest points in my life. I was a builder, how could I have 
missed this? How will I be able to afford to move my family, and do we 
let the house go back to the bank? I had never had to foreclose on 
mortgage what would that do to our finances? How am I going to take 
care of this for my family? I felt as if I had disappointed my wife and 
let my entire family down. On top of all this, as the economy was 
failing so was my construction business.
    Once my wife's initial shock wore off, she began to do her own 
research. Her biggest fear was/is what are the health effects on the 
kids. Our oldest son who is 22 constantly suffered from sinus 
infections. He has now moved out and the infections have stopped. Our 
13 year old son was diagnosed with allergies about 8 months after we 
moved in the home. He spends most months congested. And now takes 
monthly injections. We constantly wonder is it related to the drywall? 
We have a 12 year old daughter, is she being effected in a way we have 
yet to see? Center for Disease Control says ``no health effects'' . . . 
this stuff turns metal black, kills appliances and electronics, and we 
are supposed to believe that? In October of 2009 we learned of a law-
firm handling the defective drywall in our area. We contacted them, and 
after a consultation, they scheduled us for the Environmental testing. 
In November 2009 it was confirmed, we had the defective drywall. The 
markings on our boards were not clear enough to immediately determine 
our manufacturer. We were told there are suspected 5-6 Chinese 
manufacturers. My wife and I were pretty much in a fog the rest of the 
year and into early 2010. Not only were we trying to figure out what to 
do about the house as we watched things unfold in the news and on the 
Internet about drywall, my business was not getting any better. I had 
worked in construction for 25+ years owning my own business since 2003 
and now I couldn't land any jobs for my company. I had to cut my salary 
back to try and keep my business a float. Eventually by late March, I 
had to lay off all of my employees. I laid myself off and went on 
unemployment in May of 2010. I tried to find work in my industry all 
the time bidding jobs for my company in hopes of landing just one job. 
In April of 2010 the BP Oil Spill impacted the Gulf Coast bringing 
further damage to our towns failing economy. My wife works full time 
but her salary really did nothing more than cover health benefits for 
the family. It was time we notified our mortgage company and asked them 
for a modification. By this time, the appointed court in New Orleans to 
oversee the drywall cases had come up with a remediation plan. I 
obtained estimates in accordance with the remediation protocol to 
provide to the bank to show them what it would cost to renovate the 
house. The estimates were close to the mortgage amount of 400K. We 
notified our property appraiser of our County, our home that once 
appraised on the tax rolls for 445K was reduced down to 218K. All of 
this documentation was provided to the mortgage company along with the 
testing results, letter from our attorney financial statements from our 
business and personal accounts. We pleaded with them to do something to 
help us, stating that we were willing to try and keep the house in 
hopes that the economy would turn around and our government would step 
in and make the Chinese do the right thing and fix our home. With the 
assistance of our attorney we tried to convenience the bank that they 
didn't want this house that it would benefit them to modify and keep 
some type of payment coming in rather than have another house on their 
books that they more than likely could not sell. The response we got 
was we could run 30 days late but that was it. Even the government 
loans that were being offered to individuals in crisis with their 
mortgage were not an option to us. So we made a decision to stop making 
the mortgage payment put that money back and let them kick us out. By 
not making the mortgage payment we would stop depleting our savings and 
hopefully be in a position to rent somewhere when we were eventually 
forced out of the house. In a last ditch effort, we hired an attorney 
to try and fight the foreclosure, you know try and prove the note etc. 
in hopes to buy 6 months or so. Our first mediation rolled around in 
early October of 2010. Our attorney re-submitted the documents we had 
previously provided to the bank in early 2010 adding his legal verbiage 
which we paid for of course. We decided not to have the attorney attend 
mediation. He basically told us the mortgage company didn't care that 
the house was of no value we were just another number they would write 
off. So we decided to attend without him and go through the emotions . 
. . after all we would have had to pay him to be there and he was not 
encouraging. Well needless to say the mediation was a joke. Our 
mortgage service company is PHH Mortgage out of New Jersey. A local 
credit union Pen Air holds the note. There was a mediator, an attorney 
for the bank and my wife and I. My wife was crying uncontrollably the 
entire time. A bank representative was supposed to call in for a 
conference call at a certain time and they were late. Their attorney 
finally had to call them some 45 minutes later only to get a person who 
said they had to fill in, that the original person who was listed on 
our documents to attend, was called into a meeting. Needless to say 
this person was not prepared. Their own attorney who was in the room 
with us was clearly frustrated. When we were asked why we were not 
making our payments we told them a combination of the problem with the 
drywall and a reduction of income. The representative on the phone said 
what is Chinese Drywall? As I tried to explain it to her she said she 
just Google'd it and couldn't believe what she was reading! ``What a 
devastating position to find yourselves in'' she stated. She further 
said she did not see where we had submitted any of the documentation to 
them regarding the drywall and then their attorney spoke up and said 
``you have to have it, I have it in my packet that you all sent to 
me``! Finally she said she was in no position to make a decision, that 
she felt that Pen Air Credit Union had to make a decision on the 
modification. By this time the mediator was totally frustrated and 
called the meeting adjourned citing that no decisions could be made 
because the appropriate parties were not present. He ordered the 
attorney to reschedule and have a representative from Pen Air attend 
the next mediation. That next mediation did not take place till mid 
November 2010. In attendance, a representative for Pen Air, the same 
attorney, my wife and I. The Pen Air representative started the meeting 
by saying very kindly, ``we had no idea about the drywall``! ``We are a 
home town lending institution and are in the business of keeping people 
in their home.'' We are not a construction company in the business of 
renovating homes ``. . . the Board has reviewed your file and we are 
going to do what ever we can to keep you in your home.'' Basically what 
she was saying is we don't want to be stuck with that toxic home! If 
you people are stupid enough to stay in it and pay us to do it we will 
take your money! The meeting was adjourned and we were told they would 
work up the figures and re-schedule the meeting. The next mediation was 
the end of November 2010. By this time I had found work in my industry 
with another company. It was not the salary I had once had, but it was 
not in the poverty level of unemployment either. It put us in a 
position to really be able to give a firm figure to the bank on what we 
could try and modify to. The modification terms proposed by the bank 
were to take our interest rate down from 6 percent to 2 percent for the 
next 5 years stating they hoped by that time the drywall litigation 
would be settled. That reduced our payment by about $1,100.00 per 
month. And they would do that by adding only $47,000.00 to our loan . . 
. great deal huh?! Reluctant, my wife and I signed the note believing 
that certainly this issue would resolve, the economy would get back to 
normal and our dream life would go on.
    Here we are 1 year after modification and not one step closer to 
getting the house repaired. Our drywall case is a bit unique. I have no 
builder to sue, I was the builder. The courts have ruled I cannot file 
this as a claim on my insurance company. I purchased my drywall from 
our local Port, Pate Stevedore. Just this month, we received a letter 
from our attorney telling us they have decided not to sue Pate 
Stevedore for a number of reasons the most important being ``they do 
not have the insurance or assets to pay a judgment in our favor.'' It 
was determined that our drywall manufacturer is Taishan Gypsum Co., 
Ltd. The letter we just received from our attorney stated, ``we are 
continuing to pursue every avenue possible to bring that company 
(Taishan) to justice in the American court system but we face a number 
of obstacles, not the least of which is their challenge to jurisdiction 
because they do not have minimum contacts with our Nation. They further 
state this is a battle we will wage for some time in the court system 
and through political and other channels. Wage for some time! Nothing I 
have heard is encouraging to my wife and I. We don't have years to 
invest in this political battle. We cannot understand our own 
government not stepping up to help us. My wife and I are doing 
everything possible to try and keep this house and not become another 
number in the mortgage crisis. We are trying to keep up our end of the 
deal despite every obstacle we have faced. Please we urge the 
government to step in and help us! When you look at the scheme of this 
drywall crisis the government gives away billions of dollars. There are 
just an estimated 10,000.00 homes effected by this drywall, just a drop 
in the bucket don't you think? We should not have to suffer because our 
own government allowed China to import to us this defective product and 
as we all are aware of many, many more defective products. I thank you 
for your time and encourage you all to help make this right for us.
                                 ______
                                 
Chinese Drywall and Cancer
    I am an Engineer, Shipbuilder, Husband, and Father of 2. In 2006, 
my wife and I upgraded from a starter home to a beautiful, four-bedroom 
home in a family-oriented neighborhood. The home was sold by a 
reputable developer (East-West Partners) and built by a reputable 
builder (Orleans Homebuilders, based in Philadelphia).
    In July of 2009, we initially suspected that we had Chinese Drywall 
after our 9th air-conditioner evaporator failure, and in September, our 
builder cut into our walls and confirmed it. In October 2009, an X-ray 
fluorescence evaluation confirmed all walls and ceilings on the second 
floor were Chinese Drywall, all ceilings on the first floor were 
Chinese Drywall, and about 25 percent of the walls on the first floor 
were Chinese Drywall. Our builder promised to stand by his work, and 
would commence remediation ``after the holidays''. After some stalling 
tactics in January and February of 2010, Orleans Homebuilders declared 
bankruptcy on March 1, 2010. We were on our own.
    A contractor provided an estimate to repair the home, which, 
coupled with moving expenses approached $150,000. Both my wife and I 
rely on security clearances in our careers, so a foreclosure or 
bankruptcy was out of the question. Due to the unknown health concerns 
at the time, we decided to self-remediate. In May, 2010, my wife and 
children moved in with local family, and I turned the children's attic 
play-room into a dormitory, and worked 42 hours per week on average 
over 5 months to remediate the home. Along with family and friends, we 
logged 2,930 hours and spent $59,000 to remove all drywall, clean 
thoroughly, and then replace all wiring, copper plumbing, HVAC, 
insulation, drywall, and trim. On October 22, Isle of Wight County 
conducted the final inspection, and the home remediation was complete.
    Our first child was born in July 2006--one month after moving into 
the home. Between 2006 and 2010, there were respiratory issues in the 
children that did not raise much concern at the time, but in hindsight 
we now know the children's bouts with illnesses lasted much longer than 
normal. In addition, my wife was diagnosed with hypothyroidism while in 
the toxic home. The real health concerned appeared in 2011--almost a 
year after the remediation was completed.
    In July of 2011, I was diagnosed with a 6cm mass on my right 
kidney. It was found by ultrasound, confirmed by CT Scan and MRI. No 
biopsy was conducted because even if the mass were not cancer, it could 
become so in the future, so given my age, my doctor recommended an 
open, partial nephrectomy (partial kidney removal). The surgery was 
conducted in August. While recovering in the Intensive Care Unit, my 
doctor informed me that the mass was Papillary Renal Cell Carcinoma--
kidney cancer. My surgeon informed me that at 3cm, the cancer typically 
starts to spread. At 6cm, my cancer showed no signs of spread, and was 
classified as a Stage 1, Grade 2 cancer, and the surgery was declared 
``curative''. I was lucky. I have monitoring and scans for the rest of 
my life, but the prognosis is good.
    I have since learned that Papillary Renal Cell Carcinoma is a 
relatively rare form of kidney cancer, and 95 percent of those that are 
diagnosed with it have a family history. They are also at least in 
their 5th decade of life. I have no family history. I am not in my 5th 
decade of life. I am personally convinced that my cancer was the result 
of exposure to toxic drywall. I cannot say whether it was the chronic 
exposure from 2006-2010, or the acute exposure during the self-
remediation. I tend to think a 6cm mass would not have grown that 
quickly in the single year since the acute exposure, but there is 
little data available on the rate of growth of these cancers since 
these cancers are typically removed soon after detection.
    Are there other people diagnosed with kidney disease with Chinese 
Drywall? Yes. Are there others with cancer--that remains to be seen. In 
the years to come, it will take dedicated studies to identify the 
health connections and risks. I need to know for the sake and safety of 
my 3-and 5-year old children, what risks they have been exposed to, 
what scans they may need, and what health tests should be scheduled and 
when. The Victims need the U.S. Government to sponsor these studies.
    OSHA and EPA have the best publicly available data on the health 
risks of Hydrogen Sulfide gas exposure, however due to the nature of 
the responsibilities of those organizations, the data is focused on 
short term, high concentration exposure. There is little to no data, at 
least publicly available, on long-term, low concentration exposure. The 
CDC is performing a study relying on modeling a toxic home for personal 
exposure levels, and correlating available data to assess health 
impacts. Since there are no data on long term exposure, what 
conclusions can that study possibly draw?
    From a consumer protection and public safety perspective, and as a 
victim of Chinese Drywall and Cancer Survivor, I call on the U.S. 
Senate to:

  <bullet> Fund a University or Government Lab to conduct studies to 
        assess the impacts of long-term, low concentration exposure to 
        Hydrogen Sulfide gas, and other Chinese Drywall off-gas 
        products, on appropriate laboratory animals. These studies 
        should supplement the studies CDC is already conducting.

  <bullet> Fund a Health Organization to conduct a comprehensive 
        epidemiologic study on not only respiratory issues, but 
        potential long term issues on cognitive function, endocrine 
        systems, renal (kidney) function, muscular-skeletal systems, 
        liver function, and publish the results.

  <bullet> Identify a Federal Government POC, by name, for collecting 
        health information on CDW--be it CDC, HHS, CSPS, or other; and 
        publicize it on government websites. Make CDW Health Impacts 
        and studies the responsibility of an agency, and fund it.
                                 ______
                                 
    Thank you very much for allowing me to present my family's 
testimony today. We are a family of three: myself, my husband, and our 
12 year old son. We own a home in a master planned community in 
Hillsborough County Florida.
    Do you know how my family discovered our toxic drywall? I became 
sick after living in our new home for just 2 years. I visited 
internists, a pulmonologist, and an infectious disease doctor. No one 
could tell me what was making me so sick. My patient files said amongst 
other things, ``fever of unknown origin.'' I had multiple x-rays taken, 
ultrasounds (they feared it was my heart), CT scans, and I even allowed 
them to inject me with radioactive material to do gallium scans because 
they feared it might be cancer. I have never had asthma. Now I spend 
most days thankful if I can run 2 miles without stopping to gasp for 
air. Singulair doesn't work. Advair doesn't work. I have few days 
without chronic sinusitis. I have had dizzy spells, hallucinations, 
nausea, diarrhea and vomiting for days because I have been in the house 
too long. I have lost quite a bit of hair. I am the worst off because I 
spend the most time home . . . until now. Our son has become sick. He 
now has the same symptoms: diarrhea, chronic sinusitis, dizziness, 
nosebleeds, and breathing trouble. I asked him what he would like to 
say to you. He sadly replied, ``Tell them that now I know how you 
feel.'' Far more troubling, his doctor just tested him for celiac 
disease and hypothyroidism to determine why he is vitamin D deficient. 
Celiac disease and hypothyroidism do not run in our family. He is also 
having vision trouble while in the house--it is a red/green color 
distortion.
    We have been fighting our builder for years now. We have been 
through multiple home testings and had multiple lawyers. We are furious 
that homeowners like ourselves are being left to bear the burden of 
this financial disaster while big business is let off the hook. We are 
the victims. We did not purchase our homes knowing they were full of 
toxic materials which destroy our health and render our properties 
worthless. Our insurance companies have left us high and dry. The 
builders are escaping culpability. Their insurance companies are being 
absolved of responsibility. We receive no assistance from our 
government and to add insult to injury, all our health complaints have 
been ignored to date. This will be another asbestos disaster. We are 
all guinea pigs who will be forced to bear years of health problems and 
more litigation down the road when we have cancer and mesothelioma. I 
am disgusted and feel we have been sacrificed so that every corporation 
making profits from these toxic materials can continue to rake in 
billions. These products are dangerous and the truth must come out. 
Their use must be discontinued and there must be a cooperative 
assistance from builders, suppliers, and insurers to fix our homes and 
give us safe places to live. This is America. Why aren't we looking out 
for our own?
    We own this home. We invested every cent we had into it. We face 
financial ruin if we walk away. We face risking our lives if we stay. 
Are either of these choices fair when we bought this home before the 
words, ``toxic drywall'' hit the airwaves?
    Thank you.
                                 ______
                                 
                                                  November 29, 2011
Hon. Mark Warner,
United States Senator,
Washington DC.

Dear Senator Warner:

    We live in Williamsburg, VA, and are a family that has been 
devastated with owning two homes that are contaminated with Chinese 
Drywall (CDW). Chinese Drywall has not only destroyed copper & silver 
in our homes; it has also devastated our families' health and financial 
well being! My parents moved into one home and my father-in-law into 
the other home (both in their 80s). In the first year there were many 
mechanical issues with the thermostats and air conditioning coils in 
both of their homes.
    My father-in-law died unexpectedly (7/2008) only two years after 
moving unknowingly into a CDW contaminated home (Respiratory Failure). 
Our family will never be convinced that the CDW did not potentiate his 
death? Imagine our guilt for not knowing what was causing his extreme 
weakness. My father-in-law experienced weakness of his legs and was 
falling which, was not normal for him. He was an active healthy man 
until unknowingly moving into a tainted CDW home. My father-in-law left 
the home to go into in-patient rehabilitation and improved tremendously 
only to revert back to his CDW health related issues upon returning to 
his toxic CDW home. If we had only known he was living in a toxic 
environment we would have moved him out and saved his life. My mother 
also experienced some of the symptoms. As soon as we became aware of 
the CDW we moved my parents out of their tainted home!
    According to news articles, the primary reports of deaths to the 
Consumer Product Safety Commission (CPSC) were of the elderly or youths 
with medical problems. This should not be a surprise to the CPSC! If an 
adverse reaction would be experienced the above mentioned populations 
are the ones you would expect to see the most severe reactions. You can 
not convince me that the toxic drywall's hydrogen sulfide off gas, 
which is both an irritant and a chemical asphyxiant, does not affect 
the body's ability to use oxygen; especially in the elderly. This part 
of the population spends more time in their homes and therefore has 
more exposure to the toxins than people who leave their home for work 
everyday. This does not mean we should accept that their lives were cut 
short by this toxic product.
    How can this situation not be considered a disaster? How can 
Venture Supply and their insurance company not be responsible for not 
following the ``International Safety Standards''? Why do companies pay 
thousands of dollars for insurance protection and yet have no coverage 
when needed? We homeowners did not cause this problem and should not be 
the one's left holding the bag!
    When will the U.S. Government hold China responsible for the 
atrocities it has bestowed upon tens of thousands of innocent American 
families!?
                                 ______
                                 
House built 2001--Florida
    My husband and I built our ``dream retirement home'' in Delray 
Beach, Florida in December 2001. We replaced the air conditioner coils 
in 2002 and 2003. In September 2004 we purchased a new air conditioner 
rather than replace the coils again. We replaced the coils again in 
2007 and 2008 as well as replacing the heating element and fan. We 
replaced the light fixtures in our bathroom because of pitting, 
replaced mirrors due to black spots, have black ``copper'' pipes under 
the sink as well as black wires in back of the refrigerator and inside 
the electrical outlets. In April 2009 we hired an attorney and had the 
house tested. They found drywall that said ``Made in China'' and the 
air in the house was found to be unhealthy, My husband and I suffer 
from burning eyes, runny noses, insomnia, fatigue, coughs, headaches, 
memory loss, etc. We pray the house will be remediated. We are senior 
citizens living on a fixed income and cannot afford to move out of this 
toxic environment. We hope to see a positive outcome from this toxic 
disaster that will make us ``whole'' again in our lifetime.
    We have just purchased a third air conditioner in 2011.
    Please help us.
    Forgot to tell you we don't have a mortgage on our home. Being 
seniors we cannot afford to move out. We need money to gut the house 
and rebuild.
    Thanks.
                                 ______
                                 
                                             Date: December 1, 2011
    In August 2010, it was discovered that 75 percent of my new home 
(built 2006) was contaminated with toxic Chinese drywall. The drywall 
has caused several major appliance failures including new refrigerator, 
central air and heat units (over 10 services/repairs since 2007), 
fireplace, electrical wiring problems throughout home, and corrosion of 
bathroom fixtures. Currently, I have no air conditioning or heat 
because units are not properly working and I have had two minor 
electrical fires (refrigerator and door bell transmitter). The odor has 
become so unbearable to the point that I have been forced to move my 
family to rental property. The Hampton City Assessor has deemed my home 
uninhabitable and has decreased the building value from $227,000 to 
$100. I have attempted a short sale to a cash investor but my mortgage 
lender has denied due to low offer. Because I cannot afford to pay 
mortgage and rent, I am currently facing foreclosure.
                                 ______
                                 
    Ms. Mbabazi,

    For the record, I want to express my appreciation for the work done 
by this committee thus far on this growing issue of contaminated 
drywall. My family, here in Alabama, has been affected by this 
complicated disaster. I will not take up your time with our recent 
history of hardship and surveillance, only inform the committee that my 
family is stronger for it. Our value is here and available for any 
assistance we may provide the committee as it examines solutions. 
Please feel free to contact me anytime.
    My family, here in Alabama, has been affected by this complicated 
disaster. I will not take up your time with our recent history of 
hardship and surveillance, only inform the committee that any family is 
stronger for it.
    Our value is here and available for any assistance we may provide 
the committee as it examines solutions.
                                 ______
                                 
                                                      December 2011
    Dear U.S. Senate Committee of Commerce, Science, and Transportation 
Members:

    Our American dream has become an American nightmare. My wife and I 
are writing to express our imperative plea for legislative assistance 
regarding families effected by Chinese drywall. The CPSC and CDC 
continue to ignore long term health effects of people living in this 
toxic environment. No long term health studies have been released. 
Please read this letter with vigilance and understand there are several 
people experiencing long term health effects of Chinese drywall. In 
September 2006 we built a new home in the beautiful Ross Bridge 
community where our children would have access to wooded paths, 
community gatherings, parks, and a wonderful school system. We entered 
a lawsuit against the builder within 18--20 months after moving in due 
to numerous electrical problems including breakers tripping on a 
weekly/daily basis, Christmas lights catching fire, new bulbs blowing 
out frequently, failing A/C units requiring multiple repairs, appliance 
replacements (refrigerator, washing machine, three coffee makers, 
waffle irons, hairdryers and roller sets, etc.), and foundation issues. 
Soon after entering the lawsuit we discovered many of these problems 
were associated with Knauf Chinese drywall that was installed in our 
home. Within six months of living in the home health issues developed 
within all family members, but we were not aware these issues were 
related to the toxic air we were breathing.
    In August 2010, eight months after learning we were living in 
Chinese drywall, we made a decision to move into an apartment to avoid 
continued exposure to the toxicity of hydrogen sulfide that was taking 
a toll on our children's health. Despite the enormous financial strain 
this created, the health of our children was paramount under current 
circumstances. Other families in our lawsuit have also moved out prior 
to litigation resolution to protect the health of their children. You 
may have read initial reports regarding the health effects associated 
with people living in Chinese drywall, such as nose bleeds, respiratory 
and sinus infections, skin rashes, itchy eyes, but the CDC is releasing 
new information regularly that is revealing other abstract health 
concerns that may not be diagnosed and treated immediately. 
Neurological, circulatory, and decreased bone growth are surfacing that 
we have personally experienced. No one can confirm the long-term health 
effects that may transpire from this tragic event. We feel compelled to 
share our health concerns that have developed since living in our home. 
It may contribute to your knowledge of the concern many families in 
Alabama are facing.
Health Concerns of [redacted] (age 44)
        Chronic Fatigue Syndrome (aching joints; no energy; depression; 
        loss of concentration; memory loss)

        Mycoplasma (320+ considered clinically significant--two lab 
        reports reveal David's count at 1427 and

        1913--well beyond clinically significant--doctors cannot 
        determine cause for extremely high numbers)

        Irritated Eyes

        MRSA/staph infections

        Skin rashes

        Respiratory infections

        Paranoia

        Severe Insomnia

        Depression

        Significant Stontium/Lead levels present in blood tests 1.5 
        years after moving out of house!
Health Concerns of Spouse, [redacted] (age 43)
        Osteoarthritis and Rheumatoid Arthritis

        Joint pain

        Fatigue and loss of concentration

        Insomnia and depression

        Vitamin D deficiency

        Meneire's disease

        Significant Stontium/Lead levels present in blood tests 1.5 
        years after moving out of house!
Health Concerns of Son, [redacted] (age 12)
        Multiple antibiotic prescriptions for respiratory infections

        Inhaler for asthma

        Sleep problems

        Anxiety

        Major concern: 55 percentile drop in height and weight in TWO 
        YEARS--Previously averaged 80-100 percentile

        Significant Stontium/Lead levels present in blood tests 1.5 
        years after moving out of house!

        Appetite loss
Health Concerns of Daughter, [redacted] (age 13)
        Auto-immune diseases--celiac

        Development of seizures

        Concentration problems

        Vitamin D Deficiency

        Swollen lymph nodes

        Multiple antibiotic prescriptions for respiratory infections 
        (three rounds of antibiotics from April-June 2010)

        35 percentile drop in height in TWO YEARS--Previously averaged 
        between 90-100 percentile

    There are other health issues, but we wanted to highlight those of 
greatest concern. Some of the above concerns have improved since moving 
out in August 2010, but our daughter continues to struggle with 
clinically significant auto-immune and Vitamin D deficiencies despite 
substantial changes in our regular diet. The physical development and 
decreased bone growth implications are unknown. Our son continues to be 
well below his projected height despite the fact we have been out of 
the home a year and half. Some research states strontium in the drywall 
replaces calcium. Bone and lung cancer are serious concerns based on 
preliminary research released from toxicology experts conducting more 
in-depth research. Other Chinese drywall neighbors of ours have 
children who have also experienced many of the above concerns. It is 
too ironic for this to be occurring with several children in the same 
neighborhood with normal pediatric history prior to living in CDW. One 
week prior to moving out of our home, our son had a friend to spend the 
night who had a history of asthma. The child had not had an asthmatic 
attack in four years, but went to the Emergency Room the next day after 
experiencing the worst attack in his life. Chronic fatigue is still an 
issue with David who even recently continues to exhibit clinically 
significant mycoplasma lab results. The CDC and CPSC are NOT taking 
this issue seriously as they have not looked into the particulate 
matter or heavy metals that have a greater impact on long term health. 
Please read the toxicology report we will attach for further scientific 
research being conducted in one of the hardest hit areas, post 
Hurricane Katrina.
    We share this information so you may have a personal account of the 
multiple financial and health matters that are effecting victims of 
Chinese drywall. Your leadership in assisting families in the same 
situation is greatly appreciated. We were debating the possibility of 
filing for mortgage modification through a forbearance, but have 
concerns of how this will effect our credit that has been superior to 
this point. Currently, our mortgage holder will only allow three months 
forbearance but will make us pay postponed payments at the end of three 
months, with additional fees attached. This is disheartening when we 
spent three years paying hundreds of additional dollars toward the 
principal of our mortgage, only to pay the loan off faster and save for 
our children's college education. We are forced to continue payment of 
a mortgage, rent, and utilities at both locations since our homeowner's 
insurance requires power and utilities to be turned on for coverage. We 
have spent close to $50,000 of our children's college savings and 
personal savings to avoid exposing our children to the chronic health 
issues experienced! God blessed us with the financial means to move out 
sooner than later, but this is not the case for many other families in 
our situation.
    We need all politicians to demand additional involvement and 
corrective action from The Department of Homeland Security, FEMA, 
mortgage industry, and other Federal agencies to provide assistance to 
families devastated by the import of Chinese drywall and other toxic 
imports. Many doctors are ``scratching their heads'' as to how to treat 
families who are experiencing many of the long term exposure symptoms 
that are now surfacing. China has continued to import a multitude of 
toxic products that are not only killing our citizens, but effecting 
our economy by forcing Americans to buy their cheap products. We need 
updates on health studies immediately. Time is running out! A neighbor 
in his 50s recently died of lung disease. . .CDW?
    Please help us!!!! Demand more information from other governmental 
agencies. We voted for you to represent the people. People are dying 
from this and everyone wants to turn their head! If you would like 
additional information, please e-mail us. Our community is arranging 
town hall meetings, and we encourage you to attend.
                                 ______
                                 
    To Whom It May Concern:

    I purchased my brand new home on December 15, 2006. I took one 
month to make the home my own. Shortly after moving in I began to have 
numerous electrical problems in my home. I have spent close to $70,000 
in to this home.
    The first things I began to notice in my home were numerous cable 
television problems. Cox Cable had been to my home around 15-20 times 
with in a 12 month period. I lost many DVR boxes and had television 
reception problems. During the first 12 months I was in the home, I 
lost an ice maker in my refrigerator, dish washer, and many other small 
appliances. In the meantime, I also lost three 50'' Plasma Televisions.
    I thought my house was haunted and actually became the joke of my 
friends. They would routinely say that my home was built on someone's 
grave. In the summer of 2007 I lost my air conditioner coils. I paid 
$750.00 to have this repaired because the company refused to stand 
behind the installation. In the summer of 2008 I lost the same air 
conditioning coils again. At this point, I am really wondering what I 
have done to deserve all of this stress. Then in August of 2009, I was 
getting off work around 4pm. My neighbor comes over and asks if I was 
having problems with my home. I had never met the gentleman and he was 
very upset. After a long chat he and I had shared many similar stories. 
He and I decided that we needed to figure out what was wrong with our 
homes.
    That night, I was determined to get to the bottom of this issue. I 
posted on facebook that my home was cursed. A friend read my post and 
said I might have something that a friend of his has called Chinese 
Drywall. He gave me the number to his friend, and I called him. After a 
long chat with him on the phone I thought I finally might be on to 
something. I attended a meeting in Norfolk, Virginia about Chinese 
Drywall. This was when reality set in.
    I thought to myself, this should be easy go to court and get this 
house fixed. Well after two years I am no closer to having resolution 
to this matter. I have not lived in the home for a long time now, as I 
am afraid to be in the house.
    Our government has not done anything to stand up for it's tax 
paying residents against China, the builders, or the insurance industry 
to help us. I cannot even begin to describe the mental anguish this has 
caused in my life. I have always paid my bills, taken care of myself, 
and paid my taxes. I am almost 40 years old and wonder if I will ever 
be able to recover from such a devastating man made catastrophe. I have 
been denied homeowners insurance, a claim against my builders 
insurance. Why should I be left holding the bag for something I had no 
part of? I cannot understand why our government is not here to help us. 
After all, they are the ones that negotiate trade deals with foreign 
countries. Not me!! Everyone involved in the construction of my home 
should be forced to step up to the plate, and right the wrongs they 
have caused. I am afraid by the time our government does something, I 
will have already lost this home!!
    UPDATE: I lost my home yesterday on November 29, 2011
    Regards
                                 ______
                                 
    Natasha,

    Hi I was told to write you about health concerns with the Chinese 
Drywall. We did an addition to our home in 2006 and come to find out it 
was Chinese Drywall. In May of this year our then eight year old son 
suddenly developed a severe headache. I gave him tylenol and he laid 
down then I went to check on him and he couldn't pick his head up or 
turn his head. I took him to Dr. [redacted], when we got out of car he 
was having trouble walking on his own. The Dr. sent us to E.R. to check 
for meningitis. He had a spinal tap and did not have it, so they gave 
him strong anitbotics and sent home. His white blood level was elevated 
high. He slept most of the next day (Thurs.) then on Fri. I went to 
wake him up and he could not get up. I helped him sit up on the bed and 
he cried when I moved him. He could not stand up and said his legs felt 
weird and would not work. I took him back to Dr. as he cried all the 
way there. We had to put him in a wheel chair to take him in and his 
legs would not work. He also was having a severe headache. The Dr. 
could not get a reflex on his legs. He finally calmed down after about 
4 or 5 hours and was finally able to walk. The Dr. wanted us to go have 
lunch and come back for some of blood results. We went back and he was 
able to walk in and the Dr. and nurses were all relieved. The blood 
tests did not show anything so he wanted us to follow up in a few days 
with a Neurologist.
    We left and as we got close to our car he said ``mom my legs feel 
weird again'' and they gave out. I caught him and we put him in the car 
where he started screaming with his head again. Took him back into the 
Dr. and he sent us to USA Women's and Childrens Hospital where he spent 
3 days. Doctors could not pin point anything and we did say something 
about the drywall and the Dr. said we were the second family that week 
to ask about drywall problems. They sent us to another Neurologist and 
Rheumatologist and he had MRI's, nerve test, and EEG done and found 
nothing. The doctors have all been baffled.
    Long story short, he had about 2 or 3 episodes a week for 4 months 
and after everyone asking if we thought the drywall could have anything 
to do with it we paid someone to tear out the drywall out of the 
addition and have been airing the room out and blocked off from rest of 
the home. His episodes after 4 months have basically stopped now.
    Also another thing I really wonder about is, my four year was born 
with a birth defect of the eye. It did not develop in the back and she 
had Cataract, Detached Retina, a mass behind the eye and a distorted 
optic nerve. She was a full term baby and the Doctors were baffled that 
she was not a premie with all those troubles. I was pregnant with her 
when we did the addition and always in that room. She almost lost her 
eye and get a prosthetic. She is now blind in that eye. This is just 2 
things that concern me about being linked to the Drywall. Anyway I have 
a journal of the stuff with my sons' problems. I am curious if anyone 
else has had any of these health problems associated with this drywall.
    Thank you for your time and hard work.
                                 ______
                                 
                                                   December 5, 2011
    Ladies and Gentlemen,

    I just watched footage from a hearing you had on this very topic on 
May 21, 2009. How completely sad that it is over 2 years later and you 
are having another hearing on December 6, 2011 ``Contaminated Drywall: 
Examining the Current Health, Housing and Product Safety Issues Facing 
Homeowners''. Nothing seems to have changed in my mind for the 
Homeowners. Have you been able to sleep comfortably in your homes since 
2009? My family has not. Have you been hounded by your bank, ignored 
and dismissed by your insurance agency? My family has. Through no fault 
of your own have you been pushed to the brink or over it financially? 
My family has. Have any of you lost a beloved pet, because the air in 
his home was toxic? My family has. The current ``issues'' are the same 
``issues'' we had 2 years ago or 5 years ago. The victims of this 
disaster need you to examine how to help us now, right now.
    My testimony is: my home has toxic Taishan Chinese Drywall. All the 
metal in my home is/was corroded, pitted and black. My family and I had 
nose bleeds, respiratory problems, lethargy, headaches, skin rashes and 
situational asthma. We fled our home to a rental, rather than risk our 
health any longer. Our homeowners insurance denied our claim and then 
non-renewed us. I reported to every local, state and Federal agency. 
The only help came from Lee County Property Appraiser; they valued our 
home at $0. We joined the lawsuit in Louisiana. My bank, Chase, who 
owns stakes in Taishan drywall and who has been bailed out by our 
government quickly, after much harassment of us, finally gave us a 
special forbearance. But we can only have 2 choices, special 
forbearance or short sale for 6 months. They are waiting to see how 
this all shakes out in terms of money for them. I cannot take the 
Federal tax exemption because I have not remediated. There is stress 
involved in every aspect of this disaster, even down to little things 
like getting out of a cable contract prematurely because your house is 
rotting their equipment, because no one cares if you have toxic drywall 
or not. This is only a brief synopsis of the living hell we victims 
endure on a daily basis.
    Our country gives billions of dollars in aid to other countries, we 
are building houses in Haiti and meanwhile there are over 10,000 
families in the U.S. suffering because our government allowed this 
toxic product into this country and our government is ignoring this 
crisis. Please end this madness, now.

                      Toxic Home: Cape Coral, FL built 2006
Addendum:
    Please do not think that yesterday's settlement news from KPT has 
been the magic answer for the Victims of Toxic Drywall. Thousands of us 
still have Taishan drywall or American drywall. Judge Fallon is going 
to Hong Kong next month for Chinese depositions and the American 
drywall victims do not go to trial until May!
    As for the science part of this drywall fiasco, I would like to add 
my thoughts. My home has been vacant since approximately October 2009, 
with no air conditioning on, in SW Florida. There is no mold growing 
and there are no bugs alive in it. I have seen pictures from other 
victims of dead rats. Nothing can live in these toxic conditions.
    I personally think some of the science must have to do with drywall 
eating bacteria, but I am not a scientist.
    I am a homeowner, who has paid her taxes her whole life. I have 
been blindsided by Chinese Drywall that was allowed into this country. 
I have been abandoned by almost all government entities. Do you know 
what it felt like to watch the President of the United States wine and 
dine the President of China? Why has he not uttered the words ``Chinese 
Drywall'' yet? Why hasn't he surveyed the damage this disaster has 
caused, like he does with other disasters? Ask him for me please.
    I would also like to address the Federal tax break again. It is 
real simple. I have documented toxic drywall, I can have a catastrophic 
loss deduction. Done. Not the convoluted law we have now, that only if 
it is remediated silliness. That is what I would like to see.
    I implore you to help the Victims of this disaster now and do not 
allow toxic imports in again, for my children's sake.
    Do not drop the ball. We Victims need help!
    Thank you.
                                 ______
                                 
    We were so happy to move to our final home on November 10, 2006. 
This was to be our home that would take us through our retirement 
years. We are now living a nightmare. We discovered in July 2009 that 
the home we purchased was built with Chinese drywall. The Chinese 
drywall was causing many physical problems in the home and for our 
family personally. All three of us have had physical ailments as a 
result of having Chinese drywall in the home. Seven months after living 
in the home, our golden retriever, Kramer, died of kidney failure. Our 
second dog, Bailey, died in December 2008 of respiratory issues.
    Now we know why all of these things happened. Chinese drywall!
    We purchased and moved into our home in November 2006. After living 
in the house for seven months, we began to experience problems with the 
air conditioning. As of August 2009, we have replaced six to seven 
coils in two AC units. We have had major repairs to our flat screen TV, 
computer hard drives and monitors that crashed, small appliances that 
failed, a dryer that stopped working due to circuit board failure, and 
electrical outlets that had to be replaced. Physically, we have 
experienced unexplained rashes, respiratory problems, headaches, 
fatigue, insomnia, chronic coughs, and muscle pain. The smell in the 
house is in our clothes, furniture, mattresses, linens, and silver 
jewelry and flatware have turned black and are unable to be cleaned. 
When we opened our windows, our neighbor complained of the smell that 
came from our home. We have documentation to prove all of these issues.
    Upon learning of the problem, the stress has become unbearable. We 
moved out of our home immediately in August 2009, leaving our 
belongings behind, and filed a lawsuit because we had no other recourse 
since the builder and insurance companies were of no help. We are 
thankful that our AC repairman was the one that discovered the cause of 
our problems. We are depressed and saddened at the current status of 
our life. We worry about our two other dogs that lived in the house all 
day long. The outcome of their health and our own is yet to be known. 
If the drywall is corroding copper and other metals within the home, 
what is it doing to our bodies?
    We are currently living in a rental. Our home was sold in a short 
sale in November 2010. We lost $400,000 in equity. This was a major 
investment for us and through no fault of our own, we lost it all 
including the home we loved. Selling the home was in our best interest 
and that of the mortgage company. Hanging on to a home you can't live 
in with a forbearance on your mortgage, only keeps increasing your debt 
to the mortgage company. The increasing debt has caused many families 
to file bankruptcy. We are glad that we were able to sell. Had we 
foreclosed, the mortgage company would have been stuck with a home in 
poor, uninhabitable condition. The short sale has caused our credit to 
be hit and it will be affected for seven years. Families that are 
dealing this will be held prisoners by their credit. They will not be 
able to purchase new homes or buy cars at a decent interest rate, if at 
all. We have always maintained excellent credit, and now because of 
Chinese drywall that has also been damaged. We are not deadbeats that 
have not managed our finances. We attempted to get a new loan and were 
told by a bank and mortgage company to come back in three years. They 
did not even want to deal with us. Our local community bank is giving 
us an adjustable rate mortgage at 5.5 percent that they are holding on 
their books since it cannot be sold. This is not a bad rate, but rates 
for conventional loans are much lower. We will have to refinance later 
to get a conventional loan when our credit rates improve. Another 
financial burden! New rules for the underwriting of mortgages and loans 
need to be updated to make provisions for homeowners that were victims 
of Chinese drywall. Chinese drywall is an ``extenuating circumstance'', 
yet there is nothing written about that so loans can be given. This is 
something that the government can do.
    We are victims of Chinese drywall. This product was allowed in our 
country. Please work on safety regulations for imports and make foreign 
countries abide by our regulations.
    We will continue to move ahead and work with local, state, and 
national officials to rectify our situation and the situation that 
countless other hard working, tax paying citizens are facing. As of 
today, very little if anything has been done to help American citizens 
in this situation. We received two forbearances on our mortgage prior 
to selling the home in a short sale . . . this is only a band aid on a 
much larger problem. We did not cause this situation and we need help 
from our government to assist and ensure safety standards for all 
Americans. We have contacted the White House on numerous occasions and 
have not heard one thing back regarding our situation. We run to 
foreign soil at the drop of a hat. Why can't our own country do 
something to help its own citizens? You have done nothing! We are 
ashamed to be citizens of a country that does not come to the aid of 
those that do deserve it. We will tell you that each and every family 
that we have met that has Chinese drywall are hardworking American 
citizens that pay their taxes and contribute to society. We deserve 
some help as well. Our government is a travesty! Actions speak louder 
than words and we are tired of the lip service we have received. Wake 
up and take action! Help the hard working American citizens and their 
families that have been victims of Chinese drywall.
                                 ______
                                 
                                                   December 8, 2011
                         Addendum to Testimony
    I attended the U.S. Senate Committee on Commerce, Science, and 
Transportation on December 6, 2011 in the Russell Senate Building. I 
would like to add my comments regarding the health aspects and credit 
issues in the form of an addendum to my testimony turned in prior to 
the hearing.
    It was noted by the CPSC and the CDC that there is no specific 
cause for concern regarding health issues and toxic contaminated 
drywall as a result of their studies. How do we know what significant 
levels are for exposure to these gases from the drywall? It is very 
possible that just an average number was used based on the studies. In 
their studies, did they use a significant number of homes where 
physical complaints to this exposure were reported or was it just a 
random sampling? Every home may have been different based on the 
geographic location of the home.
    Our family had two very healthy dogs until we moved into the house 
with Chinese drywall. The dogs are in the home 24 hours a day for the 
most part and stayed by the front door on the lower level just waiting 
for us to come home. The gases are heavier on the lower levels as we 
now know. Our home had three levels. Seven months after moving in, our 
golden retriever developed issues with his kidneys and could not 
recover from them. For a week to 10 days, he was at the vet for 
treatment. My husband, [redacted] also had some issues with his kidneys 
that required treatment. Our standard poodle had a skin reaction that 
caused her nose to become crusty, peel and then crust up again. This 
was ongoing the whole time we lived in the house. She died two years 
after living in this house due to respiratory issues. My husband had a 
severe rash that could not be explained by the doctor. He called it 
``contact dermatitis'' and the doctor told him something was irritating 
his skin. No changes were made to detergent or anything else that could 
irritate his skin. It looked like he had chemical burns all over the 
trunk of his body, up his neck, and onto the scalp. Nothing made it go 
away. Our daughter, who was away at school, would break out in a rash 
on her lower torso, and strangely enough when she went back to school, 
it would disappear. This only happened to her in this house. We lived 
in both houses when she was in college. I had a chronic cough, 
headaches, and fatigue ( and I am a high energy person that used every 
minute of every day--not in this house). About three months after 
moving out of the toxic home, our physical symptoms went away. We 
wonder; if the gases corrode metal pipes, what do these gases do to the 
inside of our bodies? Only time will tell. What families have reported 
is enough to know that you can't live in these houses. I felt the need 
to explain in more detail the physical problems that we experienced.
    Congress also needs to address the financial situation that has 
been created by the Chinese drywall situation. Forbearances were only a 
Band-Aid solution for a much larger and longer lasting problem. 
Forbearances allowed us to move out of our homes and rent something. 
Forbearances were short-lived. Banks are not going to continue to give 
them to you and your debt keeps rising for a house that is 
uninhabitable through no fault of your own. I addressed this in more 
detail in my original testimony submitted prior to the hearing. It has 
come to my attention that if the credit is able to be restored for some 
families, that it may not be retroactive. Please do not do something 
for ``some of us'' and not all of us. We had our short sale a year ago. 
We have no idea at this time how long this will affect our credit. 
According to the info I received from the bank, it will be seven years 
unless it is an extenuating circumstance. I have yet to really get a 
clear answer on ``who'' makes that call. Who is going to tell us that 
we did have an extenuating circumstance? When will we be able to get a 
conventional loan? Don't penalize good, hardworking Americans that were 
victims of Chinese drywall because they could see that nothing was 
going to be happening anytime soon. We had to act responsibly regarding 
our finances, as we always have our entire lives.
    When you think about it in our situation, we dealt with the 
problems caused by the house with Chinese drywall for two and a half 
years. We had the physical problems both with the house and personally. 
These resulted in numerous expenses for items that were not covered by 
warranties--appliances, electronics, AC coils, vet bills, and personal 
medical bills. Insurance did not cover any of this. And now, we have 
been out of our house for two and a half years. All in all, we have 
been dealing with this nightmare for five years. We need help now and 
not years later. We should not be penalized. We are well aware that not 
every individual that had Chinese drywall had the same credit ratings. 
You can make some decisions that would restore our credit back to what 
it was prior to having had to have a foreclosure, a short sale, or a 
bankruptcy. Make decisions that will help all of us--not some of us. 
Please do not form another committee to investigate. Take action now 
and please do it as soon as you can.
    Think about it this way. It is your house and your family. What 
would you want done to help you recover?
                                 ______
                                 
    To Whom It May Concern:

    On November 1, 2010, we bought our dream home at [redacted]. We 
bought this home thru a Foreclosure. We hired a Chinese Drywall 
``expert'' to examine our home to determine whether or not it had 
defected drywall. The report came back negative so we proceeded to 
purchase the home. Within days, we experienced unusual health problems. 
My 8 yr old (7 then) developed Hives from his groin area to his knees. 
He had never had Hives before. My 5 yr old (then 4) developed upper 
respiratory problems for which he was put on an inhaler. He had never 
been put on an inhaler before. My wife developed daily Migraines. Now, 
she gets Migraines on average 1 migraine every month. Always around her 
menstrual cycle or if a large weather front comes thru. I have known my 
wife for 18 years and never has she had more than 2 migraines in a 
month and this was DAILY migraines. My 2 yr old (1 then) developed an 
upper respiratory infection and her first ear infection. She has not 
had a respiratory or ear infection since we moved out over a year ago. 
Personally, I developed heavy breathing. It was like someone was 
standing on my lungs is the only way I know how to explain it. Even 
with all these health problems, I first attributed them to the ``stress 
of the move''. However, after about 3 weeks of living at [redacted, we 
received a letter from Doyle law firm stating they had evidence that 
over 450 sheets of Knauf Drywall had been invoiced to our house back 
when it was originally built in 2007. After almost throwing the letter 
away (remember the part we had a Chinese drywall Inspection done) I 
decided to call Jimmy Doyle. He came out to our house the following day 
and within 10 minutes had located an entire area with Knauf ``Made In 
China'' drywall. I contacted our pediatrician and informed her of this 
discovery. She advised us to vacate the premises immediately. So, after 
living in our new home for about 3\1/2\ weeks, we moved out of the 
house that night into my Mother-In-Law. To put it lightly, it has been 
HELL for our entire family since the discovery of the Knauf drywall. On 
a good note, all of our symptoms went away after a few days of being 
moved out of [redacted]. However, I do not need to wait for tests to 
determine if this will cause very serious health problems over long 
exposure. I know first hand what it does to your body in about 3 weeks, 
so common sense tells you it will only get worse with long term 
exposure.
    We are in the class action lawsuit against Knauf. It has been VERY 
slow moving. However, at least until now, our bank, Regions, (who sold 
our mortgage to Freddie Mac after I told them of the drywall problem) 
has issued a forbearance on the loan. We cannot afford paying a 
mortgage payment and rent payment, nor should it be expected of us. We 
also have a lawsuit against Griffith Home Analysis (the supposed 
``Chinese Drywall Expert). I hope this e-mail helps, I really can't 
stress enough the emotional strain we have been under. Please feel free 
to e-mail me back with any questions you may have.
    Thank you for any help you can provide.
                                 ______
                                 
Chinese/American Defective Drywall
    I am a Disabled Veteran who purchased a new home in 2007. My home 
was built in 2006, and contains United Gypsum. After living in our home 
for 39 months, and 6 hospital visits, with two additional visits post-
moving, we are still waiting for help from someone!
    I listened to the Commerce, Science, and Transportation 
Subcommittee Hearing on Drywall recently by videocast. I am quite 
dismayed by some of the answers that were given, especially by Mr. 
Cowen in his testimony before your committee. I believe that I may 
answer some of the questions that you were looking for.
Drywall Differences
    What most people don't seem to comprehend is that there are 
similarities between the true Chinese Drywall, and the American 
Drywall, but there are vast differences also. The true Chinese drywall 
that is marked (ex: Taishaun, Knauf, China, or others) turns everything 
black quickly, you normally lose you're A/C coil quickly, and most of 
the time there will be a smell such as rotten eggs. At least with these 
signs people can get out of their homes much quicker.
    But with the American Drywall such as mine, as I only have United 
States Gypsum, we had A/C issues right from the start. We started 
feeling sick about 6 months in, and other things happened that were 
unexplainable. The lights would flicker, we started losing small 
appliances, and at times we thought we smelled something.
    Then we lost our electric kitchen stove, and then the water heater 
went, and my wife started having kidney issues. Being a Disabled 
Veteran with an already compromised immune system, I started having 
additional breathing issues. This was followed by kidney problems also 
just like my wife had. Then I had blood pressure problems for the first 
time, followed by heart problems.
    Now over 4 years later we have discovered that it took our home 
with American Drywall about 2-2\1/2\-3 years to become fully evolved. 
It seemed to evolve and cook more and more throughout this time period. 
You could notice the progression, if you inspected the house about 
every 3-4 months. You could see the changes in the copper wiring, and 
the odor increased significantly. In the American Drywall homes it 
comes across as a sweet-sickly, chemical smell, and you can taste it on 
your lips and tongue. I and my wife, (but more myself) have become so 
sensitive after living in this for so long that when we cross the 
threshold of a door we can tell if that home or building has bad 
drywall in it. In some cases you do not even have to make entrance, as 
you can smell it coming from the soffit under the eves of the house.
Commercial Exposure and Food Products
    I am very concerned as in this past year we have discovered many 
commercial businesses that have bad drywall. I have tried talking to 
the Managers, but most of them usually think that I am crazy, or have 
came back later and stated that they checked and do not have any 
problems. I am in the process of sending a letter to the Health 
Department of Florida listing the businesses I have observed bad 
drywall in.
    My biggest concern is the food stores with the meats and open 
exposed goods. Also the gases that permeate the cardboard boxes. We 
have discovered stores from Estero to Sarasota, Florida. In Estero 
alone there are in a 5 mile radius 4 Publixs', 2 Super targets, 1 
Sweetbay grocery stores that are infected. Then there are 2 extremely 
large shopping malls that were built during this timeframe,and we have 
discovered some of these businesses have bad drywall.
Residential and Real Estate Dealings
    We moved out of our home in the middle of October 2010, and moved 
about an hour South to Estero, Florida in a home that I knew was free 
from any bad drywall. Prior to our first year expiring we started 
looking for a place to rent, back in the area where our home is 
located.
    We were shocked as we searched for a place to live, finding mainly 
homes that were exposed to bad drywall just like our own home. The 
smells were identical to our own. What was even more frightening was 
the fact that some of the homeowners and Realtors, knew that the homes 
contained bad drywall, or that at least there was a problem. Others 
were in denial, and even after I talked to them trying to educate them, 
I also told them some websites to assist them in learning more about 
the problems, many of them didn't care and still rented or sold the 
homes to unsuspecting people. In a 3 month period we encountered over 
50 homes, as well as some Real Estate offices that were contaminated.
Foreign Drywall
    One of your committee members inquired at the hearing if anyone 
knew of any foreign entities that had bad drywall. I wanted to shout 
through the webcast at that time because my wife was back home visiting 
her mother in Yalta, Ukraine. My mother-in-law's apartment is on the 
1st floor, and constructed of all concrete inside. About 1 year ago she 
had some new windows and interior doors replaced. In the bedroom my 
wife grew up in they installed a new wooden door, and they had to add 
some drywall around the door after framing. This was the only drywall 
in the entire apartment and it was Knauf brand. When my wife first 
arrived at her mothers, as she entered the front door she smelled the 
drywall, as stated before she also had become quite sensitive to the 
odor.
Drywall Time Frames
    In our search for a place to live we encountered mostly homes that 
were built in the years of 2004--2006. But we did find homes that were 
constructed in different areas, by different builders, in 2008 and also 
in 2010. We also found many older home when we changed our search 
requirements, that had been remodeled and contained contaminated 
drywall.
Builders, Suppliers and Installers Knowledge
    As a homeowner and also a Victim of this Disaster, I am enraged 
that many of the builders, suppliers, and installers were aware of the 
drywall problems back in the year ``2006''. When the judge opened the 
Settlement Agreement in the Miami trial, that was made between Knauf 
and Banner Supply, after reading the documents it made me sick.
    If these facts had been revealed to the public, I don't think that 
many of us homeowners who are sick and suffering, would be in the 
position right now that we are in!
Conclusion
    My wife and I are still sick, with an unknown future as to our 
medical health. We are out Thousands of Dollars, and our Credit has 
taken a hit because we could not afford to pay our Freddie Mac loan and 
rent at the same time.
    I would like the opportunity to speak before your panel because I 
am tired of listening to experts who know nothing, and sugar coat all 
the facts and details. I have lived it, I have breathed it, I have 
studied it, I like the other tens of thousands have had the same 
medical symptoms--I have suffered it, so why not ask a real 
professional--I do have many answers and also some suggestions for a 
solution.
Re: The Toll Chinese Drywall Has Taken On Our Family and Commuinity
    We want to share the absolute tragedy our family has faced as a 
result of a toxic foreign product which was allowed into the United 
States. We are 100 percent innocent victims who will pay the price for 
this oversight the rest of our lives, and we are pleading for help from 
our political leaders.
    In 2006 we wanted to move our growing family into a larger home in 
a promising development. We moved in August of '06. Immediately after 
moving in we began experiencing problems with the home and unexplained 
health symptoms. The builder had a long ``punch-list'' of items which 
were never completely resolved and resulted in us and several of our 
neighbors taking legal against the builder after 18 months. Upon 
lawsuit inspections, we discovered many additional issues with our 
homes which were in direct code violation and never should have passed 
inspections. Then, in September of '09 we also discovered our home was 
built with Knauf Chinese Drywall--as were 35 percent of the homes on 
our street.
    Problems with our home:

        --  Water flooding and year-round standing water in the yard 
        due to improper drainage and grading. Water ran underneath the 
        home soaking support structures and elevating moisture levels. 
        Later we would find that this elevated moisture further 
        exacerbated the off-gassing of our Chinese Drywall.

    The following are all issues resulting from Chinese Drywall:

        --  Failing HVAC system: frost on interior walls from Freon 
        leaks, five failed AC coils, and the furnace setting off smoke 
        alarms etc. There were 9 HVAC repair visits in the first year.

        --  Wiring problems: lights which turn themselves off and on, 
        light switches which ``pop'' when used, and rooms full of 
        lights which would ``dim'' when an appliance was turned on etc.

        --  Failing electrical and appliances (big screen TV, smoke 
        alarms, security system, constant replacement of light bulbs, 
        washing machine, stereo receiver, DVD players, speakers, 
        computers, printers, and multiple small appliances which 
        stopped working after 3-4 months etc.).

        --  Batteries which quickly died, including car batteries from 
        the vehicle which we parked in the garage. Our family van had 2 
        batteries die in the first year of use.

        --  Smoke alarms and the security system would sound for short 
        intervals and then silence. In one 2008 instance the fire 
        department was called. When the firefighters arrived at 3:00 
        a.m. they said the home smelled like burnt matches (sulfur) but 
        could not locate a fire. Later we would learn that many other 
        victims were experiencing similar alarm problems due to CDW 
        dust on alarm sensors.

        --  The drywall itself is ``weak'' and crumbles around nails 
        and hanging brackets in the wall. A large 4, x 7, mirror pulled 
        away from the wall and fell toward our 3yr old while he was at 
        the sink. The nails and brackets holding the mirror up were 
        black and corroded and the sheetrock itself had crumbled and 
        given way. Several wall hangings and curtain rods fell off the 
        walls in similar fashion. On another occasion our 7 yr old 
        accidentally slid into the wall while running and punched a 
        hole in the drywall with his knee. The drywall gave way under 
        relatively low-impact.

    But all of these issues pale in comparison to the severe health 
problems my husband, I, and our three young children have faced in the 
last four years. Health symptoms started with the tell-tale nose 
bleeds, respiratory and sinus infections, skin rashes, itchy eyes, 
chronic coughing, but grew to include broader neurological, circulatory 
and bone growth delays. These are all outlined as the effects of 
hydrogen sulfide, strontium, carbon disulfide and carbonyl disulfide 
poisoning. This information is available via the National Library of 
Medicine.
    We discovered the vast majority of our home was constructed with 
Knauf drywall in September of '09 and since have learned that the 
following health issues follow similar patterns across the nation:

        --  In the first few months in our new home, my husband 
        developed severe sleep-apnea to the point where he was having 
        an apnea every 60 seconds while sleeping. Sleep deprivation and 
        pulmonary strain followed.

        --  Our youngest child immediately developed chronic chest 
        congestion and was diagnosed with asthma which required he 
        receive nebulizer treatments 2-3 times a day.

        --  All three children (ages 18 months, 3 and 6 at the time) 
        quickly developed skin rashes, eczema, bladder infections, 
        yeast infections, loss of appetite, ear infections, and 
        repeated respiratory complications. The children would 
        constantly cough after waking--a symptom which would go away 
        when they left the home or were in school.

        --  Adults suffered chronic fatigue, loss of sense of smell, 
        memory loss, inability to concentrate, insomnia, nausea/
        vomiting and depression.
        --  Visiting family members became ill--65 year old father was 
        hospitalized with pneumonia and 61 year old mother developed a 
        severe sinus infection after staying with us for just a few 
        days.

        --  Every member of our family was diagnosed with ADD/ADHD 
        within 18 months. This was accompanied by high-anxiety and 
        irritability requiring medication for all, ages 4 through 45.

        --  Our youngest child spent the majority of his life 
        developing in this toxic home has experienced the most severe 
        symptoms. After four years of symptoms, he was tested by the 
        Hoover school system in the spring of '10 and diagnosed with 
        high ADD and had boarder-line Autism scores. He was issued an 
        IEP and placed in Early Intervention Pre-school. Additionally 
        his growth rate dropped from 97 percent percentile at age two, 
        to 30 percent percentile at age 5. Tests were conducted for 
        endocrine function, growth hormones, celiac disease, liver 
        function etc. and all cam e back normal indicating something 
        else was the cause. In June '10 we believe we discovered the 
        cause; our Knauf drywall contains very high levels of 
        strontium. Our drywall was inspected with an XRF detector 
        revealing boards with strontium counts as high as 3300 ppm when 
        the allowable level is below 200. Strontium is absorbed into 
        the bone and replaces calcium, stunting bone growth.

        --  By July of 2010 we had spent thousands on doctor visits and 
        had over $700 in monthly prescriptions to treat all of our 
        health symptoms.

    We then made the difficult decision to evacuate our home to 
alleviate our children's current health problems and for fear of future 
health complications. Since moving out of our toxic Chinese Drywall 
home:

        --  The children's appetites have increased and all have gained 
        weight. The youngest grew a 3 inches in the first year we were 
        out of our toxic home.

        --  Skin rashes have minimized and there have not been any 
        bladder or yeast infections.

        --  All have been able to reduce medication.

        --  And most importantly, our youngest was re-tested by the 
        Hoover school system in October and scored completely 
        ``normal'' for his age and no longer needs ADD medication.

        --  Unfortunately, many health symptoms remain and doctor 
        visits are frequent.

    We are thankful our health problems are improving, but we are now 
faced with the financial burden of paying our mortgage, rent and 
utilities on two households which is unsustainable. We filed suit 
against the manufacturer in '09, and while the legal process is moving 
quickly, homeowners like us are running out of time. Settlements are 
only covering repairs and 3 months of relocation and are still many 
months away. Like many homeowners, we will be faced with months of 
relocation costs which will never be reimbursed and forbearance costs 
for which we'll never be compensated.
    We are sharing this personal information so you can understand the 
toll Chinese Drywall is having on many families in Alabama. Current AL 
statistics are significantly understated and true impact could be as 
high as 3500 homes based on the gap between reported vs. confirmed 
cases in Ross Bridge. Your leadership and focus on this issue is 
imperative.
                                 ______
                                 
    We purchased our ``retirement'' home in Sun City Center, Florida in 
February of 2007. Built in September of 2006, it had never been lived 
in. It was a home we could be proud of and fit our lifestyle perfectly, 
as we love to entertain. We also enjoy having family and friends visit 
us when it's cold up north and they need a break from snow-shoveling.
    We noticed a ``different'' smell to the home. It didn't smell like 
most new homes. But we thought that was due to it's being closed up for 
a few months. After we moved in, we noticed some discoloration of many 
of the metal items in our home over time, but didn't think much of it. 
We found that we both suffered a few more headaches than we usually did 
and our eyes bothered us, as they often itched or burned. We treated 
both with over the counter medications.
    In 2009 we learned that we had Chinese Drywall. From that point on 
we have learned, through experience, what living with Chinese Drywall 
really means. We have had to replace our air-conditioning coils and one 
very expensive refrigerator. Our lamps are not working well, many of 
our switches for our overhead lights have quit working and our smoke 
alarm has failed. Additionally, our mirrors are getting little black 
specks or drips in them. Our fixtures are getting pitted in our 
bathrooms. The replacement refrigerator had to be fixed (fortunately 
not replaced, this time). Some of our jewelry and decorative items have 
turned black with corrosion. Anything silver is tarnished beyond normal 
tarnishing.
    As the economy has affected the value of homes, our home has taken 
an even worse hit. It isn't worth anything. The house is totally 
unsellable at any price. We have received a little help from 
Hillsborough County, in the form of real estate tax relief. Our house 
has no value as far as they are concerned. And there are no 
instructions as to how we might be able to claim this loss on our 
taxes.
    This house is a sick house. We don't know the full ramifications of 
the long-term effects on our health as a result of living in this 
house. But we do know that it has already been costly to live in this 
house, compared to living in a similar home of the same design and age.
    We victims of Chinese Drywall deserve for our government to back 
us. This is too big a problem for ordinary citizens to solve without 
the help of those who should be overseeing the products that come into 
our country. For most people, one's home is their largest single 
expense. Most of us don't have the necessary resources to fix our 
homes. Through no fault of ours, we are having to pay for the problem 
financially, physically and emotionally. Please help.
                                 ______
                                 
    I finally after 47 years had the money to build my dream home on my 
little 8 acres of paradise in the country. After working and saving and 
paying on mortgages and children and I could finally say I had 
accomplished something. Every penny I had would go into this little 
home, so that I could afford to live there in my old age and leave 
something to my daughter. Two years after moving in the nightmare was 
realized. My A/C stopped cooling it was still under warranty so I 
called my A/C man, it was then that he told me I had Chinese drywall 
and what it had done to my A/C coils. I began my research, and then 
understood that strange smell the sinus problems and headaches that I 
had had. I could not afford to keep fixing my A/C I now have an 
abandoned home, no money to fix it its been a disaster to me just like 
if it had been a tornado or hurricane without insurance! My daughter 
had given me a house warming plaque to hand over my front door, it 
reads, ``God is the head of this home and the unseen guest in every 
room``. I still have it hanging there, because it seems that he is my 
only hope, no lawyer, and no government cares about the injustice that 
has happened to all of the CDW victims.
                                 ______
                                 
    Dear Senate:

    I have written numerous letters to agencies around the county all-
the way to the president of the United States of America I hope this 
will have different outcome. There a few words to describe Chinese 
drywall a living hell a nightmare you can't wake up from. Financial 
disaster
                                 ______
                                 
                                                  December 08, 2011
   Re: Testimony Concerning Impact of Chinese Drywall for the Senate 
    Committee on Consumer Protection, Product Safety, and Insurance
    Dear Senate Committee:

    This letter is to document the negative life impact created by 
owning a home that was constructed with Chinese Dry Wall (CDW). I am 
one of the many homeowner's, whom through no fault of their own, 
discovered their homes contained ``toxic'' Chinese dry wall.
    I purchased my condominium at [redacted], Williamsburg, VA, in 
October of 2007 after retiring from 27 years of service in the U.S. 
Navy. It was a lovely home that suited our every need. After the first 
year of living there however, we began to notice that something was not 
right; as my wife and I were often ill and suffered enduring headaches, 
skin rashes, burning eyes, and respiratory distress. As a hard-core 
runner, the respiratory issues began to take their toll on my running 
performance. With the summer heat of 2009, the toxic fume level inside 
the home had become extremely noticeable and very unbearable. Then that 
August, the builder informed me that he had received word from his 
drywall supplier that shipping records indicated that the home had been 
built with a significant amount of Chinese dry wall installed. I 
immediately had the builder test the home. If our health issues were 
not evidence enough, his actual tests without doubt, confirmed the 
presence of Chinese Dry Wall.
    We were forced to evacuate the home on 31 AUG, 2009 due to the 
extremely unhealthy environment that was actually worsening each day. 
My wife and I had no other choice but to remove all our household 
possessions from the home for further risk of them being cross-
contaminated ( the toxic hydrogen sulfide fumes emitted by the Chinese 
dry wall actually penetrate and are absorbed by anything that is porous 
or permeable; clothing, pictures, books, paintings, upholstery, 
bedding, mattresses, etc.). We temporarily relocated to a hotel for 
three months while we attempted to negotiate resolution with the 
builder. After numerous unsuccessful attempts at engaging the builder 
to remedy the situation, I was forced to take legal action and I joined 
a forming class action law suit, as well as a case filed at the State 
level. These suits are against the entire supply chain involved with 
the manufacture, procurement, distribution, and installation of the 
Chinese dry wall in our home.
    The Federal District Court in New Orleans heard the original six 
cases for homeowners involved from Virginia. The presiding judge, 
[redacted], ruled in their favor, however since the ruling was against 
a Chinese company, appropriate restitution has not been forthcoming. 
Additionally, the other part of his ruling determined the ``official 
protocol'' for remediation, which to date had been in question (remove 
just the Chinese drywall, or gut the entire home?). His determination 
at that time was the only acceptable remediation method is the complete 
gutting of the home down to the framing studs. This includes removal of 
all insulation, ducting, appliances, wiring, plumbing, etc. to prevent 
any further cross-contamination. He estimated the cost at between $80-
90/sq ft, meaning a 2000 sq ft home such as ours would cost as much as 
$180,000 to remediate fully, to restore it to a safe and livable 
condition. His remediation protocol has since been refined slightly by 
the CPSC.
    After three months of hotel living and no reasonable solution 
within sight, I purchased another property at my current address in 
December 2009 to help restore some ``normalcy'' and sense of balance to 
our lives. This was an important step in trying to place behind us the 
absolute nightmare and absurdity of the previous three months in losing 
our home for no visible or apparent reason. As a side note, while 
moving in to our new home we had to discard over $30,000 of our 
personnel possessions due to their being cross-contaminated by the 
fumes (they stank of the noxious gas). This was a considerable 
financial burden in itself to replace these possessions, and having to 
essentially ``start over'' to equip our new home (this was NOT covered 
by homeowners insurance).
    We were then in a situation where we are paying over $5000/month in 
mortgage cost alone for two homes; one of which is completely vacant 
and useless; a true financial ``black hole``. Through no fault of our 
own, we were left with a property that we could not sell, we could not 
rent, nor could we ``live'' in it. The property was completely 
worthless until proper remediation could be performed to remove the 
toxic Chinese drywall restoring the property to a ``clean and livable 
state``. It was during this time that I requested a forbearance from 
Wells Fargo. I was asking for some ``relief``, or time, while the legal 
process was taking its course and future corrective action could be 
directed. I was doing everything in my power to do the right thing, 
fulfill my obligations, and to prevent a foreclosure on the loan. Wells 
Fargo did not grant a forbearance, but they did allow for a loan 
modification that lowered my monthly mortgage by about $200/month.
    Thankfully, in October of 2009, I received an offer from the 
builder to buy the property back, however at a significant loss to me 
of my down payment and equity, as well as having to cover the remaining 
balance of my loan. I originally purchased the condominium in October 
of 2007, at a selling price of $427,000. Faced with the situation of 
paying two mortgages, on two homes at close to $5000/month, and one of 
which is completely vacant and useless, I made the decision to accept 
the builders offer of $220,000. As part of this agreement, I also had 
to agree to drop any further claims against the builder in any future 
CDW legal actions. We settled on this sales transaction on 21 December, 
2010.
    I had requested from Wells Fargo a ``short-sale'' of the home, 
since my loan balance was $325,000; however, I was disapproved because 
of for all reasons, I was not delinquent on any of my payments. You had 
to be delinquent on your payments to be considered for a short sale; 
which is an absolutely absurd policy that penalizes those homeowners 
who are doing everything possible to NOT be delinquent in their 
payments (less it affects their credit score). Since I was not approved 
for a short-sale, I then had to pay the $105,000 difference from my 
savings to cover the remaining balance of my loan and protect my credit 
score. This completely wiped-out my savings; however, the builders 
offer to re-purchase the home was an opportunity to put this nightmare 
behind me, even though it was a catastrophic loss and at great cost.
    Besides the obvious financial impact, and potential health 
complications that are still being evaluated, there is the ``human and 
moral'' impact side to this story. To be sitting in your lovely home 
one day, and then to have it completely useless to you the next, for no 
reason of your own, is truly incomprehensible. It's just not right. The 
feeling that you have been ``violated'' is overwhelming, and it 
continues to be with me each and every day. I lost my home; then I lost 
my savings to get out of it, and into a new one; and then I lost my 
wife, as the duress and strain dealing with this unbelievable nightmare 
for two years was a stress our relationship could note endure. This 
nightmare of Chinese drywall was at great cost to me, and not for 
anything that I did wrong. Please help the victims of Chinese drywall 
who are completely innocent Americans who did absolutely nothing wrong 
to bring this catastrophe upon themselves.
    Thank you very much for your time, consideration, and assistance in 
helping those of us homeowners who have been significantly impacted by 
the effects of Chinese drywall.
                                 ______
                                 
                  Testimony, (Knauf--Tinjuin Drywall)
    My family, [redacted], had Chinese drywall in our home. We 
remediated last year from January 2010--August 2010. We Could not 
afford an apartment so we moved in with our in-laws. I did a lot of the 
work myself since I work for a contractor. During the demolition 
process my brothers and dad helped me remove the gypboard, insulation, 
cabinets, wood trim, doors, we salvaged cabinets and doors, basically 
had to trash the remainder. We would do this work at nights after work 
and weekends. Most of the time working to midnight. We had to use our 
savings and take out a home equity loan to pay for the efforts, also 
plenty of credit card debt, which is mostly outstanding. I was able to 
subcontract out the remediation and testing. I did have to clean every 
square inch of insulation from the studs and plywood. This alone took 
about a week of scrubbing the wood and using a shop vacuum to remove 
the insulation in the corners of the wood framing. I also subcontracted 
out the paint, insulation, electrical, and HVAC. I was able to rework 
the plumbing on my own. Meanwhile my wife got sick, she has crones 
disease, found out we had it about the time we moved into our new home 
in 2006. With the stress of money issues and no home, it activated the 
crones disease into a state where she required surgery (flare up). In 
may during our remediation efforts [redacted] had to have 18'' of her 
intestines removed. It was a three week hospital visit, not to mention 
the bills that came later. My yard is destroyed from the vehicles, 
dumpsters, and material unloading during the efforts, though I do not 
have enough money to fix to date. It was 8-months of hell, late nights 
working every day during my normal work hours ordering materials and 
making sure the subcontractors were showing up, performing and making 
trips for lunch to check quality, etc.. That's it in a nutshell. Thanks 
for listening. Only God got us through it. By the way, we still are 
using our same appliances and we have to get them worked on about once 
a month. We spent about $50,000 total.
                                 ______
                                 
    Dear Sir/Madam,

    Here is my story. . .
                A Human Disaster--Toxic Chinese Drywall
    Thank you for taking the time to ask for comments from American 
citizens! I hope that you will research the situation my family and 
thousands of other families have been dealing with for over 2 years! 
Please see these sites/articles for more information.

    http://victimschinesedrywall.com/default.aspx

    http://www.facebook.com/DefectiveDrywall

    http://abclocal.go.com/wtvd/story?section=news 
percent2Flocal&id=7767973

    China needs to be held accountable for the toxic imports being sold 
to the USA and other countries!
    It seems unbelievable to me that the leaders of our country refuse 
to publicly acknowledge this as the Disaster it is for American 
families! This story has been kept out of the national media spotlight 
to ``Preserve our relations with China``, I assume. What if it was made 
public? What if our children's lives were more important than China? 
What if China had to face a national audience to offer some explanation 
concerning their toxic product? Our government has kept things quiet 
while we have been dealing with this tragedy for years!!!
    The CPSC states that there are close to 4,000 reports of homes with 
toxic Chinese Drywall. That number does not come close to showing how 
many people live in those homes and are affected. The fact is that the 
true number of human lives being damaged by this product that was 
allowed into the U.S.A. is not being reported. The number of people 
being affected by Chinese Drywall is so much greater! Yes, we are 
spread out over 37 different states, and no Chinese Drywall is not a 
natural disaster. But, how many lives have to be damaged to get the 
officials of this country to recognize this disaster and give these 
victims some help? The fact that we do not show as one huge group 
suffering in one location from some act of nature should not sway 
anyone from seeing that this disaster has occurred and we are in need 
of assistance!
    Our homes are corroding, our financial future is in ruins as the 
biggest investment of our lives is worth nothing, our credit scores are 
damaged, security clearances necessary to maintain careers are in 
jeopardy, and we can't afford to move out and pay for 2 homes. Many of 
us are living in these houses with sulfuric gases--when mixed with 
moisture--basically acid rain! When I kiss my kids goodnight and watch 
them sleeping and breathing the air in our home, I become enraged!!
    I don't care if our country owes China. We still hold the power 
over them because we can stop purchasing products from their country! 
Or at least, we must create laws that will require their products to 
meet the highest safety standards and protect our citizens from harm!
    If we could gather up all of the people affected in this disaster 
from all 37 states and plop them in front of the White House to protest 
the complete lack of concern for human life we would. However, most of 
the Victims of Chinese Drywall cannot take time off from jobs they 
can't stand to lose to go into D.C. to be a show of force!
    We are barely holding on as officials seem to do nothing to hold 
china accountable for all of the toxic products imported into the 
U.S.A! Bring China to the table. Hold them accountable!!!
    Men, women and children are suffering. Tax paying, hardworking 
citizens are being told, ``We are working on it, but it is a difficult 
issue!'' How long are we going to continue to suffer in this disaster 
with no relief?
    **NOTE** I created this letter about 1\1/2\ years ago. At this 
point, my husband and I are having to put $100,000 (scraped and 
borrowed that we will be repaying forever) into gutting and rebuilding 
our home. We will never recover financially or emotionally. We will 
worry for the rest of our lives about what Chinese Drywall has done to 
the health of our 2 sons!
    Respectfully,
    Worried Mother/Disgusted Citizen/Chinese Drywall Victim
                                 ______
                                 
    Don't understand why elected officials will not help us.
    My bank, B of A has created all sorts of felonious charges.
    Help!
                                 ______
                                 
    My name is [redacted] I live in Port St. Lucie, Florida with my 
husband, daughter, son in law and grandson. We have endured severe 
health conditions with the drywall being in our home. The worse is 
having to see my small grandson get up in the middle of the night due 
to bloody nose, he has also been diagnosed with Asthma due to the toxic 
drywall. We adults are exhibiting severe headaches, watery eyes along 
with other issues. My credit score as been damaged due to this issue 
also.
    At this point we have seen no one in the government or these 
companies that imported this toxic drywall be it from China or the 
States as suppliers, builders etc. who have compensated us and helped 
us out in a remediation issue with our homes. We bought these homes in 
good faith and therefore this situation has been devastating to us. I 
only hope that in me e-mailing this letter along with the other with 
the other homeowners who are suffering due to this will bring a prompt 
conclusion to our pain and suffering.
                                 ______
                                 
    After the recent Senate Hearing on Chinese Drywall (CDW), I was 
told I needed to send correspondence to this e-mail address to tell 
about our CDW experience.
    When Hurricanes Jeanne and Frances hit the area around Vero Beach, 
FL around September 2004, we were out of our Condo until it was 
repaired and finished the middle of August 2006. We had installed a new 
Air Conditioning Unit at that time. By February 2010 we had to replace 
the A/C coil 2 times so that is when we discovered we had CDW installed 
in our unit. The Sulphur Dioxide emissions had eaten up 3 A/C coil and 
turned all other copper pipes and exposed copper wiring black, plus any 
silver and some other metals also turned black from the emissions of 
that gas. We coughed a lot and finally had our lungs check, but the 
Doctor discovered no damage to our lungs. However, when we returned to 
our home in Haymarket, VA in early May 2010 our coughing stopped within 
a week. Even though, the President of our Condo Association at first 
said early in February 2010 the Condo Association would take care of 
the CDW, she later said in April 2010 that they were not responsible 
for tainted products, even though the Condo Association had put in the 
drywall after the hurricanes. My insurance company would not pay for 
the repair as the Condo Association is responsible for the drywall and 
everything behind it.
    Finally, in May 2011, with new Board Members on the Condo 
Association Board and a new President of the Board, they began to take 
action. They had all 246 condo units inspected and found around 60 
units with CDW and 16 as bad as ours. The new President and Board did 
replace all tainted drywall at Association expense. However, the unit 
owners were responsible for removing their furniture and belongings out 
of their unit. Before the drywall could be removed and replaced, all 
trim had to be removed as well as all bathroom and kitchen cabinets. 
All light fixtures and fans also had to be removed. All that had to be 
put in storage. Once work was started, progress was fairly swift. We 
hired a Contractor to do all the work, except the drywall, and to put 
the unit back together as it was before. We began moving our stuff back 
into our unit by late August 2011, completing the move by September 5, 
2011. Our remediation cost to us for our unit was approximately 
$40,000, plus another $4,000 for moving and storage expenses.
    We live in Haymarket, VA and spend 4-6 months each year during the 
winter in our condo in FL. We feel that tainted products, such as 
Chinese Drywall, should have been inspected by the U.S. Government 
before allowing these tainted products to be used in the USA for 
construction purposes.
                                 ______
                                 
    To Whom It may Concern:

    The enclosed will recount my families nightmare reference the 
Chinese Drywall Disaster. My wife and I purchased our dream home in 
November 2006 from WCI (the builder) at the Parkland Golf and Country 
Club in Parkland, Florida. Little did we know that this dream home 
would turn into such a nightmare ultimately affecting our health and 
destroying our credit along with taking much of our life savings with 
it. Soon after purchasing the home we began to smell something in the 
home that did not seem right. When we contacted the builder we received 
no help. As the months went on our handlers needed repair and 
replacement as well as our microwave and dishwasher. Still nothing from 
the builder explaining the root causes of such issues. Then rumors 
began to spread around the neighborhood (which was a new community) 
that WCI suspected that faulty drywall had been used in the 
construction of the homes. Later we found out during the WCI bankruptcy 
that WCI knew the drywall was defective but still elected to build our 
homes with it and knowingly closed on our homes with this defective 
material. Several months after living in the home my wife, son and I 
all began to experience different health effects that we were unclear 
where they were coming from. My son began to experience asthma like 
symptoms with deep bouts of extreme respiratory congestion. My wife 
began to develop extreme swelling in her joints and found it difficult 
to sleep through the night. I experienced similar issues of breathing 
difficulty and had problems sleeping through the night as well. Then in 
2009 our little dog fell ill and we had her examined by our vet and he 
found a cancerous tumor had developed in her body. Several months later 
she died. Additionally throughout the neighborhood we heard of similar 
health issues and in fact to homeowners in the community who had CDW 
were diagnosed with cancer and both have since passed. Late in 2008 WCI 
(in their bankruptcy documents) finally admitted that the CDW (Knauf) 
was present in our homes and we hired an attorney to represent our 
interests. First we started with our homeowners insurance policy as 
well as our builder's insurance policy we received as part of our 
closing. The builder's insurance was denied immediately since they 
considered the CDW a pollutant. Our homeowner's Insurance claim was a 
longer process (Lexington Insurance--an AIG Company) where we paid for 
expensive testing and they performed testing as well only to find that 
our home was indeed infected with the Knauf CDW. Ultimately Lexington 
denied our claim as well citing non-coverage due to the CDW being a 
pollutant. The funny thing is that during the CDW testing large 
sections of drywall sections were removed from our walls. Because of 
this the air became worse as it was almost as if the walls were free to 
bleed more toxicants. Additionally, we tried to get some relief from 
our bank reference our mortgage but this was a futile effort as well. 
Ultimately, we decided for health reasons that we needed to move out 
and find a healthy place to live. I can tell you that almost 
immediately our individual health issues went away. There is no doubt 
in my mind that breathing in sulfur in an enclosed box has and will 
have serious health consequences. It may vary in degree as we are all 
made up differently but unfortunately people will die from this much 
like asbestos poisoning. Once we moved out with no relief in near sight 
we did not have the financial ability to continue to pay our mortgage 
and pay for a rental property as well and ultimately after being 
refused a short sale by our bank the Bank purchased the property back 
thru a foreclosure and REO process. The funny thing is that our bank 
was Bank United and because they were a bank that had failed during the 
2008 financial crisis we believe their losses were covered by the U.S. 
Government. So our story is simple. Many parties have been involved in 
our situation and the only people who have lost and are without hope 
are us the former homeowners. We did nothing wrong and our laws and our 
government has failed us. Our government has not done one thing to help 
us or others like us. The key parties in this transaction were:

        WCI--Builder who knowingly sold us a defective home but was 
        then protected by the bankruptcy laws.

        WCI Independent Insurance Companies--We were sold a builders 
        assurance policy which was later deemed worthless for this 
        loss.

        Lexington Insurance (AIG Company)--Our insurance company who 
        made us go thru a sham of a claim process later to deny our 
        claims. Funny how we bailed out AIG and once again they do not 
        have to make good on an insurance policy.

        Bank United - Bailed out by the U.S. government.

        Mike Ryan--our lawyer--Mike has tried his best to move the 
        various cases along and now seems as frustrated as we are with 
        our failed legal system. We needed immediate relief not a 4 to 
        6 year process that may never provide us relief.

        Our government--All the various agencies and senate and 
        congress members who have been involved with this issue who 
        when you cut to the bottom line have done nothing concrete to 
        help those who have been wronged by faulty, defective and toxic 
        product imported from China. As my mom always told me proof is 
        in the pudding and quite frankly this pudding is now rancid 
        from the broken dreams of tax paying U.S. citizens.

    In conclusion I was always taught that this is why (these 
situations) we have a set of laws and a government. And for all of the 
agencies who have said there is no health issue with the CDW shame on 
them. They would not have wanted to live in one of these houses. Our 
government has failed my family. I want you to know that tears are 
streaming down my face as I write this knowing that what I was taught 
to be true as a child was not the case and nobody was there to help us 
during this tragedy. Our government has failed us and they were not 
there to help us out from this disaster. We would have been better off 
if a hurricane had destroyed our house. At least FEMA would have 
stepped in.
    Lastly, I am pretty sure my letter will change nothing but I was 
asked to send it in and that is what I have done. Please help us.
                                 ______
                                 
    Re: Chinese Drywall Victims
    Dear Natasha,

    My husband and I are victims of Chinese Drywall. We saved up and 
bought our new home in Florida in 2002. The home was built in 2001 and 
we were its' first occupants. From the day we moved in, I had trouble 
breathing. We had leaky evaporator coils, blackening of the wires and 
metal in our home and knew something was seriously wrong.
    My health has deteriorated. I now have asthma and am taking many 
expensive medications. My husband has early COPD and we can only 
breathe comfortably when we are outside our home. We cannot afford to 
move and are therefore, trapped in this miserable situation. I am 
starting to lose my hair and am tired all of the time. My energy level 
is low and after much testing the doctor attributes it to the toxic 
drywall. This is so depressing. We have tried to get help from the 
builder, installer, supplier, insurance company and manufacturer to no 
avail.
    We need help and we need it now. We have lived in these conditions 
for 9 years and feel that our health has definitely been compromised.
    Why doesn't our government realize that so many of its' citizens 
are suffering from this terrible devastation? We haven't done anything 
wrong and yet we are the ones' suffering.
    Thank you for your attention in this matter. I hope and pray that 
someone will be able to help us.
                                 ______
                                 
    My name is [redacted] and I live in Venice FL. We had Chinese 
drywall in our home and we found out about it in March of 2009. We are 
just one of the 50 to 60 home owners in our community that were 
affected by the tainted drywall. For 3 years, we could never figure out 
why we had so many electronics failures, discolored metal items, and 
repeated health issues. Some of the health issues were respiratory 
illnesses, sore throat, nose bleeds, headache, nausea, eye irritation, 
and a persistent cough. Other people have had much more serious 
problems.
    From May until November we could no longer sleep in our own home. 
We cannot invite family and friends to visit us for fear of their 
health. Those families with children also have the stress of what to do 
about their children's health. We still had to make our mortgage 
payments, insurance payments and pay our association fees on a home 
that was worthless. We cannot live in them and we cannot sell them. 
This has been described as a ``silent hurricane'' where the damage is 
as bad as a hurricane, but we do not have photos from the air that 
shows the devastation. In some regards this is worse because our 
insurance companies are not covering the damage. As a result, 
throughout our cities people are making choices between their health 
and their financial futures on whether to stay. As people leave, the 
blight of abandonment will take over and further negatively impact our 
local economies for years. There is also a financial burden to the 
local economy, the people who are only here for the winter are not 
returning, so they are not here spending any money in the local areas. 
The loss in the value of our homes is in the millions of dollars and 
the decreased assessed values will affect property taxes. This may also 
bring about another round of home foreclosures for the area.
    We were fortunate enough to be able to remediate our home at a cost 
near $150,000.00. The IRS changed the disaster tax laws, but it did not 
really help. Many of the young working families do not have the cash to 
make the repairs and the people who are retired who may have the 
savings to make repairs do not have the income to use the deduction 
from the remediation.
    We are the victim's here we did nothing wrong. We have been given 
the run around by every level of government and agency involved. No one 
will take responsibility or hold the manufacturers accountable. Our 
elected officials should be ashamed of themselves.
                                 ______
                                 
    Ms. Mbabazi:

    I would like to add out voice to the many Americans who have a 
house that was built with Chinese Drywall. Three years ago when we 
found out about this our house originally purchased new for $395,000 is 
now basically worthless. You can imagine the concern an d pressures 
that has put on a working family finding their largest asset is 
worthless. I am so hopeful and faith in our government's ability to 
work with us and find a solution to this horrific problem.
    Thank you for you compassion and concern.
                                 ______
                                 
    My name is [redacted]. I have a Masters in Nursing, so I am well 
aware of the physical changes that occurred to my body while living in 
the home. I was a healthy strong fit woman when I moved into that 
house. I have been diagnosed with neuropathy and fibrocystic lungs.
    When I heard the ``experts'' at the Senate hearing say there are no 
health effects, I sat here and cried as I watched it live on the 
internet. I will stand up in any Senate hearing or court of law and 
tell you the hell that I have gone through because I bought a Chinese 
Gas Chamber.
    On June 1, 2006, I purchased a home built with Chinese Drywall 
(CDW). It is a toxic drywall that emits the following ``nerve gases'', 
hydrogen sulfide, carbonyl sulfide, and carbon disulfide, as well as 
the metal, strontium. The CDW first began eating my house, and 
destroying anything with a silver or copper finished. It corroded the 
electrical wiring, copper fixtures, electronics, appliances, mirrors, 
and all the silver fixtures throughout the home. It emitted a noxious 
smell that permeated my furniture, clothes, and anything else porous in 
the home. The fibers in my clothes and shoes were breaking down. My 
knit suits were losing their form. My hose would disintegrate as I 
tried to put them on, and the dyes would get on my hands and the skin 
on my legs. My shoes were leaking dyes onto my feet. There were also 
physical changes happening to my body. My skin was absorbing hair 
color, and my skin would peel off when I had my eyebrows waxed. My 
nails began peeling. I was having neuromuscular pain in my legs, back 
and neck. I would have trouble walking because of the pain. My balance 
perception was off, I would fall or lose a stairstep. I started having 
daily headaches, and I could no longer wear my contacts. My eyes felt 
like I had glass in them. I started having trouble breathing, and 
developed a noticeable raspy voice. We now call it the ``CDW voice''. 
It was eating me alive and attacking my lungs, eyes, nose, throat, 
muscles, nerves, genital and anal mucus membranes. I was dying in that 
house, I just knew that something was drastically wrong. I had 
rationalized all I could! I was in so much pain I was crying everyday. 
When I finally found out what it was, I left that house and have not 
gone back. That house frightened me.
    I have over 30 documented Doctor visits during the 3 years that I 
lived in that home. It has taken me nearly 2.5 years to feel some 
normalcy in my health. I can no longer run, and I have pain every day.
    It has cost me thousands of dollars. I had $50,000 in savings which 
I burned through paying rent, condo fees on a Chinese Gas Chamber, 
mortgage, thousands in medical expenses, medications, replacing 
necessary items for daily living, lost work, not to mention the 
thousands spent while in the house replacing almost every electrical 
item I owned.
    I lived, worked, and worked out in a 3 story townhome that had 153 
sheets of CDW.
    My dog nearly died in the house. She would not come in, I would 
have to pick her up to get her in, and when she was in, she was hiding 
under something to filter the air. She developed kidney disease. I 
spent thousands on her medical care, too.
    I spent over 40 years of my life working to have the American dream 
of owning a beautiful home. It is all gone now, and I start my life 
over at 61 years of age.
    The builder, developer, supplier, insurance companies have left me 
with the ``empty bag''. My credit has been destroyed, and I have a 
mortgage and interest accumulating, and condo association suing me.
    Make the Chinese accountable because if you don't, they will 
continue to export every toxic waste in their country with ``goods'' to 
America.
                                 ______
                                 
    Good morning,

    I was given this e-mail address as a point of contact to provide 
'testimony' to Senate Consumer Protection, Product Safety, and 
Insurance. I am curious why the Consumer Product Safety Commission 
isn't providing records of the homeowners who have registered with 
them? It would seem the CPSC could easily provide all relevant data 
that includes the number of residents stricken with Chinese Drywall as 
well as other demographics that were included in the CPSC registration 
process. This included information like number of family members living 
in the home effected with Chinese Drywall, health issues, property 
damages, and so on. As a government employee I find it painfully ironic 
that as a busy, working, tax-paying American citizen I have to take yet 
more time out of the day to write 'testimony' to the Senate about how 
this Chinese Drywall is effecting me and my family. Why don't you all 
also subpoena and examine the insurance claims filed and denied by 
homeowners stricken with Chinese Drywall? Why is the burden of 
informing my elected representatives on me? My congressional 
representative is Bobby Scott and his office has plenty of information 
on my particular case as I routinely shared information with them last 
year as I worked through the self-remediation process. I stopped 
contacting his office as it was apparent my government could care a 
less about fixing this problem.
    In a nutshell, here is my testimony. In order to fix the Chinese 
Drywall problem in my home I self-remediated the drywall from my home 
as no one was providing stricken homeowners with any assistance! The 
cost of this self-remediation was well over $65,000. My personal 
savings is depleted; I am in deeper debt as I used credit to purchase 
materials when my savings ran out. I did receive forbearance from the 
bank but now my credit is ruined and in much need of repair. The 
downside of any forbearance is you're listed as 'seriously delinquent' 
for not making your monthly mortgage payments something the bank 
assured me would not happen as I was trying to fix my house--a shared 
toxic asset that both the bank and I would lose money on should I have 
chosen to abandon the property vice fix it!
    Where has my government been during all this? They were and remain 
Missing-In-Action and silent as could be . . . the Chinese have yet to 
be held accountable for the destruction they've caused to so many 
Americans. Yet, I continue to go to work, pay my taxes, and serve my 
country fulfilling my end of the social contract between the citizens 
and this government. Pathetic is the only word that can best describe 
the lack of action and performance of our current government. There is 
little wonder why the United States government has the lowest approval 
ratings in its history. Trust me, I know first-hand the frustration and 
disappointment many Americans feel toward their government. My message 
is simple--do your damn job and represent the citizens of the United 
States! Protect us from these types of unnecessary damages! You failed 
to regulate the import of this toxic Chinese Drywall, and now you stand 
silent as the Chinese stonewall us from getting answers to why and how 
this happened!
                                 ______
                                 
    A beautiful home it was when we moved into it 2006, the answer to 
our golden year dreams. And how soon this dream was destroyed!
    Chinese Drywall reduced our lives to that of Nomads. For nearly 
five years we have spent 40 percent of our time away from the odors and 
gases in order to minimize exposure to same.
    It has been and still is a nightmare. Expensive replacements of AC 
components, electronic equipment, electrical motors of washing machines 
and wiring.
    My question to our government is: How long do we have to wait for 
action?
    I would like to wish every Senator and Member Of The House a 
happier Christmas than what ours is going to be. When you see the 
smiles and happy faces in your homes, please think of us.
    Merry Christmas
                                 ______
                                 
    Greetings--

    My home in FL is in Sun City Center and we built it in 2006 . . . 
evidently not a great year for building in FL since many of us have 
found ourselves with Chinese Drywall in our homes. We discovered this 
in 2009. Since then, our builder, WCI has gone bankrupt and all other 
responsible parties have been running for cover. I see from recent 
articles that members of the Senate are feeling frustrated by the lack 
of progress in resolving this issue. Needless to say, we homeowners are 
feeling frustrated along with a feeling that this might never be fairly 
resolved.
    My home is in Sun City Center and is a 55+ community. We don't have 
$100,000 in our bank account to remediate our home on our own. Our home 
is toxic. You only have to step into our front door to smell the 
disintegrating Chinese Drywall. All products, whether they're produced 
in the U.S. or imported from abroad should be held at consistent 
standards and if those standards aren't met, then they need to be 
recalled and fixed. This is done with many products. . .cars being one 
example . . . this should apply to Chinese Dry Wall as well.
    I hope you can help . . . maybe it takes a woman to lead the charge 
to resolve this issue.
    Please let me know if there's any further information that would be 
helpful.
    Best regards.
                                 ______
                                 
    To Whom It May Concern,

    The home we purchased in March of 2008 has Chinese Drywall.
    We are part of the class action lawsuit which to date has provided 
zero relief. Additionally, our Federal government and it's governing 
bodies (house, senate, president, etc.) has provided zero relief. The 
consumer protection agency has provided zero relief. The only thing the 
Federal government has done successfully is spend tax payer money 
discussing and discussing the problem while American's that have found 
themselves in this same situation have been victimized. We have been 
victimized by builders, realtors, lenders and everyone else that was 
part of the transaction to sell us our home. While they all retained 
the proceeds from the sale/purchase of our home we have lost everything 
related to the purchase of our home including many possessions we had 
prior to owning the Chinese Drywall home because of the corrosive 
effects of this product on possessions like TVs, computers, small and 
large appliances and family air looms like silver trays and other 
precious metals that corroded.
    We ended up short selling our home and losing everything we put 
into it because we could not afford to fix it and we have not received 
any relief or assistance to complete the repair. The Federal government 
can't even agree on how to fix the problem. We couldn't live in the 
house and we couldn't rent it so we ended up letting it go.
    We had been believers in the American dream of home ownership but 
because of the financial hardship associated with the Chinese Drywall 
home we may never own another home.
    While we suffered through this tragedy we watched as our government 
bailed out huge financial institutions that should have been stopped 
from their aggressive irresponsible behavior. Additionally, the cost of 
operating the multi-district litigation has reached millions of dollars 
between court costs, legal fees, communication costs, on and on and 
none of that expense has yielded any relief to victims. The best course 
of action in this scenario would have been to give the home owners 
their down payment back plus verified improvement costs and let them 
pursue another home. This would have addressed not just the personal 
crisis that each victim was dealing with but it would have helped with 
the larger housing market issue of unsold homes. The Federal government 
could levy a tax on institution from the builders to the lenders to 
cover this cost. They all contributed to the sale of these homes and 
only the home owner was impacted. They should feel the brunt as well. 
They would get some of it back if these home owners turned around and 
purchased another home. To be sure the federal, state and local 
governments aren't dealing with secondary issues related to these homes 
years from now these homes should be bulldozed and disposed of like the 
toxic waste they are.
    The Federal government needs to make these home owners whole again 
and provide ongoing medical monitoring to ensure major health side 
effects are identified, communicated and addressed quickly. Many of us 
have communicated the health effects such as sinus infections, 
migraines and nose bleeds and yet the Federal government wants to 
continue debating if there are real impacts. The government should 
assume there are and monitor anyone that lived in these home until such 
time as it can be definitively proven there are no effects.
    As much trouble as the Federal government has had dealing with this 
issue I hold little hope that it can prevent other foreign countries 
from selling the United States similar products that present hazards to 
health, environment and the economy. Something needs to be done to stop 
similar products from entering our country.
    The Federal government has failed it's citizens completely. This 
was not a hard issue to understand and the impact was easily 
identifiable and the number of people impacted was not as large as 
other national disasters. If our government can't solve these kinds of 
problems how can we ever expect bigger things from what is supposed to 
be the most powerful country in the world. It is no wonder why the 
American people have lost faith in our leaders.
    Please do something and soon!!!
                                 ______
                                 
    Good Morning,

    My name is [redacted] and I live in Va. Beach, Va. I am 54 years of 
age--a college graduate, former teacher/coach and a law abiding 
citizen. In 2005 I went through a divorce and my former wife and I 
reached an mutual agreement of what would be best for our two sons. One 
is currently a sophomore at Ole Miss and one is in the Math and Science 
program at Linkhorn Park Elementary School. I share this with you 
because what I am about to share with you has pretty much ruined my 
financial freedom that I had worked my entire life--thus affecting my 
dear family.
    Upon buying my ex wife out of our million dollar home, I came to 
the conclusion in 2006 to downsize for the sake of my boys and I. This 
was my attempt to prepare for retirement. I sold my home that I had 
been in for 23 years and with proceeds bought a new condo a short walk 
to the ocean for my boys and I. I furnished this new home with state of 
the art appliances, new furniture in every room of the home and 
upgrades throughout. Within a few months of living there I had to call 
and express concern about my air conditioning not working, my 50 inch 
television not working and noting that something was going on with my 
health. With joint custody of my boys and a rotation of every other 
week my ex wife and I became concerned because of nose bleeds, rough 
coughs, congestion, and fatigue being exhibited by our boys. We 
determined that it only occurred when they were with me. I also went to 
the Doctor and it was determined that my thyroid was not functioning 
and I am now on medicine for that. In addition, I am fatigued, out of 
breath with short walks, and ultimately respiratory problems that do 
not seem to be getting any better.
    Imagine my surprise when my neighbor said that he thought we had 
Chinese Drywall. I immediately put the pieces together and after a 
little research knew that what had been happening was due to CDW. I 
moved my boys out right away. I have been leasing a place for the past 
2 and half years. I sold my condo at the urging of Chase for land 
value--my total loss was 500k (five hundred thousand dollars) Yes--that 
is the cash I had put into this final retirement home. Absolutely--no 
one in our government has done anything to help those of us that have 
this problem which is tied directly to the Chinese government.
    My once sterling credit rating of 54 years of paying taxes and 
contributing to society in a positive way is no longer. I could not 
even get an apartment with one landlord because of my credit and having 
to jump through hoops for Chase and my second lien Gateway Bank. And, I 
offered to pay 6 months in advance. I continue to pay my fair share to 
my ex for our boys, college for my son, taxes that come my way--but yet 
am told that this is several year away from being settled in litigation 
and payback for those of us whose lives were ruined. You might 
understand that I am a little bitter and I look at our leaders in 
Washington feeling ashamed that no one has made this a top priority.
    I have been to Washington 3 times over the past few years. Most 
recently at the feel good about one another Chinese--US Summit this 
fall. What a joke!
    Well--there it is--a brief story of my journey with Chinese 
Drywall. I have told this story so many times to our leaders that 
honestly--I have no faith that anyone will finally step up and make us 
whole again.
    Without prejudice,
                                 ______
                                 
    My husband and I had to downsize to a smaller home he had suffered 
a stroke in 2001 at the age of 55. He is currently on disability and at 
home 24/7. We build this home and moved in March of 2006. We put all 
our money from the sale of our previous home into this home. We wanted 
to make this our perfect home and our last as I reach retirement. We 
did many upgrades inside and out. At this point in our lives we do not 
have the resources to start over again if you know what I mean. We have 
both worked hard all our lives for what we have. I have great concerns 
about health issues with my husband's health issues, and I am a cancer 
survivor since 2003. There are 7 homes in our subdivision that have 
Knauf drywall mine is just 1 of the many stories out there. We are 
praying for a reasonable settlement so we can rebuild our lives.
    Thank You.
                                 ______
                                 
    It is with reluctance that I write, because I don't like the doubt 
and questioning that the current administration is putting on those of 
us who have this problem.
    However, I feel this issue is so important that I must do 
something.
    When my wife and I built our dream vacation house near Cape Coral, 
FL in 2006, we were ecstatic. But within a few years we had two air 
conditioning units go bad; all our faucets, chrome trimmed lights and 
some mirrors had to be replaced and the microwave stopped working. The 
refrigerator required several service calls and still does not work 
right. Every time we went to stay there for a while I would get 
terribly congested and had a hard time breathing. This condition 
cleared up within a week or two after we left.
    Finally in 2010 we had our house inspected for Chinese drywall and 
they found that we have about 50 percent CDW. Not being able to stand 
it any longer, in 2011 we contracted to have the CDW removed according 
to the court ordered specs and to be cleaned, sprayed and rebuilt.
    We had to make special financial arrangements to do all this work 
which cost approx. $88,000.00.
    So far we are satisfied with the contractor, but the expense, 
hassle and inconvenience is unbelievable! I can understand why some 
people just walk away from their home.
    Something needs to be done to help the people with CDW. Why doesn't 
the government set up a fund like they did with BP in the Gulf 
disaster?
    I find it incredible that in this country, such an obvious problem 
can be swept under the proverbial rug.
    Thank you for all you are doing to help us.
                                 ______
                                 
    To Whom it May Concern,

    My wife and I own an apartment in West Palm Beach FL that is 
tainted with Chinese Dry Wall. The unit at The Whitney Condominium was 
purchased for $303,000. While home values have dropped nationwide, we 
have been hardest hit because no one would buy an apartment that you 
can't live in. Conservatively, the unit value is barely $115,000. We 
owe double that to the mortgage company. Fixing the problem will cost 
tens of thousands, and no entity is stepping up to resolve the matter. 
We are stuck with a $220,000 mortgage.
                                 ______
                                 
                                                       Dec 06, 2011
Prepared Statement of Husband, Parent and Owner of Home Built by Lennar 
                  with Toxic Knauf Drywall from China
    I appreciate the opportunity to come before you to discuss the 
problems with this defective home building product, and also discuss 
measures that will assist current owners of properties where this 
defective material was used, and remedies to help prevent further 
financial and health damages to everyone affected that result from the 
use of this dangerous product.
    My name is [redacted], and my wife [redacted], and 11 year old son 
[redacted], moved into a home at [redacted], on November 30, 2006 that 
was purchased from Lennar.
    The purchase price of the home was $420,000. We added another 
approximately $25,000 in home improvements. We have very good credit, 
put approximately 30 percent down on the purchase, and can afford the 
mortgage. We invested a majority of our savings, believing, we would be 
living there for many years. All of our hopes were shattered, and a 
nightmare began for us after less than a year in the home.
    Soon after moving in during December 2006, problems both medically 
and with the house HVAC system began.
    In January 2007 we required a service call on the HVAC system as it 
would not work in the heating mode.
    In March 2007 a second service call on our HVAC system resulted in 
the copper coils being replaced on the larger system due to Freon 
leaks.
    We have a 2 zone independent of each other, HVAC system. One cools 
and heats the main portion of the home, 2BR's, FR, LR,DR, Kitchen, 2 
Bth Rms and Den and the other system supports the MBR and bath area.
    In July 2007 the smaller HVAC system had their coils replaced. Thru 
out 2007 my son [redacted] and I would develop random nose bleeds. I 
began to get severe headaches as well. My doctor could not locate a 
specific problem even though I complained of unexplained illness and 
respiratory problems. I started to get Angina attacks that I never 
experienced since before my heart bypass surgery in 1997. Since living 
in this house I was given nitro stat patches to wear and began to carry 
nitroglycerin pills that I used almost daily.
    In 2008 three set of coils were replaced in our HVAC systems with 
the last one happening in November 2008. The house began to have a 
strange odor in it when we needed to use the heating part of the 
system. The A/C people in November said I should speak to Lennar 
because I may have a home infected with ``Chinese Dry Wall''. I placed 
a call to Lennar and was told by them that their records indicate I 
have a home constructed with ``Chinese Dry Wall'' !
    I did a ``Google'' search on ``Chinese Dry Wall'' and it scared the 
heck out of me based on what I read. I immediately contacted Lennar and 
told them I wanted out of this house ASAP. They promised to get back to 
me right away. Two weeks went by with no word from Lennar so I hired an 
attorney to go after Lennar on our behalf. My attorney informed Lennnar 
in writing we were making a claim per Florida Statute 550.
    Lennar assured my attorney that they would move the ``MEDICO HOME'' 
up to the top of their priority list as they were dealing with other 
homeowners in the Heritage Harbor sub division with the same problem we 
were faced with.
    In mid December 2008, I was contacted by Lennar who said they 
wanted an Air Quality inspection firm to test my home for air 
contamination. I agreed to accommodate them ASAP. I was told by Lennar 
to set my A/C temperature at 68+ the night before the test so the house 
would be cool when their testing company came. I did this and 
``ENVIRON'' of Tampa, FL performed the air quality test the next day.
    I did a ``GOOGLE'' search on testing homes for Chinese dry wall 
emissions and all indications were that the home should be warm not ice 
cold as I was told to do so.
    I received a letter from ENVIRON that no toxic gasses of any type 
were found in my home. I called the President of ENVIRON regarding the 
test results and indicated that I felt the test was set up to benefit 
them. I said my house smells awful and his results were in error. 
Several days later ENVIRON issued to me a second report that indicated 
Toxic sulfur emissions were detected in my home but the levels of 
toxicity were not harmful to our health. I questioned ENVIRON on making 
this statement and came to the conclusion that they had no medical 
qualification to make such a claim.
    The home became so foul smelling that I purchased a highly rated 
Air Purifier that I kept running constantly in the MBR area where I 
stayed with my wife and son. We avoided being in the rest of the home 
as much as possible and ate our meals out at restaurants constantly 
until we moved.
    From December 2007 thru March 2008 when we vacated the home we 
noticed a very fine black soot was appearing thru out the house on our 
furnishings, rugs, works of art, jewelry and especially on anything 
made of or containing silver .
    Our furnishing, oriental rugs, beddings, linens', etc all smelled 
of sulfur and our jewelry and works of art all became heavily tarnished 
and pitted beyond anything I've ever seen before.
    Our personal property losses from CDW are well over $250,000 and we 
are making a claim request against Lennar for this loss.
    We thought that overall, we were lucky to have Lennar for our 
builder, but this may not be the case if repairs are not done properly. 
It wasn't until after we moved into a rental home, that we discovered 
just how badly all of our personal belongings and furnishings had been 
cross contaminated to the core. They were so badly contaminated, some 
of the guys doing the move, which had allergy sensitivities, were 
having a terrible time handling it. The rental home smelled like a 
Chinese drywall home with our belongings in it.
    We informed Lennar. They said they would send someone out to HEPA 
vacuum the belongings (they did this), and to then air it out and it 
would all be fine soon after. Well, it is 10 weeks later, and we are 
still getting exposure symptoms from the off gassing of our belongings, 
such as continued headaches, sore throats, stuffy noses, raspy voices 
and breathing difficulties.
    We are convinced that the exposure to the sulfur gases are in fact, 
the cause of all of our health problems, while living in that house.
    There is no decontamination solution for the personal property that 
Lennar must replace. We now have approximately $250,000 in belongings 
and furnishings that are contaminated and useless to us.
    We have also had to bear the expense, of buying some new furniture, 
as well as dry cleaning bills to remove the contamination from bedding, 
and clothing.
    No one is warning people who move out, that their furniture has 
also been contaminated, and that it may, still cause them trouble with 
exposure symptoms to the gases.
    In addition, after the home was gutted to wooden studs, trusses, 
plywood and block, after 5 weeks of airing out, it still reeks of 
sulfur gases, and can quickly in this hot and humid environment cause 
exposure symptoms within ten minutes or so upon entering the home.
    Lennar is ignoring this continued contamination of our home and was 
continuing with repairs. I had the home inspected by a professional 
construction firm that has inspected over 100 Lennar homes for Chinese 
Dry Wall contamination. They confirmed the presence of very strong odor 
within the home. I forwarded this report to Lennar as a courtesy.
    I believe Lennar intends to leave these cross contaminated 
materials in the residence, as well as reinstall cross contaminated 
wood cabinetry and window treatments. Unless Lennar can find a safe and 
proven decontamination solution, or agrees to replace all contaminated 
materials, I cannot feel it is safe to move my family back into this 
house.
    We will then have to bare the expense of paying rent elsewhere when 
Lennar declares themselves finished, and we will not be able to 
continue paying the mortgage and additional rent as well.
    We will face financial ruin, thru no fault of ours, over this toxic 
construction material that was allowed to come into the country.
    Lennar assured us in writing that we would virtually have a brand 
new home interior. This is turning out not to be true, as they are 
intending to re-install, numerous cross contaminated materials that 
still reek of sulfur. We had no way of knowing about the block and wood 
cross contamination at the time either. We truly were assured that the 
home, when completed would be 100 percent fully free of the toxic 
sulfurous compounds contamination and odor. However, it appears to me 
and others as well, that Lennar is not now doing this because of the 
unexpected climbing costs to do this.
    I implore you to aide in the removal of this dangerous blight, 
further weakening an already distressed housing market. These homes may 
be going into foreclosure, if the banks will even take them, will most 
likely become left abandoned, and further hurt neighboring home values, 
or further hurt new and unsuspecting owners. They should all be 
identified, torn down and taken to the toxic waste dump. Then they 
should be rebuilt, or the owners reimbursed, all at the expense of 
everyone who profited from this toxic drywall along the way.
    The housing market aware of this problem is scared right now with 
this toxic wild card out there. Far too many families, suffering 
deteriorating health, have yet to even learn that it may be the drywall 
in their homes causing their families chronic illness. We are still 
finding them in our neighborhood. This problem needs more regular 
press, without the added minimization of health and safety risks.
    In my experience, these structures are toxic gas chambers, not safe 
homes for families to even live in again.
    I am now personally aware of 7 year old boy from our sub-division, 
diagnosed with an auto immune disorder, and numerous children being 
diagnosed with asthma.
    Is the Health Department going to wait for children to end up with 
permanent brain, heart, lung, liver, kidney, or central nervous system 
damage or dead, until they get serious and consistent with their alerts 
for parents to find their children, safe havens away from these homes?
    Is FEMA ever going to step in to provide a temporary safe haven, 
for families that cannot afford a mortgage and rent, until a permanent 
solution is found? I think it is more then called for.
    Further, I would strongly advise any health or product safety 
authorities to not further minimize the health risks of chronic 
domestic exposure to these chemicals. You will only loose more consumer 
trust, and put more families at a greater health risk, for more serious 
chronic exposure effects. They have been waiting on direction from you, 
and you are failing them right now.
    In my experience, these structures are toxic gas chambers, not safe 
homes for families.
    I would like to thank Senator Nelson and his staff for answering 
our pleas for help and everyone who has taken the time to come visit 
these homes and families, to get firsthand knowledge of the gravity of 
this problem, and take action to help resolve it. And I thank you for 
the opportunity to share my first hand experience and suggestions for 
much needed, emergency assistance.
    I implore you, to find some way, to help people save their good 
credit, who could have maintained making mortgage payments, or tried to 
sell, and then couldn't because of a CDW disclosure, and had to flee 
for health reasons.
    They did not engage in an irresponsible financial act by moving out 
and foregoing mortgage payments if they had too. They are acting on 
behalf of securing the health and safety of their families. They are 
the ones being truly responsible parents, looking out for the well 
being of their children first, and should not be punished on their 
credit reports for that.
    What have we come to as a society, if we cannot support parents who 
do the right thing, but rather seek to punish them, just for caring for 
their families well being.
    I am asking Legislatures for assistance in many areas on behalf of 
all those impacted by the use of this defective and dangerous 
construction material.
    Please provide adequate funding to the proper departments so they 
can do the job that tax payers pay them to do. That involves, banning 
and recalling defective and harmful products from the USA market place 
again.
    The CPSC claims it has not had the funding or resources to put a 
ban and recall on this product by now. Though I think they can at least 
do that, until more can be learned.
    I think it is shameful, that the health department has had to 
claim, they do not have the funding or resources, to better inform the 
public.
    I also recommend that you get the best of the best on this. I find 
it appalling, that so many so called professional toxicologists seem to 
have not a clue, about the cumulative effects of low level exposure to 
these chemicals, or knowledge, easily obtainable from NIOSH, that the 
immune system can lose tolerance to hydrogen sulfide at chronic low 
level exposure, and that higher level exposure.
    If we can so easily bail out Wall Street with billions, surely we 
can help the American people thru this mess that is not of their 
making.
    This is my testimony of my experience as a parent, husband, and 
owner of a Toxic Chinese drywall house, as I know it to be the truth. I 
also believe that I speak for many others who have not yet come out of 
shock and denial, and into anger and found their voice, experiencing 
the same nightmare my family has been living through, facing the same 
tough choices between their families health, or financial ruin.
    Thank you for your time.
                                 ______
                                 
    Thank you for your thoughtful consideration of our desperate 
crisis. As I write this letter to you on the 5th of October, 2009, I 
cannot begin to imagine the challenges of representing a populace so 
expansive. Which cases does one pursue and which ones are left to 
themselves? My prayer for you is that God will empower you with such 
strength and virtue that every person's needs in your constituency will 
be fully met. Nothing is impossible with Him.
    On November first of 2007 my wife and I left a closing attorney's 
office excited and filled with vision for this new season of life to 
which God had called us. With our three children, we were relocating 
from Richmond to Newport News for our first lead role in a burgeoning 
church. We knew the work would be difficult and demanding but deeply 
fulfilling. We also knew that having just the right home for our family 
was paramount to successfully transitioning from where I had called 
home my entire life. Walking into our brand new town home in 
Hollymeade, we knew we had chosen well.
    I just celebrated my 42nd birthday in March of 2009, now having 
suffered from chronic pain since the spring of 2008 that is symptomatic 
of lupus, medically documented signs of a degenerative spine condition, 
as well as everyone in our family struggling with fatigue, and our 
middle child having serious bouts with eczema and needing steroid 
breathing treatments. Our family was a picture of perfect health the 
day we moved into our home, with proper diet, exercise, and a weekly 
regime of rest being core values for us. Now, thousands of dollars in 
medical bills in hand, we remain sick. We have moved out of our home 
fearing the health of our family, desperately needing your attentive, 
aggressive, and unrelenting help, action that will be timely and 
substantive.
    There had always been an odd smell in our home, what I would 
describe as an aged wood smell and sometimes gunpowdery. We had 
constant hvac problems in addition to intermittent issues with our 
smoke detection system. There were leaky plumbing problems in the 
kitchen, a failed ceiling fan and other small electronic devices. In 
August of 2009, we learned we had all the symptoms of Chinese Drywall 
and upon further inspection, we found corrosive ground wiring, 
tarnished door hinges and jewelry and upon removing a core sample of 
drywall, found a smell in our walls that was frightening.
    We know that God is working to help rescue us and our neighbors 
from this tragedy, but we know that throughout history, He has 
demonstrated a fondness for rescuing citizenry through those in 
authority. Help us; be the saving grace of His hand.
                                 ______
                                 
    To the Senate Subcommittee for Consumer Protection, Product Safety, 
and Insurance,

    My wife and I worked long and hard all our lives and finally were 
able to retire in 2006. We purchased our dream house in Sun City 
Center, a 55+ community south of Tampa. It is a gorgeous home . . . 
Everything we had hoped for when we retired.
    However, it wasn't long after we moved in that our horrible 
nightmare began . . . We learned that contaminated Chinese drywall was 
used in the construction of our home. We have replaced two air 
conditioning units, the microwave and just recently, the refrigerator. 
The gases given off by the Chinese drywall corrode copper, silver and 
chrome . . . It is only a matter of time before the rest of our 
electronics and appliances succumb to the same fate. And only the Lord 
knows what these corrosive gases are doing to our respiratory systems!
    Sun City Center is a beautiful little town where many, many homes 
have fallen victim to this terrible problem. Here we have solid 
citizens who have worked hard all their lives, done what was asked of 
them to help make this country great, and now are faced with a major 
crisis through no fault of their own.
    Because drywall made in China was used to build their homes, their 
property values have gone down by 75-80 percent and in many cases they 
have been forced to move out of their homes because of resulting health 
problems.
    Also, because most retirees live on a fixed income, they cannot 
afford the cost ($100,000-$150,000) to remediate their homes. Many will 
be forced to abandon their homes while others will be forced to deplete 
the remainder of their life's savings to fix this problem that they did 
not create.
    There are thousands of homeowners around the country that have been 
devastated by this crisis. My wife and I have been in limbo for several 
years waiting for direction and help from our government. 
Unfortunately, none has come. How can this government, the richest 
country in the world, sit back and ignore the thousands of homeowners 
(tax payers) that are suffering from this crisis. How can this country 
continue to send billions of dollars to countries all over the world 
and not help the citizens in this country that are ultimately paying 
the tab?
    We understand that alliances are important but there is nothing as 
important as keeping our own house strong and in sync with the values 
that this country was founded on.
    My wife and I extend an open invitation to all members of the 
Senate Subcommittee to visit our lovely community and home to see (and 
smell) firsthand this China-made disaster. We need your help. Don't 
turn your back on us. We need you to get behind your own people and 
help those that have helped make this country great.
    Respectfully
                                 ______
                                 
    I have a home in Parkland, Florida that is effected by CDW. I have 
had all sorts of electrical and minor health issues. We have to 
completely gut our home to fix it. It is a terrible situation that my 
family and I have had to endure. We are victims that have not been 
helped. Please help all of us out of this mess.
                                 ______
                                 
    To Whom It May Concern:

    I am writing this to give you a brief history of what my wife and I 
have had to go through regarding this problem. We built our dream home 
in Cape Coral, Florida in 2001. Since my wife's firm had split and my 
company had been sold we decided to move 10 years before we had planned 
to retire and find jobs in Florida. In October 2001 we moved in to our 
home. Immediately we started to have problems. A sulphur smell in the 
home was blamed on the water, so we put in a whole house reverse 
osmosis system. Our cast iron sink started to rust on the edges, 
fixtures in the home were corroding, our antique silver spoon 
collection in glass cases were tarnishing within days of cleaning. Our 
treadmill electronics went out, after 10 months our A/C coils failed. 
My wife had repeated sinus infections and headaches. I was treated for 
severe dry eyes and had my tear ducts plugged. Both of our cars that 
were garaged started to have electrical problems, the smoke alarms 
would go off at 2:00 am, two TVs failed within months. We had to 
replace the system board on our new computer and the printer stopped 
printing in the middle of a print job. Our floor tile started popping 
up, especially close to walls.
    Of course we attributed all of this to just bad luck. In the 
following eight years we replaced our A/C five times, replaced all of 
our appliances, even though they were Maytag's top of the line. Oh, and 
five TVs. My wife had a tumor on her thyroid develop, which a 
specialist said was caused by an environmental problem. I developed 
prostate cancer at age 54 and had it removed. I also developed Type II 
Diabetes and had a heart-stent put in two years ago. (We were both in 
excellent health prior to moving to Florida, I had a complete heart 
scan in 2000, they found zero plaque and no family history.)
    In July of 2009 I read an article about Chinese Drywall. It 
mentioned that most of the homes had been built in 2004 thru 2006. But 
a few were built in 2001. After doing further research, I concluded we 
had all the classic symptoms. I then got up in to our attic, the first 
piece of insulation I pulled away from the ceiling drywall had printed 
in big blue letters, ``Made in China''. Of course both our homeowner's 
and my builder's insurance denied our claims due to their ``pollution 
exclusion''! You have got to be kidding me!
    Earlier this year, with no recourse in sight we decided to get a 
new mortgage and pay for remediation. After $110,000 in expense we 
moved back in our home in April. Yes we could have walked away and let 
the bank have it, but I have never walked away from any obligation and 
I wasn't going to here either. Due to the economy, my job was 
eliminated effective May lst. Finding a job has been a real task, who 
wants to hire a 63 year old with health issues? I was forced to take 
out social security. One major concern I have is that when all the 
wiring was removed from our home it was placed into a large pile on our 
driveway. The smell was awful, the biggest problem I saw was the scorch 
marks on the wiring insulation. Obviously, at different times our 
wiring got overheated! It is amazing to me that we did not have a fire. 
It is my understanding that the Electrical Contractors Assoc. and the 
CPSC has stated that the wiring does not need to be replaced. Maybe for 
those homes built recently, but who has studied the homes built in 2000 
& 2001????
    Our home is wonderful now, but my wife will have to work until 65, 
I am still looking for employment. We are very concerned about the long 
term effects on our health.
    Some say that heat and humidity aggravates the problem. Could there 
be many more homes in the U.S. with the problem and it hasn't been 
discovered yet? I believe this could be bigger that asbestos, but we 
have only seen the tip of the iceberg.
                                 ______
                                 
    I purchased my brand new home just off of [redacted] in the 
Buckingham/Lehigh Acres Fl area back in January 2008. This was my first 
home I purchased on my own and I was so proud of myself . . . ``my own 
little home''. I purchased the home that was brand new and never lived 
in from M.W. Johnson Homes. It had a one year warranty and I thought 
this is the way to go . . . new house and no worries about things 
breaking or needed replaced.
    I lived in the house about a 1 year and 3 months when I started to 
get sick.
    I had sore throat, glands were popping out of my neck, my Dr. put 
me on a breath in-hailer-like I had asthma, I started to itch, I had a 
rash on my legs and rash on my chest that were so bad that it would 
bleed, I had 16 hour headaches and fatigued. I went to my doctor and 
countless others that could not find anything wrong with me and they 
said it was all in my head.
    So finally in May 2009 my A/c went out on me and I called my 
girlfriend and started crying and said ``I just can't take this . . . 
My a/c broke not working and I'm so sick''. I was at my wits end . . . 
I called a friend that did a/c work and he came over to look at my a/c 
system. He said that I had Chinese Drywall that's why my a/c was broke. 
My heart sank . . . I knew a little about this stuff but not bad it 
really was.
    I lost everything. I lost my past, my pictures of my life and the 
different countries I lived in and all the stuff that I had inherited 
from my parents that both are gone. I lost my perfect credit score of 
790 that I worked my ass off to get everything that I wanted. These 
item you cannot attach money to.
    The truth I learned. I lost all my money that I put down on the 
house. My belongings were all ruined and they were all contaminated by 
the gas. I tried to clean them but they still had that crap on it. I 
tried to professional clean it . . . but it still did not work. I tried 
to clean it and bring it to my sister's house where I stayed for, for a 
few weeks while I looked at an apartment. But my belongings off gassed 
at my sister's house and then contaminated to her house and I had to 
move out.
    How do I know it was still contaminated . . . . . any time I get 
near anything that has the Chinese drywall gas on it ..it makes me 
itch. Not just a little itch but the worst itch you ever had in your 
life time's 4.
    So I lost everything like those people on TV that were hit by 
earthquakes, tsunamis, flood, hurricanes and or tornadoes. They can 
qualify for help threw a numbers of different types of help.
    We get no help what so ever. Our government helps everyone else in 
this world but not us.
    There is more to my story that it's hard to tell the whole thing.
                                 ______
                                 
    Hello,

    My husband is in the military and had a permanent change of duty 
which moved us to Florida.
    We purchased the home new from the Bank. Shortly after had air 
conditioning issues which have been ongoing for 3.5 years.
    We have no markings on the back of our drywall after two 
inspections that Morgan and Morgan arranged. No one to pursue legally.
    Our builder is out of business and it's a hopeless situation. We 
expect there will be no remediation for us. My Husband, daughter and I 
have frequent dizzy spells and consulted with our doctor who advised 
with the unknown effects to move out of the home.
    We are moving next month. My husband has to have good credit for 
his security clearance through the DOD. We can't afford to rent and pay 
the payment, but our health prevails.
    A new home, this is the American dream we worked for. No one to 
protect us from this?
    Thnak you
                                 ______
                                 
    To Whom It May Concern:

    We built a new home in Tampa, FL in 2007 to ensure we had the 
latest hurricane standards. We built a Custom Built home with concrete 
block. We moved in the home November 2007. In February 2009 we had an 
issue with the evaporator coil in the downstairs air conditioning unit 
and due to the media around Chinese Drywall, were instructed to 
investigate Chinese Drywall. The evaporator coil was replaced.
    We spent time researching and contacted our builder who confirmed 
that the Drywall supplier did stock Taihe (Taishan) drywall at the time 
our home was built. In June we had non-destructive testing done that 
confirmed the presence of Chinese Drywall. We were instructed to file a 
home owner's insurance claim and we did. The claim was denied. Our 
insurer was Olympus Insurance. Further sampling confirmed Chinese 
Drywall made by Taishan. The builder made a claim with his insurer who 
denied the claim. We started litigation, but to date have had no luck 
and see no future of a settlement as the builder is bankrupt, the 
drywall supplier is bankrupt, the insurers are all denying coverage and 
Taishan is owned by the Chinese Government who is denying the claims 
are even valid.
    We had 4 evaporator coil failures, constant electronic issues, some 
appliance failures and many fixtures tarnished and pitted. On top of 
the problems with the home, our Homeowners Insurance decided to non-
renew our home and we were denied coverage by every insurer, secondary 
insurer including Citizens. After countless hours (50+) of phone calls, 
research, and the help of the Insurance Advocate Citizens decided to 
insure us. This would have never been accomplished without the 
Insurance Advocate.
    Seeing no help in sight and determining that walking away from the 
home was not a financial option, we began the remediation process. We 
moved out in June and four years to the date finally moved back in. The 
remediation was entirely self funded.
    We find there are many misconceptions about our situation. 90 
percent of people believe it is covered by insurance. Another large 
percentage possibly as high believe we will receive a settlement. When 
we moved back into the home our window coverings no longer fit the 
windows in trying to determine how to retrofit them or how to obtain a 
discount, we were told, `Oh you will definitely get reimbursed for this 
kind of thing. You should be looking into that.' I would like to know 
where this settlement is coming from since everyone is either denying 
responsibility or bankrupt. This is the majority of people in our 
situation. Very few were lucky enough to have a large builder who paid 
the bill. Even fewer had their case taken to court and won. The fact 
remains no one is taking responsibility for this tragedy. Yet we 
continue to import other toxic Chinese materials into our country.
    I am often asked why aren't the people who allowed the toxic 
drywall into the country being held accountable. I have no idea. I 
tried to contact these agencies, but had no response. I have no idea 
why there seems to be no restrictions on China importing more products 
based upon this problem and the other toxic products they have had over 
the years. I have no idea why no one in our government believes any of 
these issues are their problem to help correct. I have no idea why 
there isn't a fund setup to help people in this situation. I have no 
idea why this problem has largely been ignored and it seems like 
everyone just thinks it will fix itself and go away. You bet I will 
take this information with me to the polls and so will every other 
individual in this situation. We know who was responsive and at least 
tried to help and care and we know who largely ignored our calls and e-
mails. We have legislatures spending time and money on demanding that 
schools change the name Winter Break to Christmas Break, yet they don't 
want to spend any time debating helping victims of Chinese Drywall.
    To those who are soliciting feedback and debating this issue we 
thank you. We appreciate your efforts to try and help us. This is an 
important issue and again we thank you for your time and effort.
                                 ______
                                 
    I am currently one of the thousands of homeowners who unknowingly 
purchased a home contaminated with Chinese drywall. In July 2007 I was 
transferred from my Federal law enforcement position in NY to beautiful 
Miami. It was the opportunity I had been waiting for, I finally made it 
down to Miami and now would be able to purchase my first home. Living 
in NY on a Federal salary made it difficult to purchase a home 
therefore I felt very proud that I was finally able to have a piece of 
the American Dream. I purchased my 2 bedroom condo in Doral, FL for 
$270,000.00 and was expecting to someday have a family where I can 
already have an established home.
    Towards the end of 2008 I began hearing reports of some homes in 
the Doral area that had been built with toxic drywall and that people 
were having problems with their air conditioning, home appliances, and 
began having health problems. I began investigating a little further 
because the symptoms that were being discussed sounded very familiar to 
me. My home always had a certain smell to it that I always believed was 
like fresh paint and I assumed it was because it was a newer home. I 
also recalled having burning eyes and sore throats often especially 
when I would wake up in the morning. I remember seeing pictures of 
corroded wiring and decided to look at my air conditioner and this is 
when I discovered that my AC hose appeared to be tarnished. I 
immediately reached out to my developer and advised them of my finding. 
They sent someone to look at my AC and my electrical panel and they 
confirmed it was corroding. I spoke to the attorney for the developer 
and he advised me not to worry about it that they would see what they 
could do. I never heard from them again, my developer disappeared, the 
attorney never returned a phone call again. I contacted the City of 
Doral and they sent an Inspector who confirmed that my property 
contained toxic drywall, the minute the Inspector walked in he knew 
because of the distinct odor. At this point was when I realized that 
all my years of hard work had all gone down the drain. My home was 
toxic and dangerous to my health.
    Over the next several months and years my AC failed 4 times, I 
purchased a new coil and within a few months that began leaking as well 
and was completely corroded. The AC tech actually thought their had 
been a fire inside my AC because the copper coils were completely 
black. My stove's electricla panel stopped working as well therefore I 
needed to pay several hundred dollars to get it fixed. I continued 
getting sore throats and burning eyes but I had nowhere to go so I 
continued living there hoping for a quick solution.
    I contacted an attorney in January 2009 and filed a lawsuit. I 
continued making my mortgage payments because I did not want to ruin my 
excellent credit history but I finally gave up in July 2011. I got 
married in November 2010 and realized that the health of my wife and 
mine was more important then maintaining my credit history. We wanted 
to begin a family and we knew that we did not want our baby anywhere 
near this home. I decided to move into a rental home that at least I 
know is not detrimental to my health.
    It deeply angers and saddens me to see how our government has done 
nothing to help homeowners with this problem. These homes were built 
with faulty and dangerous materials and everyone has walked away from 
us. The government, the bank, the association can care less. They still 
want their taxes, their interest, and their monthly dues and could care 
less that these homes are unliveable. In the U.S. we have the lemon law 
to protect car buyers but I find it unbelieveable that when someone 
buys a new home there are absolutely no protections. Buy at your own 
risk. . . . I didn't know I had to inspect the drywall when purchasing 
a new home and neither did the bank because they appraised it. . . .
    I don't expect this lawsuit to go anywhere and decided to cut my 
losses now knowing that the banks will probably come after me to pay up 
in the future for a home that recently was appraised at $75,000.00 due 
to the toxic drywall.
    My home is currently in foreclosure, my credit has been ruined, I 
will probably owe taxes, or the bank will try to sue me for the default 
amount on the mortgage. This is a ``lose lose'' situation for all the 
homeowners involved.
    As a Federal law enforcement officer that investigates fraud, I 
feel like I have had the biggest fraud in U.S. history committed 
against me and my government (and employer) has done nothing to help.
    I wish everyone luck with their homes and hope that someday we can 
come out of this nightmare and maybe help make changes so that no other 
American falls victim to anything like this again.
                                 ______
                                 
    I would like to tell you our story, of two disabled person's 
struggling to survive this Toxic Chemical Drywall Disaster. [Redacted] 
was deemed totally and permanently disabled as determined by the two 
years of the required Government evaluations, Government Doctor's 
exams, Laboratory, and other extensive testing as required by the SSD 
process with a personal appearance and found conclusive by the Federal 
Court, I do not reveal all of this health information lightly but it is 
in the best interest of all parties/victims who have suffered and 
continue to suffer with disabilities and also Toxic Drywall. All 
information is based on sound Science. He was severely injured and has 
some genetic problems that contribute and now he is poisoned.
    His Parents came to America, fleeing the War torn Hungary in 1956 
during the Revolution to find their American Dream. His Parents became 
Citizens, built their own home, started their own Machinery Facility 
and contributed to this United States of America. [Redacted]'s Father 
was a manufacturer for the United States Military, building parts which 
were considered to be of high security clearance, he even designed a 
part that is now on the moon, part of the Lunar Lem.
    [Redacted] learned this trade from his Father and has great 
knowledge and expertise in the manufacturing field, all fields. He is a 
former Certified OSHA General Industry Outreach Trainer, this before 
his disability. He is highly qualified with several Certificates in 
various fields including being a Former Licensed Insurance Agent for 
the State of Florida. I am a former bookkeeper and Office Manager 
before being stricken with Lupus at an early age. In 2005 [redacted] 
and I decided after my Disability continued and all of the issues along 
with that and now his Disability that we would build, using his 401k 
money, a home specifically designed for our Disabilities. We could no 
longer climb stairs, no longer bend at certain degrees, we had and 
still have severe limitations. Our home was very well thought out. 
Every aspect, the counters are a perfect height, the Refrigerator is 
elevated, we have a Physical Therapy Whirlpool, Our shower is built 
with five shower heads as with Lupus, hot or cold changes affect me 
tremendously. I will go as far as to tell you that we even have a 
restroom built for Disabled Persons. Our home for our disabilities was 
perfect. I cannot tell you how much we have missed it over the past 
almost two years now. It is only 900 sq. ft. but built on a bigger slab 
of concrete under roof and above code for possible 
hurricanes,(ironically), so that I do not have to be in the sun, you 
see with Lupus, the sun is a trigger as well as stress, actually, 
stress is the number one trigger for a Lupus Patient resulting in a 
Flare and with this Drywall Tragedy, I have had and continue to have 
plenty of unwanted and undeserving stress.
    We were the Owner/Builder, as this is allowed in Hillsborough 
County Florida as long as we adhere to all contracting guidelines. 
i.e., hiring licensed, Bonded and Insured Sub-Contractors. So in doing 
this we find it very disheartening that we adhere to the guidelines but 
the sub-contractors do not, or I should say they should share 
responsibility in the materials installed in our home. There should be 
product accountability when they purchase the drywall and bring into 
the home. We Sub-Contracted out the drywall, etc. to Companies that we 
thought we could trust. We moved in in January of 2007, so happy, we 
finally could live out our limited days or I should say difficult days 
in a perfect place for us. We were thrilled. My Lupus was in remission, 
[Redacted] had his disability but he was o.k.. Shortly after moving in, 
we began to have issues with the smoke detectors, air conditioner, I 
started noticing corrosion in the bathroom but although I saved and 
waited for my bathroom fixtures to go on sale and bought the best, I 
thought maybe I would take them back to the store. Then . . . I began 
to cough up blood, trips to the hospital and emergency room left 
[redacted] and I with a visit, per the hospital, to a visit to the 
local health department for possible TB testing. We were both coughing 
up blood and horrendous phlegm, not to be gross on a public document 
but factual. The testing was done, we did not and do not have TB.
    We continued to feel ill. I had continuous nosebleeds and a severe 
rash which was thought to be shingles but was treated and left 
unexplained. [redacted], under routine labs began to have pancreatic 
issues that he never had before and had previously before moving into 
the home had routine blood work every 3 months. He also had a return of 
his childhood asthma which in almost thirty years of marriage he never 
used a rescue inhaler. He was put on one. I awoke to being numb on the 
left side and paramedics were called when [redacted] could get no 
response from me one morning, I went into now I know what was a 
hypoglycemic stroke/coma with an unexplained flare of Lupus and was 
hospitalized on Mega IV doses of medications, and remain with 
neurological damage. I suffered from breathing issues/hyperinflated 
lungs and severe fatigue. [Redacted], after many, many trips to the 
physicians, and emergency rooms was put on mega doses of antibiotics 
for what the Physicians believed was a lung issue . One morning after 
his now normal pattern of having to sleep sitting up, I noticed he was 
extremely cold, I took his temperature over a few hour period and it 
was extremely low. I phoned the doctor where he stated that [redacted] 
was hypothermic. I rushed him to the ER once again, he was hypothermic, 
and had bi-lateral pneumonia.
    The Physicians were puzzled because his immune system was basically 
non-existent. Knowing that he had routine labs they, asked me what was 
different. At this point I had heard of Chinese Drywall and saw the 
signs in our home but never in a million years did I think we could 
have it. I trusted the Sub-Contractor/Supplier . . . no longer. While 
[redacted] was still hospitalized after 17 days, I contacted the 
Florida Department of Health, they instructed me on what to do. Our Air 
Conditioner Contractor came out, (the owner) and actually looked at the 
coils, he had seen this many times and stated that we had bad drywall. 
He did look at the rest of the home after that. I immediately told the 
Physicians. We could not go home. They were going to put [redacted] in 
a nursing home. This would be the first time in 28 years that we would 
be separated, luckily we had a little money left so I rented an 
apartment and took my Husband home to hopefully recover after having to 
purchase new beds, furniture due to the gases and contaminants. He was 
now so weak. The first couple of months he did get somewhat better but 
never the same.He now has COPD, not before. He continues with left-
sided kidney pain, His pancreatitis did immediately go away as did my 
problem with my blood sugar. He has lung damage and now marrow issues. 
We will never be the same. We were not this way, even with our 
Disabilities. There has been a drastic change since moving and living 
in that home for two yrs. We have been ``Poisoned'' just as it is 
written on the CPSC document done by Mr. Glen Dunlap, as well as other 
homeowner's documents.
    While living in the first apartment, we have since had to move to 
another, I contacted the CPSC for the second time, the first while 
[redacted] was hospitalized. I got a reply e-mail from Christopher Day 
and then a follow-up phone call from Mr.Dean Woodard, at the time he 
was the Defect Investigator. He told me that Mr. Glen Dunlap would be 
in touch. Mr. Glen Dunlap did phone me and wanted to talk about our 
health first and then go to the home. We did. Mr.Dunlap left the house 
with his eyes burning. He saw the Domestic Drywall Barcode, the same 
piece that the Insurance Company had tested the month prior via an 
Engineering Firm, and finding Defective/Reactive/Contaminated drywall 
with Impurities.. Not Chinese. I asked Mr.Dunlap if he wanted to test 
the piece also and he stated that he did not need to. I gave Mr.Dunlap 
all of or most of our medical records, including the photos of the 
inside of [redacted]'s windpipe. Approximately one month later we 
received an e-mail from Mr. Dean Woodard for us to contact him. We did, 
he told us specifically that he wanted to contact the Domestic 
Wallboard Manufacturer and get them to settle. I found this to be the 
best news that we had heard in a very long time. The Domestic 
Manufacturer did come into our home, along with our Attorney at the 
time, Robert (Bob) Gary, and it is videotaped. The Company, tore our 
house apart finding nothing but their labels, taking pieces for testing 
and has and continues to refuse to release our testing. Our Attorney at 
the time did testing by a Doctor that found problems. I have recently 
contacted Dean Woodard who stated that he cannot get our results from 
the Domestic company now and that he bowed out due to us hiring an 
Attorney,(we had to because the Domestic Drywall Company could not tell 
me on the phone that we would have access to the results and even with 
an Attorney and a signed agreement, they fulfilled that statement, 
breaching the agreement)
    This makes no sense that Mr. Woodard would state this, given the 
fact that Mr. Cohen stated yesterday that they have ``no legal recourse 
at this time to make the manufacturers do a recall'' and they are the 
Government Agency that is suppose to handle this type of problem.and 
was willing to handle ours . . . why? To the Senators: how can an 
official from the Consumer Product Safety Commission offer to get a 
Domestic Drywall Company to settle with us based on the facts he has in 
his/their investigation(s) and now refuse to help? In the hearing, 
Senator Warner stated that ``some companies have settled and they 
usually do not do that unless they know they are going to be found 
guilty''. How and why did the Consumer Product Safety Commission try to 
get the Domestic Drywall Company to settle . . . I firmly believe that 
what Senator Warner stated rings true, and apparently the Consumer 
Product Safety Commission thought so as well. But what about the other 
Families with this product ? They have been reported and some have not 
because they hear that the Consumer Product Safety Commission will do 
nothing, so why bother? I have written to them so many times.
    I also contacted Senator Bill Nelson's office over the past year 
and a half for help, as well as Senator Rhonda Storms for food 
assistance, for FEMA for something. They have tried and helped as much 
as possible. It is greatly appreciated.. I wrote and copied all of them 
that [redacted] and I after selling everything that we own can no 
longer afford rent and will be moving into a tent on our property as 
soon as the order is fixed, we cannot afford for the County to condemn 
our home.They do not strive to Condemn homes but it cannot sit there, 
empty, being a blight to the Community although we have bartered with a 
kind Family to keep up the yard. Hillsborough County is trying to 
expand and improve our Community. We cannot get help, we live on a 
severely fixed income and are paying half on rent. Budgets are 
constrained in this County. They have done all that they can. We did 
get a permit via help from a friend and luckily it was half price . . . 
to remediate, inch by inch, extremely slowly, when and if we can, this 
is keeping the home from being Condemned. The Building Official for 
Hillsborough County, Mr. Wayne Francis knows of our plight and is very 
supportive.
    We need help from FEMA. I have so many details and so much more to 
share about how the CPSC and the other Federal Agencies, including 
others . . . have failed us. We have got to hold the Manufacturers 
accountable, the voluntary system/labeling is a smokescreen, if they 
will not even fix our home what makes the Government think that they 
will be voluntarily labeling anything and in actuality what chemicals 
will they be labeling, as Mr. Cohen stated about the process of making 
drywall to Senator Wicker. ``They use fly ash, and bake it''. If not 
scrubbed properly, the fly ash will end up making everyone ill, it 
contains over 22 contaminates and this will continue. Fly ash is a 
general term, used by Mr. Neal Cohen, of the combination of ingredients 
given off after burning coal and these ingredients are mercury, lead, 
strontium, etc. There needs to be oversight. Some fly ash is imported. 
This should be looked into. The Installers need to be held accountable, 
the Suppliers, the Insurance Companies, all the way down the chain. 
This will happen again or worse yet, continue to happen if something is 
not done.
    The bottom line for us is, how does a Federal Agency step in, say 
they will help and then step out. How do they get to in my opinion, not 
be entirely truthful with the Senate as to all of the facts and get by 
with it. As an American Citizen who has to wear a respirator to go into 
her own home and does live by the laws of this Country, I, we would 
like to know when if anything will be done to fix the damage from this 
Toxic Chemical Hurricane so that [redacted] and I can live in our home, 
our American Dream, our Safe Haven and live out the rest of our days, 
now even lessened.
    We would just like to thank Chairman Pryor, Senator Warner, Senator 
Wicker and Senator Marc Rubio for the questions asked of the witness 
panel yesterday. The Witness Panel including Mr. Neal Cohen of the 
Consumer Product Safety Commission, Dr. Portier of the CDC, Mr. Shelton 
of V.A. and Ms. Brenda Brincku of Alva Fl. Now that I have told you our 
story of our life and experience with Toxic Domestic Drywall, (which is 
a different Domestic Company from Ms.Brincku)I would like to address 
the answers given by some of the witness panel. I am doing this as a 
Victim and I speak for my Husband [redacted] as well. As to Mr. Neal 
Cohen's testimony, in my opinion he did not answer the questions 
completely. There were direct questions posed to him about causation, 
there were many theories that the C.P.S.C worked on including the 
Sulphur Reducing Bacteria issue and if looked at closely (Peer 
Reviewed, not just put on the Internet for anyone to contradict, which 
is not a peer review study) then it would be mentioned in the hearing 
that they did not find zero Sulphur Reducing Bacteria. This is one 
causation, they, the CPSC also found other bacterium. I would just like 
to say that I, as an American Citizen did contact the ``CPSC'S expert 
scientist''. I have sent my serious concerns as to a possible health 
aspect of just this issue in numerous e-mails to the CPSC, the CDC and 
anyone and everyone that would listen. The only person that responded 
was the Scientist and Mr. Christopher Day who said he forwarded.
    As to other homeowners filing reports about other Domestic Drywall 
Companies. I cannot say with certainty that Mr. Cohen is accurate but I 
have read all of the In-Depth-Investigative reports on line. Our Report 
has not been released on line. I do not know the Statute that Mr. Neal 
Cohen quoted as it pertains to releasing the Domestic Manufacturer's 
names but I would like it quoted and made a part of record. From my 
experience there are quite a few Domestic Manufacturer's that have been 
reported about/on. There is/was a Domestic Drywall Problem. Mr. Cohen's 
quoting of the 11 home study in 2010, was not complete either. They did 
find problems. Please ask for all documentation.
    Mr. Portier's statement about these gases including Carbonyl being 
Toxic is accurate. So given that statement, why then should the 
American Citizen's have to wait another moment before our Government 
declares this a National Disaster (it is a Toxic Hurricane) within our 
own homes. We have been ``Poisoned'' and it is written on not only ours 
but other In Depth Investigative Reports under . . . Injury Diagnosis. 
If this were a Hurricane, we would have a FEMA Response. We have, all, 
the victims have, begged for FEMA'S help. So many of us have been or 
are still homeless. We are the ones that Ms.Brincku so diligently 
pointed out when asked, that will be living in a tent on our property, 
we have ordered it and had to reorder, as mentioned in our story. We 
implore and have implored the CDC through Christopher Day of the CPSC 
including sending photos of my Husbands windpipe while hospitalized 
from the gases that Mr.Portier referred to, to help us and all of the 
other victims that are suffering from tremendous health problems from, 
immune issues, insulin, bone marrow, blood, kidney, seizures nasal 
sores and cysts, etc. even cancer. Creating a ``safe level'' of these 
gases is unacceptable, it is too late for us, we have all had long-term 
exposure even at low levels. There should not ever be a standard level 
for these gases and impurities. My County even refers to it as ``Septic 
Drywall''. That along with Dr. Portier's statement about not allowing 
his family to live in this environment speaks, as Senator Warner stated 
``Volumes''. We need to be followed for this just as the CDC lists 
asbestos on their registry, so should these gases be. Lead, Asbestos, 
it makes no sense to not include this Drywall as a health hazard 
although basically if listened to very closely, the words spoken at the 
hearing by a couple of the witnesses, do just that.
                                 ______
                                 
    To Whom wants to listen,

    My name is [redacted] and my family and I own a Chinese Drywall 
home. August 2009 is when our nightmare began!
    We moved to Florida from Kansas, we had never even heard of ``Toxic 
Chinese Drywall''! WE did all the right things when you buy a home, we 
had it inspected (Little did we know, Chinese Drywall was not an item 
covered by the inspection), we bought a home that we could afford and 
did research on the neighborhood and schools. Within 90 days of moving 
in, we had to move out! Our home was never lived in so it took only 90 
days for the AC and man made humidity to start the effects of producing 
a ``firecracker factory'' odor in our home. My 6 year old son's room 
was the worst. He is my most precious gift and I was not about to risk 
his health!
    We all started getting sore throats, upper respiratory congestion, 
muscle fatigue, I was the worst because I was in the home all day and 
night. Needless to say that once we tore out two closets in the house, 
we left never to return shortly after words. I'm predicting that 
Chinese Dry wall is the ``next asbestos'' health concern. Is our 
country really going to just wait and see how many of our children 
develop serious illnesses as Adults due to Chinese Drywall? Just the 
fact that so many people are complaining of illness should cause the 
CDC to ban and recall the stuff! If it isn't dangerous to one's health 
why are so many of our government agency's going in to homes wearing 
full protective garb?
    We have been faced with having to move several times(the first home 
rented was foreclosed/short sold-the owner was taking our money and 
running, never paying the mortgage). Three moves within a year and a 
half. Financially, we will never be able to recover what we have lost, 
not to mention having worked hard all my life to have perfect credit 
and having to face that being destroyed. Emotionally, hours of therapy 
and meds just to control my since of dispare that we had no where to 
turn to fix the problem. You see my home being poisonous was not 
something that I did yet I am paying the price.
    We live in a wonderful country full of opportunity and justice. I'm 
proud to be an American. I'm glad that my tax dollars help the needy 
and that we are a nation under God. My question is this, why is it so 
hard for me (a born and raised U.S. citizen) to get help when I need 
it? A portion of the millions of dollars we send to other countries in 
need would help put the lives of us ``victims'' back on track. Not to 
mention how many jobs this could create and how the housing market may 
get a helpful hand in rising home values. When are we going to make 
China accountable for all the dangerous products that they are making 
and sending over here?
    I just hope that some of you have the heart and passion to take 
serious action and help those who have been effected by Chinese 
Drywall. The homeowners are the ``real victims'' whose day to day lives 
and health are affected the most.
    May you do the right thing,
                                 ______
                                 
    My families story is complicated and has been a horrendous 
experience for all of us but the thing to keep in mind as you read this 
is that I consider my family to be one of the lucky (if that is even a 
word you could us in describing anything related to this disaster) ones 
in this Chinese Drywall (CDW) disaster. We were able to remove our 
family from this toxic environment over 2.5 years ago. I have spent 
more hours than imaginable for the last two and a half years listening 
to the stories of American families facing sure financial ruin and 
unknown health consequences due to the toxic import of Chinese Drywall. 
We lose our house this week to the bank and this toxic import!
    In March of 2009 there was a story written about Chinese Drywall 
being installed in our area in homes that had been built in 2006. While 
I had not experienced many of the problems with my home that were 
listed in the article I decided that I should give a call to my drywall 
installer and obtain a letter saying they did not use CDW in my home. 
This way, in the future, when I was ready to sell my home, I would have 
a letter in hand stating that it was not a toxic drywall home. This is 
when the nightmare began. A few days later the owner of the drywall 
company called to tell me that they DID install Chinese drywall in my 
home and that there were 40 sheets (we found out later after obtaining 
the delivery records that it was not 40 but 77). I was on a field trip 
with my 9 year old daughter and her classmates in Jamestown when I 
received this phone call. Needless to say I, realized the enormity of 
this news and that our lives would be forever changed.
    What hit me the most that day was the realization that this was why 
my family and I had been so sick for the last 2 years. My oldest 
daughter, then 11, was extremely ill and had missed so much school that 
her doctor was running all kinds of blood tests, including mono, to try 
and figure out why, what was once this health, extremely active, 
dancer, honor student, could barely get out of bed. The next day I 
called my oldest daughters doctor and tried to explain what little I 
knew about Chinese Drywall. She told us to come in immediately. Upon 
arrival she told us to get out of our the house for a week and see how 
we all felt. Friends were going out of town for Spring Break so we went 
and lived at their home. My youngest daughter at the time was 7 and 
begged us to have Easter at home. We spent Easter morning at home and 
moved out that afternoon. Never again have my daughters been back into 
their home, seen their rooms or played with their toys.
    After the week in our friends house another friend loaned us their 
37 foot travel trailer and our family of 5 lived next to our million 
dollar waterfront home in this trailer for 3 months. Remember, I told 
you that we were the lucky ones. We did have friends that were able to 
assist us and we did finally have the means to move our family into a 
tiny new home, all be it a safe home, to raise our girls. That was over 
2.5 years ago! Just as a point of reference to explain more about my 
husband and myself. My husband came to this country when he was 5 from 
Vietnam. My husband being the oldest and the rest of his family of 6 
escaped the day the country fell and arrived here with the clothes on 
their back. My father was a hard working New York City fire captain who 
worked numerous jobs to support his family and get all of his children 
through college while my mother worked in the school systems because 
she understood the importance of having somebody home to raise the 
children. My point in all of this is that my husband and I came from 
very hard working middle class families, worked our way through college 
and graduate school and worked very hard to obtain what we had. We had 
built our dream home on the water to raise our three girls, kayak, fish 
and enjoy the outdoors on our beautiful 2 acre property.
    Two and a half years into this legal and political battle we 
realize that by the time, if ever, any of this is settled our children 
will most likely be grown and hopefully able to afford to attend 
college. I have dedicated my life for the last 2 years to working to 
bring attention to this issue. We have worked with our government 
officials, starting locally going to our Congressman and Senators and 
then coming back to the state level. Nothing over the last 2 years has 
been done that would actually assist these Victims of Chinese Drywall 
(VCDW). There may be other things happening in the world but to these 
American families this is the most tumultuous part of our lives. What 
we don't understand is our government's lack of acknowledgement of this 
issue that is destroying tens of thousands of families. Please stop 
worrying about offending China and realize that American homeowners and 
families are being offended.
    The Victims of Chinese Drywall are hurt and destroyed every time we 
hear a story about our tax payer money going overseas to help foreign 
families while we are all devastated by this toxic import. This is not 
a simple choice of recalling yet another toxic product Made in China, 
the estimate we received to restore our home was $380,000. While we did 
have equity of $800,000 in that CDW home we cannot justify pouring any 
more money into a home that made us so sick and that we may never be 
able to sell after it is ``restored'' because there is no real 
``protocol'' that is accepted by all in the field or the government 
agency, CPSC, that are dealing with this situation. This toxic product 
does not discriminate. Young families and singles who are just starting 
out have lost everything. Seniors who put all of their money into 
purchasing their retirement home are forced to remain in these toxic 
homes due to lack of funds to move out and pay rent someplace else.
    I must point out that we are over two and a half years into this 
disaster and over two and a half years into not being able to live in 
our homes and yet we still have no answers. We don't know how to fix 
these homes, we don't know how this happened to the drywall, we don't 
know how the drywall manufacturers can ensure that it will not happen 
again and we still don't have a content sheet for what drywall is 
allowed to contain. To top it all off, during the last two and a half 
years it has never been made illegal to sell or import this product 
into the United States. What are we doing to protect American families 
from this toxic product?
    Toxic products have been entering our country from China for more 
than 12 years now. China started sending us small toxic products that 
could be recalled and now we have let this grow into a product that has 
destroyed American homes and made American families extremely ill. If 
nothing is done to counteract these toxic imports the question is--What 
will be next?! By ignoring the Chinese Drywall disaster we have given 
the Chinese manufacturers carte blanche to do as they please and send 
us whatever toxins they want to send our way!
    While my daughters are very strong and have lived with what life 
has handed them I feel this has taught them extreme disappointment in 
their own country that never would I have expected for them to learn 
EVER no less at such a young age. Sure they have met with Senator 
Warner, Congressman Nye and numerous other officials but then only to 
realize that after we leave our elected officials NOTHING happens to 
right this wrong that has been done to their family and thousands of 
other families across, what we used to think of as, this great country 
of ours.
    The Congressional caucus and this Committee can:

        (Most important is our health) Require that CDC start gathering 
        health data and appoint a specialist to be available to answer 
        ongoing health concerns from toxic drywall homeowners and their 
        physicians.

        Hold another hearing and call in the manufacturers to let them 
        know they will be held liable by our government for the 
        destruction of these homes, just like was done with Toyota, 
        Halliburton, BP and Transocean

        Help homeowners restore their credit via extenuating 
        circumstance ruling to pre toxic drywall status

        Help prevent foreclosure for the few homeowners that wish to 
        try to save their homes in the hopes of a legal settlement

        Meet regularly to craft legislation and produce minutes to be 
        made available to the public

        Call in the insurance industry to the next hearing to discuss 
        lack of coverage. To date all insurance from homeowners, 
        installers, suppliers and builders deny coverage citing the 
        pollution exclusion

        Provide legislation that authorizes no-interest loans to 
        homeowners to remediate

        Establish drywall standards to help prevent this in the future

        Require that a government organization continue studies to 
        figure out how this happened to the drywall, was it bad mined 
        gypsum, coal flue gas desulfurized gypsum drywall, recycled 
        drywall or improperly cured drywall, to help ensure that this 
        problem never happens again?

        We request that the AG look into the fact that some American 
        businesses knew about the problems caused by this toxic product 
        and chose to cover it up, not inform homeowners or the consumer 
        product safety commission. If this is not illegal then laws 
        need to be changed.

        The toxic drywall homes that are now owned by the banks need 
        full disclosure upon sale so that 2nd generation families will 
        not become victims of this toxic product

        CPSC has stated that they informed U.S. Customs that CDW should 
        not be allowed into our country. Where is this letter?

        CPSC has stated that the owners of the stock piles of CDW that 
        are stored around the United States have been told not to sell 
        the drywall. Where is this letter?

    Federal regulators have dropped the ball and we hope this committee 
can help turn that around and send Federal assistance to these 
devastated American families.
                                 ______
                                 
                       My Chinese drywall problem
    This is my story about a condo I purchased in the summer of 2009 
from Fannie Mae. Fannie Mae sold the unit to me with no disclosure that 
the unit had Chinese drywall. After some investigating I found out the 
unit and approximately 80 other units have Taishan drywall and were 
unlivable. To date I have not slept one day in the unit and it is 
financially running my life. This is the general timeline of the events 
that happen to me and my family. The condo is part of a planned 
community located in Port Saint Lucie Florida.

        <bullet>  May 2nd we mailed Bayshore management an application 
        to be approved for the full time residence. My wife and three 
        year old child and I purchased the unit to relocate from New 
        York to Florida.

        <bullet>  June 25 we were scheduled to close but the approval 
        letter from the board, permitting me to move in, was not 
        returned because the lawyer for Bayshore management Association 
        was still negotiating back fees. To date $11500 was owed to 
        Bayshore for previous maintenance fees. The president of the 
        Board of Directors had to sign off on our background check 
        allowing me and my family to move in.

        <bullet>  July 1st, 2009 was a second closing date and we did 
        not close again, because Bayshore management's lawyer agreed on 
        amount to be paid back but did not sign the documents allowing 
        the closing to proceed. My wife went to [redacted], the manager 
        of Bayshore Management, asking him for pool key. He refused to 
        give key, questioned her about the payment of past association 
        fees that were owed.

        <bullet>  July 3rd, 2009 Liberty title closed property through 
        mail and computer with Fannie Mae. They wired the money to 
        Fannie Mae and closed for me. I wired money to Liberty title 
        about two weeks prior.

        <bullet>  July 4th and 5th three families moved out from our 
        street. Out of 22 units next to mine only 5 units had people in 
        them.

        <bullet>  July 6th at 9:30 am I was outside with furniture 
        deliveries and lady across a street and another neighbor told 
        me I can't move small child into the unit because it was toxic. 
        I said ``It can not be, the inspector check it''. I refused to 
        believe it. The neighbor and I went into my unit where he start 
        taking out the electrical outlets. The ground wires were black 
        along with AC coil. Along the same wall two appliances were 
        missing. The corrosion would rust the electrical components 
        that would render the appliance non-working. The neighbor told 
        me that over the last two weeks about twelve neighbors have 
        moved out because of corrosion and health problems linked to 
        Chinese drywall.

        <bullet>  July 6th about 10:30-11:30 I went to the satellite 
        office of Bayshore Management to speak to [redacted], the 
        association manager. I asked him if my unit has Chinese 
        drywall. The receptionist had a colored chart on her desk that 
        he looked at and said'' Yes, your unit has a ``mild case'' of 
        Chinese drywall. I would not bring my child in there.'' He also 
        recommended not taking the furniture out from there, suggesting 
        cross contamination.

    When I asked why he did not tell us prior to closing he replied'' I 
can be sued for blowing a sale. And you should have been told by the 
seller.''
    In my case Fannie Mae had deed to the condo and the original owner 
was not on any of the closing contracts only Fannie Mae. I purchase a 
toxic condo from Fannie Mae.
    The chart that [redacted] was referring to was created by the 
president of the Board, [redacted]. [Redacted] was paid to determine 
all of the condo units with Chinese drywall; this was months prior to 
my contract to purchase. Approximately eighty of the one hundred and 
ten units had Chinese drywall.
    [Redacted] did the unit evaluation back in March and with the Board 
of Directors did the mailing to the residents informing them of the 
toxic drywall in there unit. This letter went out in April certified 
mail.
    The letter for my unit went out and was singed by the previous 
owner that was foreclosed over a year previously by Association and the 
bank.

        <bullet>  July 10th at 11:30am I called the PSL Property 
        Appraisers office. Their # is 772 337 5760. I told them about 
        my problem and they said to contact [redacted]. He is the 
        president of the Board of my condo association. They informed 
        me that Howard was at the Property Appraisers office month ago 
        giving them a list of all the toxic properties in my 
        neighborhood.

           The list would let the Property Appraisers office deduct the 
        amount of money to fix unit called ``Right to Fix'' from the 
        Appraised value which in turn lowers your taxes.

        <bullet>  July 10th at 12:30 pm I called Fannie Mae at 972 773 
        4663. I told them that the unit they sold us is toxic, and I 
        and my family are homeless. They said they will do a ``Page 
        send'' and someone will call me in two days.

        <bullet>  July 13th or 14th a rep called from Fannie Mae saying 
        that it was my job to do Due Diligence to find out history of 
        the unit. I told them that they did not disclose the findings 
        of the unit knowing that last owner foreclosed because of Toxic 
        drywall. The inspection service for the bank is First American 
        Field Service, there phone number is 1800 873 4532. I called 
        them and they said to call the bank if I have a problem.

           First American Field Service left a large sticker across the 
        condo's front door with their name and phone number that said 
        they inspected the unit.

    Additional information found on my closing contract:

        <bullet>  Fannie Mae File #SL-09-0171. Alfred L. Gonzales of, 
        as partner of Adolno & Yoss LLP, Attorney in fact of Fannie Mae 
        A/IC./A/Federal National Mortgage Association.

    Additional information:

        <bullet>  Fannie Mae 972 773 4663 in Texas.

        <bullet>  Liberty Title Company of America inc. 10060South 
        Federal Hwy., Port saint Lucie, FL, 34952 (772 335 7474). 
        Sharon Evans was handling the closing.

        <bullet>  Property Appraisers office PSL (772) 337 5760. ``Cost 
        to cure'' adjust value paperwork was given to them by 
        association president. This outlined all of the infected units.

        <bullet>  Business Tax Office. A&A Inspections is inspector we 
        hired to check the apartment for Chinese Drywall. I called them 
        if inspector is licensed and insured. He is licensed in PSL. 
        However, inspector is not a ``trade'' in Florida, therefore NO 
        insurance is required. The owners name is Steve Frank at 514 SE 
        Guava Terrace, Port Saint Lucie, FL, 34983. The office number 
        is (772) 336 0936, cell (772) 240 6219. He is in the phone book 
        as Licensed and Insured, but does not have insurance. I called 
        him to put in claim. He said ``NO insurance, sorry''?

        <bullet>  First American Field Services for Fannie Mae 1800 873 
        4532, inspected the place for the bank prior to me buying it.

        <bullet>  Burt is a property manager his onsite number is (772) 
        345 0596. He told me that I do not own outside walls, walls 
        touching another condo, ceiling and floors of my condo. However 
        they did not disclose to us that ``their'' part of the condo I 
        purchases is toxic. He is on the Board of Directors. Their 
        position is that the sell is required to disclose not the 
        Board.

    In July of 2009 I purchased a two bedroom two bathroom one car 
garage condo in a planned community, located in Port Saint Lucie 
Florida. I purchased the unit in good faith from Fannie Mae not knowing 
or ever hearing of Chinese drywall. I am from New York and this is a 
problem typically found in the south. The unit was inspected by prior 
to my purchase by First American Field Services I suspect this was for 
Fannie Mae when they tool ownership, the finding were not disclosed to 
me. I am presently strapped with a unit I can't live in, sell, or rent 
because people are getting sick from the drywall. The Chinese drywall 
problem has created a lot of foreclosures and in my case the person 
required to disclose doesn't and the new homeowner is stuck with a 
toxic asset.
    Thank you
                                 ______
                                 
    RE: Defective Drywall
    We recently watched our dear friend, Brenda Brincku, testify before 
your commission regarding the plight of thousands of homeowners that 
have been plagued with defective drywall, without any assistance from 
our insurance carriers or Federal government. The recognized affects of 
defective drywall has been acknowledge for nearly four years now. There 
have been countless studies that seem to prove inconclusive as to 
whether there are any health or safety hazards. Yet every victim of a 
defective drywall home can testify of numerous safety hazards in their 
homes along with varied health conditions caused by the defective 
drywall.
    My family has also been a victim of defective drywall at our Cape 
Coral, Florida home. And, like the Brincku family, we were the owner/
builder that hired all of the sub contractors to build our dream home. 
Therefore, we had no builder to go back to for any form of restitution 
for this nightmare. We turned to our builder's risk insurance, only to 
be denied, due to the pollution exclusion, which is in virtually every 
insurance policy.
    Before discovering that our home was built with defective drywall, 
we encountered numerous malfunctions of various electrical components 
throughout our home. Our alarm system would go off for no reason; some 
of the plastic components of the alarm system completely disintegrated; 
the control panel on our wall oven (that may have been used a total 
often times) completely malfunctioned and had to be replaced, our pool 
control panel had to be replaced, brand new computers stopped working, 
ceiling fans burnt up; and a sprinkler clock had to be replace. A 
majority of our plumbing fixtures were pitted, mirrors were blackened 
along the edges, two year old paint cans were completely rusted 
through, screws completely rusted and pitted, and various tools rusted.
    If the defective drywall can cause such damage to hard metals, 
imagine the affects it can cause to the delicate tissues of the human 
body.
    I have been an electrician for 32 years and have never seen copper 
wiring turn black as I did in my own home. I initially did not feel 
that the electric needed to be completely removed until I stripped 
several feet of romex wire in various locations throughout my home. To 
my surprise, the blackened copper had traveled intermittently 
throughout all of the wiring in the house. The exterior of the romex 
had also turned brown in various locations on all of the romex. I do 
not how the CPSC can conclude that the wiring is not a safety hazard.
    As far as the health affects, everyone in our family was affected 
differently. I would get sore throats, headaches and cough, my children 
were always lethargic and slept most of the time, and my wife would get 
rashes, nose bleeds and headaches. These symptoms would always subside 
after a few days back home in New Jersey. These are the varied symptoms 
that are synonymous for every victim of defective drywall. Fortunately 
for my family, this was not our primary residence, and we had somewhere 
else to go to breathe clean air and not be sick on a daily basis.
    Financially, the defective drywall has devastated our family. We 
invested over $500,000.00 to build our dream home. We used our lifelong 
savings along with taking a mortgage out on our primary residence in 
New Jersey. When we discovered our home had the defective drywall, we 
could not just walk away like so many families did, because we would 
risk loosing our New Jersey home, in which the loan had been secured 
with. We opted to fix our home immediately, instead of waiting years in 
hopes of any type of lawsuit settlement or help from our government. 
This was not an easy task, my wife and I were both employed full-time 
in New Jersey, with two children, then ages 13 and 19. We flew back and 
forth to Florida over 18 times in one year, along with driving to 
Florida for one month to completely demo the house and rebuild it. We 
rented an RV to sleep in on our property and worked 16-18 hours every 
day for a month to get our home back to a livable condition. We had no 
cooking facilities, because the Township would not permit us to hook 
the RV up to any of the utilities, for fear of ground contamination. We 
kept one toilet bowl in place along with a shower in the house. We 
showered at night with flash lights for weeks while the electrical was 
ripped out, with no walls for privacy. We had an outdoor sink for 
cleaning and brushing our teeth. We also slept on our outside lanai a 
few nights before we received permission to have the RV on our 
property.
    I understand that you have not received many letters from the 
thousands of victims of defective drywall. Please realize that we have 
all been asking for help for several years now, only to have our pleas 
fall upon deaf ears or have ``so called experts'' say that there are no 
health or safety hazards. I invite each and every expert to spend one 
week in a house with defective drywall, then tell us again that there 
are no health or safety hazards. During your defective drywall hearing, 
Senator Warner questioned Dr. Portier of the Center of Disease Control 
if he would allow his family to live in a house with defective drywall 
and his response was ``probably not``. Those words speak volumes as to 
how he can then say that there are no health issues with the defective 
drywall. Unfortunately, many victims have simply given up the fight and 
have walked away from their homes and are now living in financial ruin. 
I applaud the Brincku family for not giving up and renewing my faith 
that someday someone will listen and help the thousands of American 
people that have been affected by this disaster.
    Thank you for the opportunity to share our story.
                                 ______
                                 
    To Whom It May Concern:

    We had built our home in Vero Beach, Florida in 2006. We paid top 
dollar for it as it was the height of the market. We filled our home 
with beautiful furnishings and things that we love. We were all 
prepared, in September 2009, to sell our place in NY, retire and move 
to Vero Beach. As luck, or should I say, as life happens our move never 
happened. When we went down to our home in June of 2009 we realized our 
A/C unit had yet again failed. Upon consultation with our AC repairman, 
we for the first time heard the term Chinese drywall. Needless to say, 
after months of painstaking agony we realized that our beautiful home 
was being eroded from the inside by sulfuric acid.
    We contacted the builder, who we learned was in the process of 
filing for Chapter XI protection. We were devastated to learn that our 
10-year structural guarantee was not worth the paper it was written on. 
We proceeded next to our insurance company. They informed us that they 
would not be getting involved with CDW because our insurance policy 
precluded such coverage. No matter who we contacted, no one was 
interested in our problems.
    We next realized the only way to proceed was to hire an attorney 
which we did. However, we were told that we were required to pay all of 
the expenses of the home, mortgage, taxes, insurance, etc., on the 
house. We could try to get our mortgage company to give us a 
forbearance or we could sell the house. How could be sell a house with 
toxic drywall to anyone else? So we were doomed to deal with this 
nightmare alone.
    Thereafter, we spent five hours a day for two years trying to 
contact our Florida and NY representatives, but to no avail. We begged 
and wrote letters to anyone that we could think of. This too was of no 
use. There was no one out there who gave us any hope. It was either 
paying all of our bills in a timely fashion or losing the credit it had 
taken us a lifetime to build. Not to mention the house was 
uninhabitable and corroding.
    My husband, in the meantime, had sold his business in anticipation 
of retiring to Florida. He was left unemployed, which has gone on for 
the past 2.5 years. He has been forced to take menial jobs just to make 
minimum wage. I was forced to put my retirement off and am working 
double duty to try to make ends meet. This is the ``gold years'' for 
us. A time in of our lives when we were hoping to be able to rest and 
slow down, we have been forced to work harder than we ever imagined.
    Our home in NY in June of 2009 was worth $200,000 more than it is 
worth today. My husband and I are unable to sell our NY home, unable to 
sell our Florida home (it is currently underwater financially)and we 
are living a meager and depressed existence awaiting a settlement or 
resolution of this horror. What should be the best years of our life 
have turned into the worst.
    During the course of the past two-and-a-half years I have been 
shocked to learn that our government has refused to acknowledge the 
desperate straits that working, responsible, middle class families have 
been put in due to the corrosive product that was allowed into this 
country. How can it be that here, in the land of opportunity, when you 
pay your bills and abide by the laws of the land, that such a 
devastation can occur? How can there be no criminal repercussions? How 
can tens of thousands of families be hung out to dry after spending 
their life savings on what they believed to be their dream homes? How 
can children not be protected from illness and death due to toxic 
products being allowed into our country?
    Perhaps we are naive, but these American families, who are 
responsible, hard working people, were taught to believe their country 
and the values of right and wrong. These are the same values we teach 
our children. Many of our victims served in the armed forces to protect 
our country and the lives of its citizens. Yet the government has 
chosen to remain silent and let us lose everything we have spent our 
entire life working for. It just doesn't make any sense.
    If we can provide you with any further information, do not hesitate 
to contact us.
                                 ______
                                 
                                                   December 8, 2011
    To Whom It May Concern:

    My family and I are Toxic Chinese Drywall Victims. We built a house 
with Knauf Drywall and our lives have been turned upside down ever 
since. The roller coaster of emotions almost tore our marriage apart. 
We lived there without knowing that we had it, and we all kept getting 
upper respiratory infections. It got to the point where we were all on 
antibiotics for something or the other all year. At one point, they 
thought my son had Mono. They drew blood and took X-rays. That's the 
image I have in my mind the most through all this. My son with his arm 
begrudgingly out having blood taken out. Now, all I worry about are the 
long term health effects that our exposure will have on our kids. My 
daughter is having stomach aches for no reason at all. My mind wanders 
down paths of their children being born with defects or maybe they're 
sterile. Nobody knows yet what will happen to them. As far as my wife 
and I are concerned, we have tingling in our hands and definite 
neurological issues.
    As for the house, it is getting remediated. We were one of the 
lucky ones who hung in there and paid our mortgage and were fortunate 
to have Knauf and Banner Supply make things right. The stress has been 
immense. There are days when I feel like I could snap for the least 
little thing. Not only did the drywall take away our sanity, but it 
took away thousands of dollars in antiques, car alternators, air 
handlers, TV's, microwaves, hard drives, air purifiers, jewelry, and 
God knows what else. But, what about the people who did not have Knauf 
or any other help? What about the people who rented this houses and 
were exposed to the gases? What about the workers who installed the 
original product?
    In a few months the ``Drywall Family'' will be moving back into our 
neighborhood. Maybe now people will let their kids come over to play 
with my kids. Maybe now they will come inside instead of standing out 
in the rain. Maybe now we can move on. Maybe . . . if the health issues 
go away. I know for a fact that there are going to be long term health 
issues with myself, and that my exposure to the gasses will shorten my 
life. That's no problem. But, what's really unsettling is that my 
grandkids who aren't even born yet, might be dealing with a birth 
defect because a builder didn't notify me, or that my kids will deal 
with the harsh realities of a government who did very little in the 
wake of their countries number one consumer product safety issue to hit 
during their watch.
                                 ______
                                 
                                                   December 8, 2011
    On behalf of my family I am personally asking for your help. I am 
an Army Special Forces Lieutenant Colonel with over 20 years of 
service, and found out a year ago that our house has Chinese Drywall. 
As you are probably aware, tainted Chinese Drywall emits toxic fumes 
that erode metals in the home (copper wire) and has been linked to 
numerous health problems. Since we moved in the house in 2008 my family 
has had two hospitalizations for respiratory related issues that we 
attribute to these toxins. Since determining that our house was 
infected, my family has lived in a single room of the drywall house 
(most ventilated space), in a camper in the garage, and finally in a 
small house. To say that two mortgages (with related costs) is a huge 
financial drain is an understatement--I honestly don't know how long I 
can maintain this.
    The emotional toll that accompanies this issue has dominated my 
family for the last year. Although we are signed up with the ongoing 
class action law suit in Louisiana, and have contacted all of our State 
and local governmental officials, very little progress is being made 
overall. Local officials look at the problem as a Federal issue, and 
those in D.C. see it as a litigation and/or Chinese diplomatic issue. 
Therefore, almost nothing is being done to help those like my family 
who are having significant challenges. This issue has affected my 
career, in that I cannot realistically deploy without serious negative 
repercussions to my family's ability to maintain two houses, one of 
which requires constant maintenance due to the toxins' effects on the 
appliances and internal wiring. I'm hoping that you are able to 
influence our Nation's leaders to introduce legislation, or influence 
our press corps to report on this issue to force our governmental to 
acknowledge that more should be done. You have always been supportive 
of our military, and have made a career of providing a ``voice'' to 
those like me who don't have one--thank you.
    As a military member I've been conditioned to offer recommendations 
whenever I have a problem or complaint. Therefore, short-term our 
government should establish an immediate financial remedy, allowing us 
to fix and move back into our home. Mid-term, legislation should be 
established that includes the Chinese Drywall issue as part of a more 
encompassing package. Because thousands of homes are affected, and it 
will take 20-30 workers to fix each, the overall ``throughput'' back 
into our Nation's economy will be counted in the millions--both in 
dollars and jobs. By establishing a funding line now, immediate impacts 
will be felt at the local level, regionally and eventually throughout 
the Nation as a whole. Finally, long-term solutions must center on 
addressing China directly, by taking responsibility for the problem and 
for the forgiveness of a portion of U.S. debt to reimburse the ``up 
front'' costs to our government.
    I sincerely thank you for taking the time to address this issue.
                                 ______
                                 
    To Whom It May Concern:

    Our drywall story begins back in February 2007. We built our home 
on land which was given to us by [redacted] father. Within a little 
over a year of living in the new house, our A/C coils quit working. 
Within the 2.5 years we lived there we lost 3 sets of A/C coils and 
other things broke as well: computer, microwave, our doorbell, and an 
electric dog fence controller that was in a window sill. We had more 
items malfunction, but those are the main ones that come to mind. As 
far as the A/C unit we assumed we had gotten a defective one, and even 
spoke with PennyWorth Homes (our builder) about this issue. They said 
there was nothing they could do because our warranty had expired. We 
had a lot of corrosion to the light fixtures, and the mirrors began to 
bevel.
    Immediately upon moving in, [redacted] began to develop migraine 
headaches daily. She had headaches in the past but never as frequently 
as in this home. We both had nose bleeds, and general fatigue. In 
August of 2007, we welcomed into the world our son, [redacted]. He was 
born with respiratory issues and was in the NICU for 8 days. When he 
came home, [redacted] began a battle with chronic ear infections and 
rashes. Over and over we were at the pediatrician for the same thing. 
Later, when they began testing of the home and cut into the walls, he 
developed a nose bleed and from there he had CHRONIC bronchitis. It 
seems for the past couple of years he has been constantly battling some 
kind of respiratory issue. We've seen numerous doctors and the best 
explanation we can get is: ``Healthy children can fight off these 
bacteria they normally are exposed to but since he lived in a toxic 
drywall home, it can be more difficult to recover quickly.'' Nebulizers 
and inhalers have become routine in our home, even though we no longer 
live in the toxic house. I am convinced this all happened when they 
opened the walls and exposed us to the drywall dust.
    [Redacted]'s mother had heard about Chinese Drywall on the news and 
said, ``Maybe you all have this issue.'' We laughed it off since things 
like that do not happen in Interlachen, Fl! Then in August of 2009, a 
friend posted online that she had not been around because they had to 
move due to Chinese Drywall. She posted a link to the state of Florida 
site that tells the signs and symptoms. Honestly, some of the pictures 
were so similar to our home! We were in shock. Immediately we hired an 
investigator who said that we had all the signs of the problem. . . . 
Except he couldn't find Chinese Drywall . . . only National Gypsum. 
Over the next several days we spend hours researching defective 
American drywall and learned of Brenda and George Brincku who had the 
same problem as us.
    We have since had other experts including one of the leading 
environmental researchers from the University of Florida out to test 
the house. This particular expert said that our drywall was off gassing 
sulphur almost as much the Chinese cases. In fact, he said it was the 
worst American Drywall off gassing he had seen.
    Through our attorney's investigation, it has been concluded that 
our National Gypsum wallboard has come from their Apollo Beach, FL 
plant. After the chemical testing was completed it was determined that 
the most problematic board was National Gypsum's greenboard which was 
removed from the market in 2007.
    Our lender is OneWest Bank and they are not working with us. We 
recently had to hire a foreclosure attorney to help us deal with this 
issue. This whole ordeal has taken a big financial impact on us as 
well. Hiring the lawyers, and paying rent for the apartment, which is 
more expensive than our mortgage payment and smaller, is costly. Jim's 
credit has already taken a huge hit due to the missed payments, even 
though it was perfect before the drywall incident.
    We now are in a lawsuit with the Brincku's and the Garcia's against 
National Gypsum. There is a big problem here, and we need answers. My 
child has suffered from this, and still talks about the drywall even 
though it's been almost two years since we left the house. He will be 
four in August, and he really misses his ``blue house'' and living next 
door to his Minima (grandmother)! I am worried about future health 
risks. I need answers about my baby's health. I want to know this is 
not something that will haunt us for years to come. Please help with 
this issue!
                                 ______
                                 
                                                    August 16, 2011
President Barack H. Obama,
Washington, DC.

RE: Chinese Drywall

Dear President Obama:

    On August 3, 2010 we found out that we were among the thousands of 
victims with homes built using defective Chinese drywall. Construction 
on our 4,000 square foot home commenced in January 2006 and we moved in 
over the Labor Day weekend 2006. Between the day we moved in and August 
3rd of last year we had to replace our HVAC coils three times and we 
had to replace two flat screen televisions. We thought we were just 
having an unusual run of bad luck. Little did we suspect that our bad 
luck would soon turn in to a nightmare. In July 2010 we received an 
unsolicited letter in the mail from a local attorney which included a 
copy of an invoice indicating that over 250 sheets of suspected Chinese 
drywall were delivered to our lot during construction. The letter 
advised us to have the home tested, which we did, confirming on August 
3rd 2010 that we in fact did have defective Chinese drywall in the 
house.
    We immediately joined the support group, Victims of Chinese 
Drywall.com, started meeting with our elected Representatives and 
Senators and quickly concluded that any help from our Government would 
be years, maybe decades down the road. We became part of a class action 
lawsuit against the Chinese manufacturer of the defective drywall and 
filed lawsuits against our builder and the supplier of the drywall. We 
expect to win judgments against both U.S. companies but we also expect 
both to declare bankruptcy in order to avoid compensating their 
victims. We have no idea how the litigation against the Chinese will 
turn out as they are seeking to avoid jurisdiction in the United 
States. It also appears that the insurance industry has found the 
loopholes they need to avoid being part of the solution too. Another 
looming unanswered question was what kind of impact was this 
contaminated product having on our health? We could clearly see 
evidence of pitting and corrosion on our lamps and jewelry, what was 
happening to our lungs? We then decided that, like everything else in 
our lives, it would be up to us to remedy the unfortunate situation we 
fell victim to.
    In January of this year we hired a contractor, packed up and moved 
out of the house, tore out everything inside, including drywall, 
electrical and plumbing fixtures leaving nothing but the studs. We let 
the gutted house air out for a month, had an environmental engineer 
certify that all defective drywall had been removed and the remains 
cleaned, and proceeded to rebuild. We moved back in at the end of May 
having depleted a significant portion of our life savings to cover all 
of the costs. The anxiety hanging over our heads was now behind us. We 
were one of the fortunate ones with the means to take care of ourselves 
and feel sorry for those victims who are still living with the 
nightmare. There is a saying that we are all two disasters away from 
financial ruin. Well we are now down to one. The one bright spot, and 
the only Government agency to offer any direct help to victims that we 
know of, was the City of Virginia Beach which reduced the real estate 
tax assessment on our home for a two year period.
    Please give us an update as to where you are in addressing the 
following questions--Where are you and Secretary of State Clinton in 
pressuring the Chinese to compensate their victims in removing and 
replacing the defective Chinese drywall similar to the way the you made 
British Petroleum set up a ``victim's trust fund'' during last year's 
oil spill disaster?
    How do we get this situation declared as a National Disaster so 
that Federal assistance dollars can be made available until the Chinese 
step up to meet their obligations?
    Who is pressuring the Insurance industry to step up and share at 
least some of this burden?
    When will CPSC Chairman Tenenbaum finish the CPSC analysis of this 
defective product and issue final remediation guidance?
    When will Fannie Mae President Williams provide clear, uniform 
guidance to lenders and servicers for the victims of this defective 
product?
    It is our understanding in talking with other victims that these 
questions have been pending since early 2009. We urgently seek your 
help in getting answers to the questions posed and look forward to your 
response as quickly as possible.
                                 ______
                                 
                       Our Chinese Drywall Story
    I worked part-time last year, after several years home with my son. 
My entire salary and more is being absorbed by a defective condo that I 
had to vacate but am still obligated to maintain. I worry daily about 
the financial future of my family and about the possibility of 
permanent health effects from having lived in a toxic condo for 4 
years. I want to go back to school to train for a new career, but I 
can't afford to, and resent that unforeseen outside forces have so much 
control over my life and thoughts.
    I respond to every plea from a charity (or my child's school) with 
``No,'' though I believe in their mission, and I tell them why. When my 
country aids victims of natural disasters, instead of feeling proud, I 
am embarrassed at my reaction--what about the loss of my home and the 
thousands of other families whose homes and futures have been ruined by 
another unforeseen disaster, Chinese Drywall and the nearly complete 
absence of responsibility by involved parties? Recent tornados have me 
thinking, ``Gee, I wish a tornado or hurricane or fire would erase my 
Florida home, because THEN someone would care, and insurance would pay, 
and maybe even charitable organizations would help!''
    I check the ``Made in'' tag on every item I contemplate purchasing, 
and walk away from the ``Made in China'' items whenever possible (I'll 
pay more for a similar item from elsewhere, or I don't need it). I 
throw away my son's Halloween candy that is Made in China--at least he 
won't eat their tainted products (my brother who works at Borden says 
they mix Chinese-made chemicals into some dairy products, so maybe I 
can't prevent it . . .). I successfully filled the goody bags from his 
last birthday party with only home-made items, but he receives bags at 
parties full of potentially toxic Chinese junk.
    I once had a different attitude. I contributed thousands of dollars 
over the years to charities. I used to enjoy shopping. Now, it is a 
game of Keep Away from China! What happened? My home, built in 2006, 
contains Chinese Drywall and the concomitant corroding metal and 
vanishing value. My builder? Gone. My homeowner's insurance? Not their 
problem. My attorneys? They'll get nearly half of any settlement, if 
there even is a settlement, unless a U.S. judge can get the involved 
foreign companies not only to remediate the homes, but to cover all 
attorney and court costs--unlikely. Now, I wonder not only if my son 
will go to college, but if my husband and I will ever retire. We have 
both volunteered time and energy to help build Habitat for Humanity 
homes--but no one will help us re-build our home? My husband and I 
gladly put together a care package to send to an unknown family after 
Hurricane Katrina. Ironically, that hurricane indirectly caused my 
problem, by helping cause a domestic drywall shortage because of post-
hurricane re-building. We volunteered at a post-tornado clean-up a few 
years ago; where are the post-drywall volunteers? The Wizard of Oz has 
nothing in his bag for us.
    We didn't go blindly into the abyss. Our home inspector detected 
nothing amiss. If only he had been in on the communications between 
Banner Drywall Supply and Knauf Plasterboard Tianjin! They were aware 
that something was smelly in the drywall business, soon enough that we, 
and many other families, could have backed out of the purchase and been 
spared all this agony. But they conspired in silence, so we had no way 
of knowing about the Chinese Drywall problem at that time. We excitedly 
closed the deal, and got take-out food to eat on our new kitchen floor 
that evening. Hey, as long as the fine folks at Banner and Knauf and 
Taishan are making money, well that's what's really important!
    What led us to this home? In 2006 my husband accepted a career 
opportunity which moved us to Lee County in Florida; this was to be a 
stop of 3-4 years before moving on to the next opportunity (his career 
benefits from his working in different locations). We sold our home in 
Tennessee, and logically desired to put all that money into a new home. 
We were fortunate enough to get a mortgage and purchase price within 
our means. (Nevertheless, we have watched our home value decline as the 
market has declined, and so started singing the blues!) After 6 months 
of renting, we moved ourselves and our healthy two-year hold into a new 
condominium in Avalon Preserve in Ft. Myers.
    In under two years, I noticed bathroom fixtures corroding--drain 
covers in the tubs are pitted and flecked with black, mirrors have 
black spots of de-silvering, and lavatory faucets we had upgraded are 
pitted/flecked. I called the customer help line at Peerless to get 
advice on these faucets, hoping that they were still under warranty (no 
such luck). I was advised to clean them with vinegar and to keep them 
waxed; some of the black did come off when cleaned, but built up again 
quickly, despite the waxing. The other items? The builder must have put 
in the cheapest possible stuff, we figured. Also in under two years, we 
had to replace a smoke detector and a ceiling fan due to malfunction; 
both of these were still under warranty. We also replaced a vacuum 
cleaner, and threw out a VCR and two ``boom boxes.''
    In Dec. 2008, I read the first article in the NewsPress about 
families having defective drywall that required replacement of the AC 
condenser coils as often as several times in a year. Because we had no 
trouble with our AC, I didn't connect the dots to discover the source 
of my bathroom fixture troubles. Suspicion began when I noticed AC 
service trucks frequently parked in driveways on my street, and 
recalled that there had been talk of defective AC parts in units on our 
street since the first were occupied in summer 2006. When the unit 
below mine was inspected and found to have defective drywall, I called 
for AC service and learned that we, too, have defective drywall and a 
deteriorating AC coil. Two drywall inspections and the video we took 
during construction confirm the drywall source as China.
    Our neighborhood has 104 condominium units in 26 buildings, all 
completed in 2006 and 2007. It is unclear at this time how many units 
have bad drywall. Our neighborhood clubhouse also has defective 
drywall. Discovery of defective drywall has been a factor in several 
foreclosures and sales well below expected market value. This in turn 
has stressed all other owners, because the neighborhood association is 
not receiving quarterly dues from owners of many affected units, 
resulting in higher dues for the rest. And the reputation of the 
neighborhood is tainted in the realty market.
    In our building, two families that were renting on a yearly lease 
moved out upon discovery of defective drywall. We were the only owner-
residents, and became solo residents of the building in 2009. We also 
experienced our first AC coil failure that year. We didn't feel we 
could afford to move out, but my husband began looking for a new 
position in earnest, and in Nov. 2010 we vacated our condo and moved 
away from Florida. We may have to pay for not only our own remediation 
(or just walk away from lots of equity), but also be forced to help pay 
for the clubhouse remediation.
    Now, we pay a mortgage, electricity, and association dues for a 
nearly new condo we do not live in, can not rent out, and are afraid to 
sell at the price that defective drywall homes command. In addition, we 
are paying monthly rent and utilities where we are now living. While we 
are grateful to have a place to live, this rental house does not meet 
our needs but we can't afford better rental property or a second 
mortgage. Could my husband have delayed his job search until this 
situation is resolved? I suppose, but why should a circumstance like 
this be allowed to permanently alter our life course? And how long will 
it take to resolve in the courts? And what are the long-term health 
consequences? After reading the suspicions that several infant deaths 
at Ft. Bragg may be associated with defective drywall, it was clear 
that we had to put the health of our child before our financial fears.
    Time will tell if it has affected our health. While living with 
defective drywall, I was diagnosed with irritable bowel syndrome and 
had my gall bladder removed. Recently I was diagnosed with thyroiditis, 
which is known to be affected by pollutants.
    Please, please, please Mr. Obama and others--acknowledge that this 
disaster is on par with ``natural'' ones, help all affected families, 
and stop doing business with irresponsible, unrepentant China!
                                 ______
                                 
    To Whom It May Concern:

    June 21, 2002: How excited and proud I was that day when I moved 
into my first home. Just four months later, on October 22nd, the air 
conditioner stopped cooling. There was a leak, and when I called the 
builder, his A/C contractor added Freon.
    That day was the beginning of my story--a different one because 
over the past nine years I have had numerous air conditioning 
technicians look at the A/C coil failures with curiosity. They could 
only speculate on what was causing black soot to appear on the copper. 
Each time, they charged the A/C unit with Freon until, ultimately, the 
coil had to be replaced. I have had eleven coils installed at my 
expense, spent thousands, including a very expensive coil coated with a 
substance made to sustain salt corrosion in the islands. It started 
leaking 8 months after installation. I told myself that was it--I am 
not putting in another coil, however, with the cost of putting in Freon 
once a week . . . I even bought my own tank! It only made sense to 
purchase yet another on Sept 3, 2011, knowing in 6 months it will need 
to be replaced. Every 6 months I listen for the last bit of Freon to 
run out from a corroded coil .
    Unfortunately I will be long gone by then, having finally exhausted 
myself mentally and physically--fearful of what 9 years of stress has 
done to my body, let alone wondering what the toxicity that has 
blackened 11 coils could've done, tarnished jewelry, electrical wiring 
corrodes. I have had to replace five projection lamps in my Samsung DLP 
TV. My 2006 Jeep, which I keep in the garage with the A/C air handler, 
has had mysterious electrical issues. I have been afraid to turn the 
gas on in winters, in fear those wires have become corroded as well. 
Eventually I can repair my credit (the only way for me to escape 
completely was to file bankruptcy), however, no repairing my health. I 
absolutely can't do this anymore.
    My home was inspected by a certified inspector. He sent core 
drywall samples and pictures showing ``Made in China'' to Atlanta, 
confirming the problem originated from contaminated Chinese Drywall. My 
entire house was built with tainted drywall.
    I feel my situation is atypical because I am not in a neighborhood 
with others that have the Chinese Drywall. My lot sat empty for a 
couple years before Kimball Hill Homes built on it. My builder filed 
Chapter 11 bankruptcy in 2008. It seems to be a no-win situation, so 
much for the American dream.
                                 ______
                                 
      The Chinese Drywall Toxic Entombment--Let our story be heard
    On January 10, 2007 we bought and moved into our home at [redacted] 
home in Founder's Pointe. We were so excited to have finally bought our 
dream home that we had saved for all our lives in a great neighborhood. 
We met many friendly neighbors and thought we could not be happier.
    We noticed (even before purchasing our home) from the start that 
this house had a peculiar odor that was hard to describe. It was not 
pleasant but was a sharp, caustic chemical unusual smell that is hard 
to describe as we had never smelled anything like this before. We 
believed when we questioned the bad smell, the Founder's Pointe East 
West realtor, Amy Geaphart, told us, ``It is a new home smell.'' I 
mentioned that none of the other new homes we were looking at had this 
smell but she insisted, ``That different builders use different glues 
and products that make each house smell different''. She was aware 
evidently as she didn't disagree that the house smelled of something 
odd. We innocently believed her. We continued for 3 years to notice the 
smell that we referred started to refer to as the ``Chip Smell'' 
(builder's first name) since he was the builder. We could not 
understand but hoped it would eventually go away.
    Then the nightmare began to unfold.
    I developed a chronic ``choking'' cough immediately that sent me to 
the doctor. This was something I had never had in my life. Finally 
after changing doctors three times, in attempt to find out the cause 
and treatment I was being treated for asthma. I continuously coughed 
each morning and night as if I was choking to death. I woke in the 
night gasping for breath on more than one occasion. My husband started 
having nose bleeds that he had never had in all the years together. Our 
HVAC went out after turning it on the first summer. The builder 
([redacted] with ABT Custom Builders, formally known as Area Builders 
of Tidewater) replaced the parts. Then the upstairs HVAC unit went out 
within the same time frame. This happened continuously throughout each 
of the three summers until they had been replaced/repaired a total of 9 
times. The last time our builder, [redacted] informed us we had nothing 
but Chinese Drywall in our home. We were devastated beyond words. Over 
the 3 years living there, we have lost 2 flat screens TV's ($3800.00), 
computers, cameras, heirloom silver tea set, jewelry, all lamps wiring 
are black and corroded. Since leaving this toxic chamber or horror, 
three years living in a house of 100 percent CDW was too long. After 
moving, we realized how bad everything smells (furniture, sofas, 
mattresses, rugs, comforters, pillows, blankets, curtains, clothing, 
linens, sheet, etc.). We've had to dispose of all the big items such as 
sofas and mattresses). Also, our appliances and electrical items will 
most likely not last as they were already coded (refrigerator, stove, 
microwave, dryer, washer, lamps all have coded cords). The casualty 
losses have been devastating not even including the CDW house loss.
    The smell was in our furniture and everything to include our coats 
and clothing. Our losses are overwhelming not to even mention our 
health!! Plus financial devastation of our huge down payment and house 
loss entirely. The house is now valued by Isle of Wight at $1,000.00 
dollars.
    The nightmare continues like a black cloud following us. Aside from 
the financial losses and major health problems there is no words to 
describe the mental torture we've had to endure. We lived in this homes 
for 3 years before this toxin was realized and we watched and felt our 
health deteriorate, never imagining that it was from toxic drywall used 
in their home. Our health, home, and finances are destroyed.
    There is no help for the victims. We just had to leave with 247 
sheets of this toxic drywall (entire house--worst in the neighborhood). 
On our moving day, I had to go to the Chesapeake General Hospital 
Emergency Room for chest pains, heart and respiratory issues. It just 
got too bad and we had to go. We hope someone will help us.
    We are approaching retirement age and have lost our home--couldn't 
take it anymore. The depression and health problems were too much to 
bear after realizing no one is helping. Not the builder, builder's 
insurance, home owner's insurance, installer, supplier, and we are left 
with the Chinese manufacturing company that will not even respond to 
the court hearings. The class action law suit is nothing but an empty 
judgement. It is like looking up a giant mountain to move and we are 
holding two little shovels all on our own. It is bigger than us--we've 
given up. We've recently discovered after moving that all our lamp 
wiring is totally corroded and black (clear, gold tint cords show this 
evidence). Also, couches, mattresses, pine furniture, chairs with 
cushions and worst of all, my lifetime work of original oil paintings 
all ruined with toxic sulfur smell. What will happen to them 
eventually? We are afraid of the fire hazard from the corroded lamps 
now in our new home and all our electrical items--refrigerator, stereo, 
DVR, phones, 3 flatscreen tv's, cameras, microwave, computers, etc. 
etc. The nightmare continues. More importantly we are very worried 
about long term health effects since living in this toxic chamber of 
horror entombment for 3 years before our builder told us we have 100 
percent nothing but CDW. He or anyone has done nothing to help us. We 
cannot remediate as it would be too expensive and the house would never 
be value it should have been for resale. We have moved out and are done 
with this. The health effects remind me of Agent Orange. At first the 
medical authorities said Agent Orange had no major health risks and it 
turned out to be just the opposite. Also, radon--2nd leading cause of 
lung cancer. This is such a shame and tragedy for our entire country.
    We have suffered enough emotionally, financially and mentally 
through this toxic tragedy and our lives have been turned upside down 
and inside out. We would have been much better if a tornado, hurricane, 
flood or fire destroyed our house. As it is now, the house is worthless 
and has in addition destroyed our lives. At least tornado, hurricane, 
flood and fire victims are covered by home owner's insurance. Nothing 
is helping or covering our loss. My husband [redacted] served in the 
United States Marine Corp for 26 years and is a retired officer. He 
feels as though he has been left on the battleground to die.
    ``The world is a dangerous place, not because of those who do evil, 
but because of those who look on and do nothing.''--Albert Einstein
                                 ______
                                 
    To: Whom it may concern 12/8/2011

    We have Chinese drywall
    We built our home in 2006/2007 with Monopoly Builders, who are now 
bankrupt, and the 2 principals have fled to Mexico to be outside of our 
legal system. [Redacted] the owner, placed all funds in a trust for his 
wife and together they fled to Mexico protected by the trust in her 
name
    I am 60 years old, and have had my same job for 33 years. 
[Redacted], my life partner, owns the home with me and we live here 
full time
    We bought a lot in the Cape for appx $ 175,000, planning to build 
our dream retirement home.
    We built the home and have just over $500,000, in cash tied into 
the home plus the $175,000 for the lot.
    The home today is valued at, $61,370 by the Lee County Tax 
appraiser. That's value is based on the pool and the land . The House 
is of Zero value due to the Chinese Drywall
    We have Pro-wall which was made by Taishan a company that's owned 
by the Chinese Government. They claim that the U.S. courts have no 
jurisdiction over them. They said Judge [redacted] rulings do not apply 
to them.
    Our 2 AC units have had the coils replaced twice. Home Tec, a local 
service provider in SW Fl will no longer repair any AC damages under 
our 5 year home a maintenance agreement.
    State Farm has now taken our insurance rates up from just over 
$3,000 per year to over $7,000 for the same coverage. They of course 
denied any liability on the deffective drywall issues.
    I believe that the rate increase is their way of forcing us to fine 
new coverage which would then release them of any liability should a 
court find that the Insurers are accountable
    We have had 2 inspections of the home and both have confirmed the 
drywall
    Our attorney believes that it came from Stock Building supply.
    [Redacted]'s daughter and son in law live here in the area as well 
they used to often stay the weekends with us. They will no longer stay 
and visit us much less often as they are concerned about their 3 year 
olds exposure to the contaminated drywall.
    I see the government spending billions of dollars to other 
countries.
    I have been a productive, taxpaying, law abiding citizen my entire 
adult life.
    What now? How do I stay here and continue to live in fear of the 
effects of the drywall. I do not have the funds to walk away and buy 
another home. As it is I will need to work way past my retirement age.
    My neighbors have asked what you are doing to fix the problem. Our 
reduced value of the infected home is reducing the average market value 
in the neighborhood. I guess that's the world we live in today.
    Please do use all measure possible to force the Chinese Government 
to come to the table in Jan in Hong Kong and make resolution so we can 
remediate and live our lives in that American Dream we have worked so 
long and hard to achieve
    Please do contact me with any questions that you may have.
                                 ______
                                 
    What joy filled my heart in 2006 as I moved into my `golden years' 
dream home that I had built with a supposedly fine builder, WCI. I had 
found the perfect place to live and enjoy golfing, traveling, fun 
stuff, and lots of volunteer activities, so many wonderful things 
available here in Sun City Center!
    Why was some of my 14 karat jewelry turning dark? Why couldn't I 
keep my silver polished as I had been doing all my married life? Why 
was I suddenly getting headaches which I had never, ever had before? 
Why were my eyes burning all the time?
    Why within the warrantee period did my kitchen TV go bad? Happily 
it was replaced without any cost to me. But within the next two years 
my microwave went bad (a microwave???? I've had several built-ins in 
houses I have owned and never a problem!!!) costing $145 to repair, 
labor only. Then my 32'' and 42'' TVs went bad. The 32'' was $480 to 
repair and the 42'' $535, but of interest: when my repair man called 
the Toshiba repair desk about the 42'' one to get some help, they 
informed him that in all their years of business they had never, ever 
had this problem before with one of their sets!
    I've had to replace the a/c coils ($878), the disposal ($205), the 
ever-hot water at the sink ($365), the ice and water dispensers of my 
refrigerator replaced ($538) and when the microwave went out the second 
time, I opted for a countertop model which is now showing signs of not 
working (three and six don't work). And I have now had to replace the 
42'' TV ($695) and my computer ($469). My telephone set-up consists of 
a base-station with a hands-free set and three chargers each with a 
hands-free set. Two of those chargers no longer charge. I'll have to 
replace the system ($200 approximately). We're talking about lots of 
$$$$$$s here that I cannot afford! And when will it end.
    My home owners insurance company took my claim quite seriously and 
employed an engineering firm to study my situation at a cost of $3500. 
Their report shows my home riddled with bad dry wall, but did not 
identify what causes the problem. I have the pictures showing the 
corrosion of receptacles, mirrors, jewelry, air conditioning coils, 
etc.
    I feel like I am sitting on all kinds of `time bombs,' not knowing 
when the next one is going to explode and cost me additional funds I do 
not have, were certainly not in my tight budget, should not ever have 
had to spend, keeping me from traveling or do other things I should be 
able to do in my `golden years,' but can't because my house is 
worthless, just ask any real estate agent. You can't put it on the 
market. No one would buy it.
    All this through no fault of my own . . . . . I did not cause this, 
am in no way responsible for this. I don't know which way to turn. I 
cannot afford to fix my home, cannot afford to take out a low interest 
rate loan to fix it, can barely get by on my present income. I planned 
very well to live very comfortable here and even when the economy 
turned sour, I have been able to manage, but to have this Chinese 
drywall (CDW) dumped on me is just too much. The strain, the pressure 
is just wearing me down . . . . . the stress is getting to me, and that 
is totally wrong.
    Testing of the CDW is going on, but it is taking too long. We need 
answers now. We need to know what can be done and who is going to do it 
and pay for it. Those in our neighborhood who have been told they don't 
have the problem want to know how they can assure buyers of their homes 
that they are free of CDW, so they are just about as involved in this 
problem as we are.
    We get some feedback off and on from our elected officials, but it 
isn't enough. We need action quickly in the form of pushing CPSC, FEMA, 
the Chinese government, and others harder to fix our problem quickly.
    This horrible stress is like a knife cutting into every minute of 
our lives, causing us to bleed our `golden years' out in pain, instead 
of enjoying those years.
                                 ______
                                 
    To Whom It May Concern:

    While living in a home at [redacted] St Estero Florida our family 
experienced many serious health related issues, including 
hospitalization for pneumonia, bronchitis and later pulmonary embolism. 
I was 48 years old at the time and in good health. Once we moved from 
the rented home our health issues resolved and have not been present 
since. This entire situation almost took my life, I spent 18 days in 
intensive care in Naples Florida. I feel most likely others have lost 
their lives in this fight to prove that Chinese Drywall is harmful to 
your health. My story is long and painful, I would be happy to 
elaborate with the health issues if anyone is interested in listening.
                                 ______
                                 
                       My Chinese drywall problem
    This is my story about a condo I purchased in the summer of 2009 
from Fannie Mae. Fannie Mae short sold the unit to me with no 
disclosure that the unit had Chinese drywall. After some investigating 
I found out the unit and approximately 80 other units have Taishan 
drywall and were unlivable. To date I have not slept one day in the 
unit and it is financially running my life. This is the general 
timeline of the events that happen to me and my family.

        <bullet>  July 1st my wife went to Bayshore management office 
        and spoke to Burt Kelly about requirements for the door handle. 
        She also asked: ``Is there anything we need to know before we 
        start to move to the apartment''. He said ``No''. Nataliya, my 
        wife, as well asked for the key to the pool. Then Burt said 
        that we can not be moving in yet because they don't know who we 
        are and they don't have a deed.

        <bullet>  May 2nd we mailed Bayshore management an application 
        to be approved for the full time residence.

        <bullet>  June 25 we were going to close but the letter from 
        the board allowing me to move in was not in the packet and the 
        lawyer for Bayshore management was negotiating back fees. To 
        date $11500 was owed to Bayshore for previous maintenance fees. 
        The president of the Board of Directors had to sing off 
        allowing me and my family to move in as my new full time 
        residence.

        <bullet>  July 1st, 2009 was a second closing date and we did 
        not close again, because Bayshore management's lawyer agreed on 
        amount to be paid back but did not sing documents of our 
        approval. My wife went to [redacted], the manager of Bayshore 
        Management, asking him for pool key. He refused to give key, 
        questioned her about fees.

        <bullet>  July 3rd, 2009 Liberty title closed property through 
        mail and computer with Fannie May. I wired money to Liberty 
        title about two weeks prior.

        <bullet>  July 4th and 5th three families moved out from our 
        street. Out of 22 units next to mine only 5 units have people 
        in them.

        <bullet>  July 6th at 9:30 am I was outside with furniture 
        deliveries and lady across a street and another neighbor told 
        me I can't move small child into the unit because it was toxic. 
        I said ``It can not be, the inspector check it''. I refused to 
        believe that. I went upstairs with the neighbor and start 
        taking out electrical outlets. The ground wires were black 
        along with AC coil. Two appliances were missing. The empty 
        neighborhood, moving out neighbors. Now it all made sense.

        <bullet>  July 6th about 10:30-11:30 I went to the satellite 
        office of Bayshore Management to speak to [redacted]. I asked 
        him if my unit has Chinese drywall. The receptionist had a 
        colored chart on her desk that he looked at and said'' Yes, 
        your unit has a ``mild case'' of Chinese drywall. I would not 
        bring my child in there.'' He also recommended not taking the 
        furniture out from there, suggesting cross contamination.

    When I asked why he did not tell us prior to closing he replied'' I 
can be sued for blowing a sale. And you should have been told by the 
seller.''
    The chart that [redacted] was referring to was created by the 
president of the Board, Howard. He owns the Chinese Drywall screening 
company. The Bayshore Management paid him $2300 to do the screening of 
all apartments. Howard did the screening back in March and with the 
Board of Directors did the mailing to the residents telling them of the 
intensity of toxic drywall in each unit. This letter went out in April 
certified mail.
    The letter for my unit went out and was singed by the previous 
owner that was foreclosed on 1.5 years previous by Traditions and the 
bank.

        <bullet>  July 10th at 11:30am I called the PSL Property 
        Appraisers office. I told them about my problem and they said 
        to contact [redacted], The president of the Board of condo 
        association for help. Howard was in here month ago giving them 
        a list of all the toxic properties in the Promenade. Their # is 
        772 337 5760. The list would let the Property Appraisers office 
        deduct the amount of money to fix unit called ``Right to Fix'' 
        from the Appraised value which in turn lowers your taxes.

        <bullet>  July 10th at 12:30 pm I called Fannie may at 972 773 
        4663. I told them that unit they sold us is toxic, and I and my 
        family are homeless. They said they will do a ``Page send'' and 
        someone will call me in two days.

        <bullet>  July 13th or 14th a rep called from Fannie Mae saying 
        that it was my job to do Due Diligence to find out history of 
        the unit. I told them that they did not disclose the findings 
        of the unit knowing that last owner foreclosed because of it. 
        The inspection service for the bank is First American Field 
        service 1 800 873 4532. I called them and they said to call the 
        bank if I have a problem.

        <bullet>  Fannie Mae 972 773 4663 in Texas. File #[redacted]. 
        [Redacted] of, as partner of Adolno & Yoss LLP, Attorney in 
        fact of Fannie Mae A/IC./A/Federal National Mortgage 
        Association.

        <bullet>  Liberty Title Company of America inc. 10060 South 
        Federal Hwy., Port Saint Lucie, FL, 34952 (772 335 7474). 
        [Redacted] was handling the closing.

        <bullet>  Property Appraisers office PSL (772) 337 5760. ``Cost 
        to cure'' adjust value paperwork was given to them by 
        [redacted. for the Promenade at Tradition.

        <bullet>  Business Tax Office. A&A Inspections is inspector we 
        hired to check the apartment for Chinese Drywall. I called them 
        if inspector is licensed and insured. He is licensed in PSL. 
        However, inspector is not a ``trade'' in Florida, therefore NO 
        insurance is required. The owners name is [redacted] at 
        [redacted], Port Saint Lucie, FL, 34983. The office number is 
        (772) 336 0936, cell (772) 240 6219. He is in the phone book as 
        Licensed and Insured, but does not have insurance. I called him 
        to put in claim. Hi said ``NO insurance, sorry''?

        <bullet>  First American Field Services for Fannie Mae 1 800 
        873 4532, inspected the place for the bank prior to me buying 
        it.

        <bullet>  Chinese Drywall Screening LLC, [redacted]. Office 
        (772) 224 8660, cell (772) 201 0006.

        <bullet>  [Redacted] is a property manager for the Promenade 
        section at Tradition for Bayshore Management. On site number 
        (772) 345 0596. He told me that I do not own outside walls, 
        walls touching another condo, ceiling and floors of my condo. 
        However they did not disclose to us that ``their'' part of the 
        condo I purchases is toxic. He is on the Board of Directors.
                                 ______
                                 
    I am 76 years old; my wife is 72. Our retirement dream home has 
been devastated and our health has been severely compromised by the 
``silent, invisible hurricane of toxic Chinese drywall.''
    We retired to Florida ten years ago, initially living in a condo 
along the beach in the Clearwater area. In mid-August, 2004 we had our 
first experience of hurricanes. Clearwater residents were warned to 
prepare for a direct hit. As Hurricane Charley gathered strength, 
heading for the Gulf Coast, we evacuated our 16th floor condo . 
Reaching winds of 145 miles per hour, Charley turned towards land 
further south at Charlotte Harbor and Punta Gorda, inflicting 
unbelievable devastation on the residents there. While we were 
enormously relieved, we realized that every serious hurricane threat 
would require evacuation.
    Within a month, Hurricane Jeanne, made its way northward through 
the center of the state. While we were not in the direct path of 
destruction, we were amazed at the ferocity of 70 to 80 mile per hour 
winds. At one point we heard two loud crashes as the winds swept loose 
pieces of tile from the roof of a neighboring condo, smashing into the 
glass sliders of the condo immediately above and immediately below us, 
exposing the condo interiors to the wind and rain, inflicting extensive 
damage, ruining drapes, rugs and furniture. We were grateful for being 
spared again!
    As we reflected on the widely circulated projection of 10 years of 
more intense storm activity, we decided to move to a more secure inland 
location. We began to search out 55+ communities within driving 
distance of Tampa We visited the impressive WCI Sales Center and heard 
the story of how Del Webb selected the Sun City Center location because 
of its elevation, distance from the water and history of no hurricanes. 
We were fascinated with the gracious, outgoing, welcoming way of being 
of almost everyone we met and the incredible number of activities 
available. We closed on our new home on December 1, 2006. Not having 
children, this was to be our retirement dream home until age or 
decreased mobility required a move to a Continuing Care Facility 
offering Independent Living, Assisted Living & Nursing Care. Equity in 
our home was foundational to our planning for later years. Today, our 
primary asset, a mortgage free home, has little or no value; it is 
basically unsellable''
    Since moving into our home in December 2006, we have experienced 
many health problems. Early on, we experienced nose bleeds, eye 
irritation, constant runny nose, chest congestion and uncharacteristic 
susceptibility to the flu before we knew anything about toxic drywall. 
Two years ago, I was diagnosed with ``early Parkinson's disease. In 
April of this year, my wife, [redacted], was diagnosed with breast 
cancer, followed by a lumpectomy, 18 weeks of chemotherapy and is 
currently completing 35 sessions of radiation. In August, breathing 
difficulties resulted in my being hospitalized with an eventual 
diagnosis of severe bronchitis; it took weeks to regain my strength.
    In our very senior years, after a lifetime of careful and 
conservative financial planning, we find ourselves financially 
devastated by the unforeseeable and catastrophic storm of Chinese 
drywall. Since moving in, our health has been seriously compromised.
    We are beginning to lose hope for any positive results from the 
complex and extended legal procedures. Our builder, WCI, declared 
bankruptcy; our toxic drywall was manufactured by Taishan, a Chinese 
company. The anxiety about our situation is incredibly stressful.
    Along with many of our friends and neighbors, we need the 
assistance of government, at local, state and national levels to help 
us recover from the effects of this unforeseeable catastrophe.
                                 ______
                                 
    We hired Aranda Homes to build our Florida dream house. We moved in 
October 2006. From the start we had an unspecific smell in our home. We 
assumed it was a ``new'' house smell. We chalked it up to everything 
being brand ``new''. About 6 months later, as I was walking across the 
floors with heels, I could hear ``hollow'' sounds. I became a little 
concerned. I called [redacted] at Dom Izzo Tile. Through Aranda we were 
connected to Dom Izzo Tile. (Aranda and Dom Izzo are partners.) It was 
there that we picked out our carpet, cabinets, knobs, granite, tile, 
etc. . . . [redacted] said there was nothing wrong. A couple of months 
later I was hearing much more hollow sounds. Some of the tiles began to 
crack. Pete had someone come to our house to fix the cracked tiles. As 
the repairman tried to chisel out the broken tile(s) a domino effect 
would take place. The surrounding tiles would ``pop'' up. Sometimes 
they cracked and could not be reused and sometimes they didn't. After 
numerous repair jobs we were running out of spare tiles. [Redacted] had 
the repairman drill holes sporadically in the tiles and fill it with 
some kind of adhesive. This did not work. The tiles tented. Again the 
repairman came. Finally, one man came who said the tiles just could not 
be replaced anymore. The tenting was in too many spots. In July 2008 we 
had all our tile floors pulled up and replaced. We could not get the 
same tiles anymore as they were discontinued. We were very unhappy 
since this was a major factor to us building this home. The inside 
tiles flowed to the outside lanai. When the slider and pocket doors 
were open it all looked like one. However, this was another problem as 
we later learned. Dom Izzo Tile used indoor tiles on our outside lanai. 
When we first moved in, we'd get out of the pool and the floor became 
very slippery when it was wet. We called [redacted] and he came over 
with something that he brushed on the tiles. They became very dull but 
it did fix the slipping problem for a period of time.
    Approximately April 2009 we hired a handyman to install a ceiling 
fan in the master bathroom because it was just too hot in there. About 
a week after the installation he called us. He said he was troubled 
about the wiring when he changed the fixture. He told us the wires were 
very black for a new house and that they should have been a copper 
color. We had recently heard about Chinese Drywall and the problems it 
was causing. His concerns set off an alarm in our heads. We began 
investigating. We took the switch plate covers off all the outlets and 
sure enough the wires were black. Our mirrors, faucets, and toilet 
valves were pitted. We originally thought this was due to the fact that 
we live on the canal and the water and humidity had something to do 
with it. We also thought maybe they were just cheap fixtures. But now 
everything was beginning to make sense. In May 2009 our air 
conditioning broke. Turned out the coils were all black. Needless to 
say we were in denial for a while even though the facts were all there. 
Eventually, reality sunk in and we knew we had to do something. We had 
a professional home inspection done. We had too much money invested in 
this house. We bought the land and built during the housing boom. With 
the Chinese Drywall it was worth nothing! In June 2010 we began 
remediation with Shannon Holland of Abisso Cleanse. He and his company 
did an outstanding job.
    As I write this I am thinking about my next project. The outside 
lanai tiles tented just last week. Does it never end?
    I find it very disheartening that our government is turning its 
back on us. There are so many people that have become ill because of 
this contamination in our homes. We were fortunate enough to be able to 
remediate. There are many families who just can not afford to leave 
their homes. I feel so sad for the families that lost innocent babies 
at Fort Bragg. Coincidence? I don't believe it! Will it take 10 years 
like it did with September 11 to realize these sulfurs and chemicals 
are harmful? We even have to pay taxes on a house that is worth $0. I 
think if this happened in another country or to a group of well knowns 
it would have been dealt with already. However, we are just a group of 
middle class people, barely audible. When is the United States 
government going to take a stand and do something to help--Go after the 
companies that knowingly brought this crap into the our country!
                                 ______
                                 
    To Whom It May Concern,

    I have a historical house in Ft Lauderdale Florida. In 2005/2006 I 
put an addition on my home using chinese drywall. I have had numerous 
electrical problems, but mostly I have had eye and throat irritation. I 
was getting nose bleeds for no reason. I tried to get my bank to lower 
my interest rate to the then current rate. This would free up money to 
repair my home slowly. I am a building contractor. I was told I do not 
qualify since my income had dropped. I only qualify for the higher 
rate. For health reasons I moved out of the house and stopped making 
payments. I am still trying to keep my house, but I need help in fixing 
my house. IndyMac just says they are a debt collector and no one can 
answer my questions and they have never answered any of my suggestions 
of how to work out a modification so I can keep the house. Now since I 
do not live in the house I am not eligible for any help. The bank would 
rather sell the house in foreclosure for 50 percent of the loan value 
then work with me. Because our government has guaranteed, the loan so 
why work with me. Chinese lead base paint in baby toys, tainted dog 
food, drywall, etc, etc, no one in government cares.
                                 ______
                                 
    In case my previous e-mail didn't go thru here it is again. My name 
is [redacted]. I closed on my townhouse on December 21st 2007. I found 
about the chinese drywall in October 2009 from my neighbor. I filed my 
lawsuit with Richard Serpe on December 18th 2009. Unfortunately, I 
cannot afford to move out for financial reasons. There is a rotten egg 
smell that comes from the sulfur emitted from the walls. My 
girlfriend's silver jewelry turned black. I have replaced about 4 or 5 
evaporator coils. I have lost a lot of weight due to the toxic drywall. 
Thanks for your concern.
                                 ______
                                 
    My husband and I had our house built by Aranda homes in 2006. Two 
years later we found out the house was built with toxic drywall. We do 
not have Knauf so we do not qualify for the Knauf remediation project 
and our builder took $300,000 of our money, gave us a defective and 
worthless product and walked away with absolutely no responsibility or 
accountability. At the age of 55 we had to take out a loan for $75,000 
to fix our home. We will have to work until we are 80 to pay it off. We 
were forced to move out in July of this year due to my sinus problems 
and my husband's daily headaches. We were told that the United States 
government has all but abandoned us. They have left the homeowner to 
fight the Chinese government to try and get restitution. The United 
States government allowed this toxic drywall into our country and into 
our homes and now they want me to fight a foreign government to fix 
this mess. There have been a lot of Americans hurt by this and 
financially ruined. Thanks to the Chinese Government and the United 
States government. I will never be able to retire. I will have to work 
until my dying day to pay off a loan I never should have had. I paid 
cash for my home in 2006 and three years later I am paying for it a 
second time. It is certainly not fair that some people will get their 
homes restored at no out of pocket to themselves and yet others are 
left holding the bag. Where is the United States government? I have 
paid my taxes my entire life. Why isn't the government taking care of 
its people?
                                 ______
                                 
    To Whom It May Concern:

    We bought our CDW home (the dream retirement home) in 2006 and we 
had health problems beginning in 2008. It began with running eyes, 
followed by throat irritation, cough, headaches, tooth aches, hair 
loss, breathing problems, insomnia etc. The smell was so bad it gave us 
sevear head aches, to a point that we had to wear charcoal filter masks 
to breath in my home. We pretty much lived out side of our house except 
to sleep and go to the bathroom. We could not turn the air condition on 
it the Florida heat, could not turn the heater on in the winter time. 
It was a horrible time for us. Our builder declared bankruptcy so we 
did not have any recourse, we took money out of our retirement fund and 
had to rebuild it.
    Your help in this matter would be appreciated.
                                 ______
                                 
    I am writing to you to voice my frustration with the very slow 
progress and inconclusive results of testing being conducted by the 
Consumer Product Safety Commission on the harmful effects that the 
presence of Chinese drywall may be having on homeowners throughout 
Florida and the rest of the country.
    I can't stress enough how serious this catastrophe is and the 
negative affect it is having on the thousands of homeowners victimized?
    I live in a retirement community. On my street alone, 75 percent of 
the homes have defective drywall present. These are people who have put 
most of their life savings into what was to be their dream home and now 
are being saddled, through no fault of their own, with a situation 
where their homes are in some cases unlivable and in all cases 
unsalable. These homes present potentially dangerous health and fire 
hazards, and the homeowners still have no answers from government 
officials on what to do to fix the problem. The cost once determined to 
fix the problem will, in fact, seriously impact their retirement income 
and in some cases bankrupt these individuals.
    The longer the testing process takes, the longer homeowners are put 
at risk of contracting serious health conditions and potential 
electrical fire hazards. This protracted testing timeline is also 
putting tremendous financial strain on affected homeowners.
    Many have had to move out of their homes and are now paying rent as 
well as their mortgage. All homeowners affected by this disaster are 
faced with homes that are unsalable and are seeing the value of their 
homes reduced to zero. Many homeowners are being notified by their 
homeowner's insurance companies that there is no coverage for Chinese 
drywall damage and additionally their insurance coverage will be 
dropped and HO policies will not be renewed until the problem is 
remediated. Because there is still no conclusive word forthcoming from 
state or Federal agencies on the proper process for remediation, many 
homeowners will be left with their homes totally unprotected by 
insurance.
    This is an untenable situation and requires immediate action on the 
part of local, State and Federal elected officials. We need help now. 
Without immediate help the problem will continue to worsen. The longer 
people are left exposed to the health, fire hazard, and financial 
stresses created by this catastrophic situation the more long term 
lasting horrific effects will be realized by affected homeowners.
    We need your help and we need it now.
                                 ______
                                 
    To Whom It May Concern,

    My husband and I have owned a Chinese drywall home for almost five 
years now. We have not been able to live in this home for practically 
three years now. We are having to rent a home which has put an enormous 
financial strain on us on a retirement income. Our home was built by 
WCI (which filed bankruptcy but now is building new homes across the 
street from our home) with Taishan drywall and it has caused us many 
health issues. While living in the home I had weekly nose bleeds, 
gastroenterologist problems, insomnia, eye irritations, and enormous 
fatigue. After undergoing an MRI. I had developed vertigo, the doctors 
found that I have a vestibular disorder and I have also lost hearing in 
one ear. My husband developed a rash and a cough that has not left him 
to this day. He has undergone many tests and the only diagnosis from 
the Doctor is Chinese Drywall Syndrome. I cannot express to you the 
life we have been living in this nightmare. This travesty has drained 
us not only financially but physically and emotionally. Someone has got 
to help all the victims of Chinese drywall! I don't know how much 
longer my husband and I will be able to continue renting. We still have 
a mortgage on the Chinese drywall home, we rent and pay all the 
utilities and we have had all kinds of medical bills. When is the 
government going to step up and help all the victims in this country? 
Please Help!
                                 ______
                                 
    My name is [redacted]. My wife and I purchased a home in Parkland 
Golf and CC in Parkland, FL in 2007 from the now bankrupt WCI. Who by 
the way is now building again after reorganization. They built many 
homes containing CDW and sold homes even after knowing the product was 
defective. We both have been living in the home not wishing to default 
in the hopes of remediating. We both have experienced health related 
respiratory issues as well as headaches, etc. After 3 years of legal 
battling we are pursuing remediation with Knauf, one of the companies 
who supplied the drywall. If the government was smart they would pursue 
financial remuneration to help all the homeowners to fix their homes. 
This would put the entire construction industry to work on over 100K 
homes and solve much of the unemployment issues which in turn 
stimulates the economy.
                                 ______
                                 
                 Trapped in Birmingham!! Someone Help!!
    Built our new dream home in December 2005 completed in June 2006, 
and from the first week we moved in my new wife said there's a smell in 
this house? Call the builder!!! (Eddelman Builders, Birmingham) and get 
them to find this smell? Our new home was under warranty so the builder 
sent his people out to try and resolve the smell issue, everyone 
smelled the smell, but no resolution! After 6-7 months of complaining 
to the Builder I contracted with a Home inspector to come in to find 
the problem 4 hrs later the home inspector said he could not find the 
smell? ``Everything looks ok'' That will be $400 please, I paid the man 
and my wife kept complaining & we kept calling the builder. Our first 
air conditioner went out in April 2007 the builder had it repaired 6 
more service calls that summer, both HVAC units were replaced! the 
paint in the bathrooms started streaking? called a paint contractor no 
answer! the builders people said that ``we were taking to hot showers'' 
More calls to the builder more people came out with no resolution, 
called the gas co. they smelled something too, but it wasn't Gas? and 
all the while my wife was having one medical issue after the other! No 
answers doctors bills, prescriptions, it seemed like everything was 
caving in all around us, and then the letter came (certified mail) from 
the builder that our home was suspected of having been built with 
Chinese Drywall? Two teams (4-6 guys) each time came to the house and 
both confirmed that we had the defective product!! Now it all made 
since!!!! By March of 2010 my wife's medical problems had become so 
acute that her Doctors recommended that the house could be causing the 
health problems? and she should get out!! So in April 2010 we have 
leased another home, and now I have a Mortgage on the defective home 
that no one can live in, and a lease for a home that costs me and 
additional $$$$$ every month and a house that I can't sell and that has 
lost more than Half it value!! This is a nightmare we are trapped and 
there is no end in sight. We have found out that after Katrina Jan 05 
that there was a shortage of Drywall in the U.S. and the National Home 
Builders Association was putting pressure on the Feds to strike down 
the Drywall standards that were in effect and let the product from 
China to be allowed in the U.S. The PAC's got their way, and the 
drywall was allowed in more that 15M tons of the stuff!! And the 
suppliers/builders bought it up (@ a lower price that U.S. drywall) And 
passed it along as U.S. drywall at the higher price mind you!! And here 
we are left to hang in the wind!! The Birmingham Homebuilders Assoc. 
has recently stated in the Birmingham News that they were unaware of 
any homes in the Birmingham market that had been built with the 
defective product!!! Something is wrong with that statement (my builder 
alone has a reported 40+ homes with the product! How many more of them 
are in this market let alone the U.S.
                                 ______
                                 
    Dear Senator,

    We bought our brand new house in Year 2006, from beginning, we 
noticed some strange smell in our house, and we thought it is new house 
smell. After we lived in the house for about four months, my son 
started to have nose bleeding, I started to have muscle pain and my 
wife started to have headache.
    I went to doctor/specialist many times and had CT scan, X-ray. The 
doctors couldn't find the problems with my kidney, foot and arm where I 
had pain.
    After one year, our A/C units, TVs, computers started to fail again 
and again. The A/C coil copper pipes corroded and became complete black 
color. We didn't know what caused the problems until one of mechanic 
told us we must have Chinese Drywall installed in our house when he 
replaced our A/C coil, and he run to attic and pulled out insulation 
material away and found out the drywall labeled ``Venture Supply, Made 
in Taihe, China''. He also gave us the layer phone number and let us 
call lawyer to join the Class lawsuit.
    Then I started to find the information related to Chinese Drywall 
and check more evidences in our house. I found out our copper wire in 
switch blacked out. Copper strings of baby grand piano became black 
color.
    For safety and health reason, we decided to hire builder to repair 
our house this year. Because of Chinese drywall, City lowered our house 
structure value to $100. Bank of America declined our refinancing due 
to the value of the house. We have to lie to other bank and say 
remodeling house to get home equity loan (Fortunately, it doesn't 
require house appraisal). After builder spent over four months and we 
spent about $240,000, our house got repaired. Now we have to pay back 
the money to bank from our own pocket.
    This is most painful experience in our life.
    Thank you.
                                 ______
                                 
    After the recent Senate Hearing on Chinese Drywall (CDW), I was 
told I needed to send correspondence to this e-mail address to tell 
about our CDW experience.
    I would like to tell our experience for the last (4) years in 
trying to have responsible parties listen and help us resolve our 
problem. We were totally destroyed by the hurricanes Jennie and 
Frances, in the fall of 2004. The condo association and our insurance 
replaced all the damage caused by these hurricanes. The condo 
association contracted to replacing all of the drywall to a licensed 
contractor who replaced all of the drywall in the entire condo in 2005. 
We moved back in January of 2006. We began noticing a corrosion of the 
pipes and eletrical wiring. We also noticed a strong odor, which later 
we were told was sulfur dioxide. It was not livable unless we aired the 
entire apartment, which we did by leaving all our windows open all day 
and night unless it rained. We were later informed that all of the 
drywall which was replaced was defective and that the contractor nor 
the condo association were responsible for the defective material. My 
insurance also refused to pay saying that they would not cover 
defective material. After hiring an attorney and threatening the condo 
association with a law suit they agreed to remove and replace only the 
defective drywall which accrued in June 9f 2011. All of the additional 
cost related to being damaged by the CDW and expense incurred to 
achieve this task was a financial burden imposed on the homeowner. When 
the task of removing and replacing all of the items required a toaal 
cost out of pocket to us was $15,000.00 and I do not believe that the 
homeowner should have been responsible for this disaster. The tainted 
drywall which came from the Chinese Manufacturers should have been 
inspected and approved by the U.S. Government, prior to being allowed 
to installed in our homes. I don't believe that the financial 
responsibility should be imposed on innocent homeowners
    Thank you for your cooperation.
                                 ______
                                 
    Sir/Madam

    I am not poor yet. I have a home which I bought with all my savings 
(So I don't have a mortgage in my retirement) This house has Chinese 
drywall. It is so bad I cannot live in the house. I cannot sell or walk 
away from the house. If I don't get relief I don't know what to do. I 
pray to GOD that government look into this matter quickly and do the 
right thing. Save me from poverty.
                                 ______
                                 
    Both of my parents are immigrants who came to America with nickels 
in their pockets and huge dreams. My father [redacted] has built some 
of the most incredible skyscrapers that exist in New York City and its 
surrounding boroughs today. My mom [redacted], amazing singer and 
actress who even made the original cuts for the Original West Side 
Story production, successfully raised two beautiful children tending to 
home as a domestic homemaker. My parents, as hard as they worked never 
lived in a new home. The built at [redacted] was not only a dream of 
mine, but that of my parents. My father was onsite of the building of 
the home daily and in contact with everyone who worked on the site. All 
the bells and whistles were added to this home from custom granite 
throughout, custom moldings, polished nickel, upgraded tiles inside and 
outside, indoor Jacuzzi bathtub, outdoor Jacuzzi with waterfall pool, 
upgraded center island in the kitchen, a 4th bedroom for a playroom for 
the children, a golf cart plug, and the most gorgeous palms, hedges, 
fruit trees, and flowers you could imagine. Lastly, we had someone come 
in and custom paint each bedroom, bathrooms, ivy on the arches, 
vineyard settings in our niche's . . . You name it. It's here.
    With Joy we all celebrated the home closing and enjoyed every 
holiday and weekend family event. This home wasn't my home--it was our 
home--for family, cousins, friends, etc.
    In April of 2007, I went through a very difficult divorce with my 
ex-husband who had physically abused me. Because I was only a school 
teacher, I could not afford the home myself, and my parents couldn't 
let this home leave us. It took many, many months for us to come to a 
solution. In the meantime, I had met and fell in love with my husband. 
Together with his family--His father [redacted] a Yale Graduate and 
[redacted] a Harvard Business and Smith graduate, all came to the 
conclusion and agreed with my parents to allow my parents to take out a 
mortgage on their free and paid home--at [redacted] in order to pay 
this home off here at [redacted]. My husband and I never miss a 
payment. My in-laws graciously added to our already incredible home 
with priceless pieces of fine art that has been in the Hattemer and 
Maynard families for generations.
    Then, to find out about our drywall. Currently, we are still here 
in the house. Financially we're a mess. So far beyond in bills, 
creditors keep calling us. My husband and I have four jobs between us. 
We are both public school teachers--educating tomorrow's leaders--
giving back to our community daily. I suffer constantly from Vertigo 
and nausea. My baby boy wheezes constantly in his chest. His immune 
system cannot clear his cold that has lasted for months. We now have 
moved his crib into our room--sleep with the doors open. My older 
daughter and son both have sleep issues. My elder son has bloody noses. 
We are totally despondant. We cannot leave, for we would foreclose on 
my parents home. My in-laws cannot help because the stock markets have 
depleted their finances.
    We have done nothing wrong. My parents have done nothing wrong. I 
cannot get help from the banks. There is no equity in this home. A home 
that was worth 425,000 when I closed is now worth literally 5,000 
according to the Lee County Property Appraiser.
    We can't even gut this house ourselves--because we cannot afford 
renting a home that will fit five people.
    We desperately need your help to give back 325,000 to a mortgage 
company who has no sympathy for our predicament. When I call to explain 
what's going on and seek help--They sell my parents loan to another 
mortgage company. I still have home insurance, but that is because I 
cannot tell them I have drywall. If I do, I lose my insurance. We have 
nothing. Please,
    Please, Please help us!
                                 ______
                                 
    Natasha,

    You do not have our testimony but I would like you to include.

    We learned of CDW like all other Floridians in early 2009.
    Our home was built in 2001. We always wondered why our AC coils 
would fail approx every 9 months since we moved in. No one had answers 
so we blamed it in the ``crappy brand'' the builder gave us. After 
replacing coils 8 times in 7 years, we had enough and spent $5000 on a 
BRAND NEW Trane AC unit (Oct 2008), learn of CDW in 2009 and have the 
coils fail before the unit was 1 year old and again replaced 2 months 
ago in our new unit.
    I thought and only knew that AC coils were black until learning 
about CDW.
    We know understand why my cat of 10 years, suddenly died of a brain 
tumor, after being in this home 5 years. Why she had unexplained 
allergies, and respiratory problems in this home and not in homes we 
lived in before 2001. Why my husbands burning in his mouth, ear pain, 
nose bleeds and scabs in his nose could not be explained. Why both our 
stomachs make terrible noise at any time and we have intestinal 
problems. Why both of us have been embarrassed in front of people (work 
included) when our stomachs make various sounds. Why my dry eyes, 
hoarseness and ear ringing cannot be explained. I know understand why 
my silver jewelry that I keep in ``tarnish free'' chests and some 
pieces in sip lock bags inside the tarnish free chest, still tarnish. 
My we had to keep replacing bathroom fixtures when they rusted within a 
few months.
    Why I have had to throw away decorative items and jewelry because 
they had blacken beyond repair.
    Our builder is not longer in business, my mortgage company stopped 
calling me once they understood I have CDW.
    Our home has been inspected by Spider Man Mulholland, a 
toxicologist, the builders inspector, dry wall distributor inspector 
and I've lost count of who else has walked through my home to conclude 
we have CDW. The Consumer Safety Protection Commission has used this 
home as part of their environmental air quality test; having multiple 
units in my home for months.
    Our home has 218 pieces of CDW supplied by Seacoast Supply, owned 
by L&W, a subsidiary of U.S. Gypsum. Seacoast Supply was caught in a 
lie and has admitted ownership for installing the 218 pieces in my 
home.
    The attorney for Seacoast, David Connor, says they will remediate 
but has not carried through on any promise--mediation, remediation, 
protocol and client testimony. In fact, he asked us to provide our 
initial remediation estimate to assist him in suing their importer, 
Shamrock. All parties cry that they are the victim, but the only victim 
is the actual homeowner. We did nothing to contribute or create this 
situation.
    We are frustrated with our local attorney who has included us in 
class action lawsuits, which we never wanted, nor agreed to but were 
told we are in them. We are encouraged not to opt out. We are promised 
a lower fee to the attorney but he does not commit to the percentage. 
The replies I have received form senators and representatives are 
outright insulting. The CDW homeowner is the only one getting the short 
end of this and again, we have done nothing to contribute or deserve 
this.
    We can only say that back in 2001 and earlier since I've heard that 
CDW has been in the U.S. since 1999, the construction industry only 
wanted to cut corners and save on their cost while creating a false 
promise of quality.
    Our home was built to be our ``retirement'' home but it is worth 
nothing except the land it sits on and even with that, the real estate 
market is still at a low point. It has prevented us form moving on with 
our lives and careers.
    No one can put a price to the horrible arguments my husband and I 
have had about our CDW, the attorneys, mediation, remediation and our 
future. No one can put a price on our future health despite considering 
ourselves to be pretty healthy. We are stuck paying on a mortgage for a 
home that is worthless and we prefer not to walk away and ruin our 
credit. We are the only ones being taken advantage of by those who are 
out to make money on this horrible situation.
                                 ______
                                 
    Information contained within this report was obtained from an on-
site visit with the homeowners at their house. During this visit, 
photographs were taken and are attached as Attachment 1.
    The homeowners consist of a 67-year-old female and a 62-year-old 
male. No one else has lived with them in the home. The homeowners had 
this house built as their dream home. They added many ``top of the 
line'' extras when the house was built.
    The builder began construction of the house on February 14, 2006. 
The homeowners moved into the house on February 16, 2007. The house was 
built by Bender Construction and Development Company, Inc, 3775 7th 
Avenue N.W., Naples, FL 34120. The homeowners have lived in this house 
full time since then, except for an occasional short time vacation.
    The house is a two-story Florida house. It has 4,900 square feet 
that includes a three to four car garage area on the back of the house. 
There is a screened-in porch on the back of the house that runs the 
length of the back of the house. On the front of the house, there are 
two screened-in patios on the first floor and two screened-in porches 
on the second floor. The house has five bedrooms, four bathrooms, a 
kitchen, a dining room, a family room, a laundry room and a large 
foyer. The bedrooms and the stairs are carpeted. The family room has 
hardwood floors and the kitchen, the laundry room and the bathrooms 
have tile floors.
    The house is constructed of concrete block stucco on the first 
floor and a combination of wood frame and stucco on the second floor. 
The house has a metal roof. The homeowner related that the house has 
wood studs. All of the appliances were new Kitchen Aid appliances when 
the homeowners moved into the house. The house is equipped with all 
electric appliances. There is no natural gas or propane gas connected 
to this house. The homeowners had an osmosis water filtering system and 
a Hepa air filtering system installed when the house was built.
    The walls in the house were painted before the homeowners moved 
into their home. Since they have moved into the home, they have put up 
window treatments and pictures but have not done any other major 
changes to the house.
    The homeowner related that when the house was in the middle of 
construction, the builder told him that they were having a problem 
obtaining drywall because of a shortage of drywall at the time. The 
builder eventually found drywall for sale at a lumber store and 
purchased the drywall used in this house from this lumber store. The 
male homeowner reme mbered when the drywall was delivered to the 
property because the delivery people left the drywall outside and he 
carried the drywall inside the house so it would not get wet. At the 
time, he noticed that the drywall had ``CHINA'' printed on the back of 
the drywall. The builder hired a crew to install the drywall.
    The female homeowner began having nose bleeds occasionally after 
they moved into this house. She had never had nose bleeds before they 
lived in this house. Also, she has had allergies in the past but they 
have gotten progressively worse since they have lived in this house. 
Also, the female homeowner had been in good health prior to living in 
this house but in December of 2008, she had to go to the local 
emergency room because of high blood pressure. She was diagnosed with a 
blockage in her interior arteries and had to have two stents inserted 
in her arteries. The male homeowner was concerned that his wife's 
medical problems may have been because of the Chinese drywall that was 
installed in their home.
    The male homeowner has had respiratory congestion which has gotten 
progressively worse since living in this house. He added that when he 
and his wife are on vacation, there is a noticeable difference because 
he does not have the respiratory congestion problems and his wife's 
allergies disappear.
    The male homeowner related that he never noticed an exact time when 
these symptoms started but stated that since they have lived in this 
house, the symptoms have gotten progressively worse.
    The homeowners have five mixed breed dogs. All of their dogs are 
healthy and do not appear to have any medical problems. The male 
homeowner stated that the dogs rarely come inside the house. They stay 
in the yard or on the porches.
    The homeowners noticed a slight odor when they first moved into the 
house. They attributed the odor to a ``new house'' odor. Also, they 
have lived in Florida for many years and are used to a slight sulfur 
odor, so they were not concerned about it.
    This house has two air conditioning systems . One is a three ton 
Carrier unit that is for the upstairs part of the house and the other 
one is a two ton Carrier unit that is for the downstairs part of the 
house. In February 2008, the three-ton air conditioner stopped working. 
The air conditioning technician who came to determine the problem with 
the air conditioner said the evaporator coils had to be replaced 
because they had corroded. The homeowners had the evaporator coils 
replaced. In June 2009, the homeowners began to have problems with this 
same air conditioning unit. The technician came out again and said the 
coils had to be replaced again because they were corroded. The coils 
were replaced in July 2009 (Attachment 1, Photos 2-5).
    The smaller air conditioning unit for the downstairs is not used as 
frequently as the larger unit that is for the upstairs part of the 
house. However, the coils in the smaller air conditioning unit had to 
be replaced in March 2008 because the coils had corroded and the air 
conditioning unit would not work (Attachment 1, Photo 6). Both of the 
air conditioning units are top of the line Carrier units.
    In the summer of 2007, the new electric Kitchen Air range stopped 
working altogether. The technician who came out to repair it said that 
the computer chip in the range stopped working and had to be replaced. 
The new refrigerator that they purchased for the house when they had 
the house built also stopped working. The technician who came out to 
repair the refrigerator said that the relay inside the refrigerator 
failed and it needed a new one. The female homeowner related that the 
motherboard inside her sewing machine stopped working and she had to 
have it replaced. Also, since they have lived in this home, she has two 
IPODS stop working. She has returned them each time to the store to 
receive a new one. The homeowners' stereo equipment has a scratching 
sound on it when they try to use it. They believe the drywall is 
emitting sulfur gases that affect the electronics in their appliances 
and air conditioning units.
    The female homeowner had several antique pieces of silver that had 
been passed down to her from her grandmother. Since they have lived in 
this house, the silver has turned black. She stated she had these 
pieces for many years and they have never turned black until they moved 
into this house (Attachment 1, Photos 10-12).
    The male homeowner pointed out the copper pipes behind the washing 
machine (Attachment 1, Photo 9). These pipes are copper and have turned 
black. Also, he pointed out the copper pipe that runs outside of the 
air conditioning units. The pipe has turned completely black. The 
homeowner took several of the outlets apart and each one showed black 
corrosion on the ground wires (Attachment 1, Photos 7-8).
    The male homeowner is an experienced electrician and believes this 
is a major safety issue because of the wires within the house. He 
stated that the appliances and light fixtures and many other electrical 
units are always plugged into the outlets whether they are operating or 
not. When the wires are corroded, it may cause a fire.
    The homeowner first learned of Chinese drywall problems when his 
air conditioning unit coils had to be replaced the second time . He had 
heard of problems with outside units that could be affected by a 
sprinkler system that would be hitting the unit everyday because the 
water may have some sulfur content. But he could not understand how the 
coils in the units that are located in a closet inside their home would 
corrode because they would never have been exposed to any type of 
sulfur. The homeowner researched this problem on the computer and heard 
about the Chinese drywall problems in the news. He remembered the 
shipment of drywall that was delivered to his home site when they were 
building the house and remembered that it was from China. The homeowner 
pointed out where the drywall in the attic had printing on it that 
reads ``KNAUF CHINA TIANJAN'' (Attachment 1, Photo 13). After he 
learned about the problems with the Chinese drywall on the news, he 
realized he and his wife were having the same problems with their 
drywall which came from China.
    The homeowners contacted an attorney and registered with him to 
represent them in a class action suit for the people affected by the 
Chinese drywall. Their attorney contacted their builder, Bender 
Construction who sent out an inspector. Their inspector examined the 
entire house. He told the homeowners that he could detect a sulfur odor 
in the house. The builder's attorney contacted the supplier of the 
Chinese drywall, the lumber Company. The lumber Company also sent out 
an inspector to examine their house. He was also able to detect the 
sulfur odor in the house. He examined the entire house and saw the 
printing on the drywall in the attic. So far, the homeowners have not 
received any of the reports from the two inspectors.
    The homeowners are concerned about the effects the Chinese drywall 
is having on their health. This is their dream home and do not want to 
move out. They hope there is some remediation from either the builder 
or the supplier so they can continue to live in their home.
    The male homeowner added that his neighbors (his son-in-law and 
step-daughter) had their home built at the same time by the same 
builder. They also have the Chinese drywall in their home. Their home 
was built in 2006 and they moved into their new home in approximately 
November 2006. They have two young sons, a 9- year-old and a 5-year-
old. Both of their sons have developed nose bleeds since they have 
lived in that house. They never had any nose bleeds before living in 
the house. Also, their allergies have intensified since living there. 
The homeowner was not sure if they have had any major problems with 
their air conditioning units but did recall that they had to have their 
dishwasher repaired since they have lived in the house.
Product Identification
    The manufacturer of the drywall in the house was shown as KNAUF 
CHINA TIANJAN. According to the homeowner, the drywall was purchased 
from a store called 84 Lumber.
Photo 1--View of the homeowner's home
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Photo 2--View of the three-ton air conditioning unit that is used for 
        the upstairs of the house
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 3--View of the copper wire that runs alongside the air 
        conditioning unit that has turned black
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 4--Close up view of the copper wire that runs alongside the air 
        conditioning unit where it has turned black
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 5--Close up view of the maintenance record attached to the larger 
        air conditioning unit showing the air conditioning coils have 
        been replaced on February 27, 2008 and again on July 3, 2009
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 6--Close up view of the maintenance record attached to the 
        smaller air conditioning unit showing the coils had to be 
        replaced on March 3, 2008
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 7--View of the ground wire that corroded and turned black in one 
        of the outlets
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 8--View of another outlet where the ground wire has corroded and 
        turned black
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 9--View of copper pipes behind the washing machine in the laundry 
        that have corroded and turned black
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 10--View of some antique silver that has signs of blackening and 
        pitting marks
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 11--View of an antique gravy bowl that has signs of blackening 
        and pitting marks
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 12--View of a silver plated serving spool that has signs of 
        blackening and pitting marks
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Photo 13--View of drywall in the attic where the drywall had printing 
        that reads "KNAUF CHINA TIANJAN"
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
